Key IG Accomplishments During this Reporting Period

RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued..........................................................................................................53
Monetary Benefits
	      Recommendations Made on Funds Put to Better Use.......................$695 million
	      Achieved Monetary Benefits (Funds Put to Better Use)....................$875 million

SUMMARY OF INVESTIGATIVE ACTIVITIES1
Total Returned to the U.S. Government.......................................................$993 million
	       Civil Settlements..............................................................................$883 million
	       Civil Judgments.................................................................................$53 million
	       Administrative Recoveries2................................................................$54 million
	       Recovered Government Property.........................................................$3 million
Investigative Cases
	       Indictments..................................................................................................197	
	       Convictions..................................................................................................175	
	       Suspensions..................................................................................................55
	       Debarments...................................................................................................81

Administrative Investigations
Cases Received.......................................................................................................504
Cases Closed...........................................................................................................485       Department of Defense
	     Senior Official Investigations........................................................................239                     Inspector General
	     Reprisal Cases.............................................................................................246
                                                                                                                                   400 Army Navy Drive
SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES                                                                                       Arlington, VA 22202-4704
Existing and Proposed Regulations Reviewed..........................................................159
Evaluation Reports Issued.........................................................................................10                  www.dodig.mil
Inspector General Subpoenas Issued......................................................................224
Voluntary Disclosure Program Recoveries.......................................................$4 million
                                                                                                                               Defense Hotline 1.800.424.9098
SUMMARY OF INTELLIGENCE ACTIVITIES
Intelligence Reports Issued.......................................................................................10

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES
Assessment Reports Issued.........................................................................................5

SUMMARY OF DEFENSE HOTLINE ACTIVITIES
Contacts...............................................................................................................7,421
	     Cases Opened...........................................................................................1,153	
	     Cases Closed...............................................................................................909




1 Includes investigations conducted jointly with other law enforcement organizations.
2 Includes contract cost adjustments, military non-judicial punishments, and voluntary contractor disclosures.
	
	   Message from the Inspector General
         I am pleased to provide the Department of Defense Inspector General Semiannual Report
         to Congress for the reporting period April 1, 2009 to September 30, 2009. We have been
         aggressively working on the behalf of the warfighters and taxpayers to identify fraud, waste, and
         abuse and improve the operations and programs of the Department.
         	         During this reporting period, the DoD IG has produced 53 audits, 10 evaluations, 10
         intelligence reviews, and five assessments. In addition, the Defense Criminal Investigative Service,
         working closely with counterpart law enforcement agencies, was responsible for returning $993
         million in fines, restitutions, and recoveries to the U.S. government. Investigations resulted in
         197 indictments and 175 convictions. Our auditors identified $695 million of funds put to
         better use. Our Defense Hotline handled over 7,000 contacts.
         	         The importance of our oversight work is signified by the enormity of the Department’s
         mission, the numerous assets that DoD utilizes to accomplish its mission, the magnitude of the
         $600 billion dollar budget, and the over three million personnel who are part of the DoD family,
         many of whom serve in harm’s way each and every day.
         	         While the DoD IG is responsible for providing oversight to improve the efficiency,
         transparency, and accountability of the Department, we accomplish this mission in partnership
         with other federal and Defense agencies. This report also includes summaries of work being
         done by our counterpart Defense oversight organizations, including the Defense Contract Audit
         Agency, the Army Audit Agency, the Naval Audit Service, the Air Force Audit Agency, the Army
         Criminal Investigation Command, the Naval Criminal Investigative Service, and the Air Force
         Office of Special Investigations.
         	         The executive summary covers critical areas of oversight for the Department including
         fuel theft and corruption, financial transactions, Recovery Act initiatives, and munitions
         accountability. The featured article in this report reviews protections for whistleblowers and
         how their disclosures ultimately benefit the Department, the taxpayer, and most importantly—
         America’s warfighters.
           	       Section II of this report, Accomplishments of the DoD IG, highlights our work providing
         oversight of Overseas Contingency Operations and oversight of DoD programs. The operations
         section includes spotlights on the Afghan Security Forces, the Commander’s Emergency Response
         Program, and fraud and corruption overseas.
         	         I want to emphasize that one of our top priorities is oversight of the Department’s
         operations in Iraq and Afghanistan and its assistance programs in support of the Government
         of Pakistan. I have created a new position, the Special Deputy Inspector General for Southwest
         Asia, in order to improve communications and address mission requirements in the region. Due
         to the upcoming strategic realignment of U.S. troops in Southwest Asia, it is essential that assets
         are accounted for and that there is a process for the proper transfer, reset, or disposal of these
         assets from the military, civilians, and contractors. We are also conducting several reviews of asset
         accountability as requested by the Commander, U.S. Central Command.
         	         In closing, I want to express my appreciation for the accomplishments of all DoD IG
         employees and commend the entire Defense oversight community on their professionalism,
         dedication, and devotion to service. We want to thank the service members, who inspire our
         work, for their service and sacrifice. We look forward to the continued support of Congress
         and the Department to improve management, strengthen accountability and transparency, and
         ensure the most efficient use of taxpayer dollars.



                                                 Gordon S. Heddell
                                                 Inspector General
Department of Defense
Inspector General
Semiannual Report to the Congress
April 1, 2009 to September 30, 2009




                  Inspector General Act of 1978,
                             as amended
                   Title 5, U.S. Code, Appendix

   2. Purpose and establishment of Offices of Inspector General;
                departments and agencies involved

        In order to create independent and objective units--

      (1) to conduct and supervise audits and investigations
           relating to the programs and operations of the
               establishments listed in section 11(2);

    (2) to provide leadership and coordination and recommend
policies for activities designed (A) to promote economy, efficiency,
 and effectiveness in the administration of, and (B) to prevent and
   detect fraud and abuse in, such programs and operations; and

 (3) to provide a means for keeping the head of the establishment
  and the Congress fully and currently informed about problems
       and deficiencies relating to the administration of such
         programs and operations and the necessity for and
                   progress of corrective action;
        Table of Contents
I. DOD IG MISSION AND EXECUTIVE SUMMARY...........................................1
	      A. BACKGROUND........................................................................................2
	      B. EXECUTIVE SUMMARY.........................................................................4
	      C. FEATURED ARTICLE: WHISTLEBLOWER PROTECTION..............13
II. ACCOMPLISHMENTS OF THE DOD IG......................................................17
.	     A. TABLE OF REPORTS.............................................................................18		
	      B. OVERSIGHT OF OVERSEAS CONTINGENCY OPERATIONS.........20
             	 1. INFORMATION OPERATIONS.................................................21
		             2. FORCE PROTECTION AND SAFETY......................................22
		             3. WEAPONS ACCOUNTABILITY...............................................25
		             4. MILITARY INTELLIGENCE.....................................................26		
		             5. AFGHAN SECURITY FORCES.................................................27
		             6. COALITION SUPPORT FUNDS...............................................28
		             7. COMMANDER’S EMERGENCY RESPONSE PROGRAM....29
		             8. GLOBAL TRAIN AND EQUIP...................................................30
		             9. FRAUD AND CORRUPTION....................................................30
		             10. OTHER OVERSIGHT SUPPORT.............................................32
	      C. OVERSIGHT OF DOD PROGRAMS.....................................................37
		             1. AUDITS.......................................................................................37
		             2. INVESTIGATIONS.....................................................................44
		             3. ADMINISTRATIVE INVESTIGATIONS...................................53
		             4. POLICY AND OVERSIGHT.......................................................55
		             5. INTELLIGENCE.........................................................................58
		             6. DEFENSE HOTLINE..................................................................60
III. OTHER DOD OVERSIGHT..........................................................................61
	      A. ARMY.......................................................................................................62
		             1. ARMY AUDIT AGENCY............................................................62
		             2. ARMY CRIMINAL INVESTIGATION COMMAND................70
	      B. NAVY........................................................................................................73
		             1. NAVAL AUDIT SERVICE...........................................................73
		             2. NAVAL CRIMINAL INVESTIGATIVE SERVICE....................78
	      C. AIR FORCE..............................................................................................81		
		             1. AIR FORCE AUDIT AGENCY....................................................81
		             2. AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS..........91
IV. CONGRESSIONAL BRIEFINGS AND TESTIMONY.....................................97
V. COMPONENT OVERVIEWS.........................................................................101
VI. APPENDICES...............................................................................................109
	      A. AUDIT, INSPECTION, AND EVALUATION REPORTS....................110
	      B. AUDITS CONTAINING MONETARY BENEFITS.............................124
	      C. FOLLOW-UP ACTIVITIES...................................................................125
	      D. CONTRACT AUDIT REPORTS ISSUED............................................127
	      E. STATUS OF ACTION ON POST-AWARD CONTRACTS..................128		
	      F. STATUS OF REPORTS WITH ACTION PENDING............................129
	      G. SIGNIFICANT OPEN RECOMMENDATIONS..................................165
	      H. ACRONYMS.........................................................................................167
		
                                     DoD IG Reporting Requirements

                                  The Inspector General Act of 1978, as amended, states that each inspector general shall no later than
                                  April 30 and October 31 of each year prepare semiannual reports summarizing the activities of the
                                  office during the immediately preceding six-month periods ending March 31 and September 30.

                                  The IG Act specifies reporting requirements for semiannual reports. The requirements are listed
                                  below and indexed to the applicable pages.



 IG Act
                                                     Reporting Requirements                                                   Page
References
Section 4(a)(2)   “review existing and proposed legislation and regulations...make recommendations...”                         N/A

Section 5(a)(1)   “description of significant problems, abuses, and deficiencies...”                                           17-60

Section 5(a)(2)   “description of recommendations for corrective action...with respect to significant problems, abuses,        17-60
                  and deficiencies...”
Section 5(a)(3)   “identification of each significant recommendation described in previous semiannual reports on which        165-166
                  corrective action has not been completed...”
Section 5(a)(4)   “a summary of matters referred to prosecutive authorities and the prosecution and convictions which          17-60
                  have resulted.”
Section 5(a)(5)   “a summary of each report made to the [Secretary of Defense] under section 6(b)(2)...” instances             N/A
                  where information requested was refused or not provided”
Section 5(a)(6)   “a listing, subdivided according to subject matter, of each audit, inspection, evaluation report issued.”   110-124
                  showing dollar value of questioned costs and recommendations that funds be put to better use.
Section 5(a)(7)   “a summary of each particularly significant report...”                                                       17-60

Section 5(a)(8)  “statistical tables showing the total number of audit reports and the total dollar value of questioned        125
                 costs...”
Section 5(a)(9) “statistical tables showing the total number of audit reports and the dollar value of recommendations          125
                 that funds be put to better use by management...”
Section 5(a)(10) “a summary of each audit report issued before the commencement of the reporting period for which              125
                 no management decision has been made by the end of reporting period...”
Section 5(a)(11) “a description and explanation of the reasons for any significant revised management decision...”             N/A

Section 5(a)(12) “information concerning any significant management decision with which the Inspector General is in            N/A
                 disagreement...”
Section 5(a)(13) “information described under Section 804 [sic] of the Federal Financial Management Improvement                N/A
                 Act of 1996...” (instances and reasons when an agency has not met target dates established in a reme-
                 diation plan)
Section 5(b)(2) “statistical tables showing the total number of audit reports and the dollar value of disallowed costs...”     126

Section 5(b)(3)   “statistical tables showing the total number of audit reports and the dollar value of recommendations        126
                  that funds be put to better use by management agreed to in a management decision...”
Section 5(b)(4)   “a statement with respect to audit reports on which management decisions have been made but final           129-165
                  action has not been taken, other than audit reports on which a management decision was made within
                  the preceding year...”
Section 8(f)(1)   “information concerning the number and types of contract audits...”                                          127
DoD IG Mission &
Executive Summary
Serving the Congress and the Department
     Department of Defense Inspector General
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department of
Defense that was created by the Inspector General Act of 1978, as amended. We are dedicated to serving the warfighter
and the taxpayer by conducting audits, investigations, inspections, and assessments that result in improvements to the
Department. We provide guidance and recommendations to the Department of Defense and the Congress.

                                                  MISSION
             Promote integrity, accountability, and improvement of Department of Defense personnel,
            programs, and operations to support the Department’s mission and serve the public interest.

                                                    VISION
                            One professional team strengthening the integrity, efficiency,
                                 and effectiveness of the Department of Defense.

                                              CORE VALUES

                               Accountability • Integrity • Efficiency

           SERVING THE WARFIGHTER                                         SERVING THE TAXPAYER




              Goal 1                                  Goal 2                                    Goal 3
Improve the economy, efficiency, Eliminate fraud, waste, and abuse in Ensure the efficiency and effectiveness
and effectiveness of Department of the programs and operations of the of DoD IG products, processes, and
Defense personnel, programs, and Department of Defense.               operations.
operations.



2
                                                                                        Semiannual Report to the Congress
   Organization and Missions of the
Department of Defense Inspector General
                                                          Secretary of
                                                            Defense


                                                         Inspector General



                                                         Principal Deputy
                                                         Inspector General




                                                Administrative                                  Policy &           Special Plans &
    Auditing             Investigations                                 Intelligence
                                                Investigations                                  Oversight            Operations



                                                         AUDITING
The Office of the Deputy Inspector General for Auditing conducts audits on all facets of DoD operations. The work results in
recommendations for reducing costs, eliminating fraud, waste, and abuse of authority, improving performance, strengthening
internal controls, and achieving compliance with laws, regulations, and policy.

                                                     Investigations
The Defense Criminal Investigative Service is the criminal investigative arm of the DoD IG. At the direction of the Office of
the Deputy Inspector General for Investigations, DCIS protects America’s warfighters by conducting criminal investigations in
support of crucial national Defense priorities.

                                          Administrative Investigations
The Office of the Deputy Inspector General for Administrative Investigations investigates and provides oversight of investigations
of allegations regarding: the misconduct of senior DoD officials, both civilian and military; whistleblower reprisal against service
members, Defense contractor employees, and DoD civilian employees (appropriated and nonappropriated fund); and improper
command referrals for mental health evaluations for service members.

                                                       Intelligence
The Office of the Deputy Inspector General for Intelligence provides oversight by conducting audits, evaluations, and inspections
across the full spectrum of programs, policies, procedures and functions of the Intelligence Enterprise, Special Access Programs,
Nuclear Enterprise and related security issues within the Department of Defense.

                                               Policy and Oversight
The Office of the Deputy Inspector General for Policy and Oversight provides oversight and policy for audit, investigative, and
hotline activities in the Department; conducts inspections and evaluations of DoD programs; and provides technical advice and
support to DoD IG projects.

                                          Special Plans and Operations
The Office of Special Plans and Operations facilitates informed decision-making by senior leaders of the Department of Defense
and U.S. Congress to accomplish national security objectives and support the warfighter, with current emphasis on the war on
terrorism and Southwest Asia.
                                                                                                                                     3
April 1, 2009 to September 30, 2009
    Department of Defense
    Where We Are Today

                                                  ADDRESSING DOD CHALLENGES




     The Department of Defense Inspector General performs audits,
     investigations, inspections, and assessments to support the Department’s
     mission and goals to:
     •	 Successfully Conduct Overseas Contingency Operations
     •	 Reorient Capabilities and Forces
     •	 Reshape the DoD Enterprise
     •	 Develop a 21st Century Total Force
     •	 Achieve Unity of Effort

     Each year the DoD IG identifies the most serious management and
     performance challenges facing the Department and assesses its progress
     in addressing those challenges. The DoD IG identified the following
     challenges for fiscal year 2009:
     •	 Financial Management
     •	 Acquisition Processes and Contract Management
     •	 Joint Warfighting and Readiness
     •	 Information Assurance, Security and Privacy
     •	 Health Care
     •	 Equipping and Training Iraqi and Afghan Security Forces
     •	 Nuclear Enterprise
     •	 American Recovery and Reinvestment Act




4
                                                                                Semiannual Report to the Congress
                                                              DoD IG: Providing Oversight
                                                              & Focusing on Critical Areas
                                                             Protecting the Total Force

                                                            •	 Body armor and armored vehicles
                                                            •	 Ensuring reliable equipment and vehicles

                                                             Fuel Theft and Corruption

                                                            •	 Procurement and distribution
                                                            •	 Implementing internal controls
   Looking Forward
                                                             Financial Transactions
   The DoD IG is focusing its resources and work force
   in critical areas for the Department to improve its
   programs and operations. Independent oversight           •	 Defense Finance and Accounting Service - Rome
   of the Department is essential to ensure the public’s    •	 Commander’s Emergency Response Program
   confidence and to protect the warfighters.
                                                             Recovery Act Initiatives
   The complete IG Summary of Management and
   Performance Challenges for FY 2009 is published          •	 Ensuring responsible distribution of funds
   with the DoD Agency Financial Report and can be          •	 Recovery Act conference
   viewed at www.defenselink.mil/comptroller/afr
                                                             Training and Equipping - Afghanistan
                                                            •	 Security force development
                                                            •	 Mentoring and training teams

                                                             Accountability of Munitions
                                                            •	 Logistics supply chain
                                                            •	 Weapons Investigative Cell




                                                           To learn more about the Department of Defense
                                                           Inspector General, please visit us on the Web at
                                                           www.dodig.mil




                                                                                                               5
April 1, 2009 to September 30, 2009
      Protecting the Total Force                                     Body Armor
      The DoD IG remains committed to providing
      oversight of force protection related issues in
      Overseas Contingency Operations.
          Accordingly, the DoD IG is conducting audits
      and investigations focused on armor capabilities
      such as body armor and armored vehicles to protect
      forces while maintaining a high level of mobility and
      survivability.                                                 The DoD IG is performing a series of audits addressing
                                                                     the body armor used to equip deployed forces in Iraq and
                                                                     Afghanistan. The DoD IG is examining the contracts and
                                                                     contracting process for body armor and related test facilities,
                                                                     including evaluating the background and qualifications of
                                                                     the contractors, the criteria for awarding the contracts, the
                                                                     quality assurance process, and any relationships that may
                                                                     exist between the contractors and government officials. The
                                                                     review of the quality assurance process will include reviewing
                                                                     the results of first article testing and lot acceptance testing
                                                                     for the body armor contracts.
                                                                     	         In addition, DoD IG is determining whether DoD
                                                                     is effectively managing the operations and support phase
                                                                     of the acquisition process for body armor components.
                                                                     During the course of this audit, the DoD IG identified that
                                                                     individual body armor of airmen in Kuwait en route to Iraq
                                                                     did not meet the required level of ballistic protection for the
                                                                     U.S. Central Command theater of operations. The DoD IG
                                                                     issued a quick reaction memorandum to AFCENT, which
                                                                     took immediate action to ensure that all airmen have body
                                                                     armor that meets the required level of protection.



    Armored Vehicles
    Continuing its oversight of armored vehicles, during its audit of Marine Corps’ Management of the Recovery and Reset
    Programs, issued April 2009, the DoD IG found that the Marine Corps requested and received approximately $10 million
    in supplemental funds for replacing four light armored vehicles that were not actual combat losses. The Marine Corps took
    effective action and did not include combat attrition in its reporting of combat losses.
    	         In a second review of armored vehicles, the DoD IG is reviewing the maintenance and support of the Mine
    Resistant Ambush Protected vehicle. Specifically, the DoD IG is determining whether the MRAP vehicle program and
    contracting officials are adequately supporting MRAP vehicle maintenance requirements and appropriately awarding and
    administering maintenance contracts.
    	         The DoD IG is also reviewing the Army acquisition actions in response to the threat to light tactical wheeled vehicles.
    The DoD IG is determining whether the Army effectively managed efforts to develop, test, and acquire armor solutions for
    light tactical wheeled vehicles. These solutions are needed in response to the threat to high mobility multipurpose wheeled
    vehicle variants and use in developing the next-generation vehicle. In addition, the DoD IG is determining whether DoD
    exercised adequate operational and live-fire test oversight of the Army’s HMMWV program.




6
                                                                                                     Semiannual Report to the Congress
  Fuel Theft and Corruption
  The DoD IG has recognized fuels as an area subject to theft
  and abuse in DoD operations. Recently, some of the most
  significant fuel losses in Southwest Asia were caused by theft
  either before the tankers reached U.S. military bases or once
  on base.
  	         The DoD IG is diligently pursuing the theft of fuel
  affecting DoD operations in Southwest Asia. Through audits
  and investigations of recent fuel losses and management of
  fuels, the DoD IG identified that poor internal controls and,
  in some cases, an absence of controls, directly contributed
  to problems with fuel accountability. This was attributed
  to inadequate training or lack of management oversight by
  contractors and DoD personnel. DoD auditors have also
  reported problems with billing and collecting fuel payments
  from Coalition partners.
  	         The DoD IG is aggressively overseeing DoD controls
  over fuels in Iraq and Afghanistan. In conjunction with partner
  agencies in the National Procurement Fraud Task Force and
  International Contract Corruption Task Force, the DoD IG
  investigates those who seek to steal or collaborate in the theft
  of fuels. The investigations and subsequent prosecutions help
  ensure the fuel is not diverted to support the insurgencies in
  Iraq and Afghanistan.
  	         DoD IG reports identified that fuel availability and
  distribution within the Afghan National Police was proving
  to be a systemic problem due primarily to corruption.
  Corruption, combined with hoarding fuel, has repeatedly
  created a bottleneck in the ability to distribute fuel from the
  provincial to the district police headquarters directly affecting
  security in the region.

  Fuel Distribution in Southwest Asia
  The DoD IG is also auditing Class III fuel procurement and distribution in Southwest Asia to determine whether fuel used
  for ground operations in Southwest Asia to support Operations Iraqi Freedom and Enduring Freedom is procured and
  distributed efficiently and effectively. The primary objectives are to determine whether fuel is procured at fair and reasonable
  prices, distributed economically and efficiently to operational commands, and supply points maintain accurate inventories.
  The DoD IG is examining many of these same issues in a review of the Defense Energy Support Center’s award of a series of
  contracts to the International Oil Trading Company for the delivery of fuel through Jordan to U.S. troops in Iraq.
  	         The DoD IG, in partnership with the National Procurement Fraud Task Force, identified fuel theft in Iraq and
  Afghanistan, which resulted in six convictions and identified over $40 million in stolen fuel. One DoD IG investigation
  determined that three DoD contractors in Afghanistan accepted bribes from truck drivers in return for falsified documents
  confirming delivery of fuel. Forty-eight truckloads of fuel, valued at over $800,000, were sold to parties outside the airfield.
  The first contractor to be sentenced was incarcerated for 84 months.
  	         The DoD IG wanted to include U.S. military personnel and contractors in the solution. The DoD IG developed a
  series of fraud indicators specific to fuel theft in Southwest Asia and began briefing incoming personnel on these indicators
  and the associated reporting requirements in an effort to highlight the problem and hold guilty parties accountable.



                                                                                                                                     7
April 1, 2009 to September 30, 2009
    Financial Transactions
    The DoD IG is actively and aggressively combating illegal and improper expenditures and improving accountability of
    DoD resources that support operations in Southwest Asia and surrounding areas. Adequate management controls of
    financial transactions and oversight to verify that proper safeguards are in place and working as intended are essential in
    the fight against corruption, fraud, waste, and abuse. Conditions where internal controls are severely lacking or proper
    oversight is minimal create opportunities for corruption, fraud, waste, and abuse. As part of its overall oversight on financial
    transactions, the DoD IG is focused on analyzing the financial data already collected and stored at DFAS-Rome as well as
    the Commander’s Emergency Response Program.


    Defense Finance and Accounting Service-Rome, N.Y.
    The DoD IG continues its proactive interagency project to        More than 200 of those names have been associated with
    analyze more than $14 billion in payment vouchers related        a report that will be further scrutinized to determine if a
    to U.S. Army purchases in Iraq and Afghanistan. The DoD          full investigation of theft from the U.S. government is
    IG uses data mining and predictive analysis to identify          warranted. Additionally, another 13,000 names have been
    potential fraud and corruption and support ongoing               culled from DFAS’ stored data and are in the process of being
    investigations and oversight related to the war effort in Iraq   compared to financial activity reports for theft indicators.
    and Afghanistan.                                                 It is anticipated that well over 20,000 names will be
        In the past six months, approximately 1,000 vouchers         compared to the financial activity reports via this initiative.
    representing more than $90 million in payments were              The DoD IG is also expanding its financial analysis efforts
    provided to DCIS and its partners to support seven               and knowledge to perform additional financial related
    investigations. Since the DFAS - Rome data mining                reviews in Afghanistan, including the Commander’s
    program began, auditors and investigators have compared          Emergency Response Program.
    more than 3,000 names to financial activity reports.

    Commander’s Emergency Response Program
    The DoD IG remains committed to ensuring adequate                 procurements. The DoD IG also found that some projects
    oversight of the expenditure of CERP funds. The CERP              did not fully achieve the intent of CERP, there was a lack of
    program enables local commanders in Iraq and Afghanistan          appropriate physical security for storing cash, and some pay
    to respond to urgent humanitarian relief and reconstruction       agents inappropriately disbursed cash. These weaknesses also
    requirements in their areas of responsibility by carrying         led to inconsistent program implementation, unnecessary
    out programs that will immediately assist the indigenous          requirements, and insufficient documentation.
    population.                                                       	        The DoD IG launched “PROJECT: CERP”
    	        DoD IG audits and investigations have revealed           to detect, analyze, and investigate fraud and corruption
    occasions where soldiers with limited contracting experience      involving CERP funds. The DoD IG initiates separate
    were responsible for administering CERP funds. In some            investigations as potential criminal activities are discovered.
    instances, there appeared to be scant, if any, oversight of       In conjunction with the project, DCIS special agents and
    the manner in which funds were expended. Complicating             partner law enforcement agencies have begun providing fraud
    matters further is that in some Southwest Asian nations           awareness briefings to incoming and newly assigned military
    paying bribes and gratuities to government officials is a         project purchasing officers and pay agents responsible for
    common business practice. Taken in combination, these             administering CERP funds.
    factors led the DoD IG to collectively scrutinize CERP
    expenditures.
    	        In 2006 and 2007, DoD IG began to identify
    weaknesses and unnecessary risks in DoD’s implementation
    of CERP in Afghanistan. At that time, the established
    controls for CERP were not effective in many cases. One
    joint Army CID/DCIS investigation revealed U.S. citizens
    bribed U.S. Army contracting officers responsible for CERP


8
                                                                                                     Semiannual Report to the Congress
 Recovery Act
  In passing the American Recovery and Reinvestment
  Act of 2009 (Public Law 111-5), Congress provided
  supplemental appropriations to preserve and create jobs;
  promote economic recovery; assist those most affected by
  the recession; provide investments to increase economic
  efficiency through technological advances in science
  and health; and invest in transportation, environmental
  protection, and other infrastructure. Under the Recovery
  Act, Congress appropriated to DoD a total of $7.4 billion
  for Energy Conservation Investment, Facilities Sustainment,
  Restoration, and Modernization, Homeowners Assistance
  Program, Military Construction, and Near Term Energy-
  Efficient Technologies. The U.S. Army Corps of Engineers
                                                                  	         The DoD IG has noted that execution of the
  received a $4.6 billion appropriation for its civil works
                                                                  Recovery Act is not moving as quickly as the Department
  program, including $2 billion for construction and $2.075
                                                                  had planned, and much of the spending and actual work
  billion for operations and maintenance.
                                                                  on the projects will not occur until FY 2010. This delay will
  	        DoD IG is executing a joint oversight approach with
                                                                  impact the Recovery Act goals of commencing expenditures
  the service audit agencies to ensure maximum and efficient
                                                                  and activities as quickly as possible consistent with prudent
  coverage of Recovery Act plans and implementation. The
                                                                  management and could place added pressure on the
  service audit agencies are focusing on determining whether
                                                                  Department’s contracting professionals to award contracts
  their service is implementing the Act in accordance with the
                                                                  in an expedited manner, thus potentially impacting the
  requirements of the Act, OMB guidance and subsequent
                                                                  Recovery Act and Department’s goal to competitively
  related guidance. Consistent with the audit approach
                                                                  award a large portion of the contracts.
  used by the DoD IG, the service auditors will focus on
                                                                  	         In August 2009, the DoD IG hosted a two-
  the planning, funding, project execution, and tracking and
                                                                  day Recovery Act Conference in Arlington, Virginia.
  reporting of Recovery Act projects.
                                                                  Representatives from the Recovery Accountability and
  	        The DoD IG reviewed the DoD Agency plan and
                                                                  Transparency Board, the U.S. Department of Justice
  four of the five program specific plans (as of September
                                                                  Antitrust Division, the Naval Facility Engineering
  2009, DoD had not issued the Homeowners Assistance
                                                                  Command Office of Inspector General, the U.S. Army
  Program plan) and determined that they met the 12
                                                                  Legal Services Procurement Fraud Branch, and DoD
  minimum OMB requirements. USACE released its final
                                                                  IG components made presentations. The conference
  Agency plan and nine program specific plans for review
                                                                  provided the attendees with an overview of DoD IG’s
  in September 2009; the DoD IG will issue the results of
                                                                  role in providing oversight on the expenditures of DoD
  its review in the first quarter of FY 2010. The DoD IG
                                                                  Recovery Act funds, kicked off the DoD IG Recovery Act
  is planning to evaluate DoD’s implementation of plans
                                                                  Training and Outreach Initiative, and offered the attendees
  for the Recovery Act of 2009. The audits will cover the
                                                                  an opportunity to network and exchange ideas for joint
  planning, funding, project execution, and tracking and
                                                                  investigative efforts as they relate to the Recovery Act.
  reporting of Recovery Act projects to ensure that the efforts
                                                                  	         The DoD IG Recovery Act Training and Outreach
  of the military services and defense agencies facilitate
                                                                  Initiative goals are to educate federal, state, and local
  accountability and transparency. A predictive analytics
                                                                  employees and contractors about the Recovery Act and the
  modeling approach was used to select DoD projects
                                                                  role of the Department in supporting the goals of the Act.
  during the initial oversight activity. Factors, such as type
                                                                  This initiative also emphasizes the prevention and reporting
  of project, place of performance, dollar value, and number
                                                                  of fraud, waste, abuse, and corruption on Recovery Act-
  of projects in a district or location, were identified that
                                                                  funded contracts and grants. Individuals are encouraged to
  may be correlated with different levels of risk. Using the
                                                                  promptly report wasteful spending and criminal activities
  factor weights, projects were ranked as to the likelihood of
                                                                  involving the use of Department and, more specifically,
  improper performance.
                                                                  Recovery Act funds.



                                                                                                                                  9
April 1, 2009 to September 30, 2009
 Training and Equipping the Afghan
 National Security Forces
  Critical to achieving U.S. national security objectives in
  Southwest Asia is “developing increasingly self-reliant Afghan
  security forces that can lead the counterinsurgency and
  counterterrorism fight with reduced U.S. assistance.” To achieve
  this objective, Congress has provided approximately $19 billion
  to the Afghanistan Security Forces Fund to fund the “train and
  equip” mission performed by U.S. forces in Afghanistan.
  	         To that end, the responsible military authority, the
  Combined Security Transition Command–Afghanistan,
  has made notable progress in the development of the
  Afghan National Security Forces’ doctrine, training, leader
  development, material/logistics, and international cooperation
  with organizations contributing to ANSF capacity building.
  	         CSTC-A and the Afghan National Army have
  surpassed their goal of fielding 84,000 soldiers by the end of
  FY 2009, and the ANA is on-track for expanding to 134,000
  by December 2011. The ANA now participates in almost all
  combat operations, takes the lead in more than 50 percent of
  them and has established a reputation with their U.S., Coalition
  and ISAF counterparts as ready and capable fighters.
  	         As of May 2009, the Afghan National Police had
  approximately 81,000 personnel assigned to meet a recently-
  increased authorized size of 96,800 personnel. Pay and rank
  reform initiatives were largely completed in 2008 and 52
  selected districts are gaining or have gained more advanced
  capability via the Focused District Development program.
  Finally, an Integrated Civil-Military Assistance Group has been
  established to coordinate U.S. interagency actions in support of
  ANA and ANP development.
 	         However, much work remains. CSTC-A, Coalition, and ISAF mentoring and training teams have historically
 been under-resourced against required personnel levels. In March 2009, only 40 percent of the 2,375 authorized billets
 for the police mentoring teams were filled. This has delayed the development of the ANA and ANP. The DoD approved
 deployment of a second brigade combat team to support the ANSF train and equip mission, which, when deployed, will
 increase the fill rate of current training/mentoring personnel requirements to excess of 90 percent. Moreover, expanding the
 ANA and ANP beyond the current approved ceilings will require additional U.S., Coalition, and ISAF personnel resources
 to be assigned in support of the train and equip mission.
 	         The ANSF logistics sustainment capability significantly lags its operational capacity. U.S., Coalition, and ISAF
 trainers and mentors; staff members in the Afghan Ministries of Defense and Interior; as well as ANSF commanders in
 the field, uniformly described fundamental shortcomings with the ANSF logistics system. Several factors have contributed
 to this situation, including the previous priority given to combat force generation, lack of equipment, difficult geography
 and terrain, problems with facility construction and equipment availability, the lingering effects of Soviet-imposed military
 logistics doctrine, and Afghan cultural mores. While these and other areas require continued careful attention and much
 work remains, CSTC-A, and its mentoring and training teams merit recognition for the significant progress they have made
 conducting an extremely complex and difficult mission.




10
                                                                                                Semiannual Report to the Congress
  Accountability of Munitions
  The mission of the munitions logistics supply chain is to          weapons to the Afghan National Army. Further, CSTC-A
  provide an effective end-to-end system that delivers materiel      records did not list all weapons by serial number, and
  to the warfighter while maintaining the security and safety        accountability systems used at Depot 1 had significant data
  of the materiel and the public. Inherent in this mission is        integrity problems. In response to the audit, CSTC-A has
  the requirement to implement procedures and mechanisms             implemented corrective actions to address the problems.
  throughout the supply chain that ensure accountability and         	        In January 2009, the Commander, U.S. Central
  control of munitions while enabling mission execution.             Command communicated his concern regarding weapons
  	         To ensure proper oversight of this complex system,       accountability in Afghanistan, and requested a DoD IG
  the DoD IG has conducted a series of audits, assessments,          assessment. The DoD IG deployed a team to Afghanistan
  and investigations regarding the accountability and control        in March 2009 to assess the munitions supply chain from
  of U.S. weapons and ammunitions provided to Iraqi and              port of entry, through transportation, storage, distribution
  Afghan security forces.                                            and formal turnover to the Afghan National Security Forces,
  	         In Iraq, the DoD IG has been a leader in the             to issuing weapons to individual Afghan military and police
  interagency Weapons Investigative Cell, established in 2007,       personnel.
  to explore potential criminal violations related to weapons        	        The team found that since June 2008, CSTC-A
  accountability and control. The WIC is currently working           had made significant progress toward improving internal
  with Iraqi government officials and places special emphasis        munitions accountability and control due to excellent
  upon allegations involving diversion of weapons to insurgent       leadership supported by the impressive commitment of its
  groups and weapons transported outside of Iraq. The WIC            training and mentoring teams. The ANSF, comprised of the
  identified numerous criminal allegations deemed worthy of          army and police, had also developed more effective systems
  investigation.                                                     for munitions accountability and control due to clear and
  	         Additionally, the DoD IG is a lead agency in the Iraqi   forceful weapons oversight guidance issued by the Ministers
  Firearms Interdiction and Recovery Effort, an interagency          of Defense and Interior and reinforced by the vigorous
  initiative designed to proactively deter the illegal diversion     support of CSTC-A, Coalition and ISAF training and
  of firearms, including DoD weapons, to the U.S. and other          mentoring personnel.
  countries. I-FIRE attempts to identify potential methods           	        However, CSTC-A and the ANSF still each need
  and routes used to illegally export and smuggle weapons            to make additional munitions oversight progress. The
  out of Iraq as trophies or for profit. The multi-stage project     Afghan Police significantly lag the Army in establishing a
  is designed to reduce arms smuggling through education,            comprehensive oversight system, including developing a
  interdiction, investigation and prosecution.                       “culture of accountability.” Recent oversight improvements
  	         In Afghanistan, the DoD IG conducted a physical          achieved must be reinforced and institutionalized through
  count of 11,134 weapons at Depot 1, the national weapons           continuous U.S., Coalition, and ISAF training and
  storage depot for the Afghan National Army, to determine           mentoring, and Afghan government leadership. Finally,
  whether CSTC-A could correctly account for weapons                 without sufficient and appropriately trained U.S. and
  purchased with the Afghanistan Security Forces Fund.               international police mentors, the rate of development of
  During the audit, it became evident that CSTC-A did not            Ministry of Interior and Police oversight capability will be
  have standard operating procedures for receipt, storage and        impeded.
  issue of munitions or a formal process in place to transfer




                                                                                                                                11
April 1, 2009 to September 30, 2009
 Summary of Performance                                              DoD IG Profile
 During this reporting period, the DoD IG continued
 directing its resources towards those areas of greatest risk
 within the Department and addressed a variety of issues             Staffing and Budget
 by conducting audits of programs, investigating criminal            As of September 30, 2009, our workforce totaled
 activity, and assessing key operations. Audits focused on           1,570 employees. The fiscal year 2009 budget was
 management challenges related to the following programs:            $271.8 million.
 •	 Overseas Contingency Operations
 •	 Acquisition management                                           Office Locations
 •	 Contract administration and oversight
                                                                     The DoD IG is headquartered in Arlington, Va.
 •	 Financial stewardship
 •	 Information security and information technology                  Field audit and investigation offices are located
 •	 Health care for the service members and their families           across the United States including California,
 •	 Force protection                                                 Missouri, Georgia, Texas, Ohio, Pennsylvania, and
 •	 Implementation of the American Recovery and                      Florida. In addition, the DoD IG has offices across
      Reinvestment Act                                               the world including Germany, Korea, Afghanistan,
 Investigations focused resources on the following areas of          Iraq, Qatar, and Kuwait.
 criminal activity:
 •	 Corruption and fraud                                             About Our People
 •	 Defective, substituted, and substandard products                 The DoD IG is a knowledge driven organization,
 •	 Cybercrime and computer intrusion                                and its employees are experts in fields such as
 •	 Illegal transfer of technology, systems, and equipment
                                                                     auditing, criminal investigations, computer
 •	 Homeland security/terrorism
                                                                     security, intelligence, hotline complaints, military
 In addition, the DoD IG assessed key operations in a
 variety of areas by conducting inspections, assessments, and        reprisals and many others.
 intelligence reviews. The DoD IG investigated senior officials
 and reprisal complaints; conducted policy and peer reviews;
 and managed programs, such as contractor disclosure and
 the Defense Hotline.

 Results Attained
 AUDIT
 Reports Issued					                                  53
 Potential funds put to better use			                 $695 million
 Achieved monetary benefits			                        $875 million

 	
 INVESTIGATIONS				
 Indictments					                                     197
 Convictions					                                     175
 Suspensions					                                     55
 Debarments					                                      81
 TOTAL RECOVERIES				                                 $993 million


12
                                                                                               Semiannual Report to the Congress
Feature Article



The DoD Whistleblower Program
The DoD IG is committed to ensuring that
whistleblower protection programs succeed in training
DoD personnel regarding whistleblower rights
In 2009, the Inspector General tar-      of laws aimed at protecting military    	        In 1987, a congressional com-
geted the Whistleblower Protec-          members, appropriated and non-          mittee held hearings on whistleblower
tion Program as a top priority for       appropriated fund employees, and        protections for military service mem-
the DoD IG. For over 20 years, the       Defense contractor employees from       bers. Responding to the testimony
DoD IG has investigated allegations      reprisal for engaging in whistleblow-   from, and press reports about, ser-
of whistleblower reprisal involving      ing activities.                         vice members who claimed they were
the Department’s military members,       	        In December 1982 the Sec-      punished for reporting wrongdoing
civilian employees, and Defense con-     retary of Defense first mandated “no    to members of Congress and Inspec-
tractor employees. During this time,     adverse action is taken against any     tors General, Congress passed the
through informational articles, post-    employee because the employee re-       “Military Whistleblower Protection
ers, and briefings, the DoD IG has       ports” questionable activities within   Act” (Title 10, United States Code,
significantly increased the public’s     the intelligence community. A year      Section 1034). The most recent ver-
awareness of whistleblower programs      later, Congress passed a law prohib-    sion of the Military Whistleblower
and provided information to Mem-         iting reprisals against non-appropri-   Protection Act and its implementing
bers of Congress regarding legislation   ated fund employees for blowing the     directive provide that service mem-
to strengthen whistleblower protec-      whistle on wrongdoing at military       bers may not be restricted from com-
tions. The DoD IG is committed to        base facilities.                        municating with an IG or Member
the objective and timely resolution of   	        In 1986, the first statute     of Congress. It prohibits taking or
each reprisal complaint.                 aimed at Defense contractor em-         threatening unfavorable personnel
                                         ployee whistleblower protection was     actions—such as downgraded per-
Evolution of the                         enacted. At this time, members of       formance evaluations, reassignments,
DoD Whistleblower                        the Congressional Military Reform       and disciplinary actions—or with-
                                         Caucus also became concerned about      holding or threatening to withhold
Program
                                         military service members who chose      favorable personnel actions, as reprisal
The origin of DoD’s whistleblower
                                         to “blow the whistle” on DoD waste,     against those who report or prepare to
program can be traced back to the
                                         fraud, and abuse. One specific story    report violations of law or regulation,
military procurement scandals of
                                         involved an Air Force colonel work-     gross mismanagement, gross waste of
the 1980s when stories concerning
                                         ing on the development of the Bradley   funds, safety violations, discrimina-
overpriced spare parts and underper-
                                         Infantry Fighting Vehicle. He openly    tion, or abuse of authority, to Mem-
forming weapon systems dominated
                                         challenged whether the operational      bers of Congress, inspectors general,
the headlines. Members of Congress
                                         testing of the vehicle was realistic    investigators, and certain individuals
concerned about those issues cham-
                                         enough. This angered Army officials     in their chains of command.
pioned the cause of service members
                                         to the extent that they threatened      	        In the early 1990s, Congress
who alleged they were reprised against
                                         him with an unfavorable reassign-       enhanced protections for military
for exposing such procurement-relat-
                                         ment in reprisal. His reassignment      members after learning about reports
ed wrongdoing. Over the years, and
                                         was cancelled after congressional in-   that service members who “blew the
continuing to the present, Congress
                                         tervention.                             whistle” were being sent for invol-
has enacted, and amended, a series

                                                                                                                      13
April 1, 2009 to September 30, 2009
untary mental health evaluations in      ing inquiries and investigations into     cant staffing increase in MRI. The
reprisal. Congress added that a refer-   whistleblower reprisal allegations.       professional staff of 26 investigators
ral for an involuntary mental health                                               resolves whistleblower reprisal allega-
evaluation was an unfavorable per-       DoD Whistleblower                         tions, conducts outreach and training
sonnel action under Title 10 U.S.C.      Program Today                             for service IG counterparts, and es-
1034 and required the Department         The DoD IG has always encouraged          tablishes and revises policy to ensure
to implement strict regulations gov-     whistleblowing and upheld the pro-        DoD’s implementation of whistle-
erning the referral process to ensure    tections afforded to those who choose     blower statutes fully satisfies congres-
service members’ due process.            to report fraud, waste, and abuse.        sional intent and affords whistleblow-
	        In 1996, the National Securi-   Within the DoD IG, the Deputy In-         ers every consideration and right to
ty Agency proactively issued the first   spector General for Administrative        which they are entitled.
whistleblower protection directive       Investigations is assigned the mis-       	        Complaints of whistleblower
authored by a Defense intelligence       sion of ensuring that allegations of      reprisal may be filed with DoD IG or
agency. The same year, the U.S. Of-      whistleblower reprisal are resolved in    a service IG. MRI predominantly re-
fice of Special Counsel suggested that   an objective and timely manner. The       ceives allegations of reprisal through
executive branch agencies establish      Military Reprisal Investigations direc-   the Defense Hotline and Members of
an ombuds system to assist appropri-     torate has the statutory responsibility   Congress. However in some instanc-
ated fund whistleblowers within the      to investigate allegations of whistle-    es, service IGs refer allegations to
federal government.                      blower reprisal filed by military         MRI if the service member is serving
	        Over the years, amendments      members, DoD non-appropriated             in a joint assignment or other special
to the statutes have broadened their     fund employees, and DoD contrac-          circumstances exist. MRI conducts
application and expanded the protec-     tor employees. The Civilian Reprisal      a preliminary analysis of each case
tions for whistleblowers. Although the   Investigations directorate, working in    to determine whether investigation
categories of DoD employees covered      coordination with U.S. Office of Spe-     is warranted. If warranted, MRI has
by these laws vary, there is a com-      cial Counsel, reviews and investigates    the discretion to either conduct the
mon thread running through each of       allegations of reprisal filed by DoD      investigation or forward it to the ser-
these statutes—Congress entrusted        appropriated fund civilian employees.     vice IG for investigation. Examples of
the DoD IG with the responsibil-                                                   substantiated allegations investigated
ity for either conducting or oversee-                                              by MRI include:
                                         Military Reprisal
                                                                                   •	 A Defense contractor employee
                                          Investigations                               working as the family advocacy
                                          Shortly after the Military Whistle-          program manager received a five-
                                          blower Protection Act was enacted,           day suspension without pay and
                                          DoD IG implemented a program to              an unfavorable employee perfor-
                                          thoroughly and independently in-             mance review in reprisal for her
                                          vestigate allegations of whistleblow-        disclosures to an IG regarding a
                                          er reprisal. The number of whistle-          violation of the contract’s provi-
                                          blower cases has grown steadily over         sions by company and govern-
                                          the years, from 150 in 1994 to over          ment employees. As a result of
                                          550 in 2009. Of complaints that              the substantiated findings, the
                                          proceed to full investigation, the           Office of the Secretary of the
                                          historic substantiation rate has been        Army directed that the complain-
                                          nearly 25 percent.                           ant be awarded $25,000 and re-
                                          	      In 2009, the Inspector Gen-           ceive preferential consideration in
                                          eral reemphasized his commitment             competing for a current position
                                          and focus on DoD whistleblower               opening.
                                          protections authorizing a signifi-


14
                                                                                           Semiannual Report to the Congress
•	 A Navy lieutenant received two          •	 An Army investigation deter-           IG Symposium, the Army Medical
     unfavorable fitness reports be-           mined that two officers reprised      Command IG Conference, and the
     cause he complained to an IG              against an Army National Guard        National Guard’s Central, Western,
     that his commander violated               first lieutenant by not recom-        and Southeastern Regional IG Con-
     Navy physical fitness assessment          mending him for an award for his      ferences. Additionally, MRI investi-
     requirements, and pressured the           service in Iraq and issuing him a     gators and team leaders have daily in-
     command fitness leader to ac-             relief for cause officer evaluation   teraction with military counterparts
     cept for the record results of his        report for his communications to      seeking assistance with reprisal inves-
     personally administered test. The         Members of Congress. The two          tigative and policy issues.
     commander received a letter of            officers received letters of repri-   	        During the last year, the De-
     counseling and a letter of instruc-       mand.                                 partment of Justice IG conducted a
     tion on the provisions of Title 10    •	 An Air Force colonel reprised          peer review of MRI processes and
     U.S.C. 1034.                              against a major by removing her       effectiveness. While the DoJ report
Although the service IGs may also              from her position as the medical      findings were generally positive about
independently receive and investigate          group complaints officer for al-      MRI’s implementation of the mili-
reprisal allegations, Title 10 U.S.C.          legedly leaking information to an     tary whistleblower program, the re-
1034 charges the DoD IG with a                 IG. The colonel also “restricted”     port included 12 recommendations
critical oversight role—to approve             the members of his command            for organizational, staffing, and pro-
any decision made by a service IG              from making protected com-            cess improvement. MRI implement-
that investigation of military whistle-        munications by issuing an order       ed several of the recommendations
blower reprisal is not warranted and           that no one was to go outside the     immediately and is actively pursuing
to approve the results of all military         chain of command with any com-        implementation of the remainder.
whistleblower reprisal investigations          plaint. The colonel received a let-
conducted by service IGs. This re-             ter of reprimand and was directed     Civilian Reprisal
quires extensive collaboration with            to post a notice in the medical       Investigations
the service IG counterparts to ensure          clinic that members of his com-       In January 2004, the DoD IG estab-
each allegation of whistleblower re-           mand could communicate with           lished CRI to address whistleblowing
prisal receives a thorough and inde-           IGs without fear of reprisal from     by civilian appropriated fund em-
pendent review. Examples of allega-            him or members of his staff.          ployees within the Department. Two
tions service IGs substantiated and        MRI continually strives to strengthen     DoD employee groups were of partic-
MRI approved include:                      guidance and provide support to our       ular concern: employees working in
•	 An Air Force lieutenant colo-           service IG counterparts. For the past     areas giving them access to potential
     nel and a chief master sergeant       several years, MRI has expanded its       procurement fraud information and
     downgraded a technical sergeant’s     outreach programs for training mili-      employees working for the Defense
     enlisted performance report and       tary and civilian employees working       intelligence agencies and the military
     denied him an end of tour award       in IG offices throughout the Depart-      departments’ intelligence offices.
     in reprisal for his communication     ment. In addition to training work-       	        The first office to establish an
     to the group commander about          shops at the DoD IG headquarters,         ombuds program to assist appropri-
     an improper relationship in the       MRI conducts outreach nation-             ated fund civilians with whistleblow-
     unit. As a result of the substan-     wide. Recent training efforts have        ing issues was the Inspector Gen-
     tiated findings, the lieutenant       been attended by over 450 IG staff        eral of the Department of Interior in
     colonel and chief master sergeant     and investigators and include: the        2002. That office limited its focus to
     received letters of counseling and    Joint and Combatant Command IG            outreach, rather than investigations.
     the lieutenant colonel was de-        Course, workshops and briefings at        CRI uses a similar model, but added
     nied a decoration upon his retire-    the Air Force World Wide IG Con-          an investigations component to the
     ment.                                 ference, the Air Combat Command           concept of promoting whistleblow-


                                                                                                                           15
April 1, 2009 to September 30, 2009
ing issues. In 2007, the Internal Rev-    tions at a U.S. military base guarding   ing for a remedy to those who have
enue Service created an ombudsman         chemical weapons, a traffic manage-      been reprised against. The DoD IG
office. The Departments of Educa-         ment official who received a suspen-     will continue to strengthen and in-
tion and Homeland Security are cur-       sion after reporting alleged procure-    vigorate these programs in the fu-
rently considering establishing offices   ment fraud relating to transportation    ture. Timeliness of investigations is a
to conduct outreach and investigate       contracts in Europe, and a civilian      continuing challenge because of the
allegations of whistleblower reprisal     employee who was terminated after        complexity of reprisal situations, but
against appropriated fund civilian        reporting alleged fraud and gross mis-   the DoD IG is determined to become
employees.                                management related to the fielding of    the benchmark for timely, high qual-
	        To date, CRI has opened 17       biometric technologies in Iraq and       ity investigations while fostering an
investigations, in addition to actively   Afghanistan.                             environment within the DoD where
conducting outreach and training to       	        Consistent with these ef-       employees are encouraged to come
advance whistleblower protection for      forts, CRI has organized and admin-      forward to “blow the whistle” on
civilian appropriated fund employ-        istered the Inspector General’s Sec-     fraud, waste, and abuse.
ees. One significant investigation        tion 2302(c) Certification through       	        To realize this vision, the IG is
analyzed whether agency officials         the U.S. Office of Special Counsel.      continually reassessing its programs,
took action to suspend access by the      From 2003 through 2011, the Of-          evaluating the need for legislative
whistleblower to classified informa-      fice of the Inspector General has been   changes, and expanding the aware-
tion and revoke their security clear-     continuously certified as compliant      ness of the protections available to
ance after the individual communi-        with those provisions of Title 5 that    whistleblowers in all categories. Some
cated with Members of Congress and        require an agency head to advise em-     of the more significant issues for the
the 9/11 Commission staff. Another        ployees of their whistleblowing rights   future include: protections for Title
investigation involved examining the      and responsibilities.                    32 Military Technician employees,
security clearance decision-making                                                 expanding the U.S. Office of Special
process to determine whether reli-        Future of the                            Counsel Section 2302(c) Certifica-
gious discrimination affected the ad-     Program                                  tion effort throughout the Depart-
judication of a whistleblower’s securi-                                            ment, and improving the protections
ty clearance. CRI also supported one                                               for appropriated fund employees
of the two Intelligence Community                                                  within the intelligence community.
Whistleblower Protection Act inves-                                                	        DoD IG recognizes the ser-
tigations opened between 1992 and                                                  vice and importance of whistleblowers
2009. During these investigations,                                                 and how their disclosures ultimately
CRI developed the first protocol for                                               benefit the Department, the taxpayer,
reviewing the integrity of the security                                            and most importantly—America’s
clearance decision-making process                                                  warfighters, and will continue to pro-
based on Title 5, United States Code,                                              mote the protections afforded whis-
which provides statutory whistle-         The DoD IG is committed to en-           tleblowers within the Department.
blower proections administered by         suring that whistleblower protec-        Only through effective enforcement
the U.S. Office of Special Counsel.       tion programs succeed in training        and robust education can DoD IG
	        Examples of CRI’s substan-       DoD personnel regarding whistle-         create an environment where DoD
tiated reprisal allegations include: a    blower rights, offering a deterrent to   employees feel comfortable com-
law enforcement officer who received      those who would reprise by ensuring      ing forward to raise concerns about
a lowered performance evaluation          prompt and thorough investigation        waste, fraud, and abuse without the
after reporting alleged safety viola-     into alleged violations, and provid-     fear of reprisal.




16
                                                                                           Semiannual Report to the Congress
Accomplishments
of the DoD IG
                                                                                   Accomplishments of the DoD IG


About the DoD IG Semiannual Report
The Inspector General Act of 1978, as amended, states that Inspectors General will conduct and supervise audits
and investigations relative to the operations and programs of the establishment. Accordingly, the significant
accomplishments of the DoD IG are listed in this Semiannual Report under “Oversight of Overseas Contingency
Operations” and “Oversight of DoD Programs.” This report presents oversight of DoD operations by topics related to
the current conflicts in Iraq, Afghanistan, and Pakistan. This report presents oversight of DoD programs by focus areas
for audits, investigations, administrative investigations, policy, and intelligence.
	       The following reports were completed during the reporting period. The full reports can be viewed on the Web
at www.dodig.mil. Instructions are provided to file a Freedom of Information Act request, if necessary.


 Audit Reports Issued                                                               Audit Reports Issued
 1.	    D-2009-120 Agreed-Upon Procedures for Reviewing the FY 2009                 27.	 D-2009-094 Defense Industrial Financial Management System Controls
        Civilian Payroll Withholding Data and Enrollment Information                     and Compliance
 2.	    D-2009-119 Defense Civilian Pay System Controls Placed in Operation         28.	 D-2009-093 Ship Utilization in Support of the Global War on Terror
        and Tests of Operating Effectiveness for the Period From October 1, 2008    29.	 D-2009-092 Validity of DoD Civilian Employee Accounts
        Through June 30, 2009                                                       30.	 D-2009-091 Information Operations Contracts in Iraq
 3.	    D-2009-118 Internal Controls Over Naval Special Warfare Command             31.	 D-2009-090 Information Operations Career Force Management
        Comptroller Operations in Support of Contingency Operations                 32.	 D-2009-089 Internal Controls Over Government Property in the
 4.	    D-2009-117 Controls Over Air Combat Command and Pacific Air Forces               Possession of Contractors at Two Army Locations
        Unliquidated Obligations from Department of the Air Force Contracts         33.	 D-2009-088 Long-Term Travel Related to the Defense Comptrollership
        Supporting Contingency Operations                                                Program
 5.	    D-2009-116 Financial Management of International Military Education         34.	 D-2009-087 Controls Over Contract Obligation Data in the Logistics
        and Training Funds                                                               Modernization Program
 6.	    D-2009-115 Summary of Information Operations Contracts in Iraq              35.	 D-2009-086 Controls Over the Contractor Common Access Card Life
 7.	    D-2009-114 Transition Planning for the Logistics Civil Augmentation              Cycle in the Republic of Korea
        Program IV Contract                                                         36.	 D-2009-085 Contracting for Nontactical Vehicles in Support of
 8.	    D-2009-113 Medical Equipment Used to Support Operations in                       Operation Enduring Freedom
        Southwest Asia                                                              37.	 D-2009-084 Controls Over Army Working Capital Fund Real Property
 9.	    D-2009-112 Deferred Maintenance on the Air Force C-130 Aircraft                  Assets
 10.	   D-2009-111 Controls Over Information Contained in BlackBerry                38.	 D-2009-083 Logistics Support Contracting for the United States Special
        Devices Used Within DoD                                                          Operations Command
 11.	   D-2009-110 Summary of Information Assurance Weaknesses Identified in        39.	 D-2009-082 SeaPort Enhanced Program
        Audit Reports Issued From August 1, 2008 Through July 31, 2009              40.	 D-2009-081 General and Application Controls of the Vulnerability
 12.	   D-2009-109 Contracts Supporting the DoD Counter Narcoterrorism                   Management System
        Technology Program Office                                                   41.	 D-2009-080 Endorsement of the Management Letter on Internal
 13.	   D-2009-108 U.S. Air Forces Central War Reserve Materiel Contract                 Controls over Financial Reporting
 14.	   D-2009-107 DoD Enterprise Staffing Solution                                 42.	 D-2009-079 Controls Over the Department of the Navy Military Payroll
 15.	   D-2009-106 General and Application Controls for the Distribution                 Disbursed in Support of the Global War on Terror
        Standard System                                                             43.	 D-2009-078 Health Care Provided by Military Treatment Facilities to
 16.	   D-2009-105 The U.S. Army Corps of Engineers Temporary Roofing and                Contractors in Southwest Asia
        Temporary Power Response to the 2008 Hurricane Season                       44.	 D-2009-077 Endorsement of the Acuity Consulting’s Management Letter
 17.	   D-2009-104 Sanitization and Disposal of Excess Information                       for the FY 2008 Military Retirement Fund Financial Statements
 18.	   D-2009-103 The U.S. Army Corps of Engineers Ice and Water Response          45.	 D-2009-076 Afghanistan Security Forces Fund Phase III-U.S. Army
        to the 2008 Hurricane Season                                                     Corps of Engineers Real Property Accountability
 19.	   D-2009-102 Price Reasonableness Determinations for Contracts Awarded        46.	 D-2009-075 Afghanistan Security Forces Fund Phase III-Accountability
        by the U.S. Special Operations Command                                           for Weapons Distributed to the Afghanistan National Army
 20.	   D-2009-101 Information Assurance and Data Reliability of the                47.	 D-2009-074 Review of Defense Contract Management Agency Support
        Automated Disbursing System                                                      of the C-130J Aircraft Program
 21.	   D-2009-100 Afghanistan Security Forces Fund Phase III - Accountability      48.	 D-2009-073 DoD Components’ Use of Global War on Terror
        for Equipment Purchased for the Afghanistan National Police                      Supplemental Funding Provided for Procurement and Research,
 22.	   D-2009-099 Afghanistan Security Forces Fund Phase III - Accountability           Development, Test, and Evaluation
        for Equipment Purchased for the Afghanistan National Army                   49.	 D-2009-072 Monitoring PowerTrack Payments for DoD Freight
 23.	   D-2009-098 Status of the Defense Emergency Response Fund in Support              Transportation
        of the Global War on Terror                                                 50.	 D-2009-071 Summary of DoD Office of Inspector General Audits of
 24.	   D-2009-097 Data Migration Strategy and Information Assurance for the             Acquisition and Contract Administration
        Business Enterprise Information Services                                    51.	 D-2009-070 Government Purchase Card Controls at United States
 25.	   D-2009-096 Contracts for the U.S. Army’s Heavy-Lift VI Program in                Special Operations Command
        Kuwait                                                                      52.	 D-2009-067 Controls Over Air Force Materiel Command Unliquidated
 26.	   D-2009-095 Contracting for Transportation Services for U.S. Army                 Obligations on Department of the Air Force Contracts Supporting the
        Corps of Engineers, Gulf Region Division                                         Global War on Terror
                                                                                    53.	 D-2009-066 Marine Corps’ Management of the Recovery and Reset
                                                                                         Programs

18
                                                                                                                       Semiannual Report to the Congress
Oversight of DoD Operations and Programs




 Other Reports Issued

 54.	 09-INTEL-15 Summary Report of FY 2008 Inspections on Security,
      Technology Protection and Counterintelligence Practices at DoD
      Research, Development, Test and Evaluation Facilities
 55.	 09-INTEL-14 Inspection of a USD(I) Program
 56.	 09-INTEL-13 Investigation of Allegations of the Use of Mind-Altering
      Substances to Facilitate Interrogations of Detainees
 57.	 09-INTEL-12 B61 Nuclear Weapon Use-Control
 58.	 09-INTEL-11 Status of Recommendations to Improve the Air Force
      Nuclear Enterprise
 59.	 09-INTEL-10 DoD Intelligence Agencies’ FY 2009 Report on the
      Security Status of the Federal Information Security Management Act
 60.	 09-INTEL-09 Audit of Issues Related to the Modifications of the Joint
      Air-to-Surface Standoff Missile
 61.	 09-INTEL-08 Report on Review of the President’s Surveillance Program
 62.	 09-INTEL-07 Information Technology Portfolio for DoD Intelligence
      Databases
 63.	 09-INTEL-06 Evaluation of DoD Polygraph Support to U.S. Special
      Operations Command
 64.	 SPO-2009-007 Report on the Assessment of U.S. and Coalition Plans to
      Train, Equip, and Field the Afghan National Security Forces
 65.	 SPO-2008-001 Assessment of the Accountability of Arms and
      Ammunition Provided to the Security Forces of Iraq1
 66.	 SPO-2009-006 Assessment of the Accountability and Control of
      Arms, Ammunition, and Explosives Provided to the Security Forces of
      Afghanistan
 67.	 SPO-2009-005 Assessment of Electrical Safety in Afghanistan
 68.	 SPO-2009-004 Assessment of DoD-Managed Programs in Support of the
      Government of Pakistan
 69.	 IE-2009-007 Interagency Evaluation of Section 1206 Global Train and
      Equip Program
 70.	 IE-2009-006 Review of Electrocution Deaths in Iraq: Part I
 71.	 IE-2009-005 Evaluation of the DoD Voting Assistance Program
 72.	 IPO-2009-E001 Review of Electrocution Deaths in Iraq: Part II
 73.	 D-2009-6-009 Defense Contract Audit Agency Audit Work Deficiencies
      and Abusive Work Environment Identified by the Government
      Accountability Office
 74.	 D-2009-6-008 Report on Hotline Complaint Regarding the Action by a
      Contracting Officer at the Defense Contract Management Agency, East
      Hartford Office
 75.	 D-2009-6-007 Report on Quality Control Review of Deloitte & Touche,
      LLP FY 2007 Single Audit of Battelle Memorial Institue and Subsidiaries
 76.	 D-2009-6-005 Report on Review of the Department of Military and
      Veterans Affairs Single Audit for the Audit Period
 77.	 D-2009-6-006 Quality Control Review of the Ernst & Young FY 2007
      Single Audit of the University of Dayton
 78.	 D-2009-6-004 Defense Contract Management Agency Actions on Audits
      of Cost Accounting Standards and Internal Control Systems on DoD
      Contractors Involved in Iraq Reconstruction Activities


 1 Redacted version issued September 28, 2009



                                                                                19
April 1, 2009 to September 30, 2009
                                                               Accomplishments of the DoD IG


Oversight of Overseas
Contingency Operations
The DoD IG continues to provide oversight of Overseas Contingency Operations in Iraq,
Afghanistan, Pakistan, and around the globe. The DoD IG has focused in the following areas
affecting the Department: Oversight of Operations; Information Operations; Force Protection
and Safety; Weapons Accountability; Military Intelligence; Development of Afghan Security
Forces; Coalition Support Funds; Commander’s Emergency Response Program; Global Train
and Equip; Fraud and Corruption; and Other Support to Overseas Contingency Operations. 	
	       In addition, the DoD IG is reviewing asset accountability in Southwest Asia as
requested by the Commander, USCENTCOM. With the shifting footprint of U.S. forces in
Southwest Asia, it is essential that assets are accounted for and that there is a process for the
proper transfer, reset, or disposal of these assets from the military, civilians, and contractors.

Iraq, Afghanistan, and Pakistan
The Department has been engaged in military operations in Southwest Asia for nine years,
which has put incredible stress on its personnel and equipment. In Iraq, the United States is
making preparations for the responsible drawdown of combat
forces in coordination with the Government of Iraq, while laying
the groundwork for deploying “advise and assist” brigades that
will conduct a mission to mentor and train the Iraq Security
Forces until December 31, 2011. In Afghanistan, the United
States and its partners are confronting a renewed insurgent
threat with additional combat forces, while conducting a high-
level strategy review. In Pakistan, the United States focuses
on building the capability of the Pakistani security forces to
interdict Taliban insurgent forces along its western frontier and
to disrupt terrorist networks to degrade any ability they have to
plan and launch international terrorist attacks.

Iraq
The United States seeks to assist in establishing an Iraq that is sovereign, stable and self-reliant;
an Iraqi government that is just, representative, and accountable; neither a safe haven for, nor
sponsor of, terrorism; integrated into the global economy; and a long-term partner contributing
to regional peace and security. The Department is executing the responsible drawdown of U.S.
forces in Iraq and the change in mission by August 31, 2010. The DoD IG is actively providing
oversight of operations in Iraq and has field office locations at the International Zone, Victory
Base Camp, and Joint Base Balad, Iraq. DoD IG oversight efforts in Iraq include:
•	 Conducting three audits on Information Operations in Iraq at the request of the Commander,
    U.S. Central Command.
•	 Partnering with the Bureau of Alcohol, Tobacco, Firearms, and Explosives as part of the
    Iraq Weapons Investigative Cell team.
•	 A review of 18 incidents where U.S. military or contractor personnel were accidentally
    electrocuted.


20
                                                                                             Semiannual Report to the Congress
Oversight of Overseas Contingency Operations


Afghanistan
The United States seeks to ensure that Afghanistan is never again a safe haven for terrorists. Achieving this strategic
goal requires a comprehensive plan that coordinates the security, governance, and development efforts of the United
States and the international community. The DoD IG is providing oversight of operations in Afghanistan and has field
office locations in Camp Eggers in Kabul, Kandahar Airfield, and Bagram Airfield, Afghanistan. DoD IG oversight
efforts in Afghanistan include:
•	 A series of reports on the Department’s use of the Afghanistan Security Forces Funds identifying deficiencies with
     the transfer of real property to the Afghan National Army.
•	 Actively investigating fraud, theft, and corruption in Afghanistan.
•	 Assessment reports issued regarding the accountability and control of sensitive defense technology supplied by the
     United States to the Afghan National Security Forces.
•	 A report evaluating whether DoD, Coalition, International Security Assistance Force, and Afghan Ministry of
     Defense and Ministry of Interior plans to train, equip, field, and mentor the ANSF were effective.

Pakistan
Pakistan is a key to successfully waging the war against terrorism and is one of the largest recipients of U.S. military
and economic support. Success in Afghanistan is partially dependent on Pakistan’s ability to deny safe havens for
terrorists. The Federally Administered Tribal Areas along the Afghanistan/Pakistan border are a known sanctuary
for terrorist and extremists, as well as launching pad for attacks on U.S., Coalition and ISAF forces in Afghanistan.
Pakistan also provides critical supply and logistics support for Operation Enduring Freedom in Afghanistan. DoD IG
oversight efforts in Pakistan include:
•	 A strategic assessment of DoD-funded and managed bilateral assistance programs in Pakistan, including the
    Coalition Support Funds and the Section 1206-like Train and Equip program for the Frontier Corps.

Information Operations
The DoD IG, at the request of the Commander, U.S. Central Command, conducted two projects and is conducting
a third project on Information Operations in Iraq. The DoD IG reported that the Joint Contracting Command-Iraq/
Afghanistan awarded contracts valued at $300 million to four contractors in accordance with the Federal Acquisition
Regulation. However, JCC-I/A combined psychological operations and public affairs requirements in one contract.
Although the DoD IG did not obtain any evidence that psychological operations were intended for a U.S. audience,
the contract language did not clearly differentiate between psychological operations and public affairs, as required
by doctrine, creating the appearance that psychological
operations were associated with a U.S. audience. (Report No.
D-2009-091)
	        As requested by the Commander, U.S. Central
Command, the DoD IG identified the universe of information
operation contracts in Iraq from FY 2006 through FY 2008.
U.S. Central Command used 172 contract vehicles for
information operation in Iraq totaling $270.1 million during
FY 2006 through FY 2008. (Report No. D-2009-115)
	        The third project is evaluating information operations
activities in support of Operation Iraqi Freedom. Specifically,
the review is determining the process for establishing
psychological operations requirements, and identifying the
resources applied against those requirements.



                                                                                                                     21
April 1, 2009 to September 30, 2009
                                                              Accomplishments of the DoD IG



Force Protection and Safety
The DoD IG remains committed to providing oversight of force protection and safety-related issues in Overseas
Contingency Operations. Accordingly, the DoD IG is examining existing armoring capabilities and those being
developed to protect forces deployed in Iraq and Afghanistan, as well as the electrical safety of deployed personnel.
Other ongoing force protection oversight efforts include reviews of Marine Corps fulfillment of urgent universal
need statements for laser dazzlers; DoD Countermine and Improvised Explosive Device Defeat Systems contracts;
Counter Radio-Controlled Improvised Explosive Device Electronic Warfare Program contracts; and using system
threat assessments in the acquisition of tactical wheeled vehicles.

Force Protection
Force Protection remains critical to the success of U.S. operations in the Overseas Contingency Operations. The
Department is focusing on providing an array of body armor, protection equipment, and armored vehicles to protect
forces while maintaining a high level of mobility and survivability. The DoD IG is continuing its oversight on armoring
capabilities for DoD forces by conducting audits and investigations focused on armor capabilities such as body armor
and armored vehicles to protect forces.

DoD Body Armor Contracts
The DoD IG is performing this project by congressional request. The objective is to examine the contracts and
contracting process for body armor and related test facilities. Specific objectives include evaluating the background
and qualifications of the contractors, the criteria for awarding the contracts, the quality assurance process, and any
relationships that may exist between the contractors and government officials. The review of the quality assurance process
will include reviewing the results of first article testing and lot acceptance testing for the body armor contracts.

                                                        Body Armor Acquisition Life Cycle
                                                        The objective is to determine whether DoD effectively managed
                                                        the operations and support phase of the acquisition process for
                                                        body armor components. In April 2009, the DoD IG issued a
                                                        quick action memo based on issues identified during site visits in
                                                        Southwest Asia. DoD IG identified that some service members
                                                        were issued body armor that did not meet the approved level of
                                                        protection and immediate action was required The command
                                                        took immediate action to address the identified issue.

                                                    Maintenance and Support of the Mine
                                                    Resistant Ambush Protected Vehicle
                                                    The objective is to determine whether mine resistant ambush
protected vehicle program and contracting officials are adequately supporting resistant ambush protected vehicle
maintenance requirements and appropriately awarding and administering maintenance contracts.

Army Acquisition Actions in Response to the Threat to Light Tactical
Wheeled Vehicles
The objective is to determine whether the Army effectively managed efforts to develop, test, and acquire armor solutions
for light tactical wheeled vehicles. These solutions are needed in response to the threat to high mobility multipurpose
wheeled vehicle variants and use in developing the next-generation vehicle for the Global War on Terror. In addition,
the DoD IG will determine whether DoD exercised adequate operational test and live fire test oversight of the Army’s
high mobility multipurpose wheeled vehicle program.

22
                                                                                          Semiannual Report to the Congress
Oversight of Overseas Contingency Operations



Safety: Protecting the Total Force
The men and women engaged in Operation Iraqi Freedom and Operation Enduring Freedom, whether service
members, federal employees, or contractor personnel, deserve an environment that is free from preventable dangers.
Injuries and deaths related to accidents have a high impact on the DoD in terms of readiness, morale, costs, and
lost productivity. Accidents are one of the leading causes of casualties in Iraq and Afghanistan. The DoD IG and its
components are focused on investigations related to accidental electrocutions, electrical safety and fire services.

Electrical Safety
In response to concerns regarding electrocution deaths of several service members, the DoD IG completed three
reviews in July 2009 of electrical safety issues in Iraq and Afghanistan. The DoD IG is performing an additional review
of electrical safety in Afghanistan.

Electrocution Accidents in Southwest Asia
In the first review of electrocutions in Iraq, the DoD IG reviewed the death investigations the Army CID and NCIS
conducted and found the reports to be thorough, timely, and legally sufficient. The DoD IG did not identify a uniform
cause for the electrocution deaths in Iraq from 2003 through 2008, but instead found a number of different causes.
After reviewing the investigations, it was apparent that Iraq’s electrical infrastructure is dangerous due to neglect,
failure to upgrade electrical systems that were not properly grounded, and the use of old and substandard electrical
equipment. (Report No. IPO-2009-E001)


  Afghanistan
  A DoD IG assessment team inspects electrical safety.




	        In a second review of electrical safety in Iraq, the
DoD IG found that multiple systems and organizations
failed, leaving U.S. service members exposed to
unacceptable risk of injury or death. Specifically,
commanders and other key decision makers were not
informed, as part of the facility maintenance process,
of facility deficiencies that could affect life, health, and
safety, or of their repair. Service members who received electrical shocks or were aware of electrical shocks did not
always report the incidents. In addition, the contractor providing maintenance and installation did not have personnel
with adequate electrical experience or training and did not ground equipment during installation or report improperly
grounded equipment identified during routine maintenance. As a result, at least one U.S. soldier was electrocuted.
(Report No. IE-2009-006)
	        In Afghanistan, the DoD IG found that although actions were taken to improve electrical safety, additional
effort was required. Specifically, the DoD IG found potentially dangerous situations that required immediate attention
at Camp Brown and Forward Operating Base Spin Boldak and found that service members were not sufficiently
educated regarding electrical safety, incident reporting, and personal responsibility. In addition, DoD IG found there
was a need for a full-time cadre of individuals dedicated to promoting electrical safety throughout Afghanistan, a
complete inventory of U.S. controlled facilities in Afghanistan, a comprehensive inspection plan and for additional


                                                                                                                    23
April 1, 2009 to September 30, 2009
                                                             Accomplishments of the DoD IG


contracting officer’s representatives and other oversight personnel to oversee the electrical work being performed in
Afghanistan. USCENTCOM and U.S. Forces Afghanistan are taking action to address the issues DoD IG identified.
(Report No. SPO-2009-005)

Maintenance of Electrical Wiring in Buildings at Kandahar, Afghanistan
As a result of the completed work in Iraq and Afghanistan and DoD IG’s ongoing investigations of electrical issues
in Afghanistan, the DoD IG is planning to review the electrical wiring in buildings at Kandahar. The DoD IG is
determining whether the contractor properly maintains electrical wiring in buildings at Kandahar Airfield in accordance
with provisions of the Logistics Civil Augmentation Program contract.

Fire Services and Working Conditions

Fire Suppression Systems-Afghanistan
The DoD IG identified that the water pumps supporting the fire suppression system were not operating within
specifications as part of its review of the construction of the Kabul Compound s. As a result, U.S. forces occupying
the facility did not have adequate fire suppression safeguards and did not have established fire watches in lieu of an
operational fire suppression system. Thus, U.S. forces were exposed to risk of injury or death. The DoD IG issued a
quick reaction memorandum in September 2009 to the Commanding General, United States Forces – Afghanistan,
to address this critical safety issue.


  Afghanistan
  DoD IG auditors inspect the new Kabul Compound.




Fire Services Inspection and Training
Contract-Iraq
The DoD IG is reviewing the Multi-National Force-Iraq/
Multi-National Corps-Iraq Fire Services Inspection and
Training Program to assess whether MNF-I is meeting
requirements for fire services inspection and training
through the use of contracted services. The DoD IG is
reviewing fire inspection reports to determine whether fire inspection personnel are properly performing fire safety
reviews and whether contracted personnel assigned as expeditionary fire fighters possess the proper level of training to
meet contract, DoD, and Army requirements.

Unsafe Working Conditions at Construction Sites
The DoD IG, during its audit of U.S. Army Corps of Engineers real property accountability in Afghanistan, discovered
unsafe working conditions. The DoD IG found that the USACE, Afghanistan Engineering District did not ensure
that required quality control procedures were in place on four contracts valued at $52.6 million. This resulted in faulty
construction, unsafe working conditions, and the construction contractor’s failure to meet the contract requirements.
In response to the DoD IG report of the weaknesses, the CSTC-A and USACE finalized and signed the ANA Program
Management Plan. In addition, AED has taken corrective actions to assist non-U.S. contractors in their performance
of their responsibilities, including increased training, mentoring, and site support. (Report No. D-2009-076)

24
                                                                                          Semiannual Report to the Congress
Oversight of Overseas Contingency Operations



Weapons Accountability
The mission of the munitions logistics supply chain is to provide an effective end-to-end system that delivers materiel
to the warfighter while maintaining the security and safety of the materiel and the public. Inherent in this mission is
the requirement to implement procedures and mechanisms throughout the supply chain that ensure accountability
and control of munitions while enabling mission execution.
	       To ensure proper oversight of this complex system, the DoD IG has conducted a series of audits, assessments
and investigations evaluating the accountability and control of U.S. weapons and ammunitions provided to the Iraqi
and Afghan security forces.


  Iraq and Afghanistan
  A DoD IG assessment team inspects weapons provided to the
  Iraqi and Afghan security forces.




	        The DoD IG is a leader in the interagency Weapons
Investigative Cell, established in 2007 to explore potential
criminal violations related to weapons accountability in Iraq.
The WIC is currently working with Government of Iraq officials
and places special emphasis upon allegations involving diversion
of weapons to insurgent groups and weapons transported outside of Iraq. Diligence exhibited by WIC members has
resulted in identifying numerous criminal allegations deemed worthy of investigation. This project is ongoing.
	        Additionally, the DoD IG is a lead agency in the Iraqi Firearms Interdiction and Recovery Effort, an interagency
initiative designed to proactively deter the illegal diversion of firearms, including DoD weapons, to the U.S. and other
countries. The project attempts to identify potential methods and routes used to illegally export and smuggle weapons
out of Iraq as trophies or for profit. I-FIRE is a multi-stage project designed to reduce arms smuggling through
education, interdiction, investigation, and prosecution.
	        Furthermore, the DoD IG has embedded a senior-level liaison with the Multi-National Security
Transition Command-Iraq to help build the institutional oversight capability of the Iraqi Ministries of Interior
and Defense Inspectors General. The liaison is also providing support to a number of organizations, including
U.S. Mission-Baghdad’s Interagency Anti-Corruption Program. In direct support of increasing weapons
accountability in Iraq, the liaison has assisted the Iraqi Inspectors General in developing an assessment plan
to conduct their own bottom-up review of Iraqi army and police weapons accountability and control processes.

Afghanistan Security Forces Fund Phase III – Accountability for Weapons
Distributed to the Afghanistan National Army
The DoD IG conducted a physical count of 11,134 weapons at Depot 1, the national weapons storage depot for
the Afghan National Army, to determine whether the Combined Security Transition Command–Afghanistan could
correctly account for weapons purchased with the Afghanistan Security Forces Fund. CSTC-A did not have standard
operating procedures for receipt, storage and issue of munitions or a formal process in place to transfer weapons to the
Afghan National Army. Further, CSTC-A records did not list all weapons by serial number, and accountability systems
used at Depot 1 had significant data integrity problems.
	       In addition, ammunition supply points in Gardez, Herat and Mazar-e Sharif built with Afghanistan Security
Forces Funds lacked the physical security needed to secure ANA weapons and ammunition in accordance with DoD
guidance. In response to the audit, CSTC-A has implemented corrective actions to address the problems. (Report No.
D-2009-075)
                                                                                                                      25
April 1, 2009 to September 30, 2009
                                                             Accomplishments of the DoD IG


Assessment of the Accountability and Control of Arms, Ammunition, and
Explosives Provided to the Security Forces of Afghanistan
In January 2009, the Commander, U.S. Central Command, communicated his concern to the Inspector General
regarding weapons accountability in Afghanistan and requested a DoD IG assessment. The DoD IG deployed a
team to Afghanistan in March 2009 to assess the current U.S. and Afghan systems for munitions accountability
and control to determine if they are adequate. The team evaluated the munitions supply chain from port of entry,
through transportation, storage, distribution and formal turnover to the Afghan National Security Forces, to issuance
to individual Afghan military and police personnel.


     Afghanistan
     A DoD IG assessment team inspects mobile arms room
     containers used to transport and store U.S.-provided
     weapons.



	        The team found that since June 2008, CSTC-A
has made significant progress toward improving internal
munitions accountability and control due to excellent
leadership supported by the impressive commitment of
its training and mentoring teams. The ANSF, comprised
of the army and police, had also developed more effective
systems for munitions accountability and control, due to clear and forceful weapons oversight guidance issued by
the Ministers of Defense and Interior, reinforced by the vigorous support of CSTC-A and Coalition training and
mentoring personnel.
	        However, CSTC-A and the ANSF each still need to make additional munitions oversight progress. The Afghan
Police significantly lag behind the Army in establishing a comprehensive oversight system, including developing a
“culture of accountability.” Recent oversight improvements achieved must be reinforced and institutionalized through
continuous U.S., Coalition, and ISAF training and mentoring and through Afghan government leadership. Finally,
without sufficient and appropriately trained U.S. and international police mentors, the rate of development of Ministry
of Interior and Police oversight capability will be impeded. (Report No. SPO-2009-006)

Military Intelligence
Continuous enhancements of U.S. intelligence capabilities as well as improvements of traditional and non-traditional
intelligence operations are essential to military Overseas Contingency Operations. Intelligence, counterintelligence,
surveillance, and reconnaissance activities remain critical to the effectiveness of OCO. Adversaries continue to develop
resources to counter defense capabilities and erode United States access to vital intelligence. The DoD IG examines
intelligence missions and resources of the warfighter, management controls of sensitive projects, and nuclear enterprise
oversight.

Investigation of Allegations of the Use of Mind-Altering Drugs to Facilitate
Interrogations of Detainees
The objective of this investigation was to determine the facts surrounding reports that detainees and prisoners captured
in Southwest Asia may have been administered mind-altering drugs to facilitate interrogations while in DoD custody.
The allegations were not substantiated. The DoD IG conducted the investigation in response to a request from members
of the United States Senate. (Report No. 09-INTEL-13)

26
                                                                                         Semiannual Report to the Congress
Oversight of Overseas Contingency Operations


Development of Afghan Security Forces
Critical to achieving U.S. national security objectives in Southwest Asia is developing increasingly self-reliant Afghan
National Security Forces that can lead the counterinsurgency and counterterrorism fight with reduced U.S. assistance.
To achieve this objective, Congress has provided approximately $19 billion to the Afghanistan Security Forces Fund
to fund the “train and equip” mission performed by U.S. forces in Afghanistan. In support of this critical mission, the
DoD IG conducted the following assessment:

Assessment of U.S. and Coalition Plans to Train, Equip, and Field the Afghan
National Security Forces
In March 2009, a DoD IG assessment team evaluated whether DoD, Coalition, International Security Assistance
Force, and Afghan Ministry of Defense and Ministry of Interior plans to train, equip, field, and mentor the ANSF
were effective.


  Afghanistan
  Female Afghan National Police officers undergoing weapons
  training at a Regional Training Center.




	        During the assessment, the team identified notable
progress that had been made in the areas of ANSF doctrine,
training, leader development, material/logistics, and international
cooperation. The Afghan National Army is leading approximately
54 percent of current combat operations. The Focused District
Development police training program is maturing. Training schools for ANA non-commissioned officers have been
established. Finally, an Integrated Civil-Military Assistance Group has been established to coordinate U.S. interagency
actions in support of ANA and Afghan National Police development.
	        As of May 2009, ANA end strength was approximately 86,000 with approved plans to expand to 134,000 by
the end of calendar year 2011. In May 2009, ANP end strength was approximately 81,000 with approved plans to
increase its strength to 96,800.
	        While these and other focus areas require continued careful attention in the future and much work remains
to be done, the Combined Security Transition Command–Afghanistan, its Embedded Training Teams, and its Police
Mentoring Teams merit recognition for their significant progress made to date while conducting an extremely complex
and difficult mission.
	        Development of the logistics sustainment capability of the ANSF significantly lags behind its operational
capacity. U.S., International Security Assistance Force, and Coalition trainers and mentors, staff members in the MoD
and MoI, as well as ANSF commanders in the field, uniformly described fundamental shortcomings with the ANSF
logistics system. Several factors have contributed to this situation, including the previous priority given to combat
force generation, difficult geography and terrain, problems with facility construction and lack of equipment, the
lingering effects of Soviet-imposed military logistics doctrine, and Afghan cultural tendencies. Consequently, much
work remains to be accomplished to build an appropriate, sustainable ANSF logistics capacity, upon which the ability
of the Afghan security forces to eventually operate independently relies. CSTC-A will require the necessary support to
provide the logistics-related training, equipping, and mentoring required by the ANSF.
	        The professional coordination and cooperation between the ANP and the criminal justice system at the district
level in Afghanistan was tenuous at best. This presented a serious impediment to establishing a local environment

                                                                                                                     27
April 1, 2009 to September 30, 2009
                                                             Accomplishments of the DoD IG


characterized by effective civil policing, and, therefore, to achieving the establishment of security and order necessary
for the protection of the population in support of counterinsurgency objectives.
	        The ANSF train and equip mission is complex, broad-based, and especially difficult. It is challenging at both
the field and CSTC-A headquarters levels. In the case of the latter, almost all of the officers and NCOs assigned are
“dual-hatted,” e.g., they have two primary missions. While serving as full-time CSTC-A staff members planning and
directing the train and equip assistance mission for the ANSF, they also have responsibilities as mentors to senior
Afghan officials in the MoD, General staff, and MoI. CSTC-A staff personnel reported that they lack sufficient time to
perform both missions. Even if assigned personnel reach full-authorization, CSTC-A headquarters would not appear
to have the personnel capability it requires to carry out all of its missions.
	        CSTC-A’s Embedded Training and Police Mentoring Teams, and the international Operational Mentor
and Liaison Teams, have historically been under-resourced against required personnel levels, which has delayed the
development of the ANA and ANP. There has been about a 51 percent overall fill rate against the combined ANA
and ANP mentor requirement. U.S. forces have recently committed significant additional manpower to support the
ANSF train and equip mission. In the fall of 2009, an additional brigade will deploy dedicated to the mentoring
and training mission, doubling the size of that force capability. However, mentor and trainer personnel challenges
will likely still remain. Moreover, expanding the ANA and ANP beyond the current approved personnel ceilings will
require additional U.S., Coalition, and ISAF personnel resources assigned in support of the train and equip mission.
Expansion of the ANSF beyond currently approved levels will face major challenges because of issues associated
with:
•	 Insufficient ANSF leadership capability (specifically junior officers/non-commissioned officers)
•	 Shortages of certain lines of essential unit equipment (howitzers, mortars, communications, and engineer)
•	 Insufficient training facility capacity
•	 Limited capacity to construct ANSF permanent bases/facilities “down-range”
•	 Limited ANSF logistics capability lagging operational requirements
•	 Time necessary to develop ethical, competent leaders
Overcoming these challenges will require additional resources from the United States, ISAF, and the greater international
community with respect to financing, personnel, equipment, and facilities. (Report No. SPO-2009-007)

Coalition Support Funds
Coalition Support Funds enable the Department’s continuing effort to work with or through Coalition partners,
thereby reducing the burden on the U.S. Armed Forces. The participation and commitment of U.S. allies is a critical
element of Overseas Contingency Operations, helping to reduce stress on U.S. troops and increasing the military
capacity devoted to counterterrorism.
	       The foundation of U.S. military support to Pakistan has been the Coalition Support Fund program, which is
congressionally-authorized money designed to reimburse allies for incremental costs associated with supporting U.S.
combat operations. At the time of our assessment, the U.S. had transferred approximately $6.5 billion to Pakistan
under the Coalition Support Fund program.

Assessment of DoD-Managed Programs in Support of Pakistan
The DoD IG conducted a strategic assessment of DoD funded and managed bilateral assistance programs in Pakistan,
including the Coalition Support Funds, Section 1206 Global Train and Equip, and the Section 1206-like Train and
Equip program for the Frontier Corps. The team also reviewed the organizational capabilities and structure of the
Office of Defense Representative-Pakistan, which is the umbrella organization within the Embassy for most DoD
elements in Pakistan. The DoD IG team plans to return to Pakistan the first half of FY 2010 to follow up on the
assessment. (Report No. SPO-2009-004)


28
                                                                                          Semiannual Report to the Congress
Oversight of Overseas Contingency Operations



Commander’s Emergency Response Program
The Commander’s Emergency Response Program enables local
commanders in Iraq and Afghanistan to respond to urgent
humanitarian relief and reconstruction requirements in their areas of
responsibility by carrying out programs that will immediately assist
the indigenous population. “Urgent” is defined as “any chronic or
acute inadequacy of an essential good or service that, in the judgment
of a local commander, calls for immediate action.” CERP is intended
to be used for small-scale projects that, optimally, can be sustained by
the local population or government. CERP funds are appropriated
through the DoD and allocated through each major command’s
sector of operations. Up to $500,000 can be allocated to individual
projects, and beneficiaries often receive payments in cash.
	        DoD IG audits and investigations have revealed control weaknesses in the program to include occasions whereby
soldiers with limited contracting experience were responsible for administering CERP funds. In some instances, there
appeared to be scant, if any, oversight of the manner in which funds were expended. Complicating matters is that
payment of bribes and gratuities to government officials is a common business practice in some Southwest Asia
nations. Taken in combination, these factors led IG components to collectively scrutinize CERP expenditures.
	        The DoD IG conducted a review involving DoD’s implementation of the CERP in Afghanistan. The audit
reported that the Commander, Combined Forces Command Afghanistan established controls over the CERP program;
however, controls were not effective in all cases. The audit concluded that some of the projects reviewed did not fully
achieve the intent of the CERP. Additionally, the audit revealed that 15 pay agents did not have appropriate physical
security for storing cash. Another pay agent did not hold cash because the pay agent was collocated with a finance office.
Of the 16 pay agents, two inappropriately disbursed cash. DoD IG also identified weaknesses in administrative processes,
which led to inconsistent program implementation, unnecessary requirements, and insufficient documentation. The
DoD IG recommended that the Commanding General, Third Army, U.S. Army Central develop and implement
procedures so that projects meet the intent of the CERP to comply with DoD Financial Management Regulation
guidance; safeguard public funds; and develop and implement a standardized quality assurance and quality control
program for all subordinates units and organizations administering CERP projects.
	        Subsequent to release of the audit report, the Defense Criminal Investigative Service launched an investigative
project designed to proactively scrutinize CERP expenditures in an attempt to identify potential criminal abuses.
PROJECT: CERP was initiated to detect, analyze, and investigate fraud and corruption involving use CERP funds.
Separate investigations are initiated as criminal activities are discovered. In conjunction with the project, DCIS special
agents and partner law enforcement agencies have begun providing fraud awareness briefings to incoming and newly
assigned military project purchasing officers and pay agents responsible for administering CERP funds.
	        As a result of investigative and audit findings, the DoD IG recommended military components enhance
the extent to which they train personnel regarding CERP disbursements. Even a small amount of contract training
provided through command channels and some basic ground-level oversight that does not impinge on the CERP’s
objective would lower the risk in this susceptible area. Enhanced training would be particularly effective considering
that CERP funds are often controlled by lower grade non-commissioned officers who are dealing with large amounts
of money, in cash, probably for the first time in their lives.
	        The DoD IG, in coordination with the Army Audit Agency and the Special Inspector General for Afghanistan
Reconstruction, is preparing upcoming reviews of the use of CERP funds in Afghanistan. The Investigations component
continues to work diligently on PROJECT: CERP.




                                                                                                                       29
April 1, 2009 to September 30, 2009
                                                             Accomplishments of the DoD IG



Global Train and Equip
Section 1206 of the FY 2006 National Defense Authorization Act provides the Secretary of Defense the authority
to train and equip foreign military forces to perform counterterrorism operations, and to participate in or support
military and stability operations in which the U.S. Armed Forces are a participant. An interagency Department of
Defense and Department of State IG team conducted this inspection to evaluate program effectiveness in building
capacity for counterterrorist operations, and stability and military operations. The team found that the Section
1206 program generally is effective in accomplishing the mission for which it was established. Overall, the
Section 1206 projects functioned well and included procedures to ensure compliance with statutory requirements.
However, there are management opportunities to improve effectiveness and efficiency of the process for project
selection, program execution, and project implementation. The August 2009 report made recommendations
that affect the following areas: the proposal submission template; DoD directives for program policies and
instructions; shipment priorities; management review processes; military-to-military training objectives; security
assistance officer training; munitions safety training; and performance measures. During the course of the review,
the Departments of Defense and State began management actions to develop and refine the Section 1206 program
further. (Report No. IE-2009-007)

Fraud and Corruption
As a partner in the International Contract Corruption Fraud Task Force, DCIS works alongside agents from the
MCIOs and the Department of Justice to ensure that contractors and contracting personnel are held accountable
for bribery, theft and other improprieties that illegally divert taxpayers dollars spent in Southwest Asia. The multi-
agency cooperation continues after the cases are transferred to the U.S. for prosecution. The following are a few of the
highlights from the last six months of FY 2009.

Bribery Involving Trucking Companies in Afghanistan
On August 7, 2009, a former U.S. Army contracting official pled guilty to corruptly steering service contracts to two
Afghanistan-based trucking companies. The contracting official received more than $87,000 in bribes from the two
companies in exchange for assigning them additional days of trucking service at the U.S. Army’s Bagram Airfield. The
contracting official faces a maximum penalty of 15 years in prison and a fine of up to $250,000.

Former Army Corps of Engineers Employee Indicted
On May 21, 2009, a former U.S. Army Corps of Engineers civilian employee was indicted in the U.S. District
Court, Northern District of Illinois, charged with bribery. A DCIS undercover operation found the USACE employee
demanded and accepted $50,000 in exchange for steering the award of a contract to a construction contractor. USACE
terminated the employee, and the individual was returned to the United States. On April 29, 2009, DCIS, the Federal
Bureau of Investigation, and Army CID apprehended the employee upon his arrival at Baltimore International Airport.
This was a joint investigation by DCIS, the FBI, and Army CID.

Bribery of a Public Official
On August 21, 2009, a contractor was sentenced to 84 months imprisonment in the U.S. District Court, Eastern
District of Virginia, for conspiracy, false statements, false claims, and bribery of a public official. The subject was
one of three contractors prosecuted for conspiring to accept bribes from Afghan truck drivers in return for falsifying
government documents that indicated receipt of the fuel. The three employees carried out the conspiracy while working
for a company assigned to control fuel deliveries to Bagram Airfield in Afghanistan between May and September 2006.
This was a joint investigation by DCIS, the FBI, and Army CID.



30
                                                                                         Semiannual Report to the Congress
Oversight of Overseas Contingency Operations


Passing Sensitive Procurement Information
In August 2009, a former U.S. Army Corps of Engineers contracting official, her sister, and a Lebanese company official
pled guilty in the U.S. District Court, Eastern District of Virginia, to conspiracy and bribery. The three co-conspirators
involved in the scheme were indicted on May 16, 2009. The investigation found the former USACE employee passed
sensitive procurement information to her sister, an employee of the Lebanese company, to ensure the company received
payments on outstanding requests for $13 million in equitable adjustments under DoD reconstruction and supply
contracts in Afghanistan. In return, the company agreed to pay the USACE employee one percent of the total value
of the requests submitted. All of the defendants benefitted from the scheme. The case was the result of efforts by the
International Contract Corruption Task Force members, including DCIS, the FBI, and Army CID.

Wire Fraud and Money Laundering
On May 1, 2009, a DoD civilian contractor, a U.S. Army major, and the major’s civilian wife were indicted for
bribery, wire fraud, money laundering, and conspiracy in the U.S. District Court, Northern District of Alabama.
The contractor allegedly bribed the major, who was a contracting officer at Camp Arifjan between 2004 and 2006, to
arrange for blanket purchase agreements for bottled water to be awarded to the contractor’s companies. The contractor
received approximately $21 million in these contracts and the major received approximately $2.8 million in bribe
payments. The three then created fictitious companies and consulting agreements to funnel bribe money into the
United States through offshore bank accounts in the United Arab Emirates and the Cayman Islands. In addition to
the criminal indictment, a forfeiture indictment was levied on the defendants’ commercial real estate, residences, and
expensive automobiles. This case was the result of joint efforts by the International Contract Corruption Task Force
members, including DCIS, the FBI and Army CID.



  Headquarters
  DCIS special agents conduct a search related to a fraud case.




Guilty Plea to Offering $1 Million in
Bribes to Army Contracting Officer
On August 7, 2009, two dual Afghan/U.S. citizens pled guilty
after being charged with conspiracy and bribery in connection with a scheme to offer $1 million in bribes to a U.S.
Army contracting official to influence the award of a road construction contract in Afghanistan. The two subjects
allegedly offered a bribe of $1 million to the Contracting Officer’s Representative in return for the award of the
Commander’s Emergency Response Program project.
	       The CERP project was for the construction of a road from Pule Alam, Afghanistan to Akundkhel, Afghanistan.
The subjects estimated they could construct the road for about $9 million; however, they intended to bid $18 million
for the project and offered the COR $1 million in exchange for the COR’s influence in awarding them the contract.
The contractors threatened that if they did not get the award, they would use their political connections to blacklist the
awardees and DoD’s efforts to fulfill the contract would be severely disrupted. On May 31, 2009, the contractors were
arrested, interviewed, and transported to Bagram Airfield for transportation to the United States. This case was the
result of efforts by the International Contract Corruption Task Force members, including DCIS, the FBI and Army
CID.


                                                                                                                       31
April 1, 2009 to September 30, 2009
                                                            Accomplishments of the DoD IG


Other Support to Overseas Contingency Operations
The DoD IG issued 18 additional audit reports that focused on Overseas Contingency Operations related to a variety
of areas including contracting-related issues, efficient use of funds, and quality of life. In addition, the DoD IG is
involved in building ministerial capability within the Iraqi Ministries of Defense and Interior.

Development of Ministerial Capability in Iraq
The DoD IG has embedded a senior-level liaison with the Multi-National Security Transition Command-Iraq to help
build the institutional oversight capability of the Iraqi Ministries of Interior and Defense Inspectors General. The
liaison is providing independent, personal advisory to the inspectors General, as well as providing support to a number
of organizations, including U.S. Mission-Baghdad’s Interagency Anti-Corruption Program.

Defense Emergency Response Fund in Support of the GWOT
Although DoD had transferred more than $126 million from DERF to the Iraq Freedom Fund by April 2004, DoD
did not transfer the DERF balance to the Global War on Terror balances to Iraq Freedom Fund as required by public
laws. The DoD did not review its obligations to ensure that they were valid and accurate and that unliquidated
obligations were deobligated. As a result, five years and six months after the public law mandated the transfer of the
balance in DERF to Iraq Freedom Fund, about $108.9 million, classified as unpaid obligations, and an additional
$151.1 million, classified as unobligated, for a total of $260 million in DERF for the Global War on Terror. Public
law requires DoD to transfer the $260 million to the Department of Treasury because the funds for the Iraq Freedom
Fund had expired. In addition, DoD needs to transfer $15.3 million in DERF, originally for disaster and humanitarian
assistance, to the Department of Treasury. (Report No. D-2009-098)

Afghanistan Security Forces Fund Phase III - U.S. Army Corps of Engineers Real
Property Accountability
The DoD IG reviewed 25 construction contracts valued at $420.0 million, which were awarded by USACE, Afghanistan
Engineering District in support of the ANA. Of those, the AED did not properly negotiate and award two contract
modifications, valued at $1.4 million, related to the construction of the Kabul National Military Hospital. AED also
improperly exercised a contract option that did not have well-defined requirements on one of the National Military
Hospital contracts, which resulted in AED unnecessarily spending more than $770,000. In addition, AED did not
ensure that required quality control procedures were in place on four contracts valued at $52.6 million, which resulted
in faulty construction, unsafe working conditions, and the construction contractor’s failure to meet the contract
requirements. (Report No. D-2009-076)

Afghanistan Security Forces Fund Phase III - Accountability for Equipment
Purchased for the Afghanistan National Army
Combined Security Transition Command-Afghanistan did not have complete serialized inventory records of all vehicles
and radios purchased for the ANA. Basic inventory controls were not established as required by DoD guidance, and
therefore, CSTC-A could not account for vehicles and radios in storage planned for transfer to the ANA. In addition,
CSTC-A lacked a formal process to transfer the accountability and physical control of vehicles and radios to the ANA
in accordance with DoD guidance. (Report No. D-2009-099)

Afghanistan Security Forces Fund Phase III - Accountability for Weapons
Distributed to the Afghanistan National Army
CSTC-A did not have a formal process in place to transfer weapons to the Afghan National Army. In addition,
CSTC-A was unable to account for weapons, including weapons purchased with the Afghanistan Security Forces
Fund. CSTC-A records did not list all weapons by serial number, and accountability systems used at ANA Depot 1

32
                                                                                        Semiannual Report to the Congress
Oversight of Overseas Contingency Operations


had significant data integrity problems. The CSTC-A Logistics Office has implemented corrective action to address
these problems. In addition, the DoD IG identified weaknesses in safeguarding ANA weapons. Ammunition supply
points in Gardez, Herat, and Mazar-e-Sharif built with ASF funds lacked the physical security needed to secure ANA
weapons and ammunition in accordance with DoD guidance. (Report No. D-2009-075)

Contracts Supporting the Counter Narcoterrorism Technology Program
The DoD IG identified weaknesses in the management, surveillance, and billing processes of the contracting officials
and the Counter Narcoterrorism Technology Program Office. The DoD IG found that:
•	 U.S. Army Space and Missile Defense Command/Army Forces Strategic Command contracting officials and
   contracting officer’s representatives did not perform proper contract management for the 35 task orders reviewed,
   valued at $98.8 million, and could waste $439,000 on fees to acquire commercial items.
•	 SMDC contracting officials and CORs did not develop surveillance plans, use receiving reports to formally accept
   goods and services, or review expenses charged by contractors.
•	 DoD officials did not ensure that the contractors were entitled to the $47.9 million paid on the Counter
   Narcoterrorism Technology Program Office indefinite-delivery, indefinite-quality task orders.
•	 Counter Narcoterrorism Technology Program Office officials had four potential Purpose Statute violations, which
   could result in potential Antideficiency Act violations amounting to approximately $20.5 million (Report No.
   D-2009-109)

Contracting for Nontactical Vehicles in Support of OEF
While the Combined Joint Task Force-101 and the Combined Security Transition Command-Afghanistan have
recently improved controls over the NTV acquisition process, more can be accomplished to improve the management
of recurring NTV requirements. The DoD IG estimated that 68 percent of NTV contract files did not contain
adequate justification for the NTVs and 85 percent did not contain documentation to how contracting officers
appointed contracting officer’s representatives to oversee contracts. Therefore, DoD did not have reasonable assurance
that 795 vehicles, at a cost of more than $14 million, were mission-essential, complied with the contract requirements,
or represented the best value to the government.
	        In addition, the DoD IG identified more than $1.4 million paid for NTV leases that the NTV review board
later disapproved. Additional oversight and centralized management of NTVs could increase the efficiency of acquiring
the NTVs necessary to support Operation Enduring Freedom. Despite these issues, the DoD IG commended the Joint
Contracting Command-Iraq/Afghanistan for updating its acquisition instruction to include guidance for maintaining
contract files. Implementing this guidance will help ensure contracting officers maintain contract files that provide an
adequate history of transactions. (Report No. D-2009-085)

Contracting for Transportation Services for USACE, Gulf Region Division
The U.S. Army Corps of Engineers, Gulf Region Division did not effectively administer the task order for transportation
services because it did not establish or implement processes for invoice and inventory reconciliation and discrepancy
resolution. In addition, it did not establish standard policies for justification and utilization of nontactical vehicles.
As a result, discrepancies in vehicle inventories could cost GRD at least $1.2 million a year for vehicles it may not
currently have. GRD could not provide assurance that the contractor complied with all contract requirements for
transportation services under the task order. This occurred because GRD did not develop and implement a quality
assurance surveillance plan or ensure that contracting officer’s representatives adequately documented contractor
performance. As a result, GRD cannot validate that it received transportation services totaling approximately $69.9
million. (Report No. D-2009-095)




                                                                                                                       33
April 1, 2009 to September 30, 2009
                                                              Accomplishments of the DoD IG


Transition Planning for Logistics Civil Augmentation Program IV Contract
Although the LOGCAP office planned for the transfer of 11 task orders to new performance contractors, which
accounted for $5 billion of $31 billion spent on the LOGCAP III contract, planning efforts still needed improvement.
The DoD IG identified weaknesses in planning, controlling costs, and overseeing property and contractors. The
LOGCAP office did not validate that all organizations involved in the transfer process had the most up-to-date version
of the transition plan. Despite spending $31 billion on LOGCAP III work, the LOGCAP procuring contracting
officer did not develop a standard performance work statement or identify goods and services that could be acquired
under firm-fixed-price task orders, both of which would have reduced costs to the Army. In addition, the LOGCAP
office did not properly oversee $4 billion in LOGCAP property and has no assurance that all government property will
transfer to new performance contractors. The quality assurance representative and contracting officer’s representatives
in Kuwait did not evaluate contractor performance on a consistent and routine basis. (Report No. D-2009-114)

Health Care Provided by Military Treatment Facilities in Southwest Asia
The DoD did not always adequately address contract terms for health care provided by military treatment facilities
to contractors in Southwest Asia. Based on a statistical sample of 2,561 DoD contracts, the DoD IG projected that
1,383 or 54 percent of the contracts had health care terms that were vague and subject to interpretation, or were silent
on health care terms. DoD military treatment facilities were not billing and collecting payment from contractors that
receive health care from military treatment facilities in Southwest Asia. As a result, DoD military treatment facilities in
Southwest Asia may have provided health care billable in the millions without seeking reimbursement. The DoD IG
did not project a potential monetary benefit. During the audit, DoD officials from various organizations responded by
establishing a working group to discuss how to implement a billing and collection process in contingency operations.
(Report No. D-2009-078)


     Iraq
     An American military hospital in Balad.




War Reserve Materiel Contract
U.S. Air Forces Central officials did not effectively manage
or administer the war reserve materiel contract in accordance
with federal or DoD policies or provide sufficient oversight of
contract administration actions and decisions. The DoD IG found that the contracting officer:
•	 could not provide basic, general information and documentation on the contract; executed 75 of the 120 contract
    modifications that did not completely define or specify the work to be accomplished by DynCorp;
•	 did not effectively monitor or track $161.1 million in costs incurred on the contract and frequently failed to
    document key decisions;
•	 inappropriately authorized $893,160 in award fees after actual costs were determined, resulting in a prohibited
    cost-plus-a-percentage-of-cost system of contracting; and
•	 improperly obligated $6 million and as much as $56 million in Operations and Maintenance funds for minor
    military construction projects.
The DoD IG also identified potential monetary benefits totaling approximately $273,000 because contracting
personnel did not adequately oversee the sale of government property. As a result of issues raised during the audit, Air
Force officials revoked the contracting officer’s warrant in September 2008. (Report No. D-2009-108)
34
                                                                                           Semiannual Report to the Congress
Oversight of Overseas Contingency Operations


Contracts for the U.S. Army’s Heavy-Lift VI Program in Kuwait
The U.S. Army Contracting Command, Southwest Asia-Kuwait did not develop appropriate surveillance methods
to assess contractors’ compliance to performance objectives, approve contractors’ quality control plans at the time of
award, or perform timely legal reviews and key contracting documents were not always available.
	        Contract oversight improved after procuring contracting office responsibilities were transferred to ACC
Rock Island Contracting Center and administrative contracting office responsibilities were delegated to the Defense
Contract Management Agency-Kuwait. However, clear guidance was not in place to assist in the oversight process, and
the command needed a memorandum of agreement between the procuring contracting office and the administrative
contracting office to detail contract administration responsibilities. Although ACC Rock Island Contracting Center
and Defense Contract Management Agency- Kuwait have taken corrective actions to strengthen the administration
and oversight of the Heavy-Lift VI program, DoD did not have reasonable assurance that contractors were complying
with requirements, achieved standards, and that the $522 million spent for contractors’ services represented the best
value to the government. (Report No. D-2009-096)

Organic Ship Utilization in Support of the Global War on Terror
The U.S. Transportation Command’s commercial vessel selection process does not evaluate whether liners or charter
vessels are the most cost-effective. In addition, USTRANSCOM officials did not document Southwest Asia vessel
selection rationale when selecting from Surface Deployment and Distribution Command recommendations. The
Surface Deployment and Distribution Command do not enforce penalties for late delivery of cargo under the
Universal Service Contract-5. USTRANSCOM has no formal process to implement or document DoD requirements
to annually size the U.S. sealift fleet to meet peacetime, contingency, and projected wartime requirements. (Report
No. D-2009-093)

Price Reasonableness for Contracts at U.S. Special Operations Command
On 4 of 15 contracts reviewed, U.S. Special Operations Command contracting officials did not perform or document
the price reasonableness determination in accordance with the Federal Acquisition Regulation. In total, USSOCOM
did not adequately document $721 million in negotiated prices on the four contracts. Of the $721 million, USSOCOM
did not adequately support $356 million on one contract for commercial hardware items. On two contracts, the
DoD IG was unable to fully evaluate the contracting officers’ decisions on price reasonableness because essential
documentation was not retained as part of the contract file. As a result, the DoD IG was unable to verify USSOCOM’s
analyses of the $360 million not-to-exceed amount for time-and-materials and firm-fixed price direct labor costs. On
the final contract, USSOCOM did not completely translate the supporting documentation for $5.0 million into
English. USSOCOM internal controls were not adequate to ensure that USSOCOM contracting officials approved
required contracting documentation or that the contract files contained the supporting documentation of the price
reasonableness decisions. In addition, the USSOCOM policies and procedures did not address the alpha contracting
methods used to negotiate the contracts. (Report No. D-2009-102)

Logistics Support for the U.S. Special Operations Command
The Special Operations Forces Support Activity contracting officers did not develop and implement a quality assurance
surveillance plan or designate properly trained contracting officer’s representatives for 44 service task orders valued at
more than $514 million. This is approximately 30 percent of the overall $1.74 billion obligated as of July 2008 for the
two contracts. The SOFSA Contracting Office did designate a COR for the overall contracts; however, it is not feasible
for one individual to effectively oversee 2,148 task orders requiring surveillance in 20 locations. SOFSA allowed
contractor employees to perform inherently governmental functions for task orders valued at approximately $82
million. The United States Army Special Operations Command, Technology Applications Program Office incorrectly



                                                                                                                       35
April 1, 2009 to September 30, 2009
                                                           Accomplishments of the DoD IG


funded at least one task order with $63.6 million in procurement funds rather than research, development, test, and
evaluation funds. (Report No. D-2009-083)

DoD Use of Global War on Terror Supplemental Funding Provided for
Procurement and Research, Development, Test, and Evaluation
The DoD IG could not determine whether $6.23 billion in appropriated funds were obligated for the purposes
authorized by Congress or used in support of the Global War on Terror. The Office of the Under Secretary of Defense
(Comptroller) and four DoD components (the Army, the Navy, the Marine Corps, and the Washington Headquarters
Service) did not consistently maintain adequate audit trails or separate Global War on Terror supplemental and bridge
funding from annual and other supplemental appropriations in their accounting systems. (Report No. D-2009-077)

Controls Over Air Force Materiel Command Unliquidated Obligations on
Department of the Air Force Contracts Supporting the GWOT
DFAS Columbus and six Air Force bases erroneously reported that they reviewed and validated 100 percent of Air
Force Materiel Command unliquidated obligations. This increased the risk of Air Force losing funds not deobligated
timely. DFAS Columbus could not provide evidence that it accomplished tri-annual reviews for 31 ULOs. As a result,
the Air Force has no assurance that DFAS Columbus reviewed and validated ULOs valued at $169.7 million and that
the Air Force still needs the obligated funds. (Report No. D-2009-067)

Marine Corps’ Management of the Recovery and Reset Programs
The Marine Corps’ recovery and reset efforts for the items of equipment reviewed were generally effective. Most of
the Marine Corps’ $6.9 billion in supplemental procurement fund requirements for FY 2007 were supported by
documentation that included justifications and priorities. However, $383.3 million in requirements, or approximately
5.6 percent of the supplemental funds requested, did not meet DoD or Marine Corps guidance for inclusion in its
supplemental funds request. Specifically, the Marine Corps requested: $266.6 million in requirements that the Marine
Corps categorized as low priority and desirable but not essential; $61.8 million in estimated, not actual, combat
losses; $29.9 million in requirements that were based on inaccurate unit prices; and $25 million in requirements that
exceeded approved requirements. Additionally, the Marine Corps did not prioritize about $1.9 billion in requirements
and $138 million could not be traced to supporting documents. As a result, the Marine Corps requirements for
$383.3 million in supplemental funds may have been put to better use and $138 million was unsupported. (Report
No. D-2009-066)

Controls Over the Department of the Navy Military Payroll Disbursed in
Support of the Global War on Terror
Norfolk-area disbursing center personnel did not maintain supporting documentation for combat zone entitlements
according to record retention requirements. They also did not always obtain adequate supporting documentation
to substantiate combat zone entitlements. The DoD IG reviewed the adequacy of the support for the combat zone
entitlements received by 338 Navy military members. The disbursing centers provided complete support for the
entitlements of 73 members. However, they only provided partial support for the entitlements of 107 members and
no support for the entitlements of 158 members. Therefore, the Navy could not substantiate whether at least 158 of
338 Navy military members received proper combat zone entitlements during deployments supporting the GWOT.
This could cause financial hardship on Navy warfighters and their families. In addition, the lack of proper supporting
documentation adversely affects the Navy’s ability to detect fraud or improper payments. (Report No. D-2009-079)




36
                                                                                       Semiannual Report to the Congress
Oversight of DoD Programs


                                  Oversight of DoD Programs
                                  Audits
                                  Over the last six months, the DoD IG continued to provide oversight and make rec-
                                  ommendations for corrective action to address program and management challenges
                                  identified in the following areas:
                                  •	 Acquisition Processes and Contract Management
                                  •	 Financial Management
                                  •	 Health Care
                                  •	 Information Assurance, Security, and Privacy
                                  The following sections discuss some of the significant reports, findings, and recom-
                                  mendations for corrective action.


                                  Acquisition Processes and
                                  Contract Management
                                  The Department has faced tremendous challenges providing oversight for many years,
                                  but in recent years the challenge has increased. Spending for goods and services in FY
                                  2008 exceeded $380 billion and the Department was confronted with ramping up over-
                                  sight and contracting staff to keep pace with the large spending increases. In addition,
                                  the ever-changing nature of the war made it difficult to get these resources to the right
                                                  place at the right time even when the resources were available. Much as
                                                  the Department has tried to learn from past mistakes, it will be very im-
                                                  portant to incorporate lessons learned from prior situations where rapid
                                                  actions and acquisitions occurred, such as the Hurricane Katrina disaster
                                                  relief and support for contingency operations in Iraq and Afghanistan.
                                                  Knowing the past mistakes and incorporating solutions continues to be
                                                  an ongoing challenge for the Department. Similar to problems identified
                                                  in previous emergency and contingency operations, eight years into the
                                                  war effort in Iraq and Afghanistan the contract and acquisition audits
                                                  continued to find a pattern of problems with oversight and account-
                                                  ability. Nine of the audit reports DoD IG issued in the past six months,
                                                  involving contracting and acquisition issues, identified problems with
                                  oversight and accountability by DoD organizations.
                                  	       The audit of the SeaPort Enhanced Program found that 118 task orders, valued
                                  at $1.4 billion, did not meet quality assurance requirements. The SeaPort-e program
                                  manager did not ensure task orders were written to be performance based, had quality
                                  assurance surveillance plans, or had contracting officer’s representatives assigned.
                                  An estimated 1,106 total task orders (89 percent) did not meet quality assurance
                                  requirements. (Report No. D-2009-082)
                                  	       Similarly, another audit found problems with quality assurance oversight noting
                                  that contractors performed inherently government functions and used incorrect funds.
                                  The Special Operations Forces Support Activity contracting officers did not develop
                                  and implement a quality assurance surveillance program or designate properly trained
                                  contracting officer’s representatives for 44 service task orders valued at more than $514
                                  million. This is approximately 30 percent of the overall $1.74 billion obligated as of July

                                                                                                                          37
April 1, 2009 to September 30, 2009
                                                              Accomplishments of the DoD IG


2008 for the two contracts. The SOFSA contracting office did designate a COR for the overall contracts; however,
it is not feasible for one individual to effectively oversee 2,148 task orders requiring surveillance in 20 locations. In
addition, SOFSA allowed contractor employees to perform inherently governmental functions for task orders valued
at approximately $82 million.
	        In addition, SOFSA awarded a task order on February 24, 2005, for an initial value of more than $30.4
million to L-3 Communications Integrated Systems. As of December 2008, SOFSA modified the task order seven
times to increase the cost to $63.6 million. According to the statement of work, the purpose of the task order was to
modify one government-furnished UH-60M aircraft, a prototype, into the Special Operations Aviation MH-60M
aircraft and provide special instructions to the government for the purposes of manufacturing the 60 subsequent MH-
60M aircraft. The entire $63.6 million came from procurement funds.


  Contract Management
  UH-60M Black Hawk helicopter.




	        The task order increased the performance of a major
end item already in production and required the developmental
testing of the new prototype. Accordingly, this task order
should have been funded with research, development, test and
evaluation funds. (Report No. D-2009-083)
	        The audits that focused specifically on the Southwest Asia area of operations also identified the same types of
problems with oversight and accountability. For instance, the U.S. Army Corps of Engineers, Gulf Region Division
did not effectively administer the task order for transportation services because it did not establish or implement
processes for invoice and inventory reconciliation and discrepancy resolution. In addition, it did not establish standard
policies for justification and utilization of nontactical vehicles. As a result, discrepancies in vehicle inventories could
cost Gulf Region Division at least $1.2 million a year for vehicles it may not currently have.
	        Additionally, the GRD could not provide assurance that the contractor complied with all contract requirements
for transportation services under a task order. This occurred because GRD did not develop and implement a quality
assurance surveillance plan or ensure that contracting officer’s representatives adequately documented contractor
performance. As a result, GRD cannot validate that it received transportation services totaling approximately $69.9
million. (Report No. D-2009-095)
	        The audit on contracts supporting the DoD Counter Narcoterrorism Technology Program Office also identified
significant contract management and oversight problems. U.S. Army Space and Missile Defense Command/Army
Forces Strategic Command contracting officials and contracting officer’s representatives did not perform proper contract
management for the 35 task orders reviewed valued at $98.8 million and could waste $439,000 on fees to acquire
commercial items. Space and Missile Defense Command contracting officials and CORs did not develop surveillance
plans, use receiving reports to formally accept goods and services, or review expenses charged by contractors. In
addition, DoD officials did not ensure that the contractors were entitled to the $47.9 million paid on the Counter
Narcoterrorism Technology Program Office indefinite delivery, indefinite quality contracts and task orders. (Report
No. D-2009-109)
	        The U.S. Army Contracting Command Southwest Asia - Kuwait did not develop appropriate surveillance
methods to assess contractors’ compliance with performance objectives, approve contractors’ quality control plans at the
time of award, or perform legal reviews in a timely manner, and key contracting documents were not always available.

38
                                                                                           Semiannual Report to the Congress
Audits


Although Army Contracting Command Rock Island Contracting Center and Defense Contract Management Agency-
Kuwait have taken corrective actions to strengthen the administration and oversight of the Heavy-Lift VI program,
DoD did not have reasonable assurance that contractors were complying with requirements, achieved standards,
and that the $522 million spent for contractors’ services represented the best value to the government. (Report No.
D-2009-096)


  Contract Management
  Heavy lift vehicle operations.




Financial Management
The DoD IG is working closely with the Department to address
long-standing financial management challenges and supports the
DoD goal of achieving a favorable audit opinion for the DoD
agency-wide financial statements and the major DoD components. The Under Secretary of Defense (Comptroller)/
Chief Financial Officer issued the DoD Financial Improvement and Audit Readiness Plan as part of an initiative
to improve financial management in the Department. The DoD IG supports the objective of the plan, which is to
provide ongoing, cross-functional collaboration with DoD components to yield standardized accounting and financial
management processes, business rules, and data that will provide a more effective environment to better support the
war-fighting mission. The DoD IG also supports the Department’s ongoing efforts to target achievable, incremental
change and to initiate the change necessary for continual, sustainable improvement in financial management.

Financial Systems Audits
Financial system audits are performed to evaluate the adequacy of system controls. The performances of these audits
help to reduce the risk of loss due to errors, fraud, and other illegal acts and disasters that may cause the system to
be unavailable. In addition, financial system audits provide invaluable information on DoD efforts to transform its
systems and develop the Business Enterprise Architecture. The DoD IG issued a report on the data migration strategy
and information assurance for the Business Enterprise Information Services. Using a “family of systems” concept, the
Business Enterprise Information Services uses existing legacy financial system capabilities transferred into the DoD
enterprise financial solution.
	       DoD IG auditors tested the design and effectiveness of the data migration strategy and determined that the
Business Transformation Agency, responsible for the development and implementation of the Business Enterprise
Architecture, had not provided detailed guidance or best practices for the components to follow for migrating their
data and aligning their systems to the Business Enterprise Architecture. The Business Transformation Agency also had
not implemented an adequate security plan for the “family of systems,” and had not conducted a Federal Financial
Management Improvement Act compliance review for those systems since 2001. The Business Transformation Agency
needed improvements to strengthen the data migration guidance for the components, develop information assurance
security plans, and assess FFMIA compliance for the “family of systems.” (Report No. D-2009-097)

Financial-Related Audits
Several financial-related audits focused on providing insightful and valuable recommendations to managers as
they prepared for audit readiness. During the reporting period, auditors covered areas such as contract obligations,



                                                                                                                    39
April 1, 2009 to September 30, 2009
                                                             Accomplishments of the DoD IG


unliquidated obligations on contracts supporting the Global War on Terror, PowerTrack payments, and DoD civilian
employee accounts. The DoD IG reported the following concerns:
•	 Although the Army had implemented system process changes and internal control procedures that had improved
    the accuracy of obligations recorded for purchase orders in the Logistics Modernization Program, it had not
    fully documented the improved processes and controls. In addition, the Communications-Electronics Life Cycle
    Management Command did not comply with established laws and the DoD Financial Management Regulation
    when obligating funds at fiscal year-end using miscellaneous obligation documents. Furthermore, LMP did not
    correctly adjust recorded commitment balances for purchase requisitions when different units of measurement
    were used on the purchase requisition and purchase order. As a result, Army Materiel Command lacked assurance
    that the improved processes and controls would be applied uniformly and consistently in the event of personnel
    changes or during future LMP deployments. In addition, CECOM overstated the year-end obligation balance
    reported on the Army Working Capital Fund Statement of Budgetary Resources by at least $24.4 million. (Report
    No. D-2009-087)
•	 DFAS Columbus could not provide evidence that it accomplished the reviews for 31 unliquidated obligations
    for the FY 2007 third period tri-annual review. As a result, the Air Force has no assurance that DFAS Columbus
    reviewed and validated unliquidated obligations valued at $169.7 million or that the Air Force still needs the
    obligated funds. DFAS Columbus needed to review the unliquidated obligations valued at $169.7 million,
    maintain supporting documentation of its review, and provide results of its review to the Air Force. In addition,
    the Air Force needed to de-obligate $2.7 million related to one unliquidated obligations because the Air Force no
    longer needed the funds. The DoD IG found that DFAS Columbus and six Air Force bases erroneously reported
    that 100 percent of Air Force Materiel Command unliquidated obligations were reviewed and validated during
    the tri-annual review process. The erroneous reporting increased the risk of the Air Force losing funds not reviewed
    and de-obligated in a timely manner. (Report No. D-2009-067)
•	 The U.S. Transportation Command is the single manager of the DoD global transportation function. In FY
    2007, DoD transportation offices paid freight shippers $2.3 billion using PowerTrack, a U.S. bank system DoD
    adopted in FY 1999 to pay freight services electronically. DoD internal controls over PowerTrack payments were
    not adequate. The DoD IG estimated DoD should have identified between $33.9 million and $68 million in
    duplicate and improper payments in FY 2007 for freight transportation. The U.S. Transportation Command also
    did not take necessary steps to recover overpayments before the General Services Administration posted payment
    auditors recovered the funds and returned them to the Treasury. These events occurred because DoD did not have
    processes in place to identify likely overpayments and did not take advantage of the resources available to monitor
    payments, identify overpayments, and immediately recover funds. DoD could avoid or recover and retain up to
    an estimated $307.3 million in overpayments over the Future Years Defense Program by improving the process of
    monitoring PowerTrack payments. Additionally, the DoD Annual Financial Report did not contain information
    on duplicate or improper payments for freight transportation actually identified during payment reviews. As a
    result, the FY 2007 Annual Financial Report did not identify PowerTrack payments as being a high-risk area.
    (Report No. D-2009-072)
•	 As of May 2008, the Defense Civilian Pay System included 7.3 million DoD civilian employee accounts with
    more than $148 billion in taxable earnings during the period January 2002 through April 2008 (excluding taxable
    earnings for calendar year 2007). However, DFAS did not ensure that DCPS contained only valid DoD civilian
    employee accounts. Specifically, DCPS included invalid Social Security numbers, employees under the legal
    employment age, and multiple employee accounts that shared the same bank account. As a result, DFAS may have
    paid approximately $15.4 million to more than 2,300 invalid DoD civilian employee accounts from January 2002
    through April 2008 (excluding 2007). By reviewing the DoD civilian employee accounts identified and ensuring
    the accuracy of future accounts, DFAS will reduce the likelihood of paying invalid DoD civilian employees.
    (Report No. D-2009-92)


40
                                                                                         Semiannual Report to the Congress
Audits



Health Care
The DoD Military Health System must provide quality care for approximately 9.5 million beneficiaries within fiscal
constraints while facing increased user demands, legislative imperatives, and inflation that make cost control difficult
in both the public and private sectors. Because the Military Health System provides health care support for a full range
of military operations, the DoD challenge is magnified. The increased frequency and duration of military deployment
further stresses the Military Health System in both the active and reserve components. Part of the challenge in delivering
health care is combating fraud.
	         A major challenge to the Department is sufficient oversight of the growing cost of health care. During a
hearing with the Senate Appropriations Subcommittee on Defense, the Secretary of Defense stated, as one concern,
that the cost of health care must be controlled.
	         The DoD budget for health care costs was approximately $45 billion in 2009, a 45 percent increase since
FY 2005 ($31 billion). In addition, the American Recovery and Reinvestment Act of 2009 provides $0.4 billion for
facilities sustainment, restoration and modernization, and $1.3 billion for construction of hospitals. Another part of
the challenge in containing health care costs is combating fraud. Increasing health care benefits also provides additional
pressure to manage and contain costs.


  Health Care
  The Military Health System continues to face challenges.




	        The ability to support and develop the people in the
Military Health System continues to be a challenge. Maintaining
medical readiness of the medical staff and units includes ensuring
that medical staff can perform at all echelons of operation and
that the units have the right mix of skills, equipment, logistics
support, and evacuation and support capabilities. The challenge of keeping members of the reserves and National
Guard medically ready to deploy continues because of the frequency and duration of deployments.
	        Strengthening comprehensive and integrated health care from accession through active service to rehabilitation
and transition to Department of Veterans Affairs care is a major challenge for the Department. The number of wounded
warriors associated with Southwest Asia and other such conflicts requires diligent management of health care resources.
Another related challenge to force health protection and medical readiness is oversight of post-deployment health
needs, including identifying and managing those requiring care.
	        Although the DoD and the VA identified a number of objectives and initiated appropriate programs, the quality
and oversight of these programs must be tightly managed. Transitioning wounded, ill, or injured service members to
post-deployment care will grow as a challenge while operations in Southwest Asia continue. The Department needs to
improve the medical care and benefits transition program to achieve a streamlined, transparent, and timely process as
wounded warriors move from the DoD system to the VA system.
	        Increased numbers of returning service members with psychological health issues and traumatic brain injuries,
along with a shortage of uniformed and civilian mental health workers, will require examining automated screening
tools and improved diagnostics to provide earlier detection and intervention. In addition, addressing the psychological
effects of deployment on family members and non-active duty personnel will continue to be a challenge.




                                                                                                                       41
April 1, 2009 to September 30, 2009
                                                                Accomplishments of the DoD IG


	        Providing information to the right people so they can make decisions that are more informed continues to be a
challenge in the health care community. Along with the benefits of expanding automation efforts comes the increased
risk to information security and privacy issues. The transition from paper to electronic patient records increases
the exposure of sensitive patient information to inadvertent or intentional compromise, highlighting the need for
appropriate information assurance procedures. Maintaining information operations that ensure the protection and
privacy of data will continue to grow as a challenge.
	        Implementing recommendations resulting from the 2005 Base Realignment and Closure process will continue
to be a challenge. In addition to improving the readiness and cost efficiency associated with realigning base structure,
a primary objective of the process was to examine and implement opportunities for greater joint activity among the
Military Departments. Recapitalization of the physical infrastructure is a challenge. Military treatment facilities are
aging and in need of replacement. Managing funds provided by the American Recovery and Reinvestment Act of 2009
for facilities sustainment and construction is also a concern.
	        The DoD has identified its expanded role in providing humanitarian assistance and disaster relief to support
U.S. strategic objectives and promote human dignity through better health as a core capability of the Military Health
System. However, this role will continue to create financial and organizational challenges.
	        The Military Health System will need to develop a strategy that complements the overall DoD strategy and
that interfaces well with other executive agencies, including the Agency for International Development, and the
Departments of State, Health and Human Services, and Homeland Security, which have traditionally played the lead
role in humanitarian assistance and disaster response.
	        During this semiannual reporting period, the audit efforts focused on medical support to the troops involved
with operations in Southwest Asia.

Medical Equipment Used to Support Operations in Southwest Asia
The DoD IG completed an audit of medical equipment used to support operations in Southwest Asia. The theater
lead-agent for medical logistics supports military treatment facilities and medical logistics activities; however, the
lead agent cannot effectively perform life-cycle management because it does not have the visibility or oversight of all
theater-wide medical equipment and repair part procurements.


     Health Care
     Medical equipment at a military hospital in Balad, Iraq.




	         In addition, the theater lead-agent military treatment
facilities and medical logistics activities do not have an
interoperable system for tracking medical equipment
procurements, inventory, and maintenance information. The
DoD IG identified several management initiatives that should
facilitate life-cycle management of medical equipment. (Report No. D-2009-113)

Information Assurance, Security, and Privacy
The Department continues to face persistent weaknesses in information security policies and practices that threaten the
confidentiality, integrity, and availability of critical information and information systems used to support operations,


42
                                                                                         Semiannual Report to the Congress
Audits


assets, and personnel. Many of the weaknesses reported occurred because management of DoD Information systems
was inadequate and security policies and procedures were not in place.
	        Without effective management oversight, the DoD cannot be assured that systems are accurately reported
and maintained, information systems contain reliable data, and personnel are properly trained in security policies and
procedures. Effective management oversight will remedy persistent IA weaknesses, thereby increasing assurance that
DoD information systems maintain an appropriate level of confidentiality, integrity, authentication, and availability.



  Information Security
  DoD systems must be accurately reported and maintained.




	       DoD issued a directive-type memorandum on July
31, 2009, establishing a new policy for managing the security
of unclassified DoD information on non-DoD information
systems. The DoD Chief Information Officer noted that a
number of DoD IG audits had identified the requirement to provide protection of DoD information resident on
contractor systems. Increased reliance on the Internet as a venue for sharing and storing information has exposed DoD
information on non-DoD systems to the full range of cyber threats. Intrusions specifically targeting DoD information
resident on contractor systems have also increased.

Sanitization and Disposal of Excess Information Technology Equipment
DoD components did not properly sanitize, document, or fully account for excess unclassified information technology
equipment before releasing the equipment to other organizations. Furthermore, the Defense Reutilization and
Marketing Service processing centers processed excess unclassified IT equipment for disposal or redistribution without
proof that the equipment had been properly sanitized. These instances of nonperformance occurred because DoD
components did not follow policies, adequately train personnel, or develop and implement site-specific procedures to
ensure personnel sanitized and properly disposed of excess unclassified equipment.
	        In addition, DoD guidance issued by the Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer and the Navy Chief Information Officer was out of date and did not
cover sanitizing and disposing of newer types of information storage devices. As a result, four DoD components could
not ensure personally identifiable information or other sensitive DoD information was protected from unauthorized
release, and one DoD component could not account for an excess unclassified computer. (Report No. D-2009-104)

Controls Over Information Contained in BlackBerry Devices Used In DoD
DoD components did not always implement adequate controls to properly secure information on BlackBerry devices.
Passwords did not always meet the length and complexity requirements of DoD Instruction 8500.2 and the Assistant
Secretary of Defense (Networks and Information Integration)/Chief Information Officer allowed DoD components
to use their discretion in not implementing required controls, such as encrypting data stored on BlackBerry devices,
properly implementing user agreements, and requiring passwords to expire and devices to lock out after a specified
period. Annual information assurance training did not always include wireless topics in accordance with DoD Directive
8100.02. (Report No. D-2009-111)



                                                                                                                   43
April 1, 2009 to September 30, 2009
                                   Accomplishments of the DoD IG



     Investigations
     The following cases highlight oversight activities of the Defense Criminal Investigative
     Service, the criminal investigative arm of the DoD IG, and its federal law enforcement
     partners. DoD IG significant accomplishments in investigations relating to oversight of
     DoD programs and operations are listed under the following categories:
     •	 Corruption and Fraud
     •	 Defective, Substituted, and Substandard Products
     •	 Cybercrime and Computer Intrusion
     •	 Illegal Transfer of Technology, Systems, and Equipment
     •	 Homeland Security/Terrorism
     •	 Other Initiatives

     Corruption and Fraud
     Each year, millions of dollars intended for DoD people and programs are lost due
     to financial crime, public corruption, health care fraud, and major theft. DoD IG
     investigative efforts target abuses such as deliberate overcharges, bribes, and kickbacks.
     The DoD IG works closely with its federal law enforcement partners to proactively
     identify areas of vulnerability to combat these crimes and is a key member of the ongoing
     national effort to combat fraud through the multi-agency National Procurement Fraud
     Task Force and the International Contract Corruption Task Force.

     Fraud on Post-9/11 Work at the Pentagon
     On April 17, 2009, three DoD contractor employees were each sentenced to a total
                       of 125 months imprisonment and three years supervised release,
                       and ordered to pay more than $1.1 million in restitution for major
                       fraud against the government, theft, mail fraud, and conspiracy.
                       The defendants defrauded the government and two other victims
                       by submitting false time and material bills for reconstruction work
                       during the post-9/11 reconstruction of the Pentagon. Some of
                       the falsely billed labor and materials represented work on a newly
                       constructed bar and restaurant owned by two of the defendants.
                       On May 1, 2009, a subcontractor involved in the scheme was
                       sentenced to two years probation and fined $10,000 for conspiracy
                       to defraud the government. The subcontractor received home
                       remodeling materials and labor that he charged to the Pentagon
                       reconstruction contract.

     Sherman Antitrust Act Violation
     On May 15, 2009, a DoD contractor was sentenced in the U.S. District Court, Southern
     District of Florida, and ordered to pay a $3.5 million fine for violating the Sherman
     Antitrust Act. On June 15, 2009, a second DoD contractor involved in the scheme was
     sentenced in the U.S. District Court, Eastern District of Virginia, and ordered to pay a
     $7.5 million fine for violating the Sherman Antitrust Act. Both companies fixed prices




44
                                                                Semiannual Report to the Congress
Investigations


and rigged bids for U.S. government contracts on marine buoys and marine hoses over several years. These are the
second and third companies to plead guilty in a continuing Antitrust investigation.

Conflict of Interest
On July 8, 2009, the vice president of an engineering contractor pled guilty to obstruction charges for helping the
president of the company alter corporate records in an attempt to hide a conflict of interest with an Air Force Research
Laboratory program manager. The program manager was simultaneously serving as a director at the company and was
steering AFRL contacts to the company for personal financial gain.
	        On July 14, 2009, the former CEO of another corporation pled guilty to submitting false claims and obstruction
of justice charges in a related case for conspiring with the engineering company to submit fraudulent invoices to divert
$1.8 million from a government contract for personal gain.
	        On July 20, 2009, the AFRL program manager pled guilty to submission of false statements and acts affecting
a personal financial interest. Evidence at trial showed he created a company to mask his relationship with the president
of the engineering company and hide a $60,000 payment he received from that company. That payment came directly
from a fraudulent invoice he knowingly approved for the other corporation. The program manager further defrauded
the government by billing the Air Force for flights taken on the engineering company’s aircraft on government business.
The engineering company’s president assisted in creating the fraudulent invoices.
	        On July 31, 2009, the president of the engineering company was convicted of obstruction of justice, perjury,
making false statements to the U.S. Air Force in a debarment proceeding, and acts affecting a personal financial
interest.

Circumventing the Competitive Bidding Process
Between May and July 2009, four U.S. Army civilian employees, a former Army major, and a DoD contractor were
sentenced to serve a combined 121 months imprisonment and ordered to pay more than $116,000 in restitution to
the government for conspiracy to defraud the United States. Acting as public officials on behalf of the Army, the co-
conspirators circumvented the government’s competitive bidding process to influence and steer the award of lucrative
government computer contracts to an information technology company in return for cash and merchandise. 		
	       The co-conspirators provided the IT company with internal procurement information related to impending
U.S. Army acquisitions, which allowed the company to submit the lowest bid and obtain contract awards in lieu of fair
and open competition. In addition to influencing the bidding process, the co-conspirators engaged in a scheme where
they shipped undamaged government property from the Tobyhanna Army Depot to the IT company for repairs, but
the items were misbranded as new equipment and resold to the government.

Research Fund Fraud
On March 5, 2009, Weill Medical College of Cornell University agreed to pay $2,606,751 to resolve civil charges that
Weill defrauded the U.S. government in connection with research funds awarded under DoD, National Institute for
Health, and Health and Human Services grants. The investigation disclosed the college made false statements to DoD
and NIH in connection with the grant applications.
	       The principal research investigator for the grants at Weill fraudulently omitted the full extent of her various
active research projects, which deprived DoD and NIH of their ability to assess the researcher’s ability to perform
on the projects in the grant applications. Of the $2.6 million, Weill Medical College returned $2.1 million to the
government.




                                                                                                                     45
April 1, 2009 to September 30, 2009
                                                             Accomplishments of the DoD IG



Labor Mischarging Civil Settlement
On May 5, 2009, a DoD contractor agreed to pay the U.S. government more than $1.9 million in a civil settlement
for labor mischarging reported under a DoD Voluntary Disclosure. This was a joint investigation with U.S. Army
CID and the General Services Administration Inspector General. The contract was for information technology and
administrative services at Fort Hood, Texas. The subcontractor encouraged its employees to falsify their timecards and
fraudulently claim overtime beyond the lifetime of the original contract and the follow-on contract. The contractor’s
original estimate of the mischarging was $966,540, but further investigation revealed other subcontractors with the
same practice, which increased the amount owed to the government to almost $2 million.

Health Care Fraud
On January 13, 2009, an individual was sentenced in the U.S. District Court, Southern District of Georgia, to
60 months incarceration and 36 months supervised probation for conspiring to commit health care fraud after an
investigation revealed he billed TRICARE and Medicare for non-existent blood transfusions. On November 5, 2008,
another individual was sentenced to 51 months incarceration and 36 months supervised probation in the same scheme.
Neither of the two had ever provided treatment of any kind at a storefront facility called Longevity Care Services, Saint
Marys, Ga. The defendants were ordered to pay more than $1 million in restitution jointly. Two additional suspects
fled the United States to avoid prosecution.

False Health Care Claims
On June 11, 2009, an Oklahoma orthopedic surgeon agreed to pay the government $3.5 million to settle allegations of
fraudulent billing, which first became known through a qui tam suit filed under the civil False Claims Act. The surgeon
further agreed not to participate in any federal health care benefit program for three years. The joint investigation
with DCIS and the Federal Bureau of Investigation found the surgeon filed false claims with Medicare, Medicaid, and
TRICARE.

Pfizer, Inc. Agrees to $1 Billion Civil Settlement
On August 31, 2009, Pfizer, Inc. signed a $1 billion civil settlement of which approximately $566 million went to the
government to resolve allegations that the company illegally promoted the drugs Bextra, Geodon, Zyvox, and Lyrica
and caused false claims to be submitted to government health care programs, to include TRICARE, for unapproved
uses of the drugs that were not covered. On September 15, 2009, Pharmacia and Upjohn Company, Inc., a subsidiary
of Pfizer, pled guilty to violating the Food, Drug, and Cosmetic Act for illegally promoting the drug Bextra for several
uses and dosages that the Food and Drug Administration specifically declined to approve due to safety concerns. This
was a joint investigation conducted by DCIS, the FBI, the FDA and Offices of Inspector General for the Department
of Health and Human Services, the Department of Veterans Affairs, the Office of Personnel Management, and the
Postal Service.

Unauthorized Trials of a Medical Device
On June 16, 2009, a large multinational medical device manufacturer and four of the company’s executives were
charged with conducting unauthorized trials of a medical device in surgeries treating spine fractures. These surgeries
were allegedly performed despite a warning on the Food and Drug Administration-cleared label against this use. Pilot
studies had shown a reaction between the medical device and human blood in test tubes causing blood clots. The
research also showed blood clots caused by the device became lodged in the lungs of test animals. The indictment alleged
the company did not stop marketing the product until after a third patient died on the operating table. Following the
indictments, four of the company’s executives pled guilty to introducing into interstate commerce adulterated and
misbranded medical devices. This was a joint investigation with DCIS, FDA, and the Offices of Inspector General for
the Department of Health and Human Services and the Department of Veterans Affairs.
46
                                                                                          Semiannual Report to the Congress
Investigations




Defective, Substituted, and Substandard Products
Investigations of defective, substituted, and substandard products and parts ensure the procurement system provides
exactly what is required to maintain the warfighters’ operational readiness. These products and parts often involve
flight safety issues or other mission-critical applications.

Defective Blanket Kit Installation in KC-10 Aircraft
On July 16, 2009, Boeing Aerospace Operations agreed to pay the U.S. government $25 million, of which $2.6
million went to relators, as a result of a qui tam settlement. Based on information from two former employees, an
investigation found Boeing defectively installed insulation blanket kits in KC-10 aircraft. The investigation also found
Boeing overcharged for the installation. The settlement consisted of Boeing paying $18.4 million in cash and $6.6
million worth of repair work to be performed on the defective blankets at the manufacturer’s expense. The blanket kit
is a critical component in the KC-10 Extender. The KC-10 Extender is a mainstay of the Air Force’s aerial refueling
fleet in Iraq and Afghanistan. This was a joint investigation with DCIS, Air Force Office of Special Investigations, and
the Defense Contract Audit Agency.


  Defective Products
  KC-10 Extender refuels a fleet of aircraft.




Defective Aircraft Parts
On March 18, 2009, Lockheed Martin Aircraft and Logistics
Centers agreed to pay the U.S. government $975,000 to settle
claims resulting from one of its vendor’s failure to properly
perform cadmium plating on various parts used in the U.S.
Navy C-9, P-3, and C-130 aircraft; the U.S. Coast Guard C-130 aircraft; and the U.S. Air Force C-130 aircraft.
During a periodic quality audit, Lockheed discovered the vendor was not an approved plating vendor and did not
comply with the product specification for cadmium processes on various parts. Lockheed directed the vendor to issue
a Government Industry Data Exchange Program alert for all other venders who may have used Wackenhut Services
Inc. to perform cadmium plating. This was a joint investigation with DCIS, Air Force Office of Special Investigations,
and Naval Criminal Investigative Service.

Manufacture of Inferior Equipment used on Submarines and Aircraft
On July 14, 2009, a former DoD contractor was sentenced to 16 years, two months imprisonment, and ordered to pay
$284,734 in fines and restitution after avoiding capture as a fugitive for almost 21 years. The contractor was previously
convicted in 1988 of mail fraud, false statements, false claims, and conspiracy to defraud the government, but had
fled the United States before sentencing. The contractor manufactured inferior electrical brushes used on nuclear
submarines, fighter aircraft, and various weapons and equipment. The contractor was apprehended on October 13,
2008 in the Bahamas and returned to the United States.

$325 Million Settlement for Defective Transistors
On April 2, 2009, Northrop Grumman Corporation agreed to pay the U.S. government $325 million, of which


                                                                                                                      47
April 1, 2009 to September 30, 2009
                                                            Accomplishments of the DoD IG


$48.7 million went to relators, to resolve a qui tam suit. The investigation found Northrop failed to properly test and
qualify certain microelectronic parts, known as heterojunction bipolar transistors that were found to be defective. The
defective HBTs were integrated into National Reconnaissance Office satellite equipment as a result of the companies’
failure to test them. This was a joint investigation with DCIS, the Federal Bureau of Investigation, and National
Reconnaissance Inspector General.

C ybercrime and Computer Intrusion
The DoD IG continued to emphasize combating cybercrime through several proactive initiatives around the country
and maintains an on-site presence within the DoD Joint Task Force for Global Network Operations and will continue
that presence with the establishment of the U.S. Cyber Command. The cybercrime program placed new emphasis
on crimes involving the compromise and theft of sensitive Defense information contained in government and DoD
contractor information systems while still positioned to respond to traditional computer intrusions against DoD and
provide the full range of digital forensics services in support of investigations.



     Cybercrime and Computer Instrusion
     A DCIS special agent monitors a surveillance camera.




	       DCIS efforts in crimes targeting members of the Defense
Industrial Base led to issuing a directive-type memorandum
in which the Department directed that all future acquisition
contracts contain requirements for the protection of unclassified
Defense data maintained in DIB information systems. DCIS also redoubled efforts to examine intrusions into
contractor-administered DoD information systems for evidence of contract violations pertaining to insufficient
network security. One such case resulted in an administrative recovery of approximately 25 percent of a $5.1 million
information technology contract.

Identity Theft
On April 22, 2009, a former U.S. Army specialist pled guilty to aggravated identity theft resulting in a two-year
minimum confinement. The specialist was arrested while he was accessing a U.S. military member’s Defense Finance
and Accounting Service MyPay account from a publicly accessible computer at an area college. The joint DCIS and
Army Criminal Investigation Command investigation found the specialist, while serving as a finance technician in
Korea, used his position to access military Social Security numbers and MyPay account passwords to change direct
deposit bank accounts for more than 35 military members and attempted to divert more than $36,869 in payroll
funds to his bank account.

Illegal Transfer of Technology and Equipment
The DCIS Technology Protection Program is the agency’s fastest growing program and one of its most critical,
combating the threat posed to the warfighter and the nation concerning loss of critical technology. In 2009, DCIS was
involved in more than 424 technology protection investigations, to include investigations that led to the guilty plea



48
                                                                                        Semiannual Report to the Congress
Investigations


of subjects who stole and shipped high-grade military optics and other Defense articles to purchasers in the People’s
Republic of China and Iran.
	       DCIS recently joined a technology transfer task force hosted by the Air Force Office of Special Investigations
at Wright-Patterson Air Force Base, Ohio. DCIS also teams with the U.S. Immigration and Customs Enforcement,
National Export Enforcement Counter-Proliferation Network and ICE’s Operation Tech Defense to enhance
investigative efforts into the illegal export of restricted military technology.
	       DCIS continues to work with federal partners to garner intelligence to combat illicit technology transfer
and weapons of mass destruction proliferation activities. The United States faces an enemy that does not recognize
organizational boundaries or jurisdictional authorities. Through a collaborative process with federal partners, the DoD
IG can minimize duplicative efforts and provide for a safer America.

Attempt to Purchase Military-Grade Night Vision Technology
On July 1, 2009, the company manager of a science and technology business in Nanjing, People’s Republic of China,
was sentenced to 22 months incarceration by the U.S. District Court, District of New Jersey. The company manager,
a Chinese national, admitted to conspiring with others to purchase military-grade night visions technology from a
company in the United States and illegally export it to the PRC. The night vision technology he attempted to purchase
required a license from the Department of State for export. The United States maintains an arms embargo with PRC ,
and DoS policy is to deny permission for the export of Defense articles such as the night-vision technology he sought
to purchase. The company manager admitted he knew his conduct was illegal and was aware a license was required to
export the technology. The success of this case was due to a joint investigation between DCIS and ICE.

Exporting Dual-Use Aircraft Parts to Iran
On June 11, 2009, a former Romanian national and now a naturalized U.S. citizen was sentenced in Miami federal
court to 35 months imprisonment and three years of supervised release for his role in a conspiracy to illegally export
military and dual-use aircraft parts to Iran in violation of the International Emergency Economic Powers Act and the
Arms Export Control Act.
	        The Romanian national admitted that he used his corporation to sell aircraft parts to purchasers in Iran
and exported the aircraft parts to Iran by way of freight forwarders in Dubai, United Arab Emirates. Some of the
aircraft parts he illegally exported to Iran were designed exclusively for the F-14 fighter jet, Sikorsky CH-53E military
helicopter, and AH-1 Cobra attack helicopter as shown in the pictures below. All of these aircraft are part of the Iranian
military fleet, and the F-14 is now used exclusively by the Iranian military. All of the parts the Romanian national
supplied as part of the conspiracy are manufactured in the United States, designed exclusively for military use, and
have been designated by the U.S. Department of State as “Defense articles” on the U.S. Munitions List. The Romanian
national was not registered with DoS, and he did not possess the required licenses to ship Defense articles to Iran. This
was a joint investigation by DCIS, the Department of Commerce, and ICE.




                                                                                                                       49
April 1, 2009 to September 30, 2009
                                                              Accomplishments of the DoD IG


Illegally Exporting High-Tech Integrated Circuits to China
On August 3, 2009, a Beijing resident was sentenced to 40 months imprisonment for his role in exporting high-tech
integrated circuits with military applications to the People’s Republic of China. These high-tech integrated components
consisted of U.S. radar systems microcircuits and satellite communication components. The subject components are
categorized as “A3001,” a National Security Classification that restricts exportation to the PRC. The investigation
disclosed the Beijing resident, operated a company that engaged in the illegal exportation of these components to the
PRC. This was a joint investigation conducted by the Export and Anti-Proliferation Global Law Enforcement Task
Force with DCIS as a participating member.

Conspiring to Steal and Export High-Grade Optics
On June 1, 2009, two brothers, one a lance corporal and the other a former lance corporal with the U.S. Marine Corps,
were sentenced to a total of 26 months imprisonment in the U.S. District Court, Southern District of West Virginia,
after being convicted of knowingly and unlawfully conspiring to steal items from the U.S. Marine Corps and then
exporting the items through sales on eBay. These items were U.S. high-grade military optics, Defense articles subject
to restricted export controls and on the U.S. Munitions List, and were illegally exported to purchasers in Hong Kong,
Japan, and Taiwan. The conviction of the two brothers was the result of a joint DCIS, ICE, and NCIS investigation.

Homeland Security/Terrorism
The DoD IG continues to participate in Joint Terrorism Task Forces throughout the country and currently staffs
40 JTTFs on a full-time or part-time basis. Additionally, a full-time representative is assigned to the National Joint
Terrorism Task Force located at the National Counterterrorism Center, McLean, Va.
	        The JTTF concept is based on the premise that success against terrorism is best achieved through a collaborative
effort among federal, state, and local agencies. Cooperation blends the skills and resources of several agencies, enhancing
the capabilities of all involved. The mission of the JTTF is to detect, prevent, and respond to domestic and international
terrorist organizations that may threaten U.S. citizens or interests.


     Homeland Security
     DCIS special agents conducting an investigation.




	        The JTTFs have foiled attacks on the Fort Dix Army
base, N.J., at JFK International Airport in New York, and on
various military and civilian targets in Los Angeles, Calif. The
JTTFs have traced sources of terrorist funding, responded to
anthrax threats, halted the use of counterfeit identification, and
quickly arrested suspicious persons possessing a variety of deadly weapons and explosives.
	        The NJTTF brings together senior personnel from agencies representing the intelligence, law enforcement
(state, local, and other federal), and public safety communities. The NJTTF serves as a multi-agency information
collaboration and fusion center.
	        Creating JTTFs involves a costly investment of personnel and equipment; however, this initiative realizes
qualitative benefits in the form of improving interagency coordination and cooperation, sharing intelligence, and
obtaining arrests and convictions in counterterrorism investigations. The DoD IG will continue to support JTTFs in


50
                                                                                           Semiannual Report to the Congress
Investigations


an effort to reduce the threat of terrorist acts against DoD interests and furthering its mission of Protecting America’s
Warfighters.

Disclosing Classified Information
On April 3, 2009, a former U.S. Navy member was sentenced to 120 months imprisonment and three years supervised
release. This was a joint investigation conducted by DCIS, ICE, the FBI, the Internal Revenue Service - Criminal
Investigations Division, and the NCIS.
	        On March 7, 2007, the former Navy member was arrested in connection with allegations of providing material
support to a group promoting terrorism and delivering classified information to persons not entitled to receive it. In
March 2008, the former Navy member was convicted of disclosing classified information relating to national defense.
The former Navy member was an enlistee on active duty in the Middle East stationed aboard USS Benfold when he
allegedly made donations to a London-based organization known as Azzam Publications. Azzam advocated violent
jihad and terrorist attacks against the United States.
	        Additionally, other information indicated that the enlistee provided Azzam representatives with information
regarding the movements of a U.S. Navy battle group, whose mission included enforcing sanctions against the Taliban
and engaging in operations against Al Qaeda.

Possession of Machine Guns in Furtherance of a Crime of Violence
In April 2009, three of five defendants were sentenced to life in prison with an additional consecutive 360 months for
conspiracy to murder members of the U.S. military, possession of machine guns, and attempted possession of machine
guns for use in violent crimes.
	        A Philadelphia Joint Terrorism Task Force investigation revealed a terrorist plot to kill American service
personnel in Pennsylvania, New Jersey, and Deleware. The investigation involved recordings of the co-conspirators
discussing tactics, surveillance, plans for attacking U.S. military bases, killing military personnel, radical theology,
and hatred of America and support of jihad. Members of the terrorist group conducted surveillance at Fort Dix,
Fort Monmouth, and Lakehurst Naval Air Station, N.J.; Dover Air Force Base, Del.; and the U.S. Coast Guard in
Philadelphia, Pa.
	        One of the terrorists obtained a detailed map of Fort Dix, where they hoped to use assault rifles and rocket-
propelled grenades to kill as many soldiers as possible. The terrorism group also conducted small arms training at a
shooting range in the Pocono Mountains of Pennsylvania, conducted paint ball and tactical training in southern New
Jersey, and distributed terrorist training videos amongst themselves. The terrorist group obtained semi-automatic rifles,
semi-automatic pistols, a revolver, and shotgun. The co-conspirators further sought fully automatic weapons for the
attack on Fort Dix.

Conspiracy to Levy War Against the United States
In April 2009, an individual pled guilty to a charge of conspiracy to levy war against the United States through
terrorism. In August 2009, the same individual was sentenced to 70 months incarceration and three years supervised
release for his role in a terrorist plot against DoD facilities and personnel. Information developed during a Torrance,
Calif., police investigation found two individuals involved in armed robberies in the Los Angeles county area were also
involved in plans to attack U.S. military recruiting stations, California National Guard installations, and additional
civilian targets as part of a violent jihad against the U.S. government.
	        Further investigation revealed the individuals were leaders of a terrorist cell. One of them admitted he had
been recruited into a radical Islamist organization known as Jam’iyyat ul-Islam is-Shaheen (“Assembly of Authentic
Islam,” aka “JIS”) by its leader, Kevin Lamar James, while incarcerated at Folsom prison in California. He admitted
that James appointed him as the leader of that terrorist cell, and upon his release from prison, he was to recruit
additional members and carry out terrorist operations.


                                                                                                                      51
April 1, 2009 to September 30, 2009
                                                             Accomplishments of the DoD IG



Other Investigative Initiatives
Asset Forfeiture
The Department of Justice’s Asset Forfeiture Program is a nationwide law enforcement program that continues to be an
effective and powerful strategy in the fight against crime. The goal of the program is to employ asset forfeiture powers
in a manner that enhances public safety and security by removing the proceeds of crime and other assets criminals and
their associates rely on to perpetuate criminal activity. Asset forfeiture has the power to disrupt or dismantle criminal
organizations that would otherwise continue to function. DCIS is an active member of the DoJ asset forfeiture
program and since admission into the program in May 2007, successfully obtained court orders of final forfeiture for
approximately $148 million and an additional $43 million in seizures for forfeiture is pending.
	        DCIS obtained a court order of final forfeiture for approximately $23 million as result of a joint investigation
with the Federal Bureau of Investigation. The investigation disclosed an individual sold fraudulent and counterfeit
surety bonds using the names of legitimate authorized insurance companies to contractors as a form of insurance on
construction projects. These construction projects included the U.S. Navy, Federal Aviation Administration, and U.S.
Army Corps of Engineers. The forfeiture obligation was part of a criminal information and related plea agreement
filed against the defendant consisting of a money judgment for personally obtaining at least $22.5 million in proceeds
as a result of wire and mail fraud. The individual also forfeited assets in the form of conveyances and bank accounts.
Additional assets in the form of real property and conveyances are pending.

Undercover Program
DCIS has continued to use undercover operations to proactively combat terrorism, bribery, product substitution,
computer crimes, and the illegal exportation and theft of critical U.S. technology at an unprecedented rate. In FY 2009,
DCIS partnered with Immigration and Customs Enforcement, the Federal Bureau of Investigation, the Department
of Commerce, and National Aeronautics and Space Agency Inspector General utilizing 28 undercover operations
to infiltrate, investigate, and prosecute criminal organizations posing a threat to the Department. In this inaugural
year, from October 1, 2008, through August 31, 2009, undercover operations resulted in 42 spinoff investigations.
Investigations utilizing undercover operations resulted in 24 arrests; 46 criminal charges; 32 convictions; $323,682 in
restitution, fines, and penalties; 558 months imprisonment; 1,035 months of probation; $187,278 in forfeitures; and
more than $1.2 million in recovered government property.


     Undercover Program
     A DCIS special agent reviewing a taped conversation.




South Korea Office Opening
In September 2009, the DoD IG opened an investigative office
in Yongsan, South Korea. This initiative was a direct result of
DoD IG audit and investigative support to the $16 billion
project relocating United States Forces Korea troops from Seoul
to Camp Humphreys, South Korea. The DoD IG established a partnership with Criminal Investigations Command,
Ministry of National Defense, South Korea and hosted a visit by the KCIC Commander in July 2009. The outcome
was a memorandum of understanding formally establishing the ground breaking partnership.


52
                                                                                          Semiannual Report to the Congress
Administrative Investigations



                                Administrative Investigations
                                During this period, the DoD IG closed 504 investigations reinforcing its commitment to
                                enhancing public trust and confidence in DoD senior leadership and maintaining a robust
                                whistleblower protection program. The following highlight some cases and initiatives:
                                •	 Substantiated that the former Chief of Staff of the Air Force provided preferential
                                   treatment to a contractor, misused subordinates and government resources, and
                                   solicited and received gifts from a prohibited source.
                                •	 Co-sponsored a RAND study with the Office of Under Secretary of Defense (Personnel
                                   and Readiness) to review service adverse/reportable information processes and better
                                   facilitate the OSD senior uniformed officer nomination process.
                                •	 Substantiated findings that resulted in a Defense contractor employee, who was
                                   terminated in reprisal for filing an IG complaint, receiving a $25,000 settlement and
                                   having her erroneous employment record expunged.
                                •	 Substantiated that a law enforcement officer was reprised against for reporting
                                   violations of safety standards at a DoD facility charged with the storage and security
                                   of chemical weapons. Parties are currently mediating the substantiated findings.

                                Investigations of Senior Officials
                                The DoD IG promotes public trust and confidence in the integrity of senior leadership,
                                both civilian and military, in the Department. Investigations during this period covered
                                topics such as inappropriate relationships, inequities in the Base Realignment and Closure
                                process, and inaccurate testimony to Congress. Thirty percent of the open cases have
                                significant public or congressional interest.
                                	        On September 30, 2009, there were 252 ongoing investigations into senior
                                official misconduct throughout the Department, representing a 6 percent decrease from
                                March 31, 2009, when 267 open investigations were reported. Over the past six months,
                                the Department closed 239 senior official cases, of which 29 (8 percent) contained
                                substantiated allegations. Examples of corrective action included: removal from position,
                                reimbursement to the government, and failure to assess to the next highest rank.
                                	        As part of its responsibility to fully inform the President and the Senate Armed
                                Services Committee of adverse information concerning senior officials being nominated
                                for promotion, reassignment, or other action, the DoD IG processed over 425 requests—
                                totaling over 7,400 individual names—in the past six months. The confirmation process
                                relies on the accuracy of these name checks.

                                Military Reprisal Investigations
                                On September 30, 2009, the DoD IG had 423 open cases involving allegations of
                                whistleblower reprisal filed by military service members, Defense contractor employees,
                                and non-appropriated fund employees. About 75 percent of those cases are processed by
                                service IGs prior to being forwarded to the DoD IG for final approval.
                                	        During the reporting period, the DoD IG and the service IGs received 296
                                complaints of whistleblower reprisal and closed 243 cases. Of the 243 cases, 152 were
                                closed after preliminary analysis determined further investigation was not warranted
                                and 38 were closed after investigation. Of the 38 cases investigated, eight (21 percent)
                                contained one or more substantiated allegations of whistleblower reprisal.

                                                                                                                       53
April 1, 2009 to September 30, 2009
                                                              Accomplishments of the DoD IG


Examples of Substantiated Whistleblower Reprisal Cases
•	 An Army captain received an unfavorable officer evaluation report from his commander in reprisal for his protected
   communications to his chain of command. The captain alleged his commander inappropriately used a government
   vehicle and had an inappropriate relationship with a subordinate. Based on the findings, the captain’s commander
   received a general officer letter of reprimand for personal acts of misconduct and for professional dereliction of
   duty.
•	 An Army staff sergeant was removed as the Training Center Non-Commissioned Officer in Charge after he
   reported to his director that he would no longer perform illegal acts associated with “covering up” the director’s
   absences. The director claimed that he influenced the staff sergeant’s recall from the position because he did not
   have a final security clearance. However, the director knew, or should have known, that the staff sergeant did not
   have a clearance for two years due to administrative error, but did not take action until after the staff sergeant made
   his protected communication. As a result of the substantiated reprisal finding, the director was removed from his
   position and retired.
•	 A Navy senior chief petty officer was reprised against after he reported to his chain of command that his superior
   NCO did not comply with the unit’s physical fitness program. The superior NCO reported false information
   up the chain of command regarding the senior chief petty officer’s job performance and refused to assist him in
   completing qualifications to authorize aircraft as “Safe for Flight,” which resulted in the senior chief petty officer’s
   relief from duties and transfer. As a result of the substantiated reprisal finding, the superior NCO was detached
   for cause and retired.

Referrals for Mental Health Evaluations
The DoD IG closed 19 cases involving allegations of improper referrals for mental health evaluation during the
reporting period. Eleven (58 percent) of those cases substantiated that command officials and mental health care
providers failed to follow the procedural requirements for referring service members for mental health evaluations under
DoD Directive 6490.1, “Mental Health Evaluations of Members of the Armed Forces.” There were no substantiated
allegations of a mental health evaluation being used in reprisal for making a protected communication.

Civilian Reprisal Investigations
The DoD IG raised the awareness of DoD appropriated fund civilian employees’ whistleblower protections, specifically
within the intelligence community and ensured compliance with the Office of Special Counsel’s Section 2302(c)
whistleblower certification program.
	       On September 30, 2009, the DoD IG had 19 open cases and was providing oversight of two investigations
being conducted by Defense intelligence agencies. During the second half of FY 2009, the DoD IG advised on 34
intakes, accepted seven complaints for investigation, and closed three investigations. Twenty-seven percent of CRI
open cases concern intelligence or counterintelligence activities, and the remaining cases are focused on cases involving
procurement fraud sources.

Example of Substantiated Civilian Whistleblower Reprisal Cases
A law enforcement officer stationed at a chemical weapons depot was reprised against for reporting inappropriate
weapons handling and failure to follow safety procedures during a security drill involving chambered weapons. The
employee received a downgraded performance evaluation and, subsequently, was ineligible to receive a within grade
pay increase.




54
                                                                                           Semiannual Report to the Congress
Policy and Oversight



                                  Policy and Oversight
                                  This section highlights policy and oversight programs and inspections in the several
                                  areas of focus, such as:
                                  •	 Disclosure Programs
                                  •	 Other Oversight Initiatives

                                  Disclosure Programs
                                  Voluntary Disclosure Program
                                  The DoD Voluntary Disclosure Program, which has been superceded by the Contractor
                                  Disclosure Program as of December 2008, provides incentives for federal contractors
                                  to voluntarily disclose to government authorities potential civil or criminal violations.
                                  Over $4.2 million was recovered this period from previously reported disclosures; 24
                                  disclosures remain open. The following presents details regarding recoveries:
                                  •	 A major Defense contractor disclosed that seven direct commercial contract sales
                                      were improperly approved for foreign military finance funding because either items
                                      were not manufactured and assembled in the United States or because U.S. content
                                      in those sales was less than the 51 percent required. As a result, the company was
                                      required to remit $2,238,000 to the government of Israel’s Foreign Military Finance
                                      Trust Fund Account.
                                  •	 A major Defense contractor disclosed that two task order contracts, involving
                                      information technology support services to the Army, showed overcharges for labor
                                      costs. The investigation revealed that employees submitted fraudulent time cards for
                                      overtime. The Department of Justice and the company reached a final settlement of
                                      $1,933,080.

                                  Contractor Disclosure Program
                                  The Federal Acquisition Regulation requires federal contractors and subcontractors to
                                                      disclose to the DoD IG violations of criminal law and of the civil
                                                      False Claims Act in connection with their contracts, or face potential
                                                      suspension and/or debarment. Contractors made 73 disclosures
                                                      to the DoD Contractor Disclosure Program since the program’s
                                                      inception in December 2008. Program management established
                                                      a coordinated processing system that affords federal and Defense
                                                      agencies immediate access to disclosures. This processing system has
                                                      resulted in timely remedies and prompt initiations of investigations
                                                      when deemed appropriate. 	
                                                      	 Currently, the program emphasizes contractor compliance and
                                                      notice to the government of criminal violations and the impact
                                                      on the affected DoD procurements. Most disclosures are handled
                                                     administratively; however, the Department of Justice opened three
                                  matters and referred seven disclosures to the servicing Assistant United States Attorney
                                  Offices. Timely contractor notice and prompt government resolution are the Contractor
                                  Disclosure Program’s basic tenets.



                                                                                                                         55
April 1, 2009 to September 30, 2009
                                                             Accomplishments of the DoD IG



Other Oversight Initiatives
Evaluation of the DoD Voting Assistance Program
Section 1566, Title 10, United States Code, “Voting assistance; compliance assessments; assistance,” as amended,
requires that the inspectors general of the Army, Navy, Marine Corps, and Air Force conduct an annual review of the
effectiveness of voting assistance programs and compliance with voting assistance programs of their respective service.
The statute also requires that the DoD IG submit to Congress a report on the effectiveness of and level of compliance
with voting assistance programs.
	        The service inspectors general reported that their programs were effective and in compliance with DoD
regulations and public law. The oversight programs of the Federal Voting Assistance Program office and the services
continue to evolve, presenting opportunities to improve the effectiveness and compliance aspects of the Voting
Assistance Program. For example, in 2008, FVAP managers established a program metrics tool to measure effectiveness
and compliance. The data collected for these metrics serve to describe program activities and sets the baseline for
examining the program going forward. Furthermore, the results of the services’ surveys provide the indicators and
targets for program improvement. Service inspectors general provided detailed service-wide compliance reporting in
all five compliance focus areas identified in DoD Directive 1000.04, “Federal Voting Assistance Program,” April 14,
2004. As an additional cross-check on program management, the combatant command inspectors general reported
that the services’ voting assistance programs in their areas of operations were effective and compliant. (Report No. IE-
2009-005)

Fraud Prevention and Detection 2009 Conference


     Fraud Conference
     Honorable Thomas M. Davis III, former Chairman of the House
     Committeee on Government Reform, delivers the keynote
     address.



The DoD IG educates DoD personnel about fraud, to include
hosting a fraud conference in partnership with the DoD
Panel on Contracting Integrity and the Defense Acquisition
University. The DoD IG facilitated the conference at the
Defense Acquisition University, Fort Belvoir, Va., from June 1
to 3, 2009. Over 320 auditors, investigators, attorneys, and acquisition
and contracting personnel from more than 60 organizations participated in the conference.

Follow-up Review on DCAA
At two Defense Contract Audit Agency Western Region offices, DCAA employee concerns with time pressures,
uncompensated overtime, changes to audit results and opinions, and unprofessional behavior created a work
environment that was not conducive to performing quality audits. External impairments to auditor independence
caused a regional DCAA audit manager to direct a flawed audit and change the audit results, allowing a contractor
the ability to recover $271 million in unallowable costs. Because of the flawed audit, DCAA initiated new corrective
audits, the Air Force Space and Missiles Systems Center suspended future contract payments, and the DCAA took



56
                                                                                         Semiannual Report to the Congress
Policy and Oversight


actions to reassess certain advance agreements. Additionally, DCAA provided ineffective audit advice and services to a
contracting officer; four audits contained insufficient evidence to adequately support overall opinions or conclusions,
including the reason why certain findings were dropped; and one audit report was not appropriately qualified. The
DoD IG recommended additional improvements to DCAA audits in six other cases. (Report No. D-2009-6-009)

Audits of Cost Accounting Standards and Internal Control Systems at DoD
Contractors Involved in Iraq Reconstruction Activities
Defense Contract Management Agency contracting officers did not adequately justify their actions on two DCAA audit
reports of potential cost accounting standard noncompliances and one audit report of accounting system deficiencies. In
addition, a contracting officer did not adequately coordinate with DCAA in responding to reported estimating system
deficiencies. DCMA Philadelphia and Houston were not timely in processing reported cost accounting standard non-
compliances in accordance with FAR 30.605, and did not accurately report contract audit follow-up data. DCMA
oncurred with the recommendations. (Report No. D-2009-6-004)

Hotline Complaint Regarding the Actions by a Contracting Officer at the
Defense Contract Management Agency East Hartford Office
Allegations that a contracting officer had been untimely when acting on contract audit reports, failed to take any action
on one significant contractor estimating system deficiency, and did not prepare an adequate negotiation memorandum
were substantiated. In seven instances, the contracting officer also had not demonstrated a sufficient understanding of
federal and DoD acquisition policies, in one case resulting in a failure to assess approximately $466,000 in interest that
was due the government. Finally, the contracting officer did not maintain accurate records of contract audit follow-up
data included in the DoD IG Semiannual Report. DCMA concurred with the report findings.(Report No. D-2009-
6-008)

Report on the Review of the Department of Military and Veterans Affairs Single
Audit for the Audit Period October 1, 2005 to September 30, 2007
The Auditor General, State of Michigan, did not perform an adequate audit of the National Guard Operations
and Maintenance and the Civilian Youth Opportunities cooperative agreements. DoD expenditures were $129.1
million for the audit period. The Department of Military and Veterans Affairs failed to identify the National Guard
Military Construction Cooperative Agreement awards in the Schedule of Expenditures of federal awards. The Auditor
General audit procedures also failed to identify this program and, as a result, did not evaluate or test program internal
controls and compliance with laws, regulations, and agreement terms and conditions. Based on information provided
by the National Guard, the DoD IG estimated military construction expenditures of $47.5 million for the audit
period. The audit of the Operations and Maintenance program was inadequate because the auditors did not have
sufficient evidence to support the audit opinion that the Department of Military and Veterans Affairs complied with
all significant regulations and agreement terms and provisions.
	        The Department of Military and Veterans Affairs and the Office of the Auditor General non-concurred with
the recommendation to prepare and submit the financial statements required under the Single Audit Act Amendments
of 1996. The Office of the Auditor General concurred with the findings and recommendations to perform additional
audit procedures and to re-issue the single audit report for the period October 1, 2005, through September 30, 2007.
The Department of Military Affairs agreed to identify the single audit costs as unallowable pending the state auditor’s
performance of additional audit procedures to correct the cited deficiencies. (Report No. D-2009-6-005)




                                                                                                                       57
April 1, 2009 to September 30, 2009
                                   Accomplishments of the DoD IG



     Intelligence
     DoD IG intelligence efforts include auditing, evaluating, monitoring, and reviewing
     the programs, policies, procedures and functions of the Intelligence Enterprise, Special
     Access Programs and Nuclear Surety Issues within the Department of Defense. This
     section highlights intelligence reports issued by the DoD IG in the following areas of
     focus:
     •	 Acquisitions and Contract Management
     •	 Nuclear Enterprise
     •	 Significantly Improve Intelligence Capability
     •	 Information Security and Privacy

     Additional details can be found in the Classified Annex to this Semiannual Report.

     Acquisitions and Contract
     Management
     Audit of Issues Related to the Modifications of the Joint
     Air-to-Surface Standoff Missile
     The audit was in response to a DoD Special Access Program Central Office request to
     evaluate the execution of modifications to the Joint Air-to-Surface Standoff Missile.
     DoD IG made recommendations to the Director, DoD SAPCO; the Director, Air Force
     SAPCO; the Commander 308th Armament Systems Group; and the Commander,
     Global Positioning System Wing. The report dealt with security and contracting issues.
     (Report No. 09-INTEL-09)

     Summary Report of FY 2008 Inspections on Security,
     Technology Protection and Counterintelligence
     Practices at DoD Research, Development, Test and
     Evaluation Facilities
     This annual report provides summaries of inspection results from the service Inspectors
     General inspection of technology, security and protection of DoD research, development,
               test and evaluation facilities and, where available, notes the best practices of
                participating Inspectors General. (Report No. 09-INTEL-14)

                Nuclear Enterprise
                Status of Recommendations to Improve the Air
                force Nuclear Enterprise
                This report was one of a multi-phased approach to respond to concerns
                raised by Senate Armed Service Committee Chairman Carl Levin and
                Ranking Member John McCain in an April 18, 2008, letter to the DoD
                Inspector General. The concerns addressed a flight from Minot Air Force



58
                                                                Semiannual Report to the Congress
Intelligence


Base, N.D. to Barksdale Air Force Base, La., that mistakenly carried nuclear warheads.The DoD IG found that the
Air Force is addressing all recommendations in three reports: the “Defense Science Board Report on the Unauthorized
Movement of Nuclear Weapons;” the “Air Force Blue Ribbon Review of Nuclear Weapons Policies & Procedures;”
and the “Commander Directed Report of Investigation Concerning an Unauthorized Transfer of Nuclear Warheads
between Minot AFB, North Dakota and Barksdale AFB, Louisiana.” The Air Force closed 74 of the 107 unclassified
recommendations. The Air Force is making progress in re-invigorating its nuclear weapons enterprise. Key actions
include two new command structures, and increased emphasis on nuclear maintenance and management. (Report
No. 09-INTEL-11)

B61 Nuclear Weapon Use-Control
The DoD IG evaluated the policies, practices, plans, and capabilities for security and control of U.S. nuclear weapons.
This report addresses issues related to the Nuclear Enterprise management challenge. (Report No. 09-INTEL-12)

Significantly Improve Intelligence Capability
Evaluation of DoD Polygraph Support to U.S. Special Operations Command
The DoD IG recommended that the Under Secretary of Defense for Intelligence USD(I) publish DoD-level guidance
detailing DoD policy regarding quality control and records maintenance. The USD(I) concurred. The report also
recommended that the Commander, USSCOM ensure that personnel receive recurring and systemic training. The
Commander, USSOCOM concurred. (Report No. 09-INTEL-06)

Report on Review of the President’s Surveillance Program
The DoD IG issued a report in response to a congressional mandate of the FISA Amendments Act of 2008, which
required a review of the President’s Surveillance Program. Former President Bush authorized the President’s Surveillance
Program, which is defined as the intelligence activity involving communications for the period beginning on September
11, 2001, and ending on January 17, 2007. The President’s Surveillance Program included the Terrorist Surveillance
Program, which the President referred to in a radio address on December 17, 2007. The DoD IG report highlighted
the depth of the DoD’s involvement the President’s Surveillance Program. This report was published in a government
inspectors general capstone report. (Report No. 09-INTEL-08)

Inspection of a USD(I) program
Refer to the Classified Annex of this Semiannual Report for more details. (Report No. 09-INTEL-14)

Information Security and Privacy
Information Technology Portfolio for DoD Intelligence Databases
The audit of Office of the Under Secretary of Defense for Intelligence identified did not have an information technology
portfolio. OUSD(I) also did not fully establish control mechanisms to identify duplication of systems, facilities,
and services; identify gaps and opportunities for technology insertions; ensure information collected, stored, and
disseminated were properly maintained; and that all available information was available to make informed decision
concerning acquisition program. (Report No. 09-INTEL-07)

DoD Intelligence Agencies’ FY 2009 Report on the Security Status of the Federal
Information Security Management Act
Refer to the Classified Annex of this Semiannual Report for more details. (Report No. 09-INTEL-10)


                                                                                                                     59
April 1, 2009 to September 30, 2009
                                                                                                    Accomplishments of the DoD IG


                                                                                Defense Hotline
                                                                                The Defense Hotline continues its primary mission of providing a confidential
                                                                                and reliable vehicle for military service members, DoD civilians, contractor
                                                                                employees, and the public to report fraud, waste, mismanagement, abuse of
                                                                                authority, threats to homeland security and leaks of classified information.
                                                                                	        The Defense Hotline is operational Monday through Friday from
                                                                                8:00 a.m. to 5:00 p.m., and is staffed by 16 full-time DoD IG employees,
                                                                                who examine and evaluate allegations pertaining to Department of Defense
                                                                                programs and operations. Complaints may also be submitted to the Hotline
                                                                                24 hours a day via the Internet and e-mail.
                                                                                	        During this reporting period, the Defense Hotline received 7,421
                                                                                contacts from the public and members of the DoD community: 26 percent
                                                                                by U.S. mail, 33 percent received by e-mail, 24 percent through the Hotline’s
                                                                                Web page, 10 percent from the Government Accountability Office, 4 percent
                                                                                by telephone, and 3 percent from congressional inquiries. Based on these
                                                                                contacts, the Hotline initiated 1153 cases.
                                                                                	        In an effort to increase the ability of the military, contractors, and
                        ,
                    aud                                                         civilians in the Southwest Asia region to report allegations of fraud, waste, and
         p o r t: Fr buse
      Re         nd A
      Was
          te, a                                                                 abuse, the DoD IG has a toll-free Defense Hotline number for the exclusive
                                                                                use of personnel stationed in the region: 1-877-363-3348.
          Defense Hotline                                                       	        The Hotline closed 909 cases this reporting period. Investigations
                 1-877-363-3348
                                                                                initiated exclusively by the Hotline returned $752,659 to the federal
                                           Protect the Total Force              government during this reporting period.
     Military        *        Contractors               *     Civilians
                                                                                	        Each year the Hotline works with the DoD Standards of Conduct
      Contact the Department of Defense                                         Office in selecting cases involving individuals who have intentionally or
                                                                                unwittingly violated the standards of conduct. The Standards of Conduct
             Inspector General Hotline
 DSN: 312-664-1151       Email: hotline@dodig.mil       www.dodig.mil/hotline
                                                                                Office uses these cases as training tools.

                          Send written complaints to:
                               Defense Hotline
                                The Pentagon
                          Washington, DC 20301-1900                                               Distribution of Referrals


            Department of Defense
           Inspector General Hotline                                                     1% 1%
                     1-877-363-3348                                                12%
                                                                                                        23%
          Protect the Total Force                                                                                                  DoDIG
                                                                                3%
                                                                                                                                   UNIFORM SVCS
                                                                                                                                   OSD
                                                                                                                                   DEFENSE ACTIVITIES
                                                                                                                                   NONDOD
 Military                    Contractors                        Civilians
Report: Fraud, Waste, and Abuse
                                                                                                                                   TRICARE
                         Send written complaints to:
                              Defense Hotline
                               The Pentagon
                                                                                        60%
                         Washington, DC 20301-1900

DSN: 312-664-1151     Email: hotline@dodig.mil www.dodig.mil/hotline




60
                                                                                                                                 Semiannual Report to the Congress
Other Department of
Defense Oversight
                                                                                Other DoD Oversight



Army                                                         	        USAAA found the Army and Marine Corps
                                                             quickly identified and met an urgent in-theater need
                                                             for the MRAP vehicle system to fill capability gaps
Army Audit Agency                                            encountered by the up-armored HMMWVs. However,
To accomplish its mission, the Army Audit Agency             the Army could make the most of the MRAP vehicle
relies on a workforce of highly trained professional         system by:
auditors, many with advanced degrees and professional        •	 Developing a long-range plan for the vehicle after
certifications. USAAA’s staff consists of approximately          its current mission in theater and make the vehicle
600 employees and is organized into 17 functional audit          system a program of record.
teams that provide audit support to all aspects of Army      •	 Further assessing the vehicle’s impact on and adjust
operations.                                                      in-theater HMMWV requirements; a one-for-one
	        USAAA also maintains a significant presence in          (MRAP for UAH) replacement ratio will save the
the Central Command area of responsibility assisting             Army $620 million over three years.
Army commanders. At the end of September 2009, it had        •	 Planning for the displacement or disposal of
24 deployed auditors in Iraq, Kuwait, and Afghanistan.           HMMWVs replaced by MRAP vehicles.
Overall, USAAA has deployed over 140 auditors since          •	 Determining to what extent the mission of the
2002 and issued more than 100 reports on Operation               MRAP overlaps with the mission and requirements of
Enduring Freedom/Operation Iraqi Freedom.                        the future joint light tactical vehicle and incorporate
	        USAAA’s goal is to be a highly sought after and         these changes in tactical vehicle fleet mix in its tactical
an integral part of the Army by providing timely and             wheeled vehicle strategy.
valued services that improve the Army by doing the right
audits at the right time and achieving desired results. To
ensure its audits are relevant to the needs of the Army,
USAAA prepared its Strategic Audit Plan to align its audit
resources with the Army’s four imperatives:
•	 Sustain the Army’s soldiers, families, and civilians.
•	 Prepare soldiers, units, and equipment to succeed in
     complex 21st century security environments.
•	 Reset forces and rebuild readiness for future
     deployments and contingencies.
•	 Transform and meet the needs of combatant
     commanders.
During the second half of FY 2009, USAAA published
over 100 reports, made over 400 recommendations, and
identified over $1 billion in potential monetary benefits
agreed to by Army activities. The following paragraphs
describe a few of USAAA’s significant reports.                         A mine resistant ambush protected vehicle.

Effect of Mine Resistant Ambush
Protected Vehicle upon Tactical
Vehicle System Requirements                                  USAAA reviewed the strategy to transport MRAP vehicles
USAAA performed the audit to determine if the Army           to the Iraq/Afghanistan theater. The three weeks time saved
adequately planned, assessed, and adjusted requirements      did not justify cost of airlift. USAAA briefed its results to
for new and existing vehicle systems impacted by the         Army and USCENTCOM personnel, who took action
acquisition and deployment of the MRAP vehicle               to discontinue airlifting vehicles. By discontinuing airlift
system.                                                      in favor of sealift, the Army saved about $254 million

62
                                                                                           Semiannual Report to the Congress
U.S. Army


through December 2008. (Report No. A-2009-221-ALA,           Stewart. The installation made significant progress in
FOUO)                                                        achieving utility and energy goals. Although the garrison
                                                             did not implement all recommendations USAAA reviewed,
Army Acquisition Objective                                   its actions to date and those in process locally and Army
USAAA conducted this audit based on concerns of the wide will fix the problems the original report identified.
Offices of the Assistant Secretary of the Army (Acquisition, The energy conservation measures installed to date have
Logistics and Technology) and Deputy Chief of Staff, reduced energy consumption by about 18 percent. The
G-3/5/7 regarding how the Army was setting the AAO original report also identified potential monetary benefits
for materiel during a time of war. The process had been of $18.3 million through FY 2014 if Army implements
inconsistent and complicated by wartime needs. The audit energy conservation measures that USAAA recommended.
showed that the Army did not have a deliberate, orderly Although the installation encountered contract delays and
process to identify and adjust its AAO requirements to a reduction in the number of buildings that will receive the
account for wartime needs. The Army’s process did not energy initiatives, the garrison should still achieve benefits
include key AAO components in the calculations, such as of about $11.5 million. (Report No. A-2009-128-ALO)
war reserve stocks and maintenance float.
	        The Army also did not properly update AAOs and Military and Family Counseling Service
did not adequately document initial AAO and adjustment Contract - U.S. Army Family and Morale,
decisions. These AAO issues existed because:                 Welfare, and Recreation Command
•	 Detailed standard operating procedures for USAAA initiated this audit because of FMWRC concern
     determining, updating and documenting AAOs did over the cost-effectiveness of Army MWR funds spent to
     not exist.                                              supplement this DoD-wide contract. The Army received
•	 Responsibility for ownership of the AAO process was informal counseling services from military and family life
     not clearly defined in guidance.                        consultants under the DoD contract, valued at about $300
•	 The Army claimed that production could not develop million. In the second half of FY 2009, USAAA issued
     enough materiel to stock war reserve supplies.          its Fort Benning, Ga. site report and its final summary
•	 There was no clear mechanism for triggering AAO report on this audit, which was the culmination of work
     updates in approved Army guidance.                      at Department of the Army and at three sites (USAAA
•	 There was no guidance requiring the establishment of published reports on Forts Hood and Lewis, Texas in the
     an official AAO and the process to be documented.       first half of FY 2009).
Without an effective and reliable AAO process, the 	                  Counseling services generally improved with the
Army could not accurately represent the complete, hiring of military and family life consultants. MFLCs
unconstrained requirements for budgetary purposes. were integrated into installation programs, used to train
In addition, the modernization and future readiness staff members, and provided non-attribution counseling
levels of Army units could be at risk. The Army agreed to soldiers and family members. However, the Army
with USAAA’s recommendations to correct these issues. sometimes did not have clear administrative procedures
(Report No. A-2009-0233-ALA)                                 for assigning new MFLCs to a garrison and removing
                                                             MFLCs who did not meet the garrison’s needs. USAAA
Follow-up Audit of Garrison Utilities made recommendations to correct these problems, to
and Energy Services, Fort Stewart and which FMWRC and ACSIM agreed. In addition, while
Hunter Army Airfield, Georgia                                the garrisons effectively used funds the Army provided to
The Army spends over $1.2 billion annually for energy hire additional MFLCs, the Army did not have a method
operating costs at its installations. In 2004 and 2005, to measure return on investment from the services
USAAA conducted a series of audits that recommended MFLCs provided. USAAA recommended that FMWRC
efficiencies in garrison utilities and energy services. In develop a metric for assessing the effectiveness and use of
FY 2009, USAAA conducted a follow-up audit at Fort services provided by MFLCs. FMWRC agreed and said



                                                                                                                   63
April 1, 2009 to September 30, 2009
                                                                                   Other DoD Oversight


they would work with OSD and the contracting officers’           Contract for Program Management
representative for the MFLC program to accomplish this.          Services, U.S. Army Corps of Engineers,
The DoD also provided the contract administration for            Far East District, South Korea
the military and family counseling service contract at           The audit was one of a series completed in response to the
Army garrisons.                                                  Commanders’, U.S. Forces Korea and Eighth U.S. Army
	        Although the Army financed almost $24 million           request that USAAA determine if the Army has effective
in FY 2007 and FY 2008 to hire additional consultants            controls in Korea to acquire and manage the infrastructure
to support family readiness requirements, it did not have        that it needs to transform. Most commands and activities
visibility over how the funds were used. Because USAAA           will relocate south of Seoul to Garrison Humphreys and
scope was limited to the quality and need for services           substantially reduce the overall Army footprint in South
provided to Army soldiers and families, USAAA could              Korea, even though Garrison Humphreys will nearly triple
not make assertions or conclusions on invoicing, billing,        in size (from about 1,200 acres to more than 3,500 acres)
and payment procedures for a DoD contract. (Report               to accommodate 25 million square feet of facilities.
No. A-2009-177-ALO)                                              	        On this audit, USAAA evaluated management
                                                                 of the contract used to provide program management
Follow-up Audit of Use of Role-                                  services for the Korea Relocation Program. The Korea
Players at the Joint Multinational                               Relocation Program facilitates the Army’s transformation.
Readiness Center                                                 The Republic of Korea and private investments will fund
Joint Multinational Readiness Center implemented all             most new construction, totaling over $12 billion. USAAA
recommendations in USAAA’s report and its actions                found that the U.S. Army Corps of Engineers, Far East
corrected the reported conditions. Specifically, JMRC            District had adequate procedures for submitting invoices
reduced contract requirements, improved its quality              and reviewing contractor personnel’s invited status. FED
assurance surveillance plan, developed standing operating        also had an adequate award fee plan to assess performance
procedures, and implemented controls to better monitor           and determine the award-fee amount. However, the
and track role-player performance and attendance. U.S.           award-fee evaluation process needed improvement and
Army Expeditionary Contracting Command, Europe                   FED took corrective actions during the audit. Further,
also recouped overpayments made to the contractor.               FED took steps to reduce risk by involving the Defense
These actions resulted in monetary benefits totaling about       Contract Audit Agency. USAAA did find problems with
$9.4 million, exceeding the estimate of $8.9 million from        contractor’s surveillance and invoice review activities.
the original report. (Report No. A-2009-0170-ALE,                Specifically:
FOUO)                                                            •	 A written contract surveillance plan to ensure that the
                                                                      Program Management Consortium fulfilled contract
                                                                      requirements was not established.
                                                                 •	 Periodic surveillance did not always occur and
                                                                      documentation to support the surveillance activities
                                                                      that were done was not available.
                                                                 •	 Invoice reviews were not timely, and supporting
                                                                      documentation was not provided.
                                                                 The contractor was paid about $1.4 million in labor,
                                                                 travel, mobilization, and other direct costs that were
                                                                 unallowable, questionable or unsupported on the
                                                                 invoices USAAA reviewed. FED took action to address
                                                                 some of these costs, but will need to review remaining
                                                                 invoices to verify that costs are reasonable and supported.
 U.S. Army soldiers practice patrol procedures during training   Overall, USAAA made 11 recommendations to improve
        at the Joint Multinational Readiness Center.             contract oversight, control quality and costs, and recoup

64
                                                                                             Semiannual Report to the Congress
U.S. Army


overpayments. Follow on audits of Garrison Humphreys’ structured the audit as a multi-location audit performed
master plan and construction oversight activities are at Headquarters, DA; Army Program Evaluation Groups;
ongoing. (Report No. A-2009-0200-FFP, FOUO)                   and other commands and activities.
                                                              	       In September 2009, USAAA issued its final
Managing “The Edge” of the Network: summary report on this audit. It reported that the Army
Enterprise Control Over User                                  did an adequate job of identifying requirements in the FY
Operations on the LandWarNet                                  2010 to FY 2015 POM. However, the process that five of
USAAA evaluated whether the Army had a process in the six PEGs used to determine critical requirements was
place to achieve its vision of enterprise management and not fully transparent, and in many cases, requirements
control over how new or existing technologies could be were not classified as critical if supplemental funds were
added to the LandWarNet. USAAA concluded that the available. USAAA also identified that Army did not fully
Army continues to struggle to gain control over end users consider enduring requirements totaling as much as $108
as they operate on the outermost “edge” of the network. billion (FY 2010 to FY 2015) while building the FY 2010
This was primarily because the Army has been unable to to FY 2015 POM. These conditions occurred primarily
gain complete control and visibility of its network and to because of conflicting and changing DoD guidance and
manage it as an enterprise. The Office of the CIO/G-6 had the Army’s continued reliance on the supplemental funds.
many ongoing initiatives designed to gain greater control Additionally, the Army needed greater transparency and
over what should be allowed to operate on the network. better criteria for identifying incremental costs of war
However, without complete visibility and control over the to be included in Overseas Contingency Operations
entire network, the office has not been able to enforce requests and for those enduring requirements that need
compliance with its initiatives. Personnel at the user level, to migrate to the base budget. If Army implements
or the outermost “edge” of the network, have been able the recommendations in the report, it can better make
to add technologies to the network with impunity. This its case for increases in base budget funding, and make
has caused vulnerabilities to the network, inconsistent more informed and transparent decisions on where to
implementation, and poor network planning.                    take additional risks. (Report No. A-2009-188-FFM,
	        The recent development of the Global Network FOUO)
Enterprise Construct should help CIO/G-6 gain the
necessary enterprise control of the edge of the network. Follow-up Audit of Management of the
The Global Network Enterprise Construct is a concept Army’s Pollution Prevention Program
in which the Army will use theater-based network service USAAA followed up on corrective actions the Commander,
centers—including CONUS—to improve effectiveness, U.S. Army Installation Management Command took to
close capability gaps, realize savings through more efficient implement recommendations addressed in a 2005 audit.
operations, and establish enterprise-level governance and The original audit showed that the Army’s Pollution
oversight. While this construct is an important catalyst, Prevention Program was not fully effective to achieve
it will require sustained support among leaders in both program goals and objectives. Many installations spent
operational and institutional organizations to achieve their scarce resources on salaries and studies to identify
true enterprise control of the edge of the LandWarNet. ways to reduce, conserve, or recycle pollutants. Also,
(Report No. A-2009-0140-FFI)                                  many P2 initiatives identified as having a cost benefit,
                                                              return on investment, or mission enhancement were not
Assessing Army’s Future Base Budget executed. A limited review showed that the Army could
Requirements                                                  have achieved at least $44.9 million in environmental and
USAAA initiated this audit to assess the impact of costs benefits by updating existing P2 plans in-house and
assumptions and decisions on the future base budget, investing in viable P2 projects.
and to evaluate the risk associated with the FY 2010 to 	             USAAA concluded that the actions the command
FY 2015 Program Objective Memorandum. USAAA took fixed part of the previously reported problem and



                                                                                                                    65
April 1, 2009 to September 30, 2009
                                                                                Other DoD Oversight


the Army realized some monetary benefits. The command      Readiness of Modular Units – Army
                                                           National Guard
issued policy in July 2008 directing installations to use in-
house personnel to update its P2 plans. USAAA estimated    USAAA reported that although the Army National
the Army would realize about $456,000 in monetary          Guard completed the conversion of its modular units in
benefits. However, the command did not implement the       FY 2008, the modular units reviewed did not have the
second part of the recommendation to direct installations  skilled personnel or equipment necessary to adequately
to implement viable P2 initiatives because projected       fulfill their federal mission. The Army National Guard
funding was only available for essential and legally       had pre-existing personnel and equipment shortages that
required environmental requirements. USAAA concluded       were carried forward when it formed its modular units.
that the recommendation was overcome by events due to      This resulted in the units having to cross-level personnel
implementation of Common Levels of Support and the         and equipment from other units to mobilize and deploy.
Army’s new Environmental Sustainability Strategy. These    Continuous cross-leveling decreases unit cohesiveness,
new initiatives impact how the Army will fund the P2       affects soldier dwell times, and causes further cross-leveling
in the future. The Army also conducted follow-up P2        to meet future requirements. It was also reported that
assessments at Fort Bragg and Fort Bliss and these actions trainees filled about 14 percent of the units’ authorized
fixed the previously reported condition. (Report No.       positions. This limited recruiting efforts and burdened
A-2009-0209-FFE)                                           the units with untrained non-deployable soldiers.
                                                           	        Further, the units had significant excess equipment
Proliferation of the Wide Area                             on-hand and received new equipment they were not able
Workflow System                                            to properly store and maintain because they did not have
 USAAA conducted this audit to evaluate the proliferation updated fielding information and the Guard did not
of the Wide Area Workflow, a Web-based process that properly consider facility requirements when it fielded the
creates and maintains invoices and receiving reports. equipment. USAAA made six recommendations to the
WAWF is part of the DoD electronic commerce initiative Deputy Chief of Staff, G-3/5/7 and the Army National
to pay vendors in a timely manner and reduce payment- Guard to address these issues and improve the readiness of
processing costs. For FY 2008, the goal of the Joint its National Guard units. Both commands agreed with the
Requirements Board and the Army was to process 75 recommendations and initiated or completed corrective
percent of the vendor payments as WAWF payments. actions. (Report No. A-2009-0211-FFS, FOUO)
USAAA reported that the Army did not meet its WAWF
implementation goal in FY 2008. This occurred primarily Requirements for Mobilized Soldiers
because there was no single organization responsible for USAAA reviewed the requirements for soldiers mobilized
the implementation.                                        and activated in support of contingency operations
	        The WAWF system significantly reduces the outside of theater. The Army had about 20,000 soldiers
Army’s payment processing costs charged by the Defense in this status during the review (both voluntary and
Finance and Accounting Service. USAAA believes that involuntary). USAAA reported that for the most part
an appointment of a responsible organization, system mobilized soldiers continued to have valid mission essential
upgrades, increased WAWF role training, and changes to requirements to support contingency operations outside
some factors in the external WAWF environment would of theater; however, the Army lacked a clear definition
allow the Army to meet its implementation goals. If Army of requirements that were valid and a process for Army
implements the recommendations in the report, it can organizations to validate the requests.
achieve its desired goal of processing at least 75 percent 	        USAAA found that some soldiers were performing
of its payments using WAWF. This would result in lower duties that were not mission essential to contingency
transaction fees and could save about $36 million over the operations, other soldiers were not performing duties for
next six years. (Report No. A-2009-0100-FFM)               which they were mobilized, and others were performing
                                                           enduring requirement duties that would be necessary



66
                                                                                          Semiannual Report to the Congress
U.S. Army


even if contingency operations ceased. Overall, the Army      Sustaining Left-Behind Equipment, U.S.
did not have an accurate picture of its requirements for      Army Sustainment Command
mobilized soldiers outside of theater and may not be          This audit focused on the Army Sustainment Command’s
making optimal use of soldiers considering the current        processes for managing left-behind equipment to determine
demands on the Operating Force.                               if the processes supported the Army’s equipment needs.
	        Additionally, the continued use of mobilized         The audit addressed three key phases of the LBE cycle--
soldiers may not be the best force structure option for       induction, maintenance, and lateral transfers. The mission
meeting these contingency requirements. USAAA found           to manage LBE originated when the Army deployed in
that 51 percent of the requirements reviewed could be         2003 for Operation Iraqi Freedom. Because prepositioned
effectively performed by civilian or contractor personnel     assets were available in theater, units did not need to take
at a lower cost and in the future could offer a more          all of their equipment and they left equipment at home
long-term or permanent solution for meeting mission           stations.
needs than using mobilized soldiers. USAAA made 10            	        ASC issued guidance to manage LBE and Army
recommendations to the Deputy Chiefs of Staff for G-1         activities effectively followed the guidance. However, the
and G-3/5/7 to improve the use of mobilized soldiers          program did not prioritize critical equipment during
for requirements outside of theater. Both commands            the induction, technical inspection, and maintenance
agreed with the recommendations and initiated corrective      processes to help alleviate equipment shortages. About 20
actions. (Report No. A-2009-0212-FFS)                         percent of the LBE inventory were critical items requiring
                                                              maintenance. Additionally, ASC did not have controls
Body Armor Requirements, Office                               in place to make sure contractors entered all LBE into
of the Deputy Chief of Staff, G-3/5/7                         the Standard Army Maintenance System and promptly
USAAA evaluated the Army’s process for determining            opened work orders. Over three months, contractors
quantitative requirements for body armor and the              did not enter about 33 percent of equipment requiring
adequacy of fielding plans. The Army needed to improve        maintenance into the maintenance system, causing a
the process for reviewing and formally documenting body       loss of visibility and the ability to influence workflow for
armor requirements. About 20 percent of the quantitative      critical equipment.
requirements (194,000 of the 966,000 sets) were not           	        USAAA made five recommendations focused on
adequately supported. The requirements determination          developing equipment and maintenance priorities for
process also did not take into account historical data to     LBE, and for making sure priority equipment entered the
derive quantities for initial spares and sizing, or include   maintenance process. The Deputy Chiefs of Staff, G-4
factors for equipping Department of the Army civilians        and G-8 and ASC agreed with the recommendations. In
and contractors working in deployed environments.             some cases, they took the recommended corrective actions
	       In addition, the Army used about $3 billion           during the audit. (Report No. A-2009-0146-ALM)
of supplemental funds to procure body armor from
FY 2003 to FY 2007 but only programmed about $40              Commander’s Emergency Response
million a year—about 7.5 percent of the funds expended.       Program - Iraq
For the most part, the Army had an adequate plan for          The Commander, Multi-National Force-Iraq requested
fielding the newer generation improved outer tactical         this audit. USAAA performed the audit to assess whether
vest, which addressed 25 of the 26 criteria specified in      the CERP in Iraq had adequate controls in place to make
Army Regulation 700-142. However, the fielding plan           sure commanders implemented the program properly.
needed to specifically address a redistribution process for   USAAA performed work at four locations throughout
the displaced prior generation body armor. (Report No.        Iraq and issued separate reports on the results of each
A-2009-0130-FFD)                                              site review. USAAA will incorporate its overall audit
                                                              results in a summary report that it will issue in FY 2010.
                                                              The summary report will include the Army’s official



                                                                                                                       67
April 1, 2009 to September 30, 2009
                                                                                 Other DoD Oversight


position on the overall audit results, conclusions and        	        However, the Army needed to take additional
recommendations. None of the four reports USAAA               measures to improve overall payment integrity. For
issued included an official Army position, and all four       instance, personnel were not aware of their responsibility
reports were classified FOUO.                                 to review invoice packages before submitting the packages
	        Audit results showed that the vast majority of       to DFAS for payment. USAAA found that DFAS returned
projects reviewed were valid. However, USAAA identified       32 percent of the invoice packages the Kuwait office
numerous challenges related to the application of CERP        submitted for payment because they were incomplete or
guidance in the Money As A Weapons System Manual.             incorrect. The office also needed to improve its tracking log
Some of the common challenges the audits identified           (used to document the status of the invoices it submitted)
included that the sites ensure that:                          to provide a detailed and reliable audit trail.
•	 Project files had required documents, such as              	        Until the Army resolves these issues, it will continue
    memorandums of agreement, financial forms, and            to submit questionable invoice packages for payments. To
    letters of justification, to allow program officials      strengthen the accuracy of vendor payments (as well as
    to determine that projects were authorized and            deter fraud, waste, and abuse), the Army needs to educate
    sustainable.                                              units to make sure they are aware of payment procedures
•	 Statements of work were sufficiently detailed and          and put proper controls in place before units submit
    clearly written so command could effectively monitor      invoice packages for payment. (Report No. A-2009-0173-
    contractor performance and could determine actual         ALL)
    receipt of paid goods and services.
•	 Project purchasing officers accompanied purchasing         Sensitive Items Accountability and
    agents when making payments to minimize the               Control, Abu Ghraib Warehouse, Iraq
    potential for questionable payments.                      USAAA performed the audit at the request of the Director,
The challenges USAAA identified occurred primarily            CJ 1/4/8, Multi-National Force-Iraq. USAAA found
because of shortfalls in training and the experience          that processes and procedures were adequate to ensure
level of personnel performing the fund’s management,          property accountability and controls over sensitive items
oversight, and execution actions. Generally, commanders       at the Abu Ghraib warehouse. However, the Commercial
agreed with the audit results and took prompt, aggressive     Logistics Distribution Agency needed to improve how
corrective actions. The overall summary report will include   it monitored contractor performance and documented
additional recommendations to strengthen guidance and         compliance with the established quality assurance plans
controls over CERP throughout the MNF-I. (Report No.          for contracts associated with the Abu Ghraib warehouse
A-2009-0119-ALL, FOUO).                                       mission. MNF-I agreed with the report’s conclusions and
                                                              recommendations and stated it had taken or would take
Audit of Controls Over Vendor                                 action to implement the recommendations. (Report No.
Payments – Kuwait (Phase I – U.S. Army                        A-2009-0219-ALL, FOUO)
Contracting Command, Southwest
Asia)                                                         Follow-up Audit of Management
USAAA performed this audit as part of a series of audits      Controls over Offline Purchases
on controls over vendor payments in Southwest Asia. The       USAAA followed up on actions the Office of the Deputy
Army had taken positive steps to increase the validity        Chief of Staff, G-4 took to implement recommendations
and accuracy of vendor payments for contracts awarded         in Report No. A-2006-0136-ALL, Management Controls
or administered by U.S. Army Contracting Command,             over Offline Purchases. The original audit concluded that
Southwest Asia – Kuwait. One primary factor was               activities circumvented established controls in the standard
redirecting vendor pay operations to DFAS Rome and            Army supply and procurement systems, and purchased
DFAS Columbus. During the audit, the Kuwait office            property and materiel through offline systems without
updated its standard operating procedures to include          the knowledge of fund control and materiel managers.
invoice and receiving report requirements.                    USAAA found that:

68
                                                                                            Semiannual Report to the Congress
U.S. Army


•	 ODCS, G-4 reported offline purchases as an area of             was to determine whether construction requirements
     concern in the FY 2006 Annual Assurance Statement.           were valid and supported. To compute requirements and
     However, the Army did not appropriately monitor              costs for BRAC facilities, USAAA identified and was
     the area of concern, and, therefore, the action did not      instrumental in resolving a variety of issues related to
     correct the problem.                                         BRAC construction requirements. These issues involved
•	 ODCS, G-4 did not establish upfront interfaces with            existing facilities, demolition, support costs, antiterrorism
     offline purchasing systems and the Army’s supply and         costs, population data, and incremental funding for
     financial systems. Instead, it established supply policies   BRAC contracts. USAAA issued recommendations
     and selective control mechanisms in an attempt to            to update cost estimates, standard designs, automated
     control offline purchases. However, these actions did        systems, and military construction guidance. USAAA’s
     not fully resolve the control weaknesses.                    audit work helped make the Army use correct funding
USAAA also found that offline purchases had increased             and build appropriate military facilities and infrastructure
since its original audit. Consequently, unauthorized offline      to implement the BRAC 2005 recommendations.
purchases continue to affect Army supply and financial
systems’ integrity by weakening the ability of fund control       Force Protection Audits – FY 2009
and materiel managers to budget and forecast properly,            The U.S. Army Audit Agency’s Force Protection Audits
hindering the Army’s visibility and accountability of             Division published 11 audit reports during FY 2009,
supplies and materiel, and opening the door to abuse and          which evaluated Army strategies, programs and initiatives
illegal acts, and possible Antideficiency Act violations.         focused on protecting soldiers, civilians, installations, and
To help resolve these issues, USAAA recommended the               providing support to local communities. The USAAA
ODCS, G-4:                                                        made about 50 recommendations to various levels in the
•	 Report offline purchases as a material weakness to the         Army to help improve processes and controls over Army
     Secretary of the Army for inclusion in the FY 2009           “all hazards” protection training, projects, equipment,
     Annual Assurance Statement.                                  and construction. Implementing some of these
•	 Implement interfaces and control mechanisms                    recommendations could result in about $240 million in
     between offline purchase systems and the Army supply         benefits to the Army.
     and financial systems.                                       	       For example, USAAA audited improvised
•	 Include supply policy governing offline purchases in           explosive device training for individual explosive ordnance
     Army Regulations.                                            disposal soldiers and concluded that the Army could
•	 Develop metrics to capture the amount of offline               improve the effectiveness of the training by establishing a
     purchases and disseminate that information to                centralized center of excellence to obtain and incorporate
     subordinate commands to enforce supply discipline            current IED intelligence into the training courses, and
     and reduce the risks associated with offline purchases.      training EOD soldiers on the same equipment that they
     (Report No. A-2009-0165-ALL)                                 will encounter in theater. The USAAA also audited the
                                                                  program management of intrusion detection systems for
Base Realignment and Closure 2005                                 Army installations. It concluded that the Army could
Construction Requirements                                         achieve economies of scale, improved standardization,
At the request of Assistant Secretary of the Army                 and reduced monitoring and maintenance costs if it
(Installations and Environment) and Assistant Chief of            centralized the requirements determination, acquisition,
Staff for Installation Management, USAAA is devoting              and sustainment phases at the Army enterprise-level.
significant resources to audit military construction              	       In addition, the USAAA has 10 ongoing audits
requirements to implement of Base Realignment and                 focused on key issue areas such as readiness of units
Closure 2005 recommendations. During the second half              assigned chemical, biological, radiological, nuclear, and
of FY 2009, USAAA published 21 BRAC-related audit                 high yield explosive missions; vulnerability assessments of
reports and identified about $525 million of potential            Army activities and facilities not located on installations;
monetary benefits. The objective of the BRAC audits               antiterrorism training requirements and quality for soldiers


                                                                                                                            69
April 1, 2009 to September 30, 2009
                                                                               Other DoD Oversight


and civilians; and physical security over privatized base     key phases of the 2009 Presidential Inaugural—planning,
operations infrastructure. USAAA’s approach to Army           execution, and closeout.
“all hazards” force protection is to provide continuous
and varied audit coverage from soldiers and civilians to      Army Criminal
installations and assets to maintain constant vigilance and
awareness.                                                    Investigation Command

Special Events                                                Operation Iraqi Freedom/
The Army conducts and participates in several special
events each year. In FY 2009, USAAA provided audit Operation Enduring Freedom
                                                              The U.S. Army Criminal Investigation Command
support for several of these events, including the Army
                                                              continues to provide worldwide criminal investigative
Birthday Ball and the 2009 Presidential Inaugural.
                                                              support to all U.S. Army elements, conduct protective
                                                              services operations for senior members of the DoD and
Army Birthday Ball
                                                              the Army, provide forensic laboratory support to all DoD,
The Army celebrates its birthday every year with a
                                                              maintain Army criminal records, and conduct logistic
birthday ball. About 2,000 soldiers, their families, and
                                                              security operations supporting Army operations and the
civilians attend the ball. The event costs about $575,000
                                                              Global War on Terror. Over 170 Army CID special agents
to host. The Ball is treated as a category B morale, welfare,
                                                              and support personnel are currently deployed to Iraq,
and recreation event and about 65 percent of its expenses
                                                              Kuwait and Afghanistan supporting the GWOT.
are paid with appropriated funds. Non-appropriated
                                                              	       Army CID continues to serve as the executive
funds obtained through ticket sales and corporate
                                                              agency for the DoD Criminal Investigation Task Force
donations fund the remaining 35 percent. USAAA has
                                                              (comprised of agents from Army CID, NCIS and
participated in the Army Birthday Ball task force to
                                                              the AFOSI) that conducts criminal investigations to
provide planning process oversight. After the 2007 Army
                                                              substantiate or refute alleged war crimes and acts of
Birthday Ball, USAAA made two recommendations to
                                                              terrorism committed against the U.S. and U.S. interests
the Administrative Assistant to the Secretary of the Army.
                                                              by non-U.S. citizens.
USAAA recommended that revenues and expenses be
                                                              	       CITF agents, analysts and attorneys continue to
accurately reported and reasonably supported, and internal
                                                              support the Guantanamo Detainee Review Task Force
controls over financial transactions be put in place and
                                                              and the Habeas Project as priority initiatives. Although
operating. The office agreed with both recommendations
                                                              prosecuting suspected terrorists has been suspended
and has since assumed responsibility for preparing the
                                                              pending the outcome of the review task force, CITF
final position spreadsheet for the 2008 and 2009 balls.
                                                              has been instrumental in producing 229 assessments
(Report No. A-2009-0186-ALO)
                                                              for the Deputy Assistant Secretary of Defense regarding
                                                              continued prosecution, detention or release of detainees.
2009 Presidential Inaugural
                                                              	       CITF established a Global Threat Finance Cell at
At the request of the Commander, Joint Forces
                                                              its headquarters in Fort Belvoir, Va. to support forward
Headquarters, National Capital Region and Military
                                                              deployed operations by identifying sources and logistics
District of Washington, USAAA audited DoD support of
                                                              routes being used to fund, equip, and provide resources
the 2009 Presidential Inaugural. USAAA evaluated whether
                                                              to terrorist and insurgency groups. The cell augments
the Armed Forces Inaugural Committee adequately
                                                              overseas operations through continuing analysis and
planned, coordinated, and executed operational support
                                                              providing leads and intelligence products for execution at
for the 2009 Presidential Inaugural following regulatory
                                                              locations worldwide.
and DoD guidelines.
                                                              	       CITF agents were able to identify and locate
	        Specifically, USAAA focused on internal controls
                                                              previously unknown evidence in two separate terrorist
over funds, personnel, property, and contracts to support
                                                              attacks that occurred on November 28, 2002, near
the event. USAAA audit strategy coincided with the three

70
                                                                                         Semiannual Report to the Congress
U.S. Army


Mombasa, Kenya. The first incident involved an attempted      the growing demand for forensic analysis in the GWOT
rocket attack on an Israeli airliner carrying 264 civilian    by restructuring its headquarters and subordinate divisions
passengers, while the second attack was a vehicle-borne       to task organize the primary functions of traditional
improvised explosive device detonated at the Paradise         support to law enforcement, training and research and
Hotel, which resulted in 13 deaths and 80 injured. CITF       expeditionary forensic support. USACIL’s Expeditionary
agents were able to recover the rocket motor bodies from      Forensic Division has established a Reach-Back Operations
two SA-7 missiles used in the airliner attack, as well as     Center to support the Joint Expeditionary Forensic
shrapnel from the attack on the hotel.                        Facilities currently deployed and developed a timetable to
	       The U.S. Army Protective Services Battalion           relieve the current contracted forensic examiners staffing
continues to provide worldwide executive level personal       the JEFFs with USACIL Department of the Army Civilian
protection from assassination, kidnapping, injury or          examiners.
embarrassment for designated senior High Risk Personnel
of DoD, the Joint Chiefs of Staff, DA, as well as their
foreign counterparts during official visits to the United
States. The PSB also provides a training, readiness and
oversight role for Combatant Commander Protective
Service Details supporting U.S. Central Command, U.S.
Southern Command and U.S. Forces Korea.
	       From April 1 to August 30, 2009, the PSB
conducted six Operation Enduring Freedom and three
Operation Iraqi Freedom protective missions; 40 protective
missions to other OCONUS locations, and 117 CONUS
protective missions. The PSB also provided daily full-time
protective services for supported HRP in the National
Capital Region. Additionally, the PSB conducted three
Personal Security Vulnerability Assessments for forward
deployed CENTCOM HRP in Egypt and Saudi Arabia.
The PSB Protective Intelligence section conducted
threat assessments for every travel mission and PSVA,
                                                                        Army CID special agents search a suspect.
incorporating terrorist and criminal threat data into a
comprehensive risk analysis program.
	       The PSB also deploys special agents to Afghanistan,
Iraq and Kuwait to lead Protective Services Details for       	       The Law Enforcement Professional program
senior U.S. Commanders, including Combined Joint Task         provides experienced law enforcement professionals to
Force - 82, the Combined Security Transition Command          embed with all echelons from corps to battalion. The
– Afghanistan, the Coalition Forces Land Component            LEP mission is to assist commanders with enhanced
Command and the International Security Assistance Force.      expertise and methodology to understand, identify,
Additionally, the PSB deployed a detachment to Kuwait         penetrate, interdict, and suppress international insurgent
to support protective service operations throughout the       and criminal-like network enterprises to include their
OEF and OIF theaters of operation.                            employing improvised explosive devices. LEP personnel
	       As the only full-service accredited forensic          are former law enforcement professionals with criminal
laboratory in DoD, the U.S. Army Criminal Investigation       enterprise investigative and analytical skills developed
Laboratory plays a vital role in developing an enduring       working for a federal/state agency or large metropolitan
expeditionary forensic capability to support warfighter       police force with federal task force experience. Each LEP
operations across the globe. During the last six months,      member has on average 20 to 30 years of analytical and
USACIL has continued to increase its capability to support    investigative experience.


                                                                                                                      71
April 1, 2009 to September 30, 2009
                                                                                 Other DoD Oversight


	        These law enforcement and military personnel          Army systems, steal or alter sensitive information, or
must have an understanding of international organizations      disrupt network operations. During this reporting period,
to effectively combat extremist and insurgent groups. They     CCIU’s vulnerability assessment program identified $78
must understand the groups’ intent, motives, structure         million in cost avoidance to the Army, far exceeding
and methods for moving personnel, money and arms.              the $48 million avoidance for FY 2008. Following the
The LEP provides subject matter expertise in Policing          mandatory remediation of these vulnerabilities, no
Standards and Tactical Law Enforcement as they relate          computer network compromises occurred at assessed
to counter-intelligence. When deployed with a unit, LEP        installations for the remainder of this reporting period.
personnel:                                                     	        In April 2009, the International Association
•	 conduct real time training to enhance the unit’s skills     of Chiefs of Police selected CCIU for the Excellence in
     in forensic materials collection and exploitation;        Technology Award in the “Response to Computer Related
     tactical site exploitation procedures; detainee           Crime” category, based on CCIU’s innovative and highly
     prosecution packet assembly; and intelligence             effective Rapid Extraction and Analysis Program. The
     collection capabilities;                                  IACP also selected CCIU’s lead forensic agent for the 2009
•	 assist in evidence collection missions;                     August Vollmer Excellence in Forensic Science Award for
•	 assist in coordination and execution of TSEs;               proactive and innovative use of forensic technologies by
•	 open and close cases of IED instances;                      law enforcement. No other law enforcement organization
•	 participate in patrols;                                     in the world received this amount of recognition from the
•	 conduct tactical questioning events; and                    IACP during 2009.
•	 respond to requests for information.                        	        The Army CID Major Procurement Fraud Unit
                                                               continues to combat fraud and corruption related to
The LEP embedded at the U.S. Army Combat Training              GWOT funding. As a founding International Contract
Centers provides a wide range of standardized training         Corruption Task Force member, MPFU works in
opportunities to soldiers. The LEP assists commanders,         conjunction with member agencies including DCIS,
staff and the OPFOR to plan scenarios based on                 Department of State IG, FBI, Special Inspector General
firsthand experience and lessons learned to create             for Iraq Reconstruction, U.S. Agency for International
training experiences that enable the military to develop       Development, under the Department of Justice,
current, relevant instincts and skills as they relate to law   International Contract Corruption Initiative. MPFU has
enforcement. LEP personnel embedded with the Combat            forward operating investigative offices in Afghanistan,
Training Centers must have had a successful deployment         Kuwait and Iraq. MPFU focuses its investigative activities
and have served as trainers or in a supervisory role for at    primarily on contingency fund contractual fraud involving
least one year.                                                GWOT and various military operations under OEF and
	       Army CID’s Computer Crime Investigative Unit           OIF. Since February 2009, the MPFU has initiated 56
continued to support the President’s Comprehensive             investigation reports on this focus, with $13.5 million
National Cybersecurity Initiative and the emerging U.S.        total recoveries, criminal fines, and cost avoidances.
Cyber Command by aggressively investigating intrusions
and related malicious activities targeting Army computer       Other Case Summaries
networks (collectively referred to as LandWarNet). CCIU’s
ongoing partnership with the Army Chief Information            $3 Million Recovered in False Claims
Officer to conduct proactive LandWarNet vulnerability          Investigation
assessments produced noteworthy and quantifiable               A joint Army CID investigation with DCIS disclosed
successes. This proactive crime prevention effort, part        a German company requested admission into the
of CCIU’s multi-faceted Virtual Community Policing             Department of Defense Inspector General Voluntary
campaign, identifies and remediates vulnerabilities before     Disclosure Program for reporting allegations of fraud.
cyber criminals or other adversaries can access and damage     The investigation disclosed the company conducted an


72
                                                                                          Semiannual Report to the Congress
U.S. aRMY


internal investigation and audit that revealed the former     grant, instead of returning unused funds to the grant
branch manager of the Heidelberg office submitted several     agency. The university entered into a settlement agreement
false claims by failing to pass on rebates and discounts      and agreed to pay the government $7.6 million.
related to several time and materials contracts with the
U.S. government. The U.S. government was previously           $5 Million Remitted on Mischarging
aware of this company’s failure to pass on rebates prior to   Overhead Costs
its’ disclosure; therefore, DoD IG declined the company’s     A joint Army CID and DCIS false claim investigation
admission into the VDP. The investigation resulted in a       disclosed AM General Corporation mischarged
recovery of $3 million and debarment of the company.          commercial overhead costs associated with, and incurred
                                                              through the manufacture of civilian high mobility
Larceny of Government and Private multipurpose wheeled vehicle as costs associated with
Property                                                      the U.S. government’s HMMWVs produced pursuant to
A joint Army CID and FBI theft of government property government contracts. AM General Corporation remitted
investigation at Fort Bragg, N.C. identified five individuals $5 million to the U.S. Army as a result of a contractual
responsible for 20 larcenies of over $326,000 government settlement.
and private property dating back to 2003. During the
investigation, over $195,000 of government property was Theft of Digital Radios
recovered. The three military suspects are pending courts A joint Army CID and FBI theft of government property
martial and two civilians pending trial in federal district investigation disclosed a sergeant stationed at the U.S.
court.                                                        Army Garrison, West Point, N.Y. entered a logistics
                                                              warehouse building and stole 330 Motorola portable
Theft of Gasoline Credit Cards                                digital radios, 600 NiCad batteries and 350 antennas. He
An Army CID theft investigation disclosed that a sold the radios throughout the U.S. and shipped them via
government employee used her position at the U.S. Property the U.S. Postal Service. He also negotiated the sale of the
and Fiscal Office to steal 105 Voyager gasoline credit radios via e-mail and received payment via wire transfer.
cards, which she provided to a friend. They subsequently The sergeant was sentenced to 18 months confinement,
devised a scheme whereby the friend solicited customers reduced in grade to E-1, ordered to forfeit all pay and
to pay cash at various gas stations and convenience stores allowances, and received a bad conduct discharge.
to purchase fuel from him at a discounted price. The
friend would then use the stolen cards and provide the
customers fuel directly at the gas pumps. The stolen cards    Navy
were overcharged a total of $645,135 over six years. Both
individuals pled guilty to conspiracy and were sentenced
to 37 months confinement and required to make a joint Naval Audit Service
restitution of $645,135.                                      The mission of the Naval Audit Service is to provide
                                                              independent and objective audit services to assist
University Repays $7.6 Million                                Naval leadership in assessing risk to improve efficiency,
A joint Army CID, DCIS, FBI, Health and Human accountability, and program effectiveness. Working
Service IG and National Science Foundation IG false collaboratively with senior Navy officials, the
claims investigation disclosed that over five years, the U.S. NAVAUDSVC develops a risk-based annual audit
Army awarded over $16.8 million in contracts, grants and plan that addresses critical areas that officials feel merit
cooperative agreements to a U.S. university. The Grant additional oversight. In the past six months, the audits
and Contract Administration office of the university have addressed such important and, at times, high-profile
subsequently submitted invoices for costs not related to DoN issues such as the disposal of computer hard drives
grants in order to use all of the money allocated in the containing classified and official DoN data and personally



                                                                                                                     73
April 1, 2009 to September 30, 2009
                                                                                 Other DoD Oversight


identifiable information; planning and funding issues         reduce the sailors’ exposure to hazardous noise. However,
related to the Marine Corps relocation from Okinawa,          some known noise hazards, including gallery deck and
Japan, to Guam; controls over acquisition and disbursing      flight deck noise hazards, were not officially identified or
in the Horn of Africa; and DoN’s efforts during weapons       sufficiently addressed. Efforts were made to mitigate the
systems development to mitigate the systems’ potentially      gallery deck noise, but no attempt was made to mitigate
hazardous levels of noise. NAVAUDSVC-assist reports           exposure to hazardous noise on the flight deck. Officially
for the Naval Criminal Investigative Service identified       identified noise hazards and residual mishap risks were not
over $1.6 million in potential fraud, and some reports        sufficiently tracked, and risk acceptance authority levels
have been used as evidence in court cases. NAVAUDSVC          were not established. Management concurred with all
is continuing its audit work, undertaken at the request of    recommendations, and corrective actions met the intent
the Secretary of the Navy, to assess controls over overseas   of the recommendations. (Report No. N2009-0022)
acquisition in such locations as the Western Pacific,
Dubai, and Bahrain. It also continues the series of audits
on the Department’s accountability over small arms. The
NAVAUDSVC has worked, and will continue to work,
with senior DoN officials to provide them with an expert
and impartial assessment of critical DoN issues, risks, and
opportunities.

GLOBAL WAR ON TERROR
NAVAUDSVC supports the DoN GWOT goals by
auditing selected policies, procedures, and activities to
ensure they achieve the stated objectives and maximize
efficiencies. In support of the DoN GWOT goals and
risk assessments, NAVAUDSVC’s efforts during this
reporting period include ongoing and completed audits in
the areas of acquisition and disbursing internal controls,
anti-terrorism/force protection, medical health, safety,
intelligence and security, and small arms and ammunition.
                                                                    A conceptual rendering of CVN-78 Aircraft Carrier.
The NAVAUDSVC oversight includes Navy-wide
programs as well as functions performed specifically in
Southwest Asia, including Bahrain, Dubai, and Djibouti.
The NAVAUDSVC is also working with the Southwest           Department of the Navy Acquisition
Asia Joint Planning Group and its members and guests       and Disbursing Checks and Balances
to ensure the full spectrum of Department of Defense       at Camp Lemonier, Djibouti, Africa
oversight is engaged in support of DoD’s Southwest Asia    NAVAUDSVC reported significant internal control
effort.                                                    weaknesses in the oversight and management of
                                                           contracting and disbursing operations in Djibouti. These
Consideration of Hazardous Noise in internal control weaknesses have adversely affected the
the Acquisition of the CVN-78 Aircraft DoN’s ability to provide reasonable assurance to DoD
Carrier                                                    and DoN leadership that it is achieving internal control
The NAVAUDSVC found that efforts were made to objectives. The audit showed the overall operational
mitigate noise hazards on the CVN-78 aircraft carrier environment was highly conducive to allowing fraud,
through design selection. While in some cases the design waste, and abuse to go either undetected or not reported
changes did not mitigate noise to required levels, efforts in a timely manner. As a result, internal controls within
to mitigate these hazards through design selection helped contracting and disbursing functions were not operating

74
                                                                                           Semiannual Report to the Congress
U.S. Navy


as intended, and were not achieving expected outcomes.        both classified information and personal identifiable
NAVAUDSVC made recommendations to strengthen                  information at two warehouses used by contractors
internal controls. Management concurred and has taken         were not properly secured and were readable with
appropriate corrective actions. (Report No. N2009-            commercially available recovery software. Most of the
0041)                                                         hard drives containing classified information had been
                                                              certified by government officials as having been degaussed
Marine Corps Transition Assistance                            (rendered inoperable), although some could still be
Management Program - Pre-separation                           read. Using discovery sampling, auditors also found a
Counseling Requirement                                        computer ready-for-sale to the public that still contained
The NAVAUDSVC determined that, in FY 2007, 29                 DoN data and PII (including 605 unique Social Security
percent of active service members were not receiving          numbers at one of the warehouses). Unauthorized access
timely, mandatory pre-separation counseling as required       to classified and sensitive DoN information poses a
by Public Law. The Marine Corps’ FY 2008 Annual               national security risk, and unauthorized access to PII
Report to the Office of the Secretary of Defense showed a     increases the risks of identity theft for DoN military and
slightly greater percentage of Marines not receiving timely   civilian personnel. Strengthening policies and procedures
pre-separation counseling, indicating that the conditions     over the disposal process, including, but not limited to,
identified in FY 2007 continued through at least the end      requiring the physical destruction of all hard drives to be
of FY 2008.                                                   removed from DoN control will help mitigate these risks.
	        In the first two quarters of FY 2009, the            Management planned appropriate corrective action on all
Marine Corps reported that 41 percent and 26 percent,         recommendations. (Report No. N2009-0027)
respectively, of separating Marines did not meet the
90-day requirement for pre-separation counseling. By          ACQUISITION PROCESSES AND
not providing counseling when required, the Marine
                                                              CONTRACT MANAGEMENT
Corps did not ensure that the affected service members
received timely information about the transition services
                                           Management of Special Tooling and
and the benefits and entitlements available to assist
                                           Special Test Equipment at Naval Air
them in adjusting to civilian life. NAVAUDSVC found
                                           Systems Command
that 71 percent of the forms used to record reasons for
                                           The audit objective was to verify that Naval Air Systems
nonattendance were missing, incomplete, or inaccurate;
                                           Command processes and controls ensure accountability
therefore, NAVAUDSVC was not able to determine why
                                           and visibility of Navy-owned ST/STE. NAVAUDSVC
Marines did not receive training as required.
                                           found that NAVAIR did not have sufficient visibility and
	        In addition, Transition Assistance Management
                                           accountability over its portion of Navy-owned ST/STE
Program Office managers had not determined why
                                           that was in the possession of contractors. In addition,
Marines were not attending pre-separation counseling.
                                           NAVAIR relied on contractors’ property control systems
Management concurred with all recommendations, and
                                           that did not accurately reflect Navy-owned ST/STE.
all planned and completed corrective actions met the
                                           NAVAUDSVC concluded that contributing factors
intent of the recommendations. (Report No. N2009-
                                           included a lack of uniform processes for managing ST/
0046)
                                           STE, and no centralized database for maintaining its
                                           accountability and visibility. As a result, the possibility
INFORMATION SECURITY & PRIVACY exists that NAVAIR could lose ST/STE in the possession
                                           of contractors, and may be unnecessarily purchasing
Processing of Computers and Hard duplicate ST/STE. NAVAUDSVC recommended
Drives During the Navy Marine Corps that NAVAIR develop and implement an efficient and
Intranet Computer Disposal Process         effective ST/STE management process, establish a central
NAVAUDSVC found hard drives that contained office/point-of-contact at NAVAIR Headquarters, and



                                                                                                                      75
April 1, 2009 to September 30, 2009
                                                                               Other DoD Oversight


update the current material management policies and 	                 However, auditors did note weaknesses in
guidance to provide more detail and accountability in the Naval Air Warfare Center Training Systems Division’s
management of ST/STE. (Report No. N2009-0026)                 contract administration. NAVAUDSVC recommended
                                                              NAWCTSD establish procedures and controls and
Verification of an Acquisition                                provide oversight to ensure that: contractor invoices
Strategy for the United States Marine be submitted containing information required by
Corps’ Relocation Effort                                      contract specification; the contractor retains supporting
The audit objective was to verify that an “acquisition documentation for three years after the final payment is
strategy” for executing the Marine Corps’ Guam relocation made; the contractor prepares and implements a quality
effort was established and implemented in accordance control program to monitor subcontractor performance;
with applicable guidance. NAVAUDSVC found that and the contracting officer’s representative performs
the DoN did not develop, implement, or maintain an contract duties in accordance with FAR and DFAR.
official Acquisition Strategy to manage the Marine Corps 	            Based on the contracting activity’s in-process
relocation effort, and opportunities for improvement review, NAVAUDSVC identified approximately $606
were identified within the core elements of an acquisition thousand of savings collected from the contractor.
strategy (cost, schedule, performance, and assessment of Management concurred with all recommendations, and
risks.)                                                       corrective action is considered complete. (Report No.
	        Specifically, a critical path analysis had not been N2009-0034)
completed, so tasks that must be performed sequentially
were scheduled to be done concurrently. These conditions Contract Administration at Fleet and
existed, in part, because DoN needed to sufficiently Industrial Supply Center San Diego
define and clarify lines of communication, authority, and Supported Activities
accountability, and responsibility between the Joint The audit objective was to verify that contract
Guam Program Office, NAVFAC, and U.S. Marine Corps administration procedures for Fleet Industrial and Supply
management. In developing an acquisition strategy and Center San Diego contracts were effectively implemented
program management functions and responsibilities. As a to protect the DoN’s interest. NAVAUDSVC found
result, JGPO’s ability to provide sufficient oversight, plan, that FISC San Diego and selected activities did conduct
make informed decisions, and provide strategic direction contract administration; however, all files were missing at
to DoN leadership had been adversely impacted.                least some form of required documentation and it was not
	        Ultimately, the realization of achieving the desired well documented that sufficient contract administration
completion date agreed to by the U.S. government and the oversight was in place. These conditions occurred
government of Japan, and within associated cost, would because contract award was prioritized over contract
likely be adversely affected. (Report No. N2009-0028)         administration, and requiring activity personnel were not
                                                              aware of the level of detail and documentation required
Vendor Legitimacy                                             by their contract administration duties.
The audit objective was to verify that selected purchase 	            As a result of not performing or documenting all
card transactions were conducted with legitimate business required contract administration duties, FISC San Diego
entities and in accordance with Navy policy. NAVAUDSVC was at risk of not ensuring compliance with contract
performed a partial review of task orders and invoices from terms and safeguarding the interests of the DoN in its
each fiscal year of the contract performance period. The contractual relationships. NAVAUDSVC recommended
auditors found the selected task orders were in accordance FISC San Diego formally appoint and clearly define
with Federal Acquisition Regulations.                         contract administration duties, establish controls and
                                                              provide oversight. Management planned appropriate
                                                              corrective action on all recommendations. (Report No.
                                                              N2009-0037)



76
                                                                                        Semiannual Report to the Congress
U.S. Navy


FINANCIAL MANAGEMENT                                           actions on all recommendations. (Report No. N2009
                                                               0038)
Navy Aviation Career Incentive Pay
NAVAUDSVC found that Navy ACIP was not managed                 INFRASTRUCTURE & ENVIRONMENT
in full compliance with federal and DoD guidelines.
Management weaknesses mainly occurred because                  Selected Department of the Navy
Naval Personnel Command (PERS-435) did not have                Military Construction Projects
access to review or track individual flight hours, and         Proposed for Fiscal Year 2011
considered tracking flight hours to be outside of their        The NAVAUDSVC audited selected Military Construction
purview. Insufficient Navy guidance, limited ACIP              projects originally proposed for FY 2010 but rescheduled
reviews, administrative paperwork delays, personnel            for FY 2011. The audit objective was to verify that the
system programming issues, and clerical errors also            Navy provided support for the scope requirements for the
contributed to the above weaknesses. These conditions          two selected MILCON projects. NAVAUDSVC identified
resulted in approximately $1.3 million in overpayments         scoping issues associated with both MILCON projects.
between March 2005 and March 2007 to officers tested           Navy over-scoped one project, valued at $105 million, by
during the audit, and a possible estimated overpayment         about $5.225 million, and over-scoped another project,
of $3.4 million to officers not tested during the audit.       valued at about $26 million, by about $540,000. The
NAVAUDSVC made recommendations to the Deputy                   Commander, Navy Installations Command reduced the
Chief of Naval Operations (Total Force) (N1) and               scope of the two projects and agreed with the amount of
NAVPERSCOM (PERS-435) to establish guidance,                   funds available for other use. NAVAUDSVC determined
schedule reviews, and develop and implement Navy ACIP          that the command had an effective ethics program in place;
data for managing ACIP. Management took or planned             however, NAVAUDSVC found that two individuals had
appropriate corrective action on all recommendations.          not filed their Confidential Financial Disclosure Reports
(Report No. N2009-0025)                                        (Office of Government Ethics Form 450). Subsequent to
                                                               the site visit, the individuals filed their OGE Forms 450.
Status of the DON Processes and                                (Report No. N2009-0033)
Controls Regarding the Management
of the Government of Japan Funds                               OTHER
Related to the Marine Corps’
Relocation                                                     Auditor General Advisory - Department
The audit objective was to verify that the DoN has             of the Navy’s Processes Used to Establish
controls in place to efficiently and effectively manage        Water Rates for Guam Waterworks
GoJ funding related to the Marine Corps’ relocation            Authority
from Okinawa, Japan, to Guam. NAVAUDSVC found                  The Navy operates, maintains, and repairs water
that, although plans were in progress to facilitate the flow   production and distribution systems in Guam through the
and execution of the GoJ Mamizu funds, the JGPO had            Navy Working Capital Fund, which is a revolving fund
not fully developed a process with internal management         that relies on sales revenue instead of direct appropriations
controls to ensure that it maintained oversight over the       to finance its operations. The audit objective was to verify
funds. This occurred because JGPO was primarily focused        that the DoN’s process for determining and establishing
on negotiations with GoJ and had not clearly defined           water rates for GWA customers was reasonable. Based on
or promulgated roles and responsibilities related to the       NAVAUDSVC review and analysis of the DoD’s and the
management of GoJ Mamizu funds.                                DoN’s Financial Management and Budget preparation
	        As a result, DoN’s ability to provide GoJ assurance   guidance, and interviews with NAVFAC personnel,
that their funds would be sufficiently managed, expended       NAVAUDSVC determined that the DoN’s Process
according to agreements, and accurately reported, may be       for determining and establishing water rates for GWA
jeopardized. Management planned appropriate corrective         customers was reasonable. (Report No. N2009-0024)

                                                                                                                         77
April 1, 2009 to September 30, 2009
                                                                                  Other DoD Oversight



Naval Criminal                                                  •	 CTF-151 elements engaged in several anti-pirate
                                                                   actions in the Gulf of Aden/Arabian Sea in May
Investigative Service                                              2009 resulting in capturing 24 suspected pirates.
The Naval Criminal Investigative Service, primarily
                                                                   Embarked NCIS special agents coordinated the
through its Combating Terrorism Directorate, supported
                                                                   post-capture investigation, evidence collection and
efforts aimed at detecting, deterring and disrupting
                                                                   handling, and transferring the suspects to Kenyan law
terrorism against Department of Defense and Department
                                                                   enforcement authorities for prosecution or prosecutive
of the Navy personnel and assets worldwide. The CbT
                                                                   consideration.
Directorate brings to bear a wide array of offensive
                                                                •	 NCIS special agents conducted post-rescue
and defensive capabilities to the mission of combating
                                                                   investigation of the April 2009 pirating of the M/V
terrorism. Offensively (counterterrorism), NCIS conducts
                                                                   MAERSK ALABAMA in conjunction with the
investigations and operations aimed at interdicting terrorist
                                                                   Federal Bureau of Investigation. Deployed NCIS
activities. Defensively (antiterrorism), NCIS supports
                                                                   special agents interviewed crewmembers, conducted
key DoN leaders with protective services and performs
                                                                   the initial interrogation of the surviving pirate, and
vulnerability assessments of military installations and
                                                                   collected evidence from the hostage lifeboat.
related facilities to include ports, airfields, and exercise
                                                                •	 NCIS special agents, including counterintelligence
areas to which naval expeditionary forces deploy.
                                                                   trained special agents and polygraph examiners, were
	        NCIS special agents, analytical and support
                                                                   deployed to the Joint Counterintelligence Unit-Iraq
personnel, primarily drawn from the NCIS Contingency
                                                                   to fulfill operational and strategic counterintelligence
Response Field Office, deployed around the globe to
                                                                   requirements and provide counterintelligence support
support DoD and DoN efforts to combat terrorism.
                                                                   to the unified and special commands. Included among
During this reporting period, the following deployments
                                                                   those deployed were counterintelligence trained
and related activities in support of Operations Iraqi
                                                                   special agents and polygraph examiners. During this
Freedom and Enduring Freedom were conducted:
                                                                   reporting period, NCIS special agents filled the billet
                                                                   of JCIU-I Operations Chief.
                                                                •	 NCIS special agents were deployed to the Multi-
                                                                   National Security Transition Team – Iraq in support
                                                                   of the intelligence transition team at the Iraqi National
                                                                   Information and Investigation Agency.
                                                                •	 The Transition Team advised Iraqi counterparts
                                                                   on force protection and security issues, which the
                                                                   Ministry of Interior incorporated, as well as the
                                                                   procedures and processes used by the NIIA Counter
                                                                   Terrorism Center for conducting its investigations
                                                                   and operations against anti-government terrorists in
                                                                   Iraq.
                                                                •	 An NCIS analyst serves as the program manager for the
                                                                   “Gryphon” project. This project uses lessons learned
                                                                   from fighting terrorism in Northern Ireland and other
     NCIS special agents conduct a post-rescue investigation.
                                                                   countries with indigenous terrorist problems.
                                                                •	 The NCIS Resident Agency Iraq provided criminal
                                                                   investigative support for the Marine Expeditionary
                                                                   Forces – Iraq I/II.
•	 NCIS served as law enforcement advisors to
                                                                •	 NCIS Iraq initiated 134 investigations, closed 123
   Combined Task Force 151, the multi-national effort
                                                                   cases, produced four criminal intelligence reports and
   conducting counter piracy operations in the Gulf of
                                                                   recruited seven criminal sources. The investigations
   Aden, Arabian Sea, Indian Ocean, and the Red Sea.
                                                                   included death, bribery, narcotics, counterfeiting, and
78
                                                                                            Semiannual Report to the Congress
U.S. Navy


   stolen government property.                                   Pursuant to a Presidential Order, CITF is responsible
•	 NCIS special agents served as staff counterintelligence       for investigating war crimes associated with acts of
   officers on the I/II Marine Expeditionary Forces              international terrorism.
   staff.                                                    •	 Special agents were deployed in support of CITF
•	 NCIS developed counterintelligence collection                 missions in Iraq, Afghanistan, and Cuba.
   operations, which enabled two threat-specific             •	 CITF efforts in Iraq have resulted in well over 500
   initiatives that mitigated foreign intelligence and           convictions in the Central Criminal Court of Iraq; its
   security service attempts to gain access to MNF-I             conviction rate is 77 percent.
   facilities.                                               •	 The CITF focus in Afghanistan is the interdiction of
•	 JPEC personnel were deployed to USMC JPEC,                    international threat financing, narcoterrorism, and
   Iraq to conduct criminal investigations and evidence          foreign fighter networks. CITF investigations resulted
   analysis on non-U.S. suspects for prosecution by the          in two convictions in the Afghanistan National
   Central Criminal Court of Iraq.                               Defense Court.
•	 JPEC personnel produced 100 prosecution packages          •	 NCIS supported the International Contract
   for the Central Criminal Court of Iraq against                Corruption Task Force missions in Iraq and Kuwait
   insurgents and al Qaeda members. They also provided           and have initiated more than 25 fraud investigations
   seven training courses for Iraqi Police and Judges.           involving Iraqi and U.S. companies.
•	 The Joint Counterintelligence Unit-Afghanistan            •	 NCIS        provided      advice   and      coordinated
   fulfilled operational and strategic counterintelligence       counterintelligence collection operations, as well as
   requirements and provided counterintelligence                 provided criminal investigative support to the 2nd
   support to the unified and specified commands                 Marine Expeditionary Battalion, Afghanistan.
   in that area of operation. Included among those           The NCIS Directorate of Intelligence and Information
   deployed were counterintelligence trained special         Sharing is the information hub for NCIS efforts to combat
   agents, polygraph examiners, and cyber forensics          terrorism and support the Global War on Terror. DIIS
   experts. During this period, NCIS special agents filled   analytical support is wide ranging and affecting; providing
   the billets of JCIU-A Operations Chief and Deputy         analytical support to investigations and operations,
   Director.                                                 supporting NCIS force protection efforts, brokering
•	 NCIS personnel served as personal security advisors       partnerships, and providing finished intelligence. The
   to the Commander, Joint Task Force – Horn of              DIIS produced and published 273 threat assessments
   Africa. The PSA supervised security teams composed        directly to U.S. Navy and Marine Corps deployed assets
   of USMC military policemen and USN Masters-at-            to assist in force protection planning. The DIIS also
   Arms while providing continuous coordination with         published 2,717 intelligence information reports and 143
   non-U.S. security forces to ensure the safety of CJTF     daily threat summary articles.
   HOA when traveling outside of U.S. control.               	        NCIS supports U.S. Navy Theater Security
•	 NCIS special agents provided counterintelligence and      Cooperation efforts by engaging in capacity-building
   force protection support to the CJTF HOA, as well         activities with its law enforcement, counterintelligence,
   as force protection and criminal investigative support    and security partners, primarily through its Security,
   for the Commanding Officer of Camp Lemonier.              Training, Assistance, and Assessment Teams, foreign-based
•	 Agents produced intelligence reports and employed         special agents and operations specialists, and deployed
   numerous sources that provided intelligence on            country referent specialists.
   foreign intelligence service activity, piracy, and        •	 In support of the Commander, Naval Forces Southern
   terrorist activity in the Horn of Africa.                     Command’s Southern Partnership Station 2009,
•	 Nine special agents were assigned as members of               NCIS STAAT personnel provided port security
   the Criminal Investigations Task Force at Fort                and physical security training seminars to port law
   Belvoir, Va., including its special agent in charge.          enforcement, coast guard, and security agencies in
   Additionally during this period, ten Naval Reservists         El Salvador, Panama, Jamaica, Barbados, Colombia,
   from NCIS units were mobilized to CITFHQ.                     Nicaragua, and the Dominican Republic.
                                                                                                                     79
April 1, 2009 to September 30, 2009
                                                                                 Other DoD Oversight



•	 NCIS special agents presented a crime scene                 Significant Case Narratives
   investigation seminar to 30 officers, lead investigators,
   and detectives from the Commonwealth of Dominica            Homicide Investigation at Camp
   Police Force. The seminar was in response to a priority     Pendleton
   identified by Attorney General Eric Holder following        A NCIS homicide investigation implicated a Navy petty
   a visit to Barbados.                                        officer second class in the shooting death of a Navy
•	 NCIS and Air Force Office of Special Investigations         seaman at Camp Pendleton, Calif. Although preliminary
   special agents from the Force Protection Detachment         information suggested a possible hate crime element
   in Amman, Jordan have partnered with the Jordanian          based on the victim’s sexual orientation, the investigation
   Directorate of Military Security and created a              refuted this theory and revealed the victim was on guard
   personnel exchange program. The program will                duty and confronted the suspect when he entered a secure
   develop language and cultural expertise, familiarize        compound.
   DMS officers with NCIS/AFOSI law enforcement                	       NCIS interrogated the suspect who confessed
   protocols, and train NCIS personnel on Middle East          shooting the victim and setting him on fire after the
   mindset/cultural issues.                                    victim discovered the suspect had entered the compound
                                                               to destroy government property. The suspect was arrested
                                                               in July 2009 and placed in pre-trial confinement for the
                                                               murder. Prior to trial, the suspect was found dead in his
                                                               cell from an apparent suicide.

                                                             Embezzlement of Over $105,000
                                                             An NCIS investigation disclosed three Philippine
                                                             national employees, including the on-site supervisor of a
                                                             construction company at the Al Asad Air Base in Iraq, were
                                                             implicated in embezzling more than $105,000 from funds
                                                             for subcontracted work at AAAB. The on-site supervisor
                                                             forged letters of authorization from AAAB and fled to
                                                             Kuwait on a military flight. The supervisor was detained
                                                             in Kuwait and found in possession of $70,000. The
                                                             supervisor confessed to the embezzlement and implicated
                                                             the other two employees, who subsequently confessed to
         NCIS special agents conduct a raid operation.       the theft. An additional $38,400 was recovered following
                                                             searches of the accomplices.
                                                             	       The investigation was presented for Military
                                                             Extraterritorial Jurisdiction Act consideration at Camp
•	 NCIS STAAT trainers presented a Law Enforcement Victory, Iraq, but was declined in favor of debarring the
   and Security “train the trainers” seminar to a combined individual from Multi-National Forces-Iraq facilities and
   class of senior training officers from the Malta National restoring funds to the construction company.	
   Police and the Armed Forces of Malta. One focus was 	
   to demonstrate the benefits associated with training Compromise and Disclosure of
   and working together. The Malta Commissioner of Classified Information
   Police attended a portion of the training and directed An NCIS investigation implicated seven current and
   that it be incorporated into the Malta Policy Academy former U.S. Marine Corps members in the improper
   curriculum.                                               handling, compromise, and disclosure of classified and
                                                             compartmented information. A reserve U.S. Marine

80
                                                                                           Semiannual Report to the Congress
U.S. Air Force


Corps colonel, the former officer-in charge of the I Marine   the following key management challenge areas: Joint
Expeditionary Force, Special Technical Operations             War Fighting and Readiness, Information Security and
Section, had members of his unit improperly transfer          Privacy; Acquisition Processes and Contract Management;
classified international terrorism information to him         Financial Management; and Health Care. These efforts
to use in his civilian capacity as a Los Angeles County       have resulted in more than $1.4 billion in potential
Sheriff’s Department detective. Special agents seized a       monetary benefits.
substantial amount of classified material when executing
search warrants at the residence and workplace of the         Joint Warfighting and Readiness
former OIC.
	        The investigation did not surface a foreign          Air Force Nuclear Roadmap
intelligence service connection; however, the former OIC      Assessment
improperly shared classified information with foreign         Two incidents, along with other impairments, caused
counterterrorism officials. Two suspects pled guilty and      the Air Force to put high-level management emphasis
charges have been preferred against three of the remaining    on the nuclear mission. In 2006, critical nuclear-
suspects, including the former OIC.                           related intercontinental ballistic missile parts, labeled as
                                                              helicopter batteries, were mistakenly sent to Taiwan. In
                                                              2007, a B-52 crew mistakenly flew six nuclear weapons
Air Force                                                     from Minot AFB, N.D. to Barksdale AFB La. As a result
                                                              of these incidents and subsequent investigations, the
Air Force Audit Agency                                        Air Force established a Nuclear Task Force to develop a
The Air Force Audit Agency provides all levels of Air Force   nuclear enterprise roadmap. The Task Force published the
management with independent, objective, and quality           Roadmap titled “Reinvigorating the Air Force Nuclear
audit services by reviewing and promoting the economy,        Enterprise” (hereafter referred to as the Roadmap) on
effectiveness, and efficiency of operations; evaluating       October 24, 2008. The Roadmap requires an assessment
programs and activities and assisting management in           method capable of measuring progress made to improve
achieving intended results; and assessing and improving       the nuclear enterprise through action plans. This method
Air Force fiduciary stewardship and accuracy of financial     uses measures of performance and effectiveness (hereafter
reporting. Organized into three line directorates, the        referred to as measures) to determine how well the Air
AFAA conducts centrally directed audits in 12 functional      Force is implementing Roadmap objectives and to
areas that provide support to Air Force senior leaders. The   determine if the Air Force is accomplishing a safe, secure,
AFAA also has audit teams at over 50 locations providing      effective, and reliable nuclear mission.
audit services to installation commanders.                    	        This audit concluded the Air Force nuclear
	        The Financial and Systems Audits directorate,        enterprise assessment methodology, while generally
headquartered at March AFB, Calif., directs audits            adequate, needed strengthening. Specifically, Air Force
related to financial management, financial support,           nuclear personnel developed measures adequately
information systems development, communications               addressing root causes identified in the Roadmap and
systems, and system security. The Support and Personnel       the measures should facilitate reporting to responsible
Audits Directorate, headquartered at Brooks City-Base,        oversight bodies. However, 11 (14 percent) of 79 measures
Texas, directs audits related to operational support,         did not fully address Roadmap objectives. Incomplete
personnel, training, engineering support, support services,   measures could lead to inaccurate nuclear program
environmental issues, intelligence operations, and health     assessments. Additionally, nuclear personnel did not
care. The Acquisition and Logistics Audits directorate,       develop adequate internal controls over data collection to
headquartered at Wright-Patterson AFB, Ohio, directs          guide major commands and wings in their data collection
audits related to procurement, maintenance, supply,           efforts. Without these controls, nuclear assessment data
transportation, and weapon systems acquisition.               is more susceptible to errors and inconsistencies. From
	        In the last six months, audit efforts focused in     November 2008 through January 2009, Air Force

                                                                                                                       81
April 1, 2009 to September 30, 2009
                                                                                   Other DoD Oversight


personnel corrected the deficient evaluation measures this    aircraft (F100) contain major sub section or assembly
audit identified.                                             modules (such as a gearbox, fan drive, or core) that are
	       Further, in February 2009, Assistant Chief of Staff,  individually managed and tracked. When an engine
Strategic Deterrence and Nuclear Integration officials        module reaches its maximum serviceable life, maintenance
established a data collection internal control plan in        personnel must remove the engine from the aircraft and
response to audit concerns. These completed management        replace the module. Module matching aligns modules
actions properly address identified deficiencies and the      with similar remaining life to maximize engine time on
auditors plan to perform a follow-on audit to validate        the aircraft between scheduled removals. During FY 2007,
the accuracy of data collected and reported through the       the Air Force performed 397 scheduled removals of F101
established Roadmap measures. (Report No. F-2009-             and F100 engines, costing approximately $17.8 million.
0005-FD3000)                                                  	        The audit concluded that engine maintenance
                                                              personnel did not effectively align 101 of the 339 engines
Air Force Installation Protection                             reviewed and did not identify and make available 30
Program                                                       serviceable engine modules for use at other locations. In
The terrorist attacks in the fall of 2001 increased addition, module-matching algorithms did not always
attention and concern over improving defense against select F100-220 engine modules that maximized time on
chemical, biological, and radiological/nuclear weapons the aircraft or minimized engine removal costs.
incidents. The Secretary of Defense established the Air
Force Installation Protection Program to control possible
chemical, biological, and radiological/nuclear incidents
and reduce casualties by providing a warning notification
and first response capability for military installations. The
Air Force Civil Engineering Support Agency is responsible
for implementing the Air Force installation protection
program. Contract Logistic Support contractors were used
at selected installations to implement the program and
assist with daily chemical, biological, and radiological/
nuclear operations.
	        For FY 2008, the installation protection program
budget was approximately $4.9 million for equipment,
sustainment, and 29 contractors at 27 installations. The
audit disclosed that at the nine installations reviewed
installation protection program personnel did not properly
maintain equipment readiness or account for more than
30 percent the program equipment items, and did not
                                                                U.S. Air Force technician works on an aircraft engine module.
adequately train first responders. A robust installation
protection system is necessary to prepare, react, and
respond to a chemical, biological, and radiological/nuclear
incident as well as transfer critical missions as soon as 	            As a result, the Air Force could increase engine
possible, thereby protecting personnel, maintaining critical time on wing between scheduled removals and save
military missions, and resuming essential operations. approximately $41.4 million in parts and labor costs.
(Report No. F-2009-0006-FD1000)                               Additionally, effectively advertising available modules
                                                              would have provided better alignment of at least 10
Engine Module Matching                                        additional engines and saved approximately $1.8 million.
Engines for the B-1 aircraft (F101) and the F-15 and F-16 Finally, updating algorithms would improve engine time on



82
                                                                                             Semiannual Report to the Congress
U.S. Air Force


wing between scheduled removals and save approximately        place to keep the home station operating. The Air Force
$12 million in parts and labor costs. (Report No. F-2009-     uses three-character posture codes (P codes) to distinguish
0005-FC2000)                                                  which UTC authorizations are available for deployment
                                                              (vice home station). As of April 22, 2009, the Air Force
Air and Space Expeditionary Force Unit                        had approximately 27,000 unit type codes, containing
Type Code Reporting Tool                                      more than 52,000 work force authorizations, P-coded as
The Air and Space Expeditionary Force Unit Type Code          minimum home station requirements.
Reporting Tool is a secure, Web-based system that             	        The review disclosed Air Force officials did not
addresses unit type code readiness. The Air Force Personnel   identify and validate minimum work force authorizations
Center directorate of Air and Space Expeditionary Force       necessary to support home station requirements during
Operations uses reporting tool readiness assessments to       deployments. Although major command functional
determine the most effective force tasking for deployment.    area managers P-coded unit type codes for home
Unit commanders, unable to support a tasking due to the       station requirements, unit commanders did not validate
lack of required personnel, submit a waiver requesting        approximately 5,000 manpower authorizations postured
approval to substitute personnel and submit a reclama if      in over 1,700 unit type codes reviewed. Further, base
either the requesting commander denies the waiver or the      support plans did not identify minimum home station
unit does not have substitute personnel. As of April 7,       work force requirements or address mitigating factors and
2009, Air Force commanders reported readiness for nearly      risk associated with loss of military work force.
129,000 unit type codes in the reporting tool, representing   	        Consequently, auditors could not assess whether
approximately 339,000 personnel and 250,000 tons of           data in the unit type codes availability database over-
equipment.                                                    or understated minimum home station requirements.
	        The review showed Air Force officials did not        Identifying minimum work force authorizations needed
accurately report unit type code readiness assessments        to support home station requirements and mitigation
at 12 of 14 wings reviewed. Additionally, on average for      actions required for the loss of work force during extended
calendar year 2008, commanders did not report or timely       deployments allows Air Force officials to accurately
report readiness assessments for 12 percent of 129,000        articulate potential capability shortfalls to senior leadership
unit type codes in the reporting tool. Furthermore, Air       and Congress and helps ensure mission accomplishment.
Force personnel did not timely process the reporting          (Report No. F-2009-0011-FD3000)
tool tasking reclamas and waivers at 11 and 10 wings,
respectively. Accurate and timely unit type code readiness    Air Force Tactical Terminals
assessments in the reporting tool provide Air Force           Air Force tactical terminals provide ultra high frequency
managers readiness information needed to effectively          satellite communications beyond line-of-sight access via a
select personnel and equipment to support combatant           classified network for near real-time situational awareness,
commander requirements. Timely reclamas and waivers           threat awareness/avoidance, and friendly force tracking
also help the air expeditionary force process and increase    data. These terminals help ensure war fighters in austere
short-notice taskings to Air Force personnel. (Report No.     and garrisoned facilities receive up-to-date intelligence.
F-2009-0010-FD3000)                                           In FY 2008, the Air Force received over $17 million in
                                                              tactical terminal funding and managed over 500 classified
Posture Coding Minimum Home                                   assets valued at over $47 million. The review concluded
Station Requirements                                          that although Air Force financial managers generally
Contingency planners use a deliberate process (termed         recorded transactions properly, they did not properly
posturing) to identify work force requirements and assign     execute or support $23.3 million of tactical terminal funds.
these requirements to unit type codes and respective air      Additionally, Air Force personnel at 23 of 33 locations
and space expeditionary forces. This process includes         reviewed did not maintain adequate accountability of 65
identifying the maximum work force that could deploy          percent of classified tactical terminal assets reviewed valued
from an installation while leaving enough personnel in        at $14.1 million. As a result, the Air Force lost control

                                                                                                                          83
April 1, 2009 to September 30, 2009
                                                                                 Other DoD Oversight


of sensitive (classified) intelligence gathering equipment.    Personnel Security Clearances
Proper funds execution is essential for the Air Force to       Air Force personnel requiring access to classified or
sustain an effective tactical terminal program at all levels   sensitive information must undergo security investigations.
to include aircraft integration, procurement, customer         The type of investigation conducted is based on the
requirements, software maintenance, contractor logistic        information and level of access required. Further, while
support, and training. Proper control and accountability       Air Force policy and Air Force Specialty mandate some
over intelligence assets help:                                 clearances, commanders may also designate security
•	 prevent equipment loss or misappropriation;                 clearance requirements for certain positions that involve
•	 avoid purchasing unneeded equipment;                        sensitive duties, such as Security Police for the National
•	 establish pecuniary liability for loss, damage, or          Air and Space Intelligence Center. The Administrative
    destruction of equipment; and                              Assistant to the Secretary of the Air Force Information
•	 ensure assets are available to accomplish assigned          Protection Directorate has responsibility for the personnel
    intelligence missions. (Report No. F-2009-0012-            security clearance program. In FY 2007, the Air Force
    FD3000)                                                    Central Adjudication Facility spent more than $96.5
                                                               million for security clearance investigations and the Air
Air-to-Air Weapon System Evaluation                            Force had over 98,938 Top Secret and 277,913 Secret
Program                                                        positions requiring clearances as of December 31, 2007.
The Air Force requires the Combat Air Force to continually     	       The audit disclosed while more than 96 percent of
assess the effectiveness and suitability of fielded weapon     military, civilian, and Air Force Specialty Code Top Secret
systems under realistic operational scenarios. Accordingly,    clearances met minimum security requirements and
Air Combat Command conducts a live fire Air-to-Air             were current, unit commanders incorrectly designated
Weapon System Evaluation Program for participation by          172 of 918 (19 percent) statistically selected Top Secret
all Combat Air Force units with an air-to-air role. The        positions reviewed, and an additional 120 individuals in
program ensures proper integrated weapon performance           commander-designated Top Secret positions did not have
in combat and supports decisions relating to operational       the required clearance. Further, unit security managers
capabilities, force structure, required modifications, and     did not properly document all civilian security access
tactical missile procurement requirements. The Weapon          requirement and position sensitivity codes. Properly
System Evaluation Program is the only Air Force venue          administered security clearances provide assurance only
providing live fire experience outside of actual combat.       authorized personnel have access to sensitive classified
During FY 2008, the investment in Weapon System                information. Based on statistical methodology, the
Evaluation Program execution totaled approximately             auditors estimate units can eliminate over 9 percent of
$136 million.                                                  commander-designated Top Secret positions Air Force-
	        The review determined Air Combat Command              wide, reducing initial and periodic reinvestigation costs
program management officials effectively executed Weapon       by more than $12.4 million over the six-year Future Years
System Evaluation Program consistent with test and             Defense Program. (Report No. F-2009-0007-FD4000)
evaluation guidance and established adequate long-range
financial plans consistent with program requirements.          Follow-up Audit, Family Care Plans
However, Air Force tactical missile inventories could not      To support contingency operations, all Air Force members
always sustain Weapon System Evaluation Program test           should make adequate arrangements for the care of family
requirements. Risk-based adjustments to requirements           members. DoD Instruction 1342.19, Family Care Plans,
planning will provide better assurance that missile            July 13, 1992, requires all single military parents and dual
inventories will support future testing, provide accurate      military couples with dependents initiate and maintain
assessment of the probability of mission success for key       documented family care plans. As of December 3, 2008,
weapon system combinations, and optimize the program’s         the Air Force Military Personnel Data System included
live fire training benefits. (Report No. F-2009-0007-          over 15,205 active duty members requiring family care
FC3000)                                                        plans. The audit determined, at the 11 locations reviewed,

84
                                                                                           Semiannual Report to the Congress
U.S. Air Force


members did not establish family care plans (32 percent)      management actions were implemented in response to
or maintain complete and workable family care plans           recommendations reported in AFAA report no. F-2006-
(65 percent). Complete and workable family care plans         0008-FB4000 Follow-up Audit, “Controls Over Access
are essential to provide seamless transfer and care of        to Air Force Networks and Systems” (FOUO), September
dependents and improve member deployment readiness            11, 2006. The audit disclosed management corrective
(repeat finding). (Report No. F-2009-0010-FD4000)             actions were generally effective to properly authorize
                                                              foreign nationals’ access to networks and systems.
Follow-up Audit, Air Reserve Component                        	       However, management corrective actions to
Family Care Plans                                             strengthen controls over contractor access to networks
To support contingency operations, all Air Force members      and systems, and identify contractor and foreign
should make adequate arrangements for the care of family      national e-mail accounts were not effective. Specifically,
members. DoD Instruction 1342.19, Family Care Plans,          communications personnel:
July 13, 1992, requires all military members, single          •	 granted privileged network access to contractors
or married, with dependents to initiate and maintain              without the required Top Secret security clearance
documented family care plans family care plans. As of             (repeat condition),
September 2, 2008, the Air Force Military Personnel           •	 granted network access to contractors without the
Data System included over 7,400 Air Reserve component             required trustworthiness determination (repeat
members (Air National Guard and Air Force Reserve                 condition), and
Command) requiring family care plans.                         •	 established e-mail accounts that did not identify
	       Auditors concluded that, at the six Air National          users as contractors or foreign nationals in the e-mail
Guard locations reviewed, members either did not establish        display names and addresses (repeat condition).
family care plans (32 percent) or maintain complete and       Allowing contractors without proper clearances
workable family care (95 percent). At the six Air Force       uncontrolled access to Air Force networks and systems,
Reserve Command locations reviewed, members either            and not properly identifying their or foreign nationals’
did not establish family care (9 percent) or maintain         in e-mail accounts exposes the entire network and the
complete and workable family care (40 percent). Complete      mission critical information contained therein to increased
and workable family care plans are essential to provide       risk of sabotage or unauthorized disclosure, potentially
seamless transfer and care of dependents and improve          jeopardizing the Air Force war fighting capability. (Report
Air Reserve component member deployment readiness             No. F-2009-0003-FB4000)
(repeat finding). (Report No. F 2009-0011-FD4000)
                                                              Freedom of Information Act
Information Security and Privacy                              The Freedom of Information Act provides any person
                                                              the right, enforceable in court, to access federal agency
Follow-up Audit, Controls Over Access                         records, except for those records (or portions thereof )
to Air Force Networks and Systems                             protected from public disclosure exemption or special
The Air Force employs foreign nationals and contractors       law enforcement record exclusion. FOIA requires the Air
who must meet certain information assurance                   Force to provide requested records within 20 working
requirements before being granted access to computer          days and post frequently requested records on an Air
networks and automated information systems. The Air           Force Web site, referred to as an electronic reading room.
Force must perform trustworthiness investigations before      The Air Force received 8,287 FOIA requests for records
granting network and system access and background             in FY 2008.
investigations for Top Secret security clearances before      	       This audit concluded that although the Air
granting privileged access. Additionally, e-mail accounts     Force increased staffing and developed new software to
must properly identify foreign nationals and contractors to   better manage the program and reduce its backlog of
preclude unintended disclosure of sensitive information.      requests, it still needed improvements in recording and
AFAA performed this audit to determine whether effective      tracking requests for records, processing requests, public


                                                                                                                      85
April 1, 2009 to September 30, 2009
                                                                                  Other DoD Oversight


Web access to records, recovering costs incurred, and           percent) of 1,534 registered Air Force information systems
plans to minimize request backlogs. Specifically, FOIA          contained Privacy Act data.
program managers did not properly record or track FOIA          	       This audit disclosed Air Force personnel could
requests.                                                       more effectively protect electronic personal data. In
	        As a result, the Air Force overstated the number       particular, Privacy Act officers and system managers did not
of requests received and understated response times in          identify and categorize personally identifiable information
the Air Force’s annual FOIA report submission to DoD            resident in all information systems. Properly identifying
for inclusion in its Annual FOIA Report to Congress. In         and categorizing information in systems ensures proper
addition, FOIA program managers did not efficiently or          controls are used to minimize the risk of unauthorized
properly process FOIA requests. Through more efficient          access, use, disclosure, disruption, modification, or
and proper FOIA request processing, the Air Force could         destruction.
reduce response times while also reducing time and              	       In addition, responsible personnel did not
resources expended.                                             review and minimize the use of Social Security numbers.
	        Additionally, the Air Force electronic reading         Minimizing the collection or use of Social Security
room did not include all frequently requested records, and      numbers limits the magnitude of harm that could result
the public could not access all Air Force electronic reading    from unauthorized access, use, disclosure, disruption,
rooms. As a result, records were not readily available to       modification, or destruction of records containing
the public, decreasing Air Force responsiveness and             personal information. Finally, Privacy Act officers and
causing Air Force FOIA personnel to expend unnecessary          system managers did not monitor, follow up, resolve,
time and resources duplicating work. Further, FOIA              and evaluate all security incidents to identify trends
program managers did not accurately assess or collect fees      and implement preventive controls. Preventive controls
for processing FOIA requests. As a result, the Air Force        established from identified trends in security incidents
understated its FOIA program cost and did not recoup            help prevent similar incidents from recurring. (Report
appropriate costs.                                              No. F-2009-0006-FB4000)
	        Finally, FOIA program managers did not have
sufficient plans in place to minimize FOIA request              Acquisition Processes and
backlogs. Automated records reviewed showed FOIA                Contract Management
program offices had 688 open requests as of July 2008.
Of those, 543 (79 percent) were open more than 20               Acquisition Strategy Trends for
working days and 248 (36 percent) were open more than           Tanker Support Requirements
six months. As a result, FOIA requesters have successfully      The Federal Acquisition Regulation provides guidance
sued the Air Force in federal court over response timeliness.   for developing acquisition strategies. A strategy prescribes
(Report No. F-2009-0004-FB4000)                                 the techniques and procedures for acquiring commercial
                                                                items and services that are normally available in the
Electronic Personal Data Protection                             common market place (FAR Part 12, Acquisition of
The Privacy Act of 1974 states that federal agency              Commercial Items) or items that are government-unique
collection, maintenance, use, and dissemination of personal     and not similar to those for sale within the industry or
information directly affects an individual’s privacy. DoD       the common market place (FAR Part 15, Contracting
policy prohibits organizations from disclosing personally       by Negotiation). The KC-135 Tanker Aircraft Program,
identifiable records maintained in government systems           located at the Oklahoma City Air Logistics Center, uses
without a person’s consent, and it grants individuals           both organic and contract efforts to support 484 KC-135
the right to access and amend those records if they are         aircraft assigned to 34 Air Force locations worldwide.
not accurate, relevant, current, or complete. According         The contract support portion of the program is based on
to information in the Air Force Enterprise Information          both commercial and government-unique acquisition
Technology Data Repository as of May 2008, 216 (14              strategies.


86
                                                                                            Semiannual Report to the Congress
U.S. Air Force


	        As of November 1, 2008, the KC-135 program               statement and task order with Booz Allen Hamilton, the
included 21 active support contracts valued at $4.1               analysis initially excluded two Office of the Under Secretary
billion. The audit determined Air Force acquisition               of Defense for Acquisition, Technology and Logistics
professionals improperly used FAR Part 12 for KC-135              required performance-based logistics metrics. Because
tanker support contracts for major depot-level aircraft           the data source documentation issue did not materially
repair and overhaul services. Specifically, Air Force officials   affect the outcome, Air Force leadership had the necessary
made commercial determinations for two ($1.6 billion)             information to make an informed decision regarding
of six ($3.7 billion) contracts even though they pertained        C-17 aircraft sustainment. Nevertheless, maintaining data
to military-unique aircraft, involved remanufacturing             source documentation allows the Air Force to effectively
services, and included terms inconsistent with FAR Part           use the business case analysis as a living document and
12. As a result, contracting personnel did not establish          track the success of the business case analysis decision over
oversight and control techniques normally associated              time. Additionally, including performance based logistics
with government-unique acquisitions to mitigate the risk          metrics allows the Air Force to better support and defend
of inadequate contract performance and unfair pricing.            business case analysis recommendations while meeting
(Report No. F 2009-0005-FC1000)                                   Office of the Under Secretary of Defense requirements.
                                                                  (Report No. F-2009-0007-FC3000)
C-17 Business Case Analysis
The Air Force has relied on a partnership with the Boeing
Company for C-17 Globemaster III product support
since 1998. In January 2002, the Deputy Chief of Staff,
Logistics, Installations, and Mission Support, Director
of Maintenance, and the Assistant Secretary of the Air
Force for Acquisition issued a joint memorandum
directing C-17 product support be managed through a
performance-based partnership between Boeing and the
Air Force, with Boeing retaining total system support
responsibility.
	         The joint memorandum directed the C-17 System
Program Director to develop a business case analysis to
support that decision. In 2003, the C-17 System Program
Office completed the business case analysis, and program
officials awarded Boeing a long-term sustainment contract
for FY 2004 to 2008 totaling approximately $5.9 billion.
However, as a result of a DoD IG report issued in July                  The sun sets behind a C-17 Globemaster III at Joint
2006, the C-17 program officials contracted with Booz                       Base Balad, Iraq, as soldiers begin boarding.
Allen Hamilton to re-accomplish the C-17 Sustainment
business case analysis.
	         This audit concluded Air Force personnel                Cellular Services
appropriately identified and applied Air Force business case      The Air Force spends approximately $40 million annually
analysis criteria/methodology, metrics, and data sources.         for cellular services and devices. In March to July 2006,
However, the 516th Aeronautical Systems Group and                 the Air Force Information Technology Commodity
Booz Allen Hamilton could improve documentation of                Council negotiated blanket purchase agreements with
data sources related to business case analysis cost estimates     four nationwide wireless carriers to lower Air Force
and the cost model. Furthermore, although the 516th               cellular commodity costs. In turn, the Chief, Warfighting
Aeronautical Systems Group identified existing Air Force          Integration and Chief Information Officer issued a
business case analysis policy in the performance work             memorandum on August 18, 2006, requiring Air Force


                                                                                                                              87
April 1, 2009 to September 30, 2009
                                                                                 Other DoD Oversight


organizations to transition existing cellular service plans    Financial Management
with these providers to the blanket purchase agreements
by November 1, 2006.                                           Defense Travel System and Leave
	        As of November 20, 2007, the Air Force                The Defense Travel System is a fully integrated, electronic,
transitioned 52,000 of the estimated 100,000 cellular          end-to-end financial management system that automates
telephones and e-mail-enabled devices to blanket               temporary duty travel planning and recording and meets
purchase agreements. Auditors concluded Air Force              unique DoD mission, security, and financial system
organizations did not transition all cellular service plans    requirements. Military and DoD civilian personnel use
to required blanket purchase agreements or optimal plans.      DTS to enter travel authorizations and vouchers. Although
Air Force organizations also did not effectively establish     the system allows personnel to document personal leave
authorizations and validate cellular device requirements.      days taken in conjunction with official travel, it does not
The Air Force could save $2.3 million annually, or $13.7       offer automatic leave reporting and processing.
million over the six-year Future Years Defense Program, by     	       From July 1, 2007 to June 30, 2008, Air Force
transitioning cellular service plans to the blanket purchase   travelers processed approximately 540,000 travel vouchers
agreements and optimal plans. An additional savings of         using DTS. Approximately 35,000 (6 percent) included
approximately $206,000 annually, or $1.2 million over          personal leave. An audit, requested by the Deputy
the six-year Future Years Defense Program, could be            Assistant Secretary, Financial Operations, disclosed
realized by terminating cellular plans for non-mission,        finance personnel and travel approving officials did not
low usage devices. (Report No. F-2009-0007-FB4000)             ensure leave shown in DTS was properly charged in
                                                               military and civilian pay systems. The auditors identified
Air Force Use of Non-DoD Contracts                             1,104 personal leave days valued at $295,123 were not
The Air Force spends billions of dollars annually to           properly charged from July 2007 through June 2008.
procure goods and services through non-DoD contracts           Based on sample results, the auditors projected at least
(interagency acquisitions). Contracting activities are         8,370 days valued at approximately $2.4 million were not
encouraged to use non-DoD contracts to support Air Force       properly charged during this 12 month period.
requirements when they provide the best value to the Air       	       In addition, authorized officials approved per
Force. From September 2007 through August 2008, Air            diem payments to Air Force personnel for days classified
Force interagency acquisitions exceeding the $100,000          and taken as personal leave. Recouping funds paid in error
simplified acquisition threshold totaled almost $2 billion.    and preventing future overpayments will save the Air Force
While personnel adequately monitored and managed               approximately $124,000 over the six-year Future Years
funds obligated on non-DoD contracts, the audit also           Defense Program. (Report No. F-2009-0004-FB1000)
determined Air Force personnel did not adequately justify
or obtain required approval to acquire goods or services       Air Force Smart Operations for the
using non-DoD contracts. Conducting adequate market            21st Century Initiatives Validation
research and obtaining required approval helps ensure          In November 2005, the Secretary and the Chief of Staff
acquisitions are in the best interest of the Air Force.        directed Air Force organizations to implement and
	        Additionally, personnel did not always request        institutionalize a strategic continuous process improvement
price reductions for interagency orders on the federal         approach called Air Force Smart Operations for the 21st
Supply Schedule. As a result, the Air Force may not have       century. To meet future-year budget constraints, the
obtained the best value for interagency acquisitions valued    Secretary established an FY 2009 innovation account
at $138.9 million. Finally, the Air Force may not have         totaling nearly $1 billion earmarked for AFSO21
achieved the best value for interagency acquisitions valued    efficiencies. In a March 2008 message to senior leaders,
at over $34.6 million because. Air Force personnel did not     the Secretary provided AFSO21 innovation account
comply with competition requirements for interagency           guidance for justifying and funding initiatives over $1
acquisitions. (Report No. F-2009-0007-FC1000)                  million, to include business case analyses, return on



88
                                                                                           Semiannual Report to the Congress
U.S. Air Force


investment, payback periods, and net savings. Initiative       but must pay for offloaded fuel. During FY 2007, the
savings would then be used to fund future year critical        Air Force billed foreign customers over $48.6 million
investment accounts.                                           in flying hour costs and fuel associated with in-flight
	        The secretary funded the innovation account with      refueling missions.
FY 2009 Operation and Maintenance dollars, a one-year          	       This audit concluded Air Force personnel
appropriation. As of October 2008, the Air Force used the      could improve in-flight refueling of foreign customers.
account to fund 117 initiatives valued at $777 million.        Specifically, unit refueling personnel did not submit
The Air Force Corporate Structure is responsible for           transactions for 472,509 gallons of fuel valued at over
evaluating service-wide budget requirements, and it makes      $1.2 million and did not identify discrepancies between
resource allocation recommendations to the Secretary and       refueling documents. Properly billing foreign government
Chief of Staff. This audit concluded AFSO21 program            customers for all refueling transactions would increase Air
managers did not effectively implement the Secretary’s         Force reimbursements by $6.5 million over the period
AFSO21 validation process. Program managers did not            reviewed and the Future Years Defense Program.
submit accurate, complete, and supported business case         	       In addition, Air Mobility Command personnel
analysis packages; included initiatives having negative        did not timely process all flying hour claims for
return on investment; and did not provide required risk        reimbursement. Timely reimbursement would return
assessments.                                                   $1.6 million of Air Force funding for other current valid
	        As a result, Air Force Corporate Structure resource   mission requirements.
allocation members did not have assurance that FY 2009         	       Finally, Air Mobility Command personnel did
initiatives were funded based on sound financial and           not validate the FY 2008 KC-135 composite flying hour
business practices, and they may have lost opportunities       rate. The incorrect formula did not fully reimburse the
to fund other critical Air Force requirements. Program         Air Force for refueling support and would have resulted in
managers also did not effectively manage FY 2009               under billing Foreign Military Sales customers $150,920
innovation account funding. As a result, Air Force             from FY 2008 through the Future Years Defense Program.
Corporate Structure members may have made suboptimal           (Report No. F-2009-0002-FC2000)
resource allocation recommendations to the Secretary
because eight initiatives valued at $170 million may not       Health Care
be executed. Together, AFSO21 program managers and
Air Force Corporate Structure officials took corrective        Medical War Reserve Materiel
action by cancelling three initiatives and reducing the        Requirements
investment for another, allowing $163 million to be            The War Reserve Materiel program acquires, positions,
realigned for other unfunded Air Force priorities. The audit   and maintains assets to meet the objectives of the National
recommended program managers revalidate approved FY            Defense Strategy. In addition to primary operating stocks
2009 initiatives to assess the impact on FY 2009 budget        and deployment equipment, assets designated as War
execution. (Report No. F-2009-0007-FB1000)                     Reserve Materiel support wartime activities reflected
                                                               in the Air Force War and Mobilization Plan. As of July
Foreign Military Sales Refueling                               2008, the Air Force maintained medical War Reserve
The Arms Export Control Act authorizes both the                Materiel requirements totaling over $547 million. Air
Foreign Military Sales and Foreign Government Support          Force officials did not adequately maintain requirements
programs to provide in-flight refueling support to foreign     for medical War Reserve Materiel deployment packages.
governments. Under Foreign Military Sales, the foreign         	       Specifically, Air Force component and Surgeon
government pays all costs for tanker flying hours and          General planners did not appropriately identify and
offloaded fuel. Conversely, under the Foreign government       adequately support 18 of 27 (67 percent) judgmentally
Support program, the foreign government receives air           selected deployment packages (four understated and
refueling support (tanker flying hours) free of charge         14 overstated requirements). Understated War Reserve



                                                                                                                       89
April 1, 2009 to September 30, 2009
                                                                             Other DoD Oversight


Materiel requirements could delay or impede mission        AFAA issued a related audit report (Report No. F-2005-
accomplishment, while eliminating overstatements could     0008-FD2000; “Deployment Health Assessments,”
save the Air Force over $41 million. (Report No. F-2009-   September 20, 2005) concluding airmen returning from
0006-FD2000)                                               deployment were not always provided a post-deployment
                                                           health assessment. AFAA auditors re-addressed this issue
Air Reserve Component Line of Duty                         as part of the current audit.
Determinations                                             	        The audit revealed that while Air Force officials
A line of duty determination is a finding made after an    implemented effective action to correct previously
investigation into the circumstances of a member’s illness,reported post-deployment health assessment program
injury, disease, or death. In the case of an Air Reserve   deficiencies, opportunities existed to improve the
component (Air National Guard and Air Force Reserve        management of the post-deployment health reassessment
Command) member, makes a finding whenever the              program. Specifically, for more than 39 percent of
member requires medical treatment while in an active       reassessments reviewed, Air Force officials either did
duty status. Line of duty determinations are required      not always require service members to complete the
for members to receive incapacitation pay, medical         reassessment or complete the reassessment process within
continuation orders, and payment for medical care          required time frames. Additionally, for nearly 21 percent
resulting from the determination.                          of positive reassessments analyzed, medical teams did not
	       During calendar years 2006 and 2007, Air Reserve   conduct the required reviews. They also did not always
component units initiated more than 5,500 line of duty     complete them within 30 days as required. Completion
determinations. Auditors determined that while airmen      of post-deployment health reassessments helps ensure
were, in general, properly reimbursed for line of duty-    redeploying members who indicate potential medical
related medical treatment, Active Duty and Air Reserve     problems get the clinical attention they require and
component officials took as long as three years to completeare fit to fight in support of their respective missions.
line of duty determinations and approved nearly 22         Likewise, completing reassessments in a timely manner is
percent of the determinations without adequate support.    essential to identify medical concerns not always evident
Timely processed and properly approved determinations      when service members initially return from contingency
are essential to ensure airmen receive all authorized      operations. (Report No. F-2009-0009-FD2000)
medical treatment and entitlements in a timely manner
and, at the same time, mitigate unnecessary risk to DoD. Immunization Services
(Report No. F-2009-0007-FD2000)                             Reimbursements
                                                            Title 10 U.S.C. 1095, “Health Care Services Incurred
Post-Deployment Health Assessments                          on Behalf of Covered Beneficiaries: Collection from
Immediately upon return from deployments, airmen Third-Party Payers,” requires the Air Force to collect
are required to complete a post-deployment health reasonable costs for medical services provided, to
assessment, a tool used to assess each member’s current include immunizations, when non-active duty (military
physical and mental health as well as psychosocial issues retirees, dependents, and other beneficiaries) have health
commonly associated with deployments. In March insurance. Immunizations may be provided as part of
2005, the Assistant Secretary of Defense for Health a patient appointment when seeing a medical provider,
Affairs directed the military services to implement a or may be provided in immunization clinics to meet
post-deployment health reassessment program targeting childhood, school, or annual flu vaccination program
airmen who have been home from deployment for 90 requirements. Over 97 percent of these immunizations
or more days. During the reassessment, service members are given in immunization clinics rather than during
identify any post-deployment health concerns. During patient appointments.
FY 2006 and 2007, the Air Force deployed over 144,000 	            During calendar year 2008, Air Force
Active Duty and Reserve component service members. The immunization clinics provided almost 1.2 million



90
                                                                                      Semiannual Report to the Congress
U.S. Air Force


immunizations to non-active duty beneficiaries at             •	 provides real time actionable information to direct
an estimated reimbursable value of $83 million. An                action units.
auditors’ review disclosed that opportunities exist for       Successful OEF/OIF operations by Direct Action Units
military treatment facility officials to increase third party based on AFOSI target packages and military source
collections for immunization services. Specifically, medical  operations include the following:
personnel did not bill third party insurance companies for    •	 Threats Identified-Total number: 3,778. Individuals
immunizations provided to non-active duty personnel.              linked to insurgent groups, terrorist groups, or
Improving immunization reimbursement procedures will              intelligence services, which represent a threat to Air
help ensure compliance with public law and allow the Air          Force installations/resources.
Force to collect an additional $14 million over the six-year  •	 Target Packages-Total number: 140. Targeting
Future Years Defense Program to further support military          information provided by AFOSI to DAU (Army,
treatment facility operations. (Report No. F-2009-0010-           SOF, Coalition Forces, Host Nation Police/Army, etc)
FD2000)                                                           for exploitation.
                                                              •	 Captured/Neutralized-Total number: 313. Individuals
Air Force Office of                                               captured/neutralized by DAU based on AFOSI
                                                                  collected information include 13 high value targets,
Special Investigations                                            four Al Qaeda in Iraq members, and 30 Taliban
The Air Force Office of Special Investigations is a field         insurgents.
operating agency, accountable to the SECAF, under the
direction and guidance of the Inspector General of the Weapons Caches
Air Force. It is a combat-ready military organization that AFOSI Counter Threat Operations have resulted in
provides the Air Force a wartime capability to conduct, seizing multiple intact improvised explosive devices and
in hostile and uncertain environments, counter-threat rockets targeting host nation security forces, Coalition
operations to find, fix, track, and neutralize enemy threats. forces and Air Force installations. CTO operations have
It is the Air Force’s focal point for working with United also netted numerous small arms weapons and explosives
States and foreign nation law enforcement and security caches destined for use against Coalition and host nation
services to provide timely and accurate threat information security forces.
in all environments. It also performs as a federal law
enforcement agency with responsibility for conducting
                                                              Operation Iraqi Freedom
criminal investigations, counterintelligence, specialized
                                                              •	 At Joint Base Balad, Iraq, AFOSI reporting provided
investigative activities, protective service operations, and      key intelligence leading to the capture of a terrorist
integrated force protection for the Air Force.                    cell leader responsible for recruiting, supplying
                                                             weapons and spreading propaganda. This cell leader
Roles in Operation Enduring                                  was also a primary weapons facilitator for multiple
Freedom and Operation Iraqi                                  terrorist organizations, supplying them with indirect
Freedom                                                      fire weapons that were used against Coalition bases
For OEF and OIF, the AFOSI:                                  and supplying improvised explosive device materials
•	 conducts specialized criminal investigation activities    used to specifically target Coalition forces.
    and uses a confidential sources network as the only •	 After several failed attempts to capture a wanted
    Air Force investigative agency chartered to do;          insurgent, the Iraqi Police made an official request for
•	 works in conjunction with host nation counterparts,       assistance to AFOSI agents at Joint Base Balad, Iraq.
    Coalition forces, Air Force assets such as intelligence, Specifically, the Iraqi Police requested AFOSI detain a
    explosive ordnance disposal, security forces, and joint  cell member because he facilitated indirect fire attacks
    assets such as special operations forces and army units; on Joint Base Balad. AFOSI located and detained the
    and                                                      insurgent and transferred custody to the Iraqi Police
                                                             responsible for the area.


                                                                                                                     91
April 1, 2009 to September 30, 2009
                                                                                 Other DoD Oversight


•	 At Joint Base Balad, AFOSI provided critical post-             multiple attacks against Coalition forces.
   indirect fire attack evidence and information to Iraqi    •	   AFOSI reporting was instrumental in a joint operation
   authorities. This information led to apprehending              targeting terrorist leaders in and around Kirkuk
   three local nationals responsible for the indirect fire        Regional Air Base, Iraq. The operations produced
   attack that seriously wounded two third-country                two captured terrorists, including a cell commander
   nationals. Additionally, one of the three was wanted           responsible for firing rockets at Coalition forces.
   by the government of Iraq for kidnapping.                 •	   AFOSI at Kirkuk Regional Air Base, Iraq, provided
•	 AFOSI reporting led to the detention of a terrorist            actionable intelligence information on suicide vests
   operating near Joint Base Balad, Iraq, who was wanted          and the personnel associated with their production.
   for terrorism and had violated terms of reconciliation         The Iraqi Police used this information to conduct a
   by attending meetings with high-level insurgents and           raid, which resulted in one insurgent captured and
   conducting improvised explosive device attacks against         two suicide vests seized.
   Coalition forces. The insurgent was also responsible      •	   Iraqi Police in Kirkuk issued four arrest warrants based
   for attacking Joint Base Balad with indirect fire              on AFOSI information. The named individuals were
   weapons.                                                       involved in murdering two Iraqis and a U.S. soldier.
•	 AFOSI counterintelligence efforts lead to the peaceful         Iraqi Police successfully arrested the four individuals.
   arrest of an insurgent cell leader who had directed       •	   AFOSI obtained information that disclosed the
   IED and indirect fire attacks against Coalition forces         location of a terrorist who attacked a Coalition forces
   and Joint Base Balad. The insurgent was wanted by              convoy and was wanted for throwing a grenade
   Iraqi officials for murdering 13 Iraqis and violating          at another Coalition force’s convoy. The suspect
   his terms of reconciliation.                                   was identified and detained by local authorities in
•	 AFOSI and the Iraqi Army conducted a raid, near                Baghdad.
   Joint Base Balad, on the compound of an indirect
   fire shooter. The insurgent was employed as an Iraqi
   Police Officer. AFOSI and the Iraqi Army seized
   weapons, ammunition, communication devices and
   two indirect fire targeting devices in the raid.
•	 AFOSI members at Joint Base Balad, Iraq, identified
   a known terrorist cell leader who was responsible
   for directing IED and indirect fire attacks against
   Coalition personnel and installations. Through
   a combined effort by AFOSI and local national
   workers, the terrorist’s vehicle was stopped, he was
   detained, and he was turned over to the Iraqi Police.
   The cell leader was also wanted by the Iraqi Police for
   premeditated murder.
•	 AFOSI agents at Kirkuk Regional Air Base, Iraq,
                                                                        AFOSI special agents in Iraq in support of
   supported the Iraqi Police in Kirkuk with actionable                       Operation Iraqi Freedom.
   intelligence in the apprehension of an insurgent
   operating in the Kirkuk area. The insurgent was
   involved in weapons smuggling, kidnappings, murders
                                                             Operation Enduring Freedom
   and indirect fire attacks against Kirkuk Regional Air
                                                             •	 AFOSI’s actionable reporting facilitated a raid near
   Base, Iraq.
                                                                Kandahar, Afghanistan, which resulted in neutralizing
•	 AFOSI agents at Kirkuk Regional Air Base, Iraq,
                                                                an Afghan national responsible for making and
   collected information that directly led to apprehending
                                                                emplacing improvised explosive devices. The
   an insurgent responsible for planning and conducting

92
                                                                                           Semiannual Report to the Congress
U.S. Air Force


     insurgent was responsible for the deaths of numerous           to locate and arrest an indirect fire cell member
     Coalition personnel. During this operation, AFOSI              operating near Kandahar Airfield, Afghanistan. This
     agents discovered multiple weapons, munitions and              terrorist was a critical node in an indirect fire cell
     improvised explosive device materials during a search          targeting Coalition forces, bases and assets. The arrest
     of the target compound. Five other suspected cell              was important in impeding the emplacement of IED
     members were also detained during the raid.                    targeting Afghan National Army, Afghan National
•	   AFOSI agents at Kandahar Airfield, Afghanistan,                Police and Coalition forces.
     compiled and collected information needed to support        •	 An AFOSI led operation near Kandahar, Afghanistan,
     an operation against an IED facilitator. During this           resulted in 25 insurgents neutralized. The operation
     multi-national operation, an improvised explosive              also disclosed the location and exploitation of an IED
     device facilitator was captured. The facilitator had           production facility and an insurgent hospital, and the
     cooperated and trained several insurgent networks in           destruction and exploitation of an insurgent supply
     southeastern Afghanistan. In addition to the primary           point.
     facilitator, three other terrorists were captured in this
     operation.
•	   AFOSI agents and analysts at Bagram Airfield provided
     information that culminated in capturing six terrorists
     convening at a known location in Kabul, Afghanistan.
     One of the terrorists was a suicide bomber facilitator
     with ties to high-level insurgent commanders.
•	   AFOSI obtained information that led to developing
     a multi-national operation targeting an insurgent
     improvised explosive device facilitator. During a search
     of operational areas, 125 kilograms of homemade
     explosives were seized. The insurgent was linked to
     other terrorist cells in the area.
•	   As a direct result of information AFOSI obtained,
     the Afghan National Police arrested an insurgent                  AFOSI special agents in Afghanistan in support of
     fighter who admitted his involvement in IED                               Operation Enduring Freedom.
     and indirect fire attacks near Kandahar Airfield.
     When arrested, he was in possession of multiple
     IED components and valuable intelligence.
                                                                 Case Summaries
     AFOSI, in concert with multinational partners,
     developed and executed operations targeting an
                                                                 Attempt to Use Weapons of Mass
     insurgent cell leader operating near Kandahar Airfield,
                                                                 Destruction
     Afghanistan. The insurgent leader had coordinated
                                                                 A joint AFOSI and FBI investigation identified four
     indirect fire and IED attacks against Coalition forces.
                                                                 suspects who expressed interest in conducting rocket
     He was also directly tied to other insurgent cell
                                                                 attacks against military transport aircraft at Stewart Air
     networks in central Afghanistan.
                                                                 National Guard Base, N.Y. The suspects purchased two
•	   AFOSI reporting lead to a Coalition forces raid
                                                                 inert Stinger missiles and three inert IEDs from the agents.
     in east central Afghanistan targeting a high-level
                                                                 They finalized operational planning to simultaneously
     terrorist. During this operation, a known insurgent
                                                                 employ two IEDs against a Jewish Community Center,
     cell commander and at least four of his fighters were
                                                                 one IED against a synagogue, and both Stinger missiles
     neutralized.
                                                                 against airborne military aircraft at Stewart ANG Base.
•	   AFOSI information enabled Afghan National Police



                                                                                                                           93
April 1, 2009 to September 30, 2009
                                                                                   Other DoD Oversight


After agents staged the IEDs, FBI and local SWAT teams,          down on the distribution of restricted data, not hardware,
in coordination with AFOSI agents arrested all four              to foreigners in a university setting.
suspects and transported them to confinement.
	        The four suspects were indicted by the United           Sale of Classified Documents
States Attorney’s Office, New York, on charges of                A joint AFOSI and FBI espionage investigation disclosed
conspiracy to use weapons of mass destruction, attempt           that a former deputy director of the Washington Liaison
to use weapons of mass destruction, conspiracy to acquire        Office for deputy director U.S. Pacific Command,
and use anti-aircraft missiles, attempt to acquire and           Pentagon sold both classified and unclassified documents
use anti-aircraft missiles, conspiracy to kill officers and      that contained DoD information for between $350 and
employees of the U.S. government, and attempt to kill            $800 apiece to a naturalized U.S. citizen from Taiwan.
officers and employees of the U.S. government.                   This naturalized U.S. citizen worked under the direction
                                                                 of a People’s Republic of China official who provided him
Violation of Export Control and                                  detailed instructions to collect certain documents and
International Traffic in Arms                                    information from the former deputy director and other
Restrictions                                                     U.S. government officials, including a former weapons
A joint AFOSI and FBI investigation disclosed that a             policy analyst at the Defense Security Cooperation Agency.
Professor Emeritus, University of Tennessee, Knoxville,          The PRC official paid the naturalized citizen approximately
Tenn., violated export control and International Traffic         $50,000 for completing those tasks. The PRC official also
in Arms Act restrictions of an Air Force contract by             instructed him to mislead the former deputy director into
allowing a foreign Chinese and an Iranian national               believing the information was for Taiwan military officials.
graduate research assistant to conduct work on an Air            Nevertheless, the former deputy director was aware that
Force contract. The professor was sub-contracted, via the        the naturalized citizen was providing the information to
University of Tennessee, to a company in Knoxville to            an agent of a foreign government. The naturalized citizen
perform a task order to augment unmanned aerial vehicle          and both former DoD employees were convicted on
flight performance using non-thermal plasma actuators.           espionage charges. The naturalized citizen and the former
An export license is required before assigning any foreign       weapons analyst were sentenced to 188 and 57 months
source to perform work under this contract or before             in prison, respectively. The former deputy director is
granting access to foreign persons to any equipment              scheduled for sentencing in January 2010.
and technical data. Investigators determined that both
the professor and company knowingly took steps to                Receiving Kickbacks
circumvent technology transfer restrictions and export           A joint investigation between AFOSI, Army CID, FBI,
control procedures.                                              and Immigrations and Customs Enforcement disclosed a
	       Additionally, during the course of this investigation,   structuring violation with a bank account maintained by
forensic analysis proved that a Visiting Researcher at           David Ricardo Ramirez, a civilian contractor working for
the U.S. Air Force Academy deleted specific phrasing             the Air Force in Balad, Iraq. Over seven days, 11 deposits
from the contract in an effort to influence the Air Force        in increments averaging $9,700 were made into Ramirez’s
Academy to acquire export-controlled equipment. The              bank account at several different branches of the San
professor was sentenced to four years in prison, $1700           Antonio Federal Credit Union, San Antonio, Texas. Each
fine and two years supervised probation after his prison         deposit consisted of sequentially numbered $50 and $100
term for conspiracy to defraud the Air Force, violation          dollar bills. Deposits were below the $10,000 threshold in
of the Arms Export Control Act and wire fraud. The               an effort to avoid federal transaction reporting requirements
researcher was sentenced to 14 months in prison and              by the bank. CTRs are filed for cash transactions exceeding
two years probation for conspiracy to violate the Arms           $10,000. The investigation further revealed within a years’
Export Control Act. This case marked the first time the          time, Ramirez took delivery of a white 25th Anniversary
government used the Arms Export Control Act to crack             Lamborghini sports car valued at approximately $87,000;



94
                                                                                              Semiannual Report to the Congress
U.S. Air Force


a Ducati motorcycle valued at approximately $30,000;              firm to perform a technical assessment and issue a report
and a condominium on Lake Travis in Largo Vista, Texas,           on the roof. The government oversight entity provided
valued at approximately $98,000. The investigation also           Headquarters United States Air Force Europe with the
revealed Ramirez received kickbacks from contractors by           independent engineering firm’s official report which
providing proprietary contract information in return for          documented several deficiencies made by the roofing
monetary compensation of 3 to 4 percent of the contract           company and showed the roof could not be repaired
value. Ramirez was sentenced to 50 consecutive months             but had to be replaced. HQ USAFE stopped payments
in federal confinement on two counts of structuring and           to the roofing contractor because of the deficient work
the forfeiture of all rights, titles and interests in the above   performed and damages to the roof. Investigation revealed
property.                                                         negligence by the design and construction management
                                                                  firm on the project responsible for ensuring the roofing
$2 Million Settlement for                                         company performed work according to the contractual
Overcharging                                                      specifications contributed to the deficiencies in the
AFOSI and DCIS initiated a joint investigation based on           original KMCC roof construction. The management firm
a Defense Hotline allegation that Boeing overcharged the          was also responsible for ensuring that requested change
Air Force for work on the KC-135 at the Boeing Aerospace          orders were necessary and invoices corresponded to actual
Support Center, San Antonio, Texas. The government had            completed work. Due to the management firm’s failure to
a contract with Boeing to conduct scheduled maintenance           properly execute these duties, replacing the roof caused
on the KC-135 every five years. Overcharging occurred             a significant delay in the project’s completion and cost
during “over-and-above maintenance work,” which is                an estimated additional $13.5 million to the original cost
work that was not part of basic, scheduled maintenance.           of the roof, for which the U.S. government paid $6.87
The Hotline complainant filed a qui tam lawsuit. Boeing           million. The Federal Republic of Germany agreed to pay
conducted an internal investigation into the allegation and       up to 25 million euro (approximately $35 million USD) as
found that the company had fraudulently charged the Air           a one-time measure to the German government oversight
Force $1.3 million. The Defense Contract Audit Agency             entity so that the KMCC project could be finished.
reviewed the results of Boeing’s internal investigation and
verified the Air Force’s loss was $1.3 million. The Boeing
Company and the Department of Justice entered into a              DoD Intelligence
settlement agreement wherein Boeing agreed to pay $2 The Inspectors General of the Department of the Air
million to the United States to settle the qui tam lawsuit. Force, Defense Intelligence Agency, National Geospatial-
                                                            Intelligence Agency, National Reconnaissance Office, and
Joint Investigation with German                             National Security Agency/Central Security Service; the
Police                                                      Army Audit Agency; the Naval Audit Service; the Air Force
In June 2007, AFOSI initiated a joint investigation Audit Agency; the Naval Criminal Investigative Service,
with the German Police Presidium Westpfalz, and the Defense Contract Audit Agency completed 131
Arbeitsgemeinschaft Air Base, Kaiserslautern, into the intelligence-related and other classified and sensitive
construction and condition of the Kaiserslautern Military reports. A listing and summary of the 131 reports can
Community Center roof. A German government entity be found in the Classified Annex to this Semiannual
that oversees construction projects on behalf of guest Report.
forces in Germany, hired an independent engineering




                                                                                                                         95
April 1, 2009 to September 30, 2009
     Defense Oversight
        Community
Providing Oversight for the Department...




        and making a difference!
Congressional Briefings
& Testimony
Working with Congress

Section 4(a) of the Inspector General Act requires the       fraud. Mr. Beardall highlighted that the DoD Inspector
Inspector General “to review existing and proposed           General strongly supports improving contractors’ internal
legislation and regulations relating to the programs and     oversight and ethics programs to enhance the government’s
operations of [the Department of Defense]” and to            ability to prevent and detect fraud. In addition, requiring
make recommendations “concerning the impact of such          contractors to implement internal compliance programs
legislation or regulations on the economy and efficiency     before a new contract is awarded will help prevent fraud.
in the administration of programs and operations
administered or financed by [the Department] or the
prevention and detection of fraud and abuse in such
programs and operations.” The DoD IG is given the
opportunity to provide information to Congress by
participating in congressional hearings and briefings.
During this reporting period, representatives from the
DoD IG testified three times before Congress.
	        On April 29, 2009, Mr. Charles W. Beardall, the
Deputy Inspector General for Investigations, Department
of Defense, testified before the Senate Homeland Security
and Governmental Affairs Committee, Subcommittee on
Contracting Oversight, regarding “Improving the Ability
of Inspectors General to Detect, Prevent, and Prosecute
Contract Fraud.” During his testimony, Mr. Beardall
                                                               Senators Susan Collins and Claire McCaskill at a hearing
emphasized that procurement fraud is one of the top
                                                               involving prosecuting contract fraud.
priorities for the Defense Criminal Investigative Service,
with 61 percent of over 1,800 active DCIS investigations
involving DoD contracting. He noted that DCIS has
an ever-increasing workload, and competing priorities
have reduced the ability of DCIS to devote additional
resources to fraud and corruption. During the past eight
fiscal years, DoD contracting increased more than 250
percent, while the number of DCIS special agents has
grown 13 percent. DCIS is a key participant in various
procurement fraud task forces and working groups that
have proven to be effective alliances to combat contract




98
                                                                                          Semiannual
                                                                                           SemiannualReport
                                                                                                      Reporttotothe
                                                                                                                 theCongress
                                                                                                                     Congress
On September 9, 2009, Inspector General
Heddell testified before the House Oversight and
Government Reform Committee, Subcommittee
on National Security and Foreign Affairs, on
“Afghanistan and Pakistan: Accountability
Community Oversight of a New Interagency
Strategy.” Inspector General Heddell highlighted
IG efforts to increase oversight by enhancing its
in-theater presence and ensuring comprehensive
and effective interagency coordination. The DoD
IG has a central field office at Bagram Airfield,
and has staffed new offices in Kandahar and
Kabul with 14 deployed personnel. In addition,
staff members travel as needed for fieldwork in
Afghanistan. Inspector General Heddell added        Inspector General Heddell testifies before the House Oversight
that he created a new key position in the DoD       and Government Reform Committee, Subcommittee on National
                                                    Security and Foreign Affairs, on oversight in Afghanistan and
IG to ensure there is effective coordination and    Pakistan.
communication within the oversight community
in Southwest Asia. In addition, the DoD IG, as
the lead oversight agency for accountability in
the Department, is extensively involved in three
critical coordination and planning mechanisms:
the Southwest Asia Joint Planning Group, the
                                                    Inspector General Heddell testifies before the Senate Homeland
Comprehensive Oversight Plan for Southwest          Security and Governmental Affairs Committee on reforming the
Asia, and investigative task forces.                Defense Contract Audit Agency.




                                                                                                                     99
April 1, 2009 to September 30, 2009
On September 23, 2009, Inspector General Heddell testified     a major aerospace program. In addition, employee
before the Senate Homeland Security and Governmental           concerns with time pressures, uncompensated overtime,
Affairs Committee on “Defense Contract Audit Agency:           changes to audits, and unprofessional behavior created a
Who is Responsible for Reform.” Inspector General              work environment not conducive to producing quality
Heddell testified that the DoD IG has a responsibility         audits. Several recommendations were made to DCAA,
to verify that audits by all DoD audit agencies, including     including that it rescind an additional five audit reports
DCAA, comply with stringent standards. On August               and notify contracting officials not to place reliance on the
31, 2009, the DoD IG issued a report following up on           reports’ conclusions. The report also recommended that
earlier identified DCAA deficiencies, which found that         DCAA take appropriate corrective action regarding the
audit opinions were not sufficiently supported; audits         performance of the two supervisors associated with the
performed by trainee auditors at one location did not          majority of cases reviewed by the DoD IG and GAO. As
comply with standards; and audit findings were dropped         a result of the deficiencies identified, the DoD IG notified
without sufficient justification. The DoD IG also found        DCAA that an “adequate” opinion on DCAA’s system of
that a flawed audit could have allowed a contractor to         quality control would expire as of August 26, 2009.
recover millions of dollars in unallowable costs on




                                                                  Office of
                                                                  Communications and
                                                                  Congressional Liaison
                                                                  Congressional Requests
                                                                  and Briefings

                                                                   From April 1, 2009 though September 30, 2009, the
                                                                   DoD IG received 118 new congressional inquiries and
                                                                   closed 112 cases. New inquiries involved issues such
                                                                   as the Battle of Wanat, Afghanistan; soldiers’ exposure
                                                                   to sodium dichromate; and a review of the financial
       Inspector General Heddell with Senators Susan Collins       statement of the National Security Agency. 	
       and Joe Lieberman.                                          	       In addition, the DoD IG held 66 meetings
                                                                   with Members of Congress or their staff on issues
                                                                   such as the review of electrocution deaths in Iraq,
                                                                   the report on Public Affairs Outreach Program, a
                                                                   review of allegations of misconduct related to the
                                                                   BRAC decision to close Fort Monmouth, and reports
                                                                   regarding information operations.




100
                                                                                            Semiannual Report to the Congress
Component Overview
                        AUDIT

The Office of the Deputy Inspector General for Auditing, with approximately 700 auditors dispersed world-wide,
promotes the economy and efficiency of DoD operations and programs and detects and deters fraud, waste, and abuse
in the Department of Defense through audits, assessments and other non-audit services. The DoD IG plans audits
each year to provide coverage of DoD organizations, programs, activities, and functions as an integral part of the
DoD management system, taking into consideration high-risk areas as identified by prior audits, the Department’s
priorities, and GAO high-risk areas.
	        From April 1, 2009 through September 30, 2009, the DoD IG issued 53 audit reports, made 365
recommendations and identified $695 million in potential monetary benefits. The DoD IG achieved $875 million
in identified funds put to better use from audit reports issued in previous years. The reports addressed deficiencies
and internal control weaknesses in DoD’s business operations, military programs, national security, compliance with
laws and regulations, and the effectiveness, safety, and care of the service members. The oversight performed is derived
from congressional and management requested projects, statutory requirements, Defense Hotline allegations, and self-
initiated audits of high-risk areas such as overseas contingency operations, financial management, contracting, health
care, force management, information assurance, and DoD physical security.



                                 Sources of Reports Issued




                                                                                  Statutory
                                                                                    30%




                    Self Initiated
                         51%


                                                                                      Hotline
                                                                                       4%
                                                                            Congressionally Requested
                                                                                       9%
                                                                    Management Requested
                                                                           6%




102
                                                                                         Semiannual Report to the Congress
                                                                              Investigations

The Defense Criminal Investigative Service is the criminal investigative arm of the DoD IG and conducts criminal
investigations of fraud, corruption, product substitution, computer intrusion, illegal transfer of technology, and theft
related to Department contract spending. DCIS also continues to participate in the Joint Terrorism Task Forces
throughout the country and work terrorism investigations jointly with the JTTF.
	       During this reporting period, nearly 53 percent of case inventory was in the area of fraud, corruption and
health care fraud. Investigations resulted in 197 federal criminal charges, 175 convictions, 55 suspensions, and 81
debarments. Additionally, the DoD IG recouped $993 million for the U.S. government. Of these, 27 federal criminal
charges, 31 convictions, four suspensions, 19 debarments, and the recoupment of $15 million were the result of DCIS’
investigations of fraud, corruption, and theft related to Overseas Contingency Operations and efforts in Southwest
Asia.




         DCIS Investigations Active and Closed by Category


         800
                     696
         700
         600                                                                                                                      ACTIVE
         500                                                                                                                      CLOSED

         400
                                                                                                                       279
         300                                            232
                                                                                          179
         200                           166
                           106
         100                                                  42         54                     48
                                                                                                            31
                                                                                                                             63
                                             23                               11                                 9
            0
                                                                                          N
                                                                        E
                                                         ON




                                                                                                                       R
                                                                                                          M
                    D




                                       E




                                                                        M
                                     R




                                                                                         O




                                                                                                                       HE
                  AU




                                                                                                          IS
                                  CA




                                                                                       TI
                                                       TI




                                                                      I
                                                                   CR




                                                                                                       OR




                                                                                                                     OT
                FR




                                                                                     EC
                                                     TU
                                  TH




                                                                   ER




                                                                                                     RR
                                                                                   OT
              D




                                                  TI
                               AL




                                                                  B
            AN




                                                                                                    TE
                                               BS




                                                                                  PR
                                                               CY
                            HE




                                             SU




                                                                                                   /
          N




                                                                              GY




                                                                                                TY
         IO




                                            T




                                                                                               RI
                                                                             LO
       PT




                                         UC




                                                                                             CU
                                                                          O
     RU




                                       OD




                                                                        HN




                                                                                          SE
     R




                                   PR
  CO




                                                                         C




                                                                                         D
                                                                      TE




                                                                                       AN
                                                                                   EL
                                                                                   M
                                                                              HO




                                                                                                                                      103
April 1, 2009 to September 30, 2009
Administrative Investigations


 The Office of the Deputy Inspector General for Administrative Investigations promotes public confidence in the
 integrity and accountability of DoD leadership by investigating allegations of misconduct by senior DoD officials
 and protecting whistleblowers from reprisal. The DoD IG conducts investigations and also performs oversight
 of investigations conducted by the service component and Defense agency IGs. The DoD IG is committed to
 protecting whistleblowers and ensuring that allegations against the Department’s senior leadership are expeditiously
 investigated.
 	       During the reporting period, the DoD IG completed 504 cases involving senior official misconduct and
 whistleblower reprisal. The case substantiation rate for full investigations was over 15 percent and corrective actions
 ranged from relief for cause, letters of reprimand, to reimbursement to the government.
 	       The timely resolution of allegations and accountability for substantiated allegations continues to be a priority
 for the DoD IG. The DoD IG recently authorized a significant increase to the investigative staff realize this vision. The
 DoD IG is also developing an initiative to assist Defense Inspectors General with becoming compliant with the Office
 of Special Counsel’s Section 2302(c) Whistleblower Certification Program.


                            Administrative Investigations Open Cases
                     Administrative     Investigations
                             (Total of 694                        Open
                                           Cases as of September 30, 2009) Cases
                                   (Total of 694 cases as of September 30, 2009)


                      CRI
            Appropriated Fund                                                                       Military Whistleblower
          Employee Whistleblower                                                                            Reprisal
                                                                                                          (364 cases)
                 Reprisal
                     (19 cases)




                                                                                         MRI


         ISO
   Senior Official
    Misconduct
       (252 cases)

                                                                                                                  Nonappropriated
                                                                                                                  Fund Employee
                                                                                                                   Whistleblower
                                                                 Improper Referral for           Defense
                                                                                                                     Reprisal
                                                                  Involuntary Mental            Contractor              (10 cases)
                                                                   Health Evaluation            Employee
                                                                      (37 cases)               Whistleblower
                                                                                                 Reprisal
                                                                                                 (12 cases)




 104
                                                                                                  Semiannual Report to the Congress
                                                 Special Plans & Operations


The Office of Special Plans and Operations was established in 2007 to facilitate informed decision-making by senior
leaders of the Department and Congress to accomplish national security objectives and support the warfighter, with
current emphasis on Southwest Asia. To accomplish the mission, the DoD IG:
•	 rapidly deploys teams tailored to assessment objectives using interdisciplinary DoD and interagency experts;
•	 conducts actionable assessments of DoD operational challenges; and
•	 enables accelerated improvements in management performance by providing in-theater briefings and timely
    reports.
During this reporting period, the DoD IG released five assessment reports addressing challenges facing the Department.
Topics include munitions accountability and control in Afghanistan; electrical safety of DoD-occupied buildings in
Afghanistan; security assistance and Coalition Support Fund programs in Pakistan; and U.S. and Coalition Plans to
train, equip and field the Afghan National Security Forces. In addition, the DoD IG released a redacted version of a
classified report on weapons accountability in Iraq.




                                      Current Areas of Focus

                              Iraq         Afghanistan          Pakistan            Theater             Global
 Sensitive Items:
 Munitions,
                                X               X                                      X
 Night Vision
 Devices
 Security Forces
                                X               X                  X
 Development
 Security
 Assistance
 Programs:
 Section 1206,
                                X               X                  X                                       X
 Coalition
 Support Funds,
 Foreign Military
 Sales, etc.
 Wounded
                                X               X                                      X
 Warrior
 Drawdown from
                                X                                                      X
 Iraq




                                                                                                                  105
April 1, 2009 to September 30, 2009
              Intelligence

The Office of the Deputy Inspector General for Intelligence audits, evaluates, monitors, and reviews the programs,
policies, procedures, and functions of the Intelligence Enterprise, Special Access Programs, Nuclear Enterprise and
related security issues within the Department. The DoD IG ensures that DoD intelligence and intelligence-related
resources are properly, effectively and efficiently managed. In addition, the DoD IG conducts oversight of service and
Defense agency reviews related to security and counterintelligence in all DoD test and laboratory facilities. The DoD
IG is dedicated to enhancing the capabilities of the DoD intelligence activities through an informed and authoritative
oversight program. The DoD IG issued 10 intelligence reports during this reporting period. The chart below represents
the percentage of intelligence reports by categories.
	        The DoD IG, through the Joint Intelligence Oversight Coordination Group, continues to coordinate and
share information with other DoD intelligence inspectors general and auditors general to improve the effectiveness
and efficiency of oversight of DoD intelligence activities. Within DoD, the Joint Intelligence Oversight Coordination
Group comprises senior representatives from the Office of the Secretary of Defense, the inspectors general of the
Defense intelligence agencies, and military departments audit, evaluation and inspection organizations. The objectives
of the group are to improve the effectiveness and efficiency of DoD oversight of intelligence activities by identifying
areas needing more emphasis and by deconflicting oversight programs. In addition, the DoD IG participates in the
Intelligence Community Inspectors General Forum to coordinate and share information in the broader government
intelligence oversight community.




                                 Intelligence Focus Areas




106
                                                                                        Semiannual Report to the Congress
                                                      Policy & Oversight

The Office of the Deputy Inspector General for Policy and Oversight provides policy to, and oversight of, DoD
auditors and criminal investigators; performs inspections and evaluations of DoD programs; and provides engineering
support to DoD IG projects and other Defense agencies. The DoD IG issued 10 oversight reports in such areas as
Defense contracting, voter assistance, the global train and equip program, and electrocutions in Iraq. The DoD IG
continued to participate in and lead various audit and investigative oversight commissions/groups addressing such
areas as procurement fraud and sexual assaults. In addition, the DoD IG managed the coordination of 198 draft DoD
and federal policies.
	        The DoD IG hosted a “Fraud Indicators in Procurement and Other Defense Activities” conference. The
conference was attended by 320 auditors, investigators, attorneys, and acquisition/contracting personnel from over 60
organizations within and outside the Department. The conference was in partnership with the Panel on Contracting
Integrity and the Defense Acquisition University.
	        Finally, the DoD IG manages the Contractor Disclosure Program, successor to the DoD Voluntary Disclosure
Program. The DoD IG is in the process of closing out the DoD Voluntary Disclosure Program, which provided
incentives to federal contractors for voluntarily disclosing to government authorities potential civil or criminal
violations. Over $4.2 million was recovered this reporting period.
	        Starting in December 2008, the Federal Acquisition Regulations requires federal contractors and subcontractors
to disclose to the DoD IG violations of criminal law and of the civil False Claims Act in connection with their
contracts, or face potential suspension or debarment. Contractors made 81 disclosures to the DoD IG through the
DoD Contractor Disclosure Program since the program’s inception in December 2008. The chart below represents the
percentage of contractor disclosures by categories.

                                      Contractor Disclosures




                                                                                                                   107
April 1, 2009 to September 30, 2009
Department of Defense
  Inspector General
These are the people we work for....




    and they deserve the best!
Appendices
                                                                                                                                                   Appendices

Appendices
A. Audit, Inspection, and Evaluation Reports Issued........................................................................................................110

B. DoD IG Audit Reports Issued Containing Quantifiable Potential Monetary Benefits....................................................124

C. Follow-up Activities...................................................................................................................................................125

D. Contract Audit Reports Issued.....................................................................................................................................127

E. Status of Action on Significant Post-Award Contract Audits...........................................................................................128

F. Status of DoD IG Reports More than 12 Months Old with Final Action Pending..........................................................129

G. Significant Open Recommendations...........................................................................................................................165

H. Acronyms..................................................................................................................................................................167



                                                                     Appendix A

                            Audit, Inspection, and Evaluation Reports Issued
Copies of reports may be obtained from the appropriate issuing office by contacting:

	           DoD IG							                                                                                Army Audit Agency
	           (703) 604-8937							                                                                        (703) 693-5679
	           http://www.dodig.mil/PUBS					                                                               http://www.hqda.army.mil/aaaweb

	           Naval Audit Service						                                                                    Air Force Audit Agency
	           (202) 433-5525							                                                                        (703) 696-7904
	           http://www.hq.navy.mil/navalaudit				                                                        https://www.my.af.mil

                            Reports Issued by Management Challenge Area
                                                            April 1, 2009 to September 30, 2009

                                                                                                      DoD IG                      Military Depts.                   Total
Joint Warfighting and Readiness                                                                           15                              89                         104
Information Security and Privacy                                                                          11                              20                          31
Acquisition Processes/Contract Management                                                                 19                              53                          72
Financial Management                                                                                      17                              77                          94
Health Care                                                                                                2                               9                          11
Significantly Improve Intelligence Capabilities                                                            3                                                           3
Nuclear Enterprise                                                                                         2                                                           2
Single Audit                                                                                               3                                                           3
Other                                                                                                      6                              6                           11
 Total                                                                                                    78                             254                         331
110
                                                                                                                                   Semiannual Report to the Congress
Appendix A


                                       D-2009-075 Afghanistan
 Joint Warfighting                     Security Forces Fund Phase III          Army Audit Agency
   and Readiness                       – Accountability for Weapons
                                       Distributed to the Afghanistan        A-2009-0084-ALI Base Realignment
                                       National Army (5/21/09)               and Closure 2005 Construction
                                                                             Requirements, Command, Control,
             DoD IG                 D-2009-076 Afghanistan Security          Communications, Computers,
                                    Forces Fund Phase III – U.S. Army        Intelligence, Surveillance, and
SPO-2009-004 Assessment of DoD- Corps of Engineers Real Property
                                                                             Reconnaissance, Aberdeen Proving
Managed Programs in Support of the Accountability (4/14/09)
                                                                             Ground, Maryland (4/8/09)
Government of Pakistan (Classified)
(5/20/09)                           D-2009-086 Controls Over the             A-2009-0088-FFP Follow-up Audit
                                    Contractor Common Access Card            of Public Works Operations in Korea
SPO-2009-005 Assessment of          Life Cycle in the Republic of Korea      (4/7/09)
Electrical Safety in Afghanistan    (6/9/09)
(7/24/09)
                                                                             A-2009-0095-ALI Base Realignment
                                       D-2009-090 Information                and Closure 2005 Construction
SPO-2009-006 Assessment of the         Operations Career Force
Accountability and Control of                                                Requirements, U.S. Army Armor
                                       Management (7/2/09)                   School Maintenance Activity, Fort
Arms, Ammunition, and Explosives
Provided to the Security Forces of                                           Benning, Georgia (4/30/09)
                                       D-2009-093 Ship Utilization in
Afghanistan (9/11/09)
                                       Support of the Global War on Terror   A-2009-0096-ALI Base Realignment
                                       (7/15/09)                             and Closure 2005 Construction
SPO-2008-001 Assessment of
the Accountability of Arms and                                               Requirements, Infrastructure
Ammunition Provided to the             D-2009-099 Afghanistan                Support, Fort Benning, Georgia
Security Forces of Iraq (Redacted      Security Forces Fund Phase III        (4/30/09)
Version) (9/28/09)                     – Accountability for Equipment
                                       Purchased for the Afghanistan         A-2009-0098-ALO Base
SPO-2009-007 Report on the             National Army (8/12/09)               Realignment and Closure 2005
Assessment of U.S. and Coalition                                             Construction Requirements,
Plans to Train, Equip, and Field the   D-2009-100 Afghanistan                Restation Air Defense Artillery
Afghan National Security Forces        Security Forces Fund Phase III        Brigade, Fort Sill, Oklahoma
(9/30/09)                              – Accountability for Equipment        (4/21/09)
                                       Purchased for the Afghanistan
IE-2009-007 Interagency Evaluation     National Police (9/22/09)             A-2009-0099-ALE Requirements
of the Section 1206 Global Train                                             Validation for Mobilized Soldiers in
and Equip Program (8/31/09)            D-2009-112 Deferred Maintenance       Europe (FOUO) (4/24/09)
                                       on the Air Force C-130 Aircraft
D-2009-066 Marine Corps’               (9/25/09)                             A-2009-0104-FFF Unit Status
Management of the Recovery and                                               Reporting Process, U.S. Army
Reset Programs (4/1/09)                                                      Reserve Command (5/14/09)




                                                                                                               111
April 1, 2009 to September 30, 2009
                                                                                             Appendices


A-2009-0105-ALI Base Realignment     A-2009-0121-ALA Development           A-2009-0139-ALI Base Realignment
and Closure 2005 Construction        and Management of Army Aviation       and Closure 2005 Construction
Requirements, Battle Command         Training Aids, Devices, Simulators,   Requirements, Joint Maintenance
Training Center, Fort Bliss, Texas   and Simulations (5/22/09)             Facility and Equipment
(5/26/09)                                                                  Concentration Site, Fort Chaffee
                                     A-2009-0126-FFD Follow-up             Maneuver Training Center, Fort
A-2009-0107-ALM National             Report of Program Management to       Smith, Arkansas (6/25/09)
Maintenance Program Effects          Restore and Enhance the Southern
(5/18/09)                            Louisiana Hurricane Protection        A-2009-0142-FFF Army
                                     System, U.S. Army Corps of            Continuing Education System,
A-2009-0108-ALI Base Realignment     Engineers (6/4/09)                    Office of the Deputy Chief of Staff,
and Closure 2005 Construction                                              G-1 (6/17/09)
Requirements, U.S. Army Armor        A-2009-0128-ALO Follow-up Audit
School Trainee Barracks, Fort        of Garrison Utilities and Energy      A-2009-0146-ALM Sustaining
Benning, Georgia (5/26/09)           Services, Fort Stewart and Hunter     Left-Behind Equipment, U.S. Army
                                     Army Airfield, Georgia (6/3/09)       Sustainment Command (6/22/09)
A-2009-0109-FFM Initial Entry
Training Centrally Managed           A-2009-0129-ALI Base Realignment      A-2009-0147-ALI Base Realignment
Account, Army National Guard         and Closure 2005 Construction         and Closure 2005 Construction
Readiness Center (5/12/09)           Requirements, Digital Multipurpose    Requirements, Armed Forces Reserve
                                     Training Range, Fort Bliss, Texas     Center, El Paso, Texas (7/27/09)
A-2009-0111-ALO Follow-up Audit      (7/14/09)
of Military Construction Process,                                          A-2009-0148-ALI Base Realignment
National Guard Bureau (5/18/09)      A-2009-0130-FFD Body Armor            and Closure 2005 Construction
                                     Requirements, Deputy Chief of         Requirements, Armed Forces Reserve
A-2009-0114-FFF Support to           Staff, G-3/5/7 (6/8/09)               Center, West Oklahoma City,
Recruiters in the Field, U.S. Army                                         Oklahoma (6/25/09)
Recruiting Command, Fort Knox,       A-2009-0131-ALI Base Realignment
Kentucky (5/14/09)                   and Closure 2005 Construction         A-2009-0149-ALI Base Realignment
                                     Requirements, Combined Arms           and Closure 2005 Construction
A-2009-0116-FFD Force                Collective Training Facility, Fort    Requirements, Armed Forces
Protection Requirements for New      Bliss, Texas (6/22/09)                Reserve Center, Norman, Oklahoma
Construction, Assistant Chief of                                           (7/7/09)
Staff for Installation Management    A-2009-0134-ALI Base Realignment
and U.S. Army Corps of Engineers     and Closure 2005 Construction         A-2009-0150-ALI Base Realignment
(FOUO) (5/26/09)                     Requirements, Addition and            and Closure 2005 Construction
                                     Alteration, Evans Army Community      Requirements, Armed Forces Reserve
A-2009-0120-FFD Improvised           Hospital, Fort Carson, Colorado       Center, Montgomery, Alabama
Explosive Device Training for        (6/09/09)                             (7/2/09)
Explosive Ordnance Disposal
Soldiers, Deputy Chief of Staff,     A-2009-0138-ALI Base Realignment      A-2009-0154-ALR Cash
G-3/5/7 and U.S. Army Training       and Closure 2005 Construction         Subsidy Direct Payments for the
and Doctrine Command (FOUO)          Requirements, Addition and            Transportation Working Capital
(6/17/09)                            Alteration, William Beaumont Army     Fund, Military Surface Deployment
                                     Medical Center, Fort Bliss, Texas     and Distribution Command
                                     (7/27/09)                             (7/6/09)
112
                                                                                  Semiannual Report to the Congress
Appendix A


A-2009-0156-ALM Field Level           A-2009-0187-FFF Pre-                   A-2009-0207-ALM Follow-up Audit
Maintenance Operations, U.S. Army     commissioning Training Basic           of Specialized Repair Authority
Sustainment Command and U.S.          Officer Leader Course I (8/20/09)      (9/30/09)
Army Garrison, Fort Hood, Texas
(7/9/09)                              A-2009-0190-ALR Time-Sensitive         A-2009-0210-ZBI Billing Validation
                                      Report, Implementation of Logistics    Process for Personnel Security
A-2009-0161-ALI Base Realignment      Bridging Systems (8/21/09)             Investigations, Office of the Deputy
and Closure 2005 Construction                                                Chief of Staff, G-2 (9/16/09)
Requirements, Single Drill Sergeant A-2009-0191-ZBI Follow-up Audit
School, Fort Jackson, South Carolina of the Military Intelligence Civilian   A-2009-0211-FFS Readiness of
(7/9/09)                             Excepted Career Program (8/24/09)       Modular Units, Army National
                                     (Classified)                            Guard (FOUO) (9/11/09)
A-2009-0162-ALI Base Realignment
and Closure 2005 Construction        A-2009-0193-ALM Follow-up Audit         A-2009-0212-FFS Requirements for
Requirements, Armed Forces Reserve of Procurement of Axle Assemblies,        Mobilized Soldiers (9/17/09)
Center, Northwest Houston, Texas     U.S. Army TACOM Life Cycle
(7/7/09)                             Management Command (9/08/09)            A-2009-0219-ALL Sensitive Items
                                                                             Accountability and Control, Abu
A-2009-0166-FFS Follow-up Audit       A-2009-0198-ALI Base Realignment       Ghraib Warehouse, Iraq (FOUO)
of the Army’s Mobilization Station    and Closure 2005 Construction          (9/21/09)
Process (7/15/09)                     Requirements, Consolidated Family
                                      Care and Troop Clinic, Fort Bliss,     A-2009-0220-ALI BRAC 05
A-2009-0167-ALI Base Realignment      Texas (9/16/09)                        Construction Requirements,
and Closure 2005 Construction                                                Consolidated Family Care and Troop
Requirements, Physical Fitness        A-2009-0202-FFF Use of Role-           Medical and Dental Clinic, Fort
Center, Fort Bliss, Texas (8/11/09)   players for Training - Exclusive of    Carson, Colorado (9/28/09)
                                      Combat Training Centers (8/28/09)
A-2009-0170-ALE Follow-up Audit                                              A-2009-0227-ALI BRAC 05
of Use of Role Players at the Joint   A-2009-0203-ALR Property               Construction Requirements, U.S.
Multinational Readiness Center,       Accountability Problems Identified     Army Sustainment Center of
U.S. Army, Europe and Seventh         During Our Audit of U.S. Army          Excellence, Fort Lee, VA (FOUO)
Army (FOUO) (7/28/09)                 Reserve Command’s Maintenance          (9/28/09)
                                      Management Systems (9/01/09)
A-2009-0176-ALO Fort McPherson                                               A-2009-0228-ALL Retrograde
Transportation Office, Fort           A-2009-0205-ALM Depot-Level            Operations in Southwest Asia,
McPherson, Georgia (8/14/09)          Maintenance Workload Reporting--       Management of Automatic Return
                                      FY 2008 (9/16/09)                      and Critical Items, Office of
A-2009-0181-ALR Property                                                     the Deputy Chief of Staff, G-4
Accountability, 3rd Infantry          A-2009-0206-ALR Follow-up              (9/30/09)
Division, Rear Detachment, Fort       Audit of Purchase of Modern
Stewart, Georgia (8/18/09)            Burner Units, Office of the Product A-2009-0234-ALC Management
                                      Manager, Force Sustainment Systems of Ammunition Production Base
A-2009-0184-FFP Real Property         (9/10/09)                           Modernization (9/25/09)
Requirements, U.S. Army Garrison,
Hawaii (FOUO) (8/18/09)


                                                                                                              113
April 1, 2009 to September 30, 2009
                                                                                             Appendices


A-2009-0242-ALR Property Book                                              F-2009-0005-FD3000 Air Force
Unit Supply Enhanced, I Corps and             Air Force                    Nuclear Roadmap Assessment
Fort Lewis (9/30/09)                        Audit Agency                   (5/4/09)

A-2009-0245-ALL Logistics Civil       F-2009-0003-FC2000 Electronic        F-2009-0006-FD3000 United
Augmentation Program Operations       Pods Management (6/22/09)            States Air Forces Central Deployed
in Support of Operation Iraqi                                              Locations Munitions Management
Freedom - Power Generators            F-2009-0004-FC2000 Air               (FOUO) (5/6/09)
(9/30/09)                             Education and Training Command
                                      Engine Management (6/23/09)          F-2009-0007-FD3000 Selected
 Naval Audit Service                                                       Aspects of Deployment Management
                                      F-2009-0005-FC2000 Engine            (5/8/09)
                                      Module Matching (7/16/09)
N2009-0030 Naval Facilities                                                F-2009-0010-FD3000 Air and
Engineering Command Base              F-2009-0008-FC2000 Aircraft          Space Expeditionary Force Unit Type
Support Vehicles Management           Configuration Management             Code Reporting Tool (7/31/09)
Information Systems (5/21/09)         (9/4/09)
                                                                           F-2009-0011-FD3000 Posture
N2009-0032 Marine Corps Use of        F-2009-0007-FC3000 Air-to-Air        Coding Minimum Home Station
the Deployed Theater Accountability   Weapon System Evaluation Program     Requirements (8/12/09)
System (6/4/09)                       (9/8/09)
                                                                           F-2009-0012-FD3000 Air Force
N2009-0041 Department of the         F-2009-0007-FC4000 Repair Versus      Tactical Terminals (8/12/09)
Navy Acquisition and Disbursing      Buy Decisions (4/2/09)
Checks and Balances at Camp                                                F-2009-0013-FD3000 Space and
Lemonier, Djibouti, Africa (7/30/09) F-2009-0008-FC4000 Supply             Information Operations Integration
                                     Cataloging (6/23/09)                  into Combat Exercises (Classified)
N2009-0046 Marine Corps                                                    (8/13/09)
Transition Assistance Management     F-2009-0009-FC4000 Base-Level
Program – Preseparation Counseling Inventory Reconciliation (7/17/09)      F-2009-0007-FD4000 Personnel
Requirement (9/15/09)                                                      Security Clearances (5/8/09)
                                      F-2009-0006-FD1000 Air Force
N2009-0050 Department of the          Installation Protection Program      F-2009-0009-FD4000 Air
Navy Acquisition Checks and           (5/11/09)                            Education and Training Command
Balances at Naval Base Guam                                                Compressed Work Schedules
Supported Activities (9/30/09)        F-2009-0007-FD1000 Air Forces        (8/25/09)
                                      Central Area of Responsibility
N2009-0052 Allowance, Inventory,      Construction (Classified) (8/3/09)   F-2009-0010-FD4000 Follow-up
and Maintenance Production of                                              Audit, Family Care Plans (9/3/09)
Marine Corps Small Arms (9/30/09)     F-2009-0004-FD3000 United
                                      States Air Forces Central Deployed   F-2009-0011-FD4000 Follow-up
N2009-0053 Department of the          Locations Information Technology     Audit, Air Reserve Component
Navy In-Transit Inventory Shipment    Equipment Accountability and         Family Care Plans (9/3/09)
Controls (9/30/09)                    Control (4/1/09)


114
                                                                                  Semiannual Report to the Congress
Appendix A


                                      D-2009-110 Summary of                  A-2009-0185-ZBI Army Research
    Information                       Information Assurance Weaknesses       and Technology Protection Program,
 Security & Privacy                   Identified in Audit Reports Issued     Office of the Secretary of the Army
                                      From August 1, 2008, Through July      (8/27/09)
                                      31, 2009 (9/28/09)
                                                                             A-2009-0194-FFI Army’s
             DoD IG
                                      D-2009-111 Controls Over               Information Technology
                                      Information Contained in               Sustainment Program, Chief
D-2009-081 General and                BlackBerry Devices Used Within         Information Officer/G-6 (9/1/09)
Application Controls of the           DoD (9/25/09)
Vulnerability Management System                                              A-2009-0201-ZBI Follow-up Audit
(5/8/09)                              D-2009-119 Defense Civilian            of Property Accountability for
                                      Pay System Controls Placed in          Controlled Cryptographic Items,
09-INTEL-07 Information               Operation and Tests of Operating       902d Military Intelligence Group
Technology Portfolio for DoD          Effectiveness October 1, 2008,         (9/4/09)
Intelligence Databases (5/11/09)      Through June 30, 2009 (9/30/09)
                                                                             A-2009-0217-FFI Expeditionary
D-2009-094 Defense Industrial          Army Audit Agency                     Video Teleconferencing (FOUO)
Financial Management System                                                  (9/28/09)
Controls and Compliance (8/4/09)
                                      A-2009-0094-ZBI Army Research          A-2009-0236-FFI Data at Rest, U.S.
D-2009-097 Data Migration             and Technology Protection Program,     Army Medical Command (9/29/09)
Strategy and Information Assurance    Office of the Assistant Secretary of
for the Business Enterprise           the Army (Acquisition, Logistics and    Naval Audit Service
Information Services (7/30/09)        Technology) (FOUO) (4/29/09)

09-INTEL-10 DoD Intelligence          A-2009-0127-ZBI Army Research          N2009-0027 Processing of
Agencies’ FY 2009 Report on           and Technology Protection Program,     Computers and Hard Drives
the Security Status of the Federal    U.S. Army Materiel Command             During the Navy Marine Corps
Information Security Management       (FOUO) (6/4/09)                        Intranet Computer Disposal Process
Act (Classified) (9/4/09)                                                    (4/28/09)
                                      A-2009-0140-FFI Managing “The
D-2009-101 Information                Edge” of the Network: Enterprise       N2009-0035 Information Assurance
Assurance and Data Reliability of     Control Over User Operations on        Training and Certification (6/8/09)
the Automated Disbursing System       the LandWarNet (6/17/09)
(9/11/09)                                                                    N2009-0043 Risk Management
                                      A-2009-0145-FFI Selected Thin          Information System Acquisition
D-2009-104 Sanitization and           Client Computing Implementations       (8/28/09)
Disposal of Excess Information        (6/23/09)
Technology Equipment (9/21/09)                                               N2009-0048 Officer Personnel
                                      A-2009-0158-FFI Information            Information System Data Accuracy
D-2009-106 General and                Assurance Vulnerability                (9/29/09)
Application Controls for the          Management (IAVM) Process
Distribution Standard System          (7/9/09)
(9/28/09)

                                                                                                              115
April 1, 2009 to September 30, 2009
                                                                                                Appendices


                                      D-2009-6-008 Hotline Complaint          D-2009-095 Contracting for
        Air Force                     Regarding the Actions by a              Transportation Services for U.S.
      Audit Agency                    Contracting Officer at the Defense      Army Corps of Engineers, Gulf
                                      Contract Management Agency East         Region Division (7/29/09)
F-2009-0005-FB2000 Information        Hartford Office (8/31/09)
Technology Portfolio Management                                               D-2009-096 Contracts for the U.S.
(4/7/09)                              D-2009-6-009 Defense Contract           Army’s Heavy-Lift VI Program in
                                      Audit Agency Audit Work                 Kuwait (7/28/09)
F-2009-0003-FB4000 Follow-up          Deficiencies and Abusive Work
Audit, Controls Over Access to        Environment Identified by the           09-INTEL-15 Summary Report of
Air Force Networks and Systems        Government Accountability Office        FY 2008 Inspections on Security,
(4/30/09)                             (8/31/09)                               Technology Protection and
                                                                              Counterintelligence Practices at
F-2009-0004-FB4000 Freedom of         D-2009-071 Summary of DoD               DoD Research, Development, Test
Information Act (6/3/09)              Office of Inspector General Audits      and Evaluation Facilities (9/20/09)
                                      of Acquisition and Contract
F-2009-0005-FB4000 Air and Space      Administration (4/22/09)                D-2009-102 Price Reasonableness
Operations Center Information                                                 Determinations for Contracts
Technology (6/26/09)                  D-2009-074 Review of Defense            Awarded by U.S. Special Operations
                                      Contract Management Agency              Command (9/18/09)
F-2009-0006-FB4000 Electronic         Support of the C-130J Aircraft
Personal Data Protection (8/24/09)    Program (6/12/09)                       D-2009-107 DoD Enterprise
                                                                              Staffing Solution (9/28/09)
F-2009-0008-FD3000 Vulnerability      D-2009-082 SeaPort Enhanced
Assessment Program (FOUO)             Program (5/6/09)                        D-2009-108 U.S. Air Forces Central
(6/22/09)                                                                     War Reserve Materiel Contract
                                      D-2009-083 Logistics Support for        (9/23/09)
   Acquisition                        the United States Special Operations
 Processes/ Con-                      Command (5/28/09)                       D-2009-109 Contracts Supporting
                                                                              the DoD Counter Narcoterrorism
tract Management                      D-2009-085 Contracting for              Technology Program Office
                                      Nontactical Vehicles in Support         (9/25/09)
           DoD IG                     of Operation Enduring Freedom
                                      (6/8/09)                                D-2009-114 Transition Planning
D-2009-6-004 Defense Contract                                                 for the Logistics Civil Augmentation
Management Agency Actions on          09-INTEL-09 Audit of Issues             Program IV Contract (9/25/09)
Audits of Cost Accounting Standards   Related to the Modifications of the
and Internal Control Systems at       Joint Air-to-Surface Standoff Missile   D-2009-115 Summary of
DoD Contractors Involved in Iraq      (Classified) (7/28/09)                  Information Operations Contracts
Reconstruction Activities (4/8/09)                                            in Iraq (9/29/09)
                                      D-2009-091 Information
                                      Operations Contracts in Iraq
                                      (7/31/09)




116
                                                                                     Semiannual Report to the Congress
Appendix A


                                         A-2009-0125-ALO Assistant              A-2009-0174-ALC Biometrics Task
  Army Audit Agency                      Chief of Staff for Installation        Force Contract Issues (7/31/09)
                                         Management - U.S. Army Reserve
A-2009-0092-FFD Contracts for            Division Contracts, Assistant Chief    A-2009-0175-FFP Support for
Intrusion Detection Systems, Office      of Staff for Installation Management   U.S. Army Criminal Investigation
of the Provost Marshall General          (5/26/09)                              Command, Criminal Investigation
(FOUO) (4/30/09)                                                                0004-2009-CID416-56281
                                         A-2009-0132-ALL Contracting            (FOUO) (8/5/09)
A-2009-0093-ZBI Contracts for            Operations, U.S. Army Contracting
Acquisition Support, U.S. Army           Command Southwest Asia - Kuwait        A-2009-0183-ALL Applying Agreed-
Intelligence and Security Command        (9/29/09)                              Upon Procedures to Determine if
(FOUO) (4/29/09)                                                                There Was a Potential for Theft of
                                         A-2009-0137-ALA Technology             Property and Loss of Funds to the
A-2009-0097-FFD Follow-up                Readiness Assessments (6/16/09)        Government Due to the Actions of a
Audit of Debris Removal Contracts                                               Government Property Administrator
(5/12/09)                                A-2009-0141-ALA Intellectual           (FOUO) (8/14/09)
                                         Properties, Office of the Program
A-2009-0102-ALL Agreed-                  Manager, Future Combat Systems         A-2009-0189-ALL Applying
Upon Procedures Attestation -            (Brigade Combat Team) (FOUO)           Agreed-Upon Procedures to Review
Accountability of Postal Receipts        (6/24/09)                              Payment Vouchers 247029 and
at the Joint Military Postal Facility,                                          288091 for the Purchase of Air-
Camp Patriot, Kuwait (FOUO)              A-2009-0143-ALC Acquisition of         Condition Units and Generators for
(5/21/09)                                Technical Data and Rights for Major    Forward Operating Base - Falcon in
                                         Army Systems (FOUO) (7/06/09)          Iraq (FOUO) (8/21/09)
A-2009-0103-ALA Spin-Out 1
Critical Technologies, Office of the     A-2009-0144-ZBI Army Foreign           A-2009-0199-ALM Requirements
Program Manager, Future Combat           Language Program Contracting           for Business Case Analysis for Light
Systems (Brigade Combat Team)            (FOUO) (7/23/09)                       Utility Helicopter (FOUO) (9/1/09)
(FOUO) (4/29/09)
                                         A-2009-0151-FFE Agreed-Upon            A-2009-0200-FFP Contract for
A-2009-0112-FFH Attestation              Procedures Attestation for Criminal    Program Management Services,
Examination of External Contract         Investigation Command Assist           U.S. Army Corps of Engineers, Far
Services and Follow-up, Army             (FOUO) (6/26/09)                       East District, South Korea (FOUO)
and Air Force Exchange Service                                                  (9/3/09)
(5/11/09)                                A-2009-0165-ALL Follow-up Audit
                                         of Management Controls Over            A-2009-0204-FFI Follow-up
A-2009-0117-ALA Army Science             Offline Purchases (7/16/09)            Audit of Information Technology
Board Conflict of Interest                                                      Contracts with the U.S. General
Procedures, Office of the Assistant      A-2009-0173-ALL Controls               Services Administration--Selected
Secretary of the Army (Acquisition,      Over Vendor Payments - Kuwait          Contract Reviews, Assistant
Logistics and Technology) (5/22/09)      (Phase I) - U.S. Army Contracting      Secretary of the Army (Financial
                                         Command, Southwest Asia, Camp          Management and Comptroller)
A-2009-0124-FFP Contract to              Arifjan (7/29/09)                      (9/1/09)
Operate the Korea Battle Simulation
Center, U.S. Forces Korea (6/09/09)

                                                                                                                    117
April 1, 2009 to September 30, 2009
                                                                                               Appendices


A-2009-0208-ALC Contract               A-2009-0244-ALL U.S. Army Corps
                                                                                     Air Force
Closeout Controls, U.S. Army Corps     of Engineers Contract Functions
of Engineers, Baltimore District       in Iraq, Gulf Region Division,              Audit Agency
(9/15/09)                              Baghdad, Iraq (9/30/09)
                                                                             F-2009-0007-FB4000 Cellular
A-2009-0214-ALM Follow-                                                      Services (8/25/09)
                                        Naval Audit Service
up Audit of Source-of-Repair
Analyses, Assistant Secretary of the                                         F-2009-0003-FC1000 Evaluation
Army (Acquisition, Logistics and       N2009-0023 Acquisition of Gear        of the Intelligence, Information,
Technology) (9/30/09)                  Systems from a Selected 	             Command and Control, Equipment
                                       Department of the Navy Contractor     and Enhancement Contract (4/2/09)
A-2009-0215-ALC Contract               (4/6/09)
Closeout Controls, U.S. Army Corps                                           F-2009-0004-FC1000 Intelligence,
of Engineers, Louisville District  N2009-0026 Management of                  Information, Command and
(9/23/09)                          Special Tooling and Special Test          Control, Equipment and
                                   Equipment at Naval Air Systems            Enhancement Contract Funds
A-2009-0218-FFI Follow-up          Command (4/24/09)                         Management (7/31/09)
Audit of Information Technology
Contracts with the U.S. General    N2009-0028 Verification of an             F-2009-0005-FC1000 Acquisition
Services Administration and Proper Acquisition Strategy for the 	            Strategy Trends for Tanker Support
Use of Non-DoD Contracts           United States Marine Corps’               Requirements (8/13/09)
(9/21/09)                          Relocation Effort (5/8/09)
                                                                             F-2009-0006-FC1000 Small
A-2009-0221-ALA Effect of Mine         N2009-0034 Vendor Legitimacy          Business Assistance Programs -
Resistant Ambush Protected Vehicle     (6/8/09)                              Mentor-Protégé Program (8/14/09)
Upon Tactical Vehicle System
Requirements, Office of the Deputy     N2009-0037 Contract                   F-2009-0007-FC1000 Air Force Use
Chief of Staff, G-3/6/7 (FOUO)         Administration at Fleet and           of Non-DoD Contracts (8/28/09)
(9/21/09)                              Industrial Supply Center San Diego
                                       and Selected Supported Activities     F-2009-0006-FC2000 Distribution
A-2009-0229-ALE Job Order              (7/1/09)                              of Depot Maintenance Workload
Contracting Processes in Europe                                              Fiscal Years 2008 - 2010 (8/14/09)
(9/29/09)                              N2009-0042 (U) Funds Usage
                                       for Integrated Fire Control           F-2009-0007-FC2000 C-17
A-2009-0230-ALC Contract               Developments (Classified) (7/31/09)   Business Case Analysis (8/24/09)
Closeout Controls, U.S. Army
Corps of Engineers, Mobile District    N2009-0045 (U) Emergency and          F-2009-0005-FC3000 Small
(9/29/09)                              Extraordinary Expense Funding         Diameter Bomb Program
                                       at Office of Naval Intelligence       Management (5/6/09)
A-2009-0233-ALA Army                   (Classified) (9/11/09)
Acquisition Objective Process,                                               F-2009-0006-FC3000 Technical
Office of the Deputy Chief of Staff,   N2009-0047 Ocean Bills of Lading      Data Management (5/8/09)
G-3/5/7 (9/25/09)                      for Naval Facilities Engineering
                                       Command Marianas Contracts
                                       (9/16/09)

118
                                                                                    Semiannual Report to the Congress
Appendix A


F-2009-0009-FD1000 Quick              D-2009-079 Controls Over the          D-2009-117 Controls Over Air
Reaction Report of Audit, Energy      Department of the Navy Military       Combat Command and Pacific Air
Metering Program (8/24/09)            Payroll Disbursed in Support of the   Forces Unliquidated Obligations
                                      Global War on Terror (5/7/09)         from Department of the Air Force
F-2009-0014-FD3000 Follow-                                                  Contracts Supporting Contingency
up Audit, Management of Global        D-2009-080 Endorsement of the         Operations (9/29/09)
Harvest (8/25/09)                     Management Letter on Internal
                                      Controls over Financial Reporting     D-2009-118 Internal Controls Over
                                      for the FY 2008 DoD Medicare-         Naval Special Warfare Command
        Financial                     Eligible Retiree Health Care Fund     Comptroller Operations in Support
       Management                     Financial Statements (4/30/09)        of Contingency Operations
                                                                            (9/29/09)
                                      D-2009-084 Controls over Army
             DoD IG                   Working Capital Fund Real Property    D-2009-120 Agreed-Upon
                                      Assets (5/29/09)                      Procedures for Reviewing the FY
                                                                            2009 Civilian Payroll Withholding
D-2009-067 Controls over Air Force    D-2009-087 Controls Over              Data and Enrollment Information
Materiel Command Unliquidated         Contract Obligation Data in the       (9/30/09)
Obligations on Department of the      Logistics Modernization Program
Air Force Contracts Supporting the    (6/15/09)                               Army Audit Agency
Global War on Terror (4/3/09)
                                      D-2009-088 Long-term
D-2009-070 Government Purchase        Travel Related to the Defense         A-2009-0090-FFH Morale, Welfare,
Card Controls at United States        Comptrollership Program (6/17/09)     and Recreation Funding Execution-
Special Operations Command                                                  -Quick Wins, Office of the Assistant
(4/22/09)                             D-2009-089 Internal Controls          Chief of Staff for Installation
                                      Over Government Property in the       Management (4/14/09)
D-2009-072 Monitoring                 Possession of Contractors at Two
PowerTrack Payments for DoD           Army Locations (6/18/09)              A-2009-0091-FFM U.S. Army
Freight Transportation (4/9/09)                                             Aviation and Missile Life Cycle
                                      D-2009-092 Validity of DoD            Management Command Conversion
D-2009-073 DoD Components’            Civilian Employee Accounts            Process for Army Working Capital
Use of Global War on Terror           (7/15/09)                             Fund Inventory Valuation (4/13/09)
Supplemental Funding Provided
for Procurement and Research,         D-2009-098 Status of the Defense      A-2009-0100-FFM Proliferation
Development, Test, and Evaluation     Emergency Response Fund in            of the Wide Area Workflow System
(4/8/09)                              Support of the Global War on Terror   (8/5/09)
                                      (7/30/09)
D-2009-077 Endorsement of the
Acuity Consulting’s Management        D-2009-116 Financial Management
Letter for the FY 2008 Military       of International Military Education
Retirement Fund Financial             and Training Funds (9/29/09)
Statements (4/30/09)




                                                                                                             119
April 1, 2009 to September 30, 2009
                                                                                             Appendices


A-2009-0106-ALL Applying              A-2009-0135-FFM Training for the     A-2009-0163-FFM Examination
Agreed-Upon Procedures to Review      Army Managers’ Internal Control      of Federal Financial Management
and Compare Financial Records and     Program (6/5/09)                     Improvement Act Compliance - Test
Project Files for Five Commander’s                                         Validation, Formerly Used Defense
Emergency Response Program            A-2009-0136-FFM Army Managers’       Sites Management Information
Projects Initiated in Combat          Internal Control Program for FY      System (7/10/09)
Outpost Carver, Iraq (FOUO)           07, U.S. Army Corps of Engineers
(5/12/09)                             (6/18/09)                            A-2009-0164-FFS Assessing
                                                                           Future Base Budget Requirements,
A-2009-0113-FFM Army Managers’        A-2009-0152-FFM Army Managers’       Organizing Program Evaluation
Internal Control Program for FY 07,   Internal Control Program for FY      Group (FOUO) (9/1/09)
U.S. Army Criminal Investigation      07, U.S. Army Contracting Agency,
Laboratory, Fort Gillem, Georgia      Aberdeen Proving Ground (6/25/09)    A-2009-0168-ALC Government
(5/12/09)                                                                  Purchase Card Convenience Checks,
                                      A-2009-0153-FFM Army Managers’       U.S. Army Corps of Engineers, Tulsa
A-2009-0115-FFP Impact of             Internal Control Program for FY      District (9/3/09)
Host Nation Labor on Funding          07, Office of the Provost Marshall
Requirements, U.S. Army Japan and     General (6/26/09)                    A-2009-0169-ALL Commander’s
U.S. Army Garrison, Japan (FOUO)                                           Emergency Response Program
(5/19/09)                             A-2009-0155-ALE Assessing Future     Multi-National Division - North
                                      Base Budget Requirements in          (FOUO) (7/28/09)
A-2009-0118-FFF Processes to Pay      Europe (FOUO) (7/7/09)
and Recoup Enlistment Bonuses                                              A-2009-0171-FFF Processes to Pay
for the Active Army, Office of        A-2009-0157-FFM Independent          and Recoup Enlistment Bonuses for
the Deputy Chief of Staff, G-1        Assessment of the Army’s             the U.S. Army Reserves, U.S. Army
(5/19/09)                             Compliance With the Federal          Reserve Command (9/30/09)
                                      Managers’ Financial Integrity Act
A-2009-0119-ALL Commander’s           (7/2/09)                             A-2009-0178-FFD Follow-up
Emergency Response Program -                                               Report of Army Fund Accountability
Multi-National Division - Baghdad     A-2009-0159-ALM Assessing            for Hurricane Katrina Relief
(FOUO) (6/8/09)                       Future Base Budget Requirements,     Efforts, Assistant Secretary of the
                                      Sustaining Program Evaluation        Army (Financial Management
A-2009-0122-FFM Agreed-Upon           Group (FOUO) (7/27/09)               and Comptroller) and U.S. Army
Procedures Attestation of the FY                                           Reserve Command (8/10/09)
06 Administrative Fees Collected      A-2009-0160-FFM Agreed-Upon
by the HRsolutions Program Office     Procedures Attestation of the FY     A-2009-0179-FFM Army Managers’
(5/21/09)                             05 Administrative Fees Collected     Internal Control Program for FY 07,
                                      by the HRsolutions Program Office    Mission and Installation Contracting
A-2009-0123-FFP Attestation           (7/8/09)                             Command Center - Fort Knox
Examination of Funding Allocation                                          (8/13/09)
and Reconciliation, Host Nation
Labor-Japan (FOUO) (5/26/09)                                               A-2009-0180-FFM Army Managers’
                                                                           Internal Control Program for FY
                                                                           07, U.S. Army Contracting Agency
                                                                           (8/18/09)

120
                                                                                  Semiannual Report to the Congress
Appendix A


A-2009-0182-ALL Commander’s           A-2009-0224-FFM Examination           A-2009-0240-ALO Reinvestment
Emergency Response Program,           of Federal Financial Management       of Remaining $15 Million in
Multi-National Force - West           Improvement Act Compliance-           Exchanged Proceeds by the Bayonne
(FOUO) (8/18/09)                      Requirements, Global Combat           Local Redevelopment Authority
                                      Support System-Army Release 1.1       (9/29/09)
A-2009-0186-ALO Revenues              (9/30/09)
and Expenses for the 2007 Army                                              A-2009-0241-FFF Reimbursements
Birthday Ball (8/19/09)               A-2009-0225-FFM Internal              for Senior Reserve Officer Training
                                      Controls in Army Regulations          Corps Cadet Uniforms, U.S. Army
A-2009-0188-FFM Assessing Army’s      (9/28/09)                             Cadet Command (9/30/09)
Future Base Budget Requirements
(FOUO) (9/1/09)                       A-2009-0226-FFM Examination           A-2009-0243-ALC Ammunition
                                      of Federal Financial Management       Requirements, Authorizations, and
A-2009-0192-FFF Assessing Future      Improvement Act Compliance-Test       Expenditures, Office of the Deputy
Base Budget Requirements, Training    Validation, General Fund Enterprise   Chief of Staff, G-8 (9/30/09)
Program Evaluation Group (FOUO)       Business System Release 1.2
(8/25/09)                             (9/30/09)                             A-2009-0246-ALA Follow-up Audit
                                                                            of Funding and Fielding Training
A-2009-0195-FFI Funding               A-2009-0231-FFM General Fund          Software and Hardware for ABCS
for Directorate of Information        Enterprise Business System Federal    Components (9/30/09)
Management Information Assurance      Financial Management Improvement
Requirements (FOUO) (9/01/09)         Act Compliance-Examination of          Naval Audit Service
                                      Release 1.3 Functionality (9/30/09)
A-2009-0196-ALO Assessing
Future Base Budget Requirements,      A-2009-0232-FFM General Fund          N2009-0024 Auditor General
Installation Program Evaluation       Enterprise Business System-Federal    Advisory – Department of the 	
Group (FOUO) (8/27/09)                Financial Management Improvement      Navy’s Processes Used to Establish
                                      Act Compliance Examination of         Water Rates for Guam Waterworks
A-2009-0216-FFM Agreed-Upon           Releases 1.4.1, 1.4.2, 1.4.3, and     Authority (4/7/09)
Procedures Attestation of Project     1.4.4 Requirements (9/30/09)
Funding, Yuma Proving Ground                                                N2009-0025 Naval Aviation Career
(FOUO) (9/18/09)                      A2009-0235-ALL Commander’s            Incentive Pay (4/24/09)
                                      Emergency Response Program
A-2009-0222-ALM Fleet                 Multi-National Division - South       N2009-0029 Internal Controls Over
Management of Firefinder Radars,      (FOUO) (9/28/09)                      the Department of the 	Navy’s
CECOM Life Cycle Management                                                 Construction in Progress Account
Command (FOUO (9/29/09)               A-2009-0239-FFE Allocation of         (5/21/09)
                                      Nonproduction Costs to Army
A-2009-0223-FFM Examination           Working Capital Fund Tenant           N2009-0031 Independent
of Supporting Documentation           Activities, Army Materiel Command     Attestation – Agreed-Upon
for Selected Army Environmental       (9/30/09)                             Procedures Attestation Engagement
Liabilities (9/22/09)                                                       of Navy Working Capital Fund,
                                                                            Military Sealift Command (5/27/09)




                                                                                                            121
April 1, 2009 to September 30, 2009
                                                                                               Appendices


N2009-0036 Navy Marine Corps         F-2009-0007-FB1000 Air Force           F-2009-0010-FB3000
Intranet Invoice Approval Process    Smart Operations for the 21st          Environmental Restoration
within the Marine Corps (6/24/09)    Century Initiatives Validation         Liabilities - Active Installations
                                     (9/3/09)                               (7/17/09)
N2009-0038 Status of the
Department of the Navy Processes     F-2009-0006-FB2000 Air Reserve         F-2009-0011-FB3000 Service
and Controls Regarding the           Order Writing System - Reserve         Medical Activity - Air Force
Management of the Government of      Accounting Conformance                 Actuarial Liability: Military
Japan Funds Related to the Marine    Requirements (4/7/09)                  Personnel Demographic Data
Corps’ Relocation (7/9/09)                                                  (7/27/09)
                                     F-2009-0007-FB2000 Expeditionary
N2009-0040 Poison Pay at Fleet       Combat Support System Accounting F-2009-0002-FC2000 Foreign
Readiness Center Southwest           Conformance Controls (6/2/09)    Military Sales Refueling (5/18/09)
(7/30/09)
                                     F-2009-0008-FB2000 Internet            F-2009-0004-FD1000 GeoBase
N2009-0044 Government                Based Purchasing System Interface      Program (4/1/09)
Commercial Purchase Card             Controls Over Data Transfers to
Transactions at Naval Medical        the Air Force Services Financial       F-2009-0005-FD1000 Cooperative
Center San Diego (9/2/09)            Management System (7/16/09)            Agreement Closeout Wurtsmith
                                                                            AFB MI (4/30/09)
N2009-0049 Validity of               F-2009-0009-FB2000 System
Reimbursable Order Unliquidated      Controls for Automated Funds           F-2009-0008-FD1000 Fiscal
Obligations at Naval Sea Systems     Management (7/27/09)                   Year 2009 Utilities Privatization
Command Warfare Centers                                                     Economic Analysis (8/28/09)
(9/29/09)                            F-2009-0010-FB2000 Follow-
                                     up Audit, Air Force Equipment          F-2009-0010-FD1000 Cooperative
        Air Force                    Management System Controls             Agreement Closeout Plattsburgh
                                     (8/14/09)                              AFB NY (9/4/09)
      Audit Agency
                                     F-2009-0006-FB3000 Overall             F-2009-0009-FD3000 Intelligence
F-2009-0004-FB1000 Defense           Health of Accounts Payable (4/7/09)    Contingency Funds - Fiscal Year
Travel System and Chargeable Leave                                          2008 (7/27/09)
(6/2/09)                             F-2009-0007-FB3000 Tri-Annual
                                     Review Accounts Receivable Process     F-2009-0008-FD4000 Follow-up
F-2009-0005-FB1000 Air Force         (4/30/09)                              Audit, Aviator Continuation Pay
Financial Services Transformation                                           (7/1/09)
(6/22/09)                            F-2009-0008-FB3000 Integrated
                                     Accounts Payable System Obligation
F-2009-0006-FB1000 Air               Process (5/4/09)                              Health Care
Force Scientific Advisory Board
Appointment and Compensation         F-2009-0009-FB3000
(7/27/09)                            Environmental Liabilities Corrective
                                     Action and Closure Requirements                     DoD IG
                                     (7/16/09)


122
                                                                                    Semiannual Report to the Congress
Appendix A


D-2009-078 Health Care Provided       F-2009-0009-FD2000 Post-
by Military Treatment Facilities      Deployment Assessments (7/31/09)
to Contractors in Southwest Asia                                                    Single Audit
(5/4/09)                              F-2009-0010-FD2000
                                      Immunization Services
D-2009-113 Medical Equipment          Reimbursements (8/13/09)                           DoD IG
Used to Support Operations in
Southwest Asia (9/30/09)
                                       Significantly Im-                     D-2009-6-005 Quality Control
                                      prove Intelligence                     Review of the Department of
  Army Audit Agency                                                          Military and Veterans Affairs (DMV
                                          Capabilities
                                                                             A) Single Audit Performed by the
                                                                             Office of the Auditor General, State
A-2009-0101-ALO Military
                                                 DoD IG                      of Michigan (5/22/09)
and Family Counseling Services
Contract, Fort Benning, Georgia
                                                                             D-2009-6-006 Quality Control
(5/5/09)                              09-INTEL-06 Evaluation of DoD
                                                                             Review of the Ernst & Young FY
                                      Polygraph Support to U.S. Special
                                                                             2007 Single Audit of the University
A-2009-0177-ALO Military              Operations Command (Classified)
                                                                             of Dayton (6/25/09)
and Family Counseling Services        (5/4/09)
Contract, U.S. Army Family and
                                                                             D-2009-6-007 Report on Quality
Morale, Welfare, and Recreation       09-INTEL-08 Report on Review of
                                                                             Control Review of Deloitte &
Command (8/7/09)                      the President’s Surveillance Program
                                                                             Touche, LLP FY 2007 Single Audit
                                      (Classified) (6/26/09)
         Air Force                                                           of Battelle Memorial Institute and
                                                                             Subsidiaries (6/29/09)
       Audit Agency                   09-INTEL-014 Inspection of
                                      a USD(I) program (Classified)
F-2009-0004-FD2000 Medical            (9/25/09)                                           Other
Supplies Acquisition (4/1/09)

F-2009-0005-FD2000 United States
Air Forces Central Controlled Drugs
                                      Nuclear Enterprise                                 DoD IG
(4/1/09)
                                                                             09-INTEL-13 Investigation of
                                                                             Allegations of the Use of Mind-
F-2009-0006-FD2000 Medical                        DoD IG                     Altering Substances to Facilitate
War Reserve Materiel Requirements
                                                                             Interrogations of Detainees
(5/4/09)
                                                                             (Classified) (9/23/09)
                                      09-INTEL-11 Status of
F-2009-0007-FD2000 Air                Recommendations to Improve
                                                                             IE-2009-005 2008 Evaluation of
Reserve Component Line of Duty        the Air Force Nuclear Enterprise
                                                                             the DoD Voting Assistance Program
Determinations (5/6/09)               (Classified) (9/18/09)
                                                                             (4/30/09)
F-2009-0008-FD2000 Patient            09-INTEL-12 B-61 Nuclear
                                                                             IE-2009-006 Review of
Appointment Optimization              Weapon Use-Control (Classified)
                                                                             Electrocution Deaths in Iraq: Part I
(5/18/09)                             (9/18/09)
                                                                             -Electrocution of Staff Sergeant Ryan
                                                                             D. Maseth, U.S. Army (7/24/09)

                                                                                                                 123
April 1, 2009 to September 30, 2009
                                                                                                                    Appendices


IPO-2009-E00l Review of
Electrocution Deaths in Iraq: Part                Army Audit Agency                              Naval Audit Service
II -Seventeen Incidents Apart from
Staff Sergeant Ryan D. Maseth, U.S.            A-2009-0133-FFS Deputy Under                    N2009-0033 Selected Department
Army (7/24/09)                                 Secretary of the Army for Business              of the Navy Construction Projects
                                               Transformation Initiatives (6/18/09)            for Fiscal Year 2011 (6/5/09)
D-2009-103 The U.S. Army Corps
of Engineers Ice and Water Response            A-2009-0197-FFF Attestation                     N2009-0039 Follow-up of
to the 2008 Hurricane Season                   Examination of Army Ideas for                   Managing Sponsored Programs
(9/18/09)                                      Excellence Program Idea Number                  at the Naval Postgraduate School
                                               NEAP08023M (8/26/09)                            (7/28/09)
D-2009-105 The U.S. Army Corps
of Engineers Temporary Roofing and             A-2009-0209-FFE Follow-up Audit                 N2009-0051 Department of the
Temporary Power Response to the                of Management of the Army’s                     Navy Proposed Fiscal Year 2011
2008 Hurricane Season (9/22/09)                Pollution Prevention Program                    Military Construction Projects
                                               (9/15/09)                                       Related to the United States Marine
                                                                                               Corps’ Okinawa/Guam Base
                                                                                               Relocation (9/30/09)

                                                        Appendix B

             DoD IG Audit Reports Issued Containing Quantifiable
                        Potential Monetary Benefits*

                                                                                                 Potential Monetary Benefits
                                 Audit Reports Issued                                           Disallowed         Funds Put to
                                                                                                  Costs              Better Use
D-2009-066 Marine Corps' Management of the Recovery and Reset Programs
(4/01/2009)                                                                                                             $383,300,000
D-2009-067 Controls Over Air Force Materiel Command Unliquidated
Obligations on Department of the Air Force Contracts Supporting the Global
War on Terror (4/03/2009)                                                                                                $2,700,000
D-2009-072 Monitoring PowerTrack Payments for DoD Freight Transportation
(4/14/2009)                                                                                                             $307,300,000
D-2009-103 The U.S. Army Corps of Engineers Ice and Water Response to the                        $53,118
2008 Hurricane Season (9/18/2009)                                                               Questioned
D-2009-108 U.S. Air Forces Central War Reserve Materiel Contract (9/23/2009)                                              $273,000
D-2009-117 Controls Over Air Combat Command and Pacific Air Forces
Unliquidated Obligations from Department of the Air Force Contracts
Supporting Contingency Operations (9/29/2009)                                                                            $1,700,000
Totals                                                                                            $53,118               $695,273,000

*Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(6) (see Appendix
A).

124
                                                                                                        Semiannual Report to the Congress
Appendix c


                                                      Appendix C


DECISION STATUS OF DOD IG ISSUED AUDIT REPORTS AND DOLLAR VALUE
     OF RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE*

                                                                                                                Funds Put
                                      Status                                          Number                  To Better Use 1
                                                                                                             ($ in thousands)
A.      For which no management decision had been made by the
        beginning of the reporting period.                                               31                      $32,807
B.	      Which were issued during the reporting period.                                  53                      $695,026
        Subtotals (A+B)                                                                  84                      $727,833
C.	      For which a management decision was made during the                                                     $708,092
        reporting period.

       (i) 	      dollar value of recommendations that were agreed to
                 by management.                                                                                   $1,072
                 - based on proposed management action
                 - based on proposed legislative action
       (ii)	      dollar value of recommendations that were not agreed
                 to by management.                                                                              $707,0202
D.	     For which no management decision has been made by the
       end of the reporting period.                                                      39                      $19,741
       Reports for which no management decision was made within
       6 months of issue (as of September 30, 2009).                                      73                     $17,715

1.	 DoD IG audit reports issued during the period involved $53,000 in “questioned costs.”
2.	 On these audit reports management has agreed to take the recommended actions, but the amount of agreed monetary
    benefits cannot be determined until those actions are completed.
3.	 DoD IG Report Nos. D-2006-112, “Selected Controls over the Military Personnel, Army Appropriation;” D-2007-003,
    “Internal Controls over the Army General Fund, Note 3, ‘Fund Balance With Treasury,’ Disclosures;” D-2007-6-010,
    “Reimbursement of Settlement Costs at DCMA Melbourne;” D-2008-104, “DoD Implementation of Homeland Secu-
    rity Presidential Directive 12;” D-2009-032, “The America Supports You Program;” D-2009-036, “Acquisition of the Air
    Force Second Generation Wireless Local Area Network;” and D-2009-063, “Funds Appropriated for Afghanistan and Iraq
    Processed Through the Foreign Military Sales Trust Fund” had no decision as of September 30, 2009, but action to achieve
    a decision is in process.




* Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(a)(8)(9) & (10).


                                                                                                                                125
April 1, 2009 to September 30, 2009
                                                                                                        Appendices




                   STATUS OF ACTION ON CENTRAL INTERNAL AUDITS
                              Period ending September 30, 2009

                                                                                                   Funds Put to
                                        Status                                       Number        Better Use 1
                                                                                                 ($ in thousands)
      DoD IG
        Action in Progress - Beginning of Period                                       238           $2,100
        Action Initiated - During Period                                                45          $708,092
        Action Completed - During Period                                                45          $875,485
        Action in Progress - End of Period                                             238          $17,2952
      Military Departments
        Action in Progress - Beginning of Period                                       577         $4,541,5333
        Action Initiated - During Period                                               255         $1,877,970
        Action Completed - During Period                                               200         $1,389,678
        Action in Progress - End of Period                                             632         $4,804,587


      1
        DoD IG opened no audit reports during the period involving “questioned costs.”
      2
        On certain reports (primarily from prior periods) with audit estimated monetary benefits of $1,884 mil-
      lion, we agreed that the resulting monetary benefits can only be estimated after completion of management
      action, which is ongoing.
      3
        Incorporates retroactive adjustments.


      * Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
        Section 5(b)(2) & (3).




126
                                                                                          Semiannual Report to the Congress
Appendix d


                                                   Appendix D


                               CONTRACT AUDIT REPORTS ISSUED1
                            APRIL 1, 2009 THROUGH SEPTEMBER 30, 2009



                                                                                                            FUNDS PUT TO
                                              Assignments                           QUESTIONED               BETTER USE
TYPE OF AUDIT2                                Completed         EXAMINED              COSTS3               ($ IN MILLIONS)
Incurred Costs, Ops Audits,
Special Audits                                   7,068            $45,955.3              $917.2                  $87.54
Forward Pricing Proposals                        3,836            $87,473.0                ---                 $9,484.45
Cost Accounting Standards                         708              $113.0                $29.4                     ---
Defective Pricing                                  76              (Note 6)              $24.8                     ---
Totals                                          11,688           $133,541.3              $971.4                 $9,571.9



1.	 This schedule represents Defense Contract Audit Agency contract audit assignments completed during the six months
    ended September 30, 2009. Some completed assignments do not result in a report issued because they are part of a larger
    audit, so the number of audit reports will be less than the number shown above. This schedule includes any audits that
    DCAA performed on a reimbursable basis for other government agencies and the associated statistics may also be reported
    in other IGs’ Semiannual Reports to Congress. Both “Questioned Costs” and “Funds Put to Better Use” represent po-
    tential cost savings. Because of limited time between availability of management information system data and legislative
    reporting requirements, there is minimal opportunity for DCAA to verify the accuracy of reported data. Accordingly,
    submitted data is subject to change based on subsequent DCAA authentication.
2.	 This schedule represents audits performed by DCAA summarized into four principal categories, which are defined as:
    Incurred Costs – Audits of direct and indirect costs charged to Government contracts to determine that the costs are
    reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition
    Regulation Supplement, and provisions of the contract. Also included under incurred cost audits are Operations Audits,
    which evaluate a contractor’s operations and management practices to identify opportunities for increased efficiency and
    economy; and Special Audits, which include audits of terminations and claims.Forward Pricing Proposals – Audits of
    estimated future costs of proposed contract prices, proposed contract change orders, costs for redeterminable fixed-price
    contracts, and costs incurred but not yet covered by definitized contracts.Cost Accounting Standards – A review of a con-
    tractor’s cost impact statement required due to changes to disclosed practices, failure to consistently follow a disclosed or
    established cost accounting practice, or noncompliance with a CAS regulation.Defective Pricing – A review to determine
    whether contracts are based on current, complete and accurate cost or pricing data (the Truth in Negotiations Act).
3.	 Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws, and/
    or contractual terms.
4.	 Represents recommendations associated with Operations Audits where DCAA has presented to a contractor that funds
    could be used more effectively if management took action to implement cost reduction recommendations.
5.	 Represents potential cost reductions that may be realized during contract negotiations.
6.	 Defective pricing dollars examined are not reported because the original value was included in the audits associated with
    the original forward pricing proposals.


                                                                                                                             127
April 1, 2009 to September 30, 2009
                                                                                                           Appendices


                                                   Appendix E

                                 STATUS OF action on
                      significant post‑award contract audits1
                     Period Ending SEPTEMBER 30, 2009 ($ in millions)
                                                 Number of
                                                  Reports         Costs Questioned         Disallowed Costs6


             Open Reports:

               Within Guidelines2                   369                $568.1                     N/A7

               Overage, greater than 6
               months3
                                                    594               $ 1,253.5                   N/A

               Overage, greater than 12
               months4                              501               $1,410.4                    N/A

                In Litigation5                      153               $ 1,826.6                   N/A

             Total Open Reports                    1,617              $5,058.6                    N/A

             Closed Reports                         403                $468.1               $176.6 (37.7%)8

             All Reports                           2,020              $5,526.7               $176.6 (3.2%)
1.	 This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing, equitable
    adjustments, accounting and related internal control systems, and noncompliances with the Cost Accounting Standards
    as reported by the Army, Navy, Air Force, Defense Contract Management Agency, Defense Intelligence Agency, Defense
    Logistics Agency, National Geospatial-Intelligence Agency, National Security Agency and TRICARE Management Activ-
    ity. Contract audit follow-up is reported in accordance with DoD Instruction 7640.02, “Policy for Follow-up on Contract
    Audit Reports”. Because of limited time between availability of the data and reporting requirements, there is minimal
    opportunity to verify the accuracy of the reported data.
2.	 These reports are within the time frames established by OMB Circular A-50, “Audit Follow-up,” and DoD Instruction
    7640.02 as described in footnotes 3 and 4 below.
3.	 OMB Circular A-50 requires that audit reports be resolved within 6 months after report issuance. Generally, an audit is
    resolved when the contracting officer determines a course of action which is documented and approved in accordance with
    agency policy.
4.	 DoD Instruction 7640.02 states that audit reports are overage if not dispositioned within 12 months from date of issuance.
    Generally, disposition is achieved when the contractor implements audit recommendations, the contracting officer negoti-
    ates a settlement with the contractor, or the contracting officer issues a final decision pursuant to the Disputes Clause.
5.	 Of the 153 reports in litigation, 47 are under criminal investigation.
6.	 Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
7.	 N/A (not applicable)
8.	 Contracting officers disallowed $176.6 million (37.7 percent) of the $468.1 million questioned as a result of significant
    post-award contract audits during the period. The contracting officer disallowance rate of 37.7 percent represents a de-
    crease from the disallowance rate of 67.7 percent for the prior reporting period.
128
                                                                                               Semiannual Report to the Congress
Appendix F


                                                      Appendix F

              STATUS OF DoD IG REPORTS MORE THAN 12 MONTHS OLD
                         WITH FINAL ACTION PENDING 1, 2
                            (As of September 30, 2009)

       Report Number                  Description of Action             Reason Action Not          Principle Action Office
         Title/Date                                                        Completed
 96-156, Implementation            Implement system changes          Implementation has been de- DFAS
 of the DoD Plan to Match          to correct weaknesses in the      layed by higher management
 Disbursement to Obligations       automated prevalidation           priorities.
 Prior to Payment, 6/11/1996       process.
 97-134, Disposal of Muni-         Change regulations to ad-       Extensive time needed to       USD(AT&L), DLA
 tions List Items in the Posses-   vance the identification of     incorporate the necessary
 sion of Defense Contractors,      munitions list items to the     revisions to conform to the
 4/22/1997                         early stages of the acquisition required changes in DoD-
                                   process.                        Publication formatting.
 98-067, Access Reciprocity        Standardize Special Access      Concerns raised during the     USD(I)
 Between DoD Special Access        Program eligibility imple-      revision and coordination
 Programs, 2/10/1998               menting criteria and develop    process significantly altered
                                   a centralized SAP database.     the guidance, therefore
                                                                   delaying issuance of DoD
                                                                   publications. In addition,
                                                                   DoD halted fielding of an
                                                                   industry-developed database
                                                                   in FY 2009 and initiated
                                                                   steps to transition to a DoD
                                                                   database.
 98-124, Department of De-         Implement peer review pro-      Corrective actions were        USD(I)
 fense Adjudication Program,       gram and establish continu-     delayed in order to incorpo-
 4/27/1998                         ing education standards and a rate additional policies into
                                   program for the professional DoD Instruction 5200.2 and
                                   certification for adjudicators. DoD Manual 5200.2, which
                                                                   will replace DoD Regula-
                                                                   tion 5200.2-R. Extensive
                                                                   time required for coordina-
                                                                   tion and approval of DoD
                                                                   adjudication and certification
                                                                   program.




1 Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3, Section 5(b)(4).
2 For this reporting period, there are disallowed costs of $102 million on reports over 12 months old with final action pending.

                                                                                                                            129
April 1, 2009 to September 30, 2009
                                                                                                               Appendices



      Report Number                 Description of Action               Reason Action Not             Principle Action Office
        Title/Date                                                         Completed
99-159, Interservice Avail-      Revise Joint Service Regula-       Lack of management atten-       Army
ability of Multiservice Used     tion to require consistent         tion.
Items, 5/14/1999                 item management wherever
                                 economical and safe. Services
                                 provide training on disposal
                                 authority for multi-service
                                 used items and requirements
                                 related to excess assets quanti-
                                 ties.
D-2000-111, Security Clear-      Develop criteria and deter-        Corrective actions were       USD(I), DSS
ance Investigative Priorities,   mine the highest priority          delayed in order to incorpo-
4/5/2000                         mission-critical and high-         rate additional policies into
                                 risk positions based on their      DoD Instruction 5200.2 and
                                 impact on mission-critical         DoD Manual 5200.2, which
                                 programs. Develop a process        will replace DoD Regulation
                                 for relating specific clearance    5200.2-R.
                                 requests to mission-critical
                                 and high-risk positions.
D-2000-134, Tracking             The current database will          The decision to implement a     DSS
Security Clearance Requests,     be modified to retain all          new system for case manage-
5/30/2000                        pertinent historical informa-      ment and adjudications and
                                 tion (including dates/times        perform modifications to an
                                 for every occurrence -- e.g.,      existing system have delayed
                                 deletions, case type, changes,     implementation of the rec-
                                 cancellations, duplicates, con-    ommendation.
                                 versions, reinstatements, etc.)
D-2001-018, Manage-              Army assumed responsibility        Extensive time needed for       Army, AF
ment and Oversight of the        to update Joint Instruction        final review by the US Army
DoD Weather Program,             AR 115-10/ AFI 15-157, to          Publishing Agency.
12/14/2000                       require coordination of me-
                                 teorological, oceanographic,
                                 and space weather require-
                                 ments across all Military
                                 Departments to promote
                                 interoperability and avoid
                                 duplication.
D-2001-037, Collection and       Develop, test and deploy           Selected system for use as     ASD(HA)
Reporting of Patient Safety      Patient Safety Reporting           the patient safety reporting
Data Within the Military         Program.                           program did not demonstrate
Health System, 1/29/2001                                            to be effective, suitable or
                                                                    survivable for limited deploy-
                                                                    ment. Replacement system is
                                                                    being sought.




130
                                                                                                   Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action       Reason Action Not            Principle Action Office
         Title/Date                                                  Completed
 D-2001-065, DoD Adjudica-    Identify and process addition- Corrective actions were          DSS, USD(I)
 tion of Contractor Security  al adjudicative resources for  delayed in order to incorpo-
 Clearances Granted by the    Defense Industrial Security    rate additional policies into
 Defense Security Service,    Clearance Office. Establish-   DoD Instruction 5200.2 and
 2/28/2001                    ment of continuing education   DoD Manual 5200.2, which
                              standards to facilitate the    will replace DoD Regulation
                              certification of professional  5200.2-R. Extensive time
                              adjudicators. Issue guidance   required for coordination and
                              on professional certification  approval of DoD professional
                              and continuous training pro-   adjudication and certification
                              gram for all adjudicators.     program.
 D-2001-135, Prevalidation of Develop cost-effective auto-   Correction of this material      USD(AT&L)
 Intergovernmental Transac-   mated methods to expand        weakness involves a long-
 tions, 6/6/2001              prevalidation.                 term effort.
 D-2001-141, Allegations      Amend DoD5200.2-R to           Corrective actions were          USD(I)
 to the Defense Hotline on    address security investigation delayed in order to incorpo-
 the Defense Security Assis-  requirements for foreign na-   rate additional policies into
 tance Management System,     tional contractor employees.   DoD Instruction 5200.2 and
 6/19/2001                                                   DoD Manual 5200.2, which
                                                             will replace DoD Regulation
                                                             5200.2-R.
 D-2001-158, Compilation of Management will establish an Implementation has been de-          DFAS
 the FY 2000 Army General     action plan to meet revised    layed by higher management
 Fund Financial Statements    requirements for reconciling priorities.
 at the Defense Finance and   suspense accounts.
 Accounting Service India-
 napolis (Sustaining Forces),
 7/13/2001
 D-2001-170, U.S. Transpor- Develop system changes to        Implementation has been de-      USTRANSCOM
 tation Command's Report-     differentiate among US-        layed by higher management
 ing of Property, Plant, and  TRANSCOM, Air Mobility priorities.
 Equipment Assets on the FY Command, and Defense
 2000 DoD Agency-wide Fi- Courier Service assets. Create
 nancial Statements, 8/3/2001 electronic interfaces between
                              the logistics and the account-
                              ing systems for transferring
                              data.
 D-2002-004, Import Process- Revise USFK Regulation          Lack of management atten-        USFK
 ing of DoD Cargo Arriving    55-72 to update requirements tion.
 in the Republic of Korea,    and implement a cost-effi-
 10/4/2001                    cient system for the auto-
                              mated processing of custom's
                              forms using an electronic data
                              exchange.




                                                                                                                     131
April 1, 2009 to September 30, 2009
                                                                                                          Appendices



      Report Number               Description of Action             Reason Action Not             Principle Action Office
        Title/Date                                                     Completed
D-2002-010, Armed Ser-         MHS is in the early stages       Military Health Service         AF, ASD(HA)
vices Blood Program Defense    of developing DBSS replace-      Blood management acquisi-
Blood Standard System,         ment plans. It is anticipated    tion strategy has changed.
10/22/2001                     the Commercial-Off-The-
                               Shelf solution will correct
                               the inventory counting and
                               interface problems.
D-2002-073, Financial          Use transactional data from a    Slow system development         DFAS
Management Ending Bal-         centralized database to popu-    process.
ance Adjustments to General    late general ledger accounts
Ledger Data for the Army       in the Defense Departmental
General Fund, 3/27/2002        Reporting System Budget-
                               ary and continue efforts to
                               analyze and correct causes
                               for current adjustments. Use
                               transactional data to generate
                               a general ledger data file for
                               DDRS Budgetary.
D-2002-117, Review of FY       Report is classified.            Extensive time needed for       DIA
2001 Financial Statements                                       system development.
for the Defense Intelligence
Agency (U), 6/25/2002
D-2002-122, Environmental   Develop a more detailed             Delays were caused by broad- USD(P&R)
Community Involvement       DoD Instruction on Sustain-         ening the scope of the draft
Program at Test and Trainingable Ranges Outreach. Con-          instruction, extensive revi-
Ranges, 6/28/2002           tinue work on implementa-           sions and coordination issues.
                            tion of the new Directive
                            and development of the new
                            instruction.
D-2002-140, Measurement     Establish and implement             Lack of management re-          WHS
of Water Usage by DoD       procedures to verify that the       sponsiveness. WHS has not
Components Serviced by the DCWASA routinely inspects            provided an update since
DC Water and Sewer Au-      and reports results of inspec-      March 2008.
thority, 8/20/2002          tions for DoD-owned water
                            meters.
D-2003-001, DoD Integrat- Develop integrated natural            The remaining Army plan         Army
ed Natural Resource Manage- resource management plans           was previously on hold
ment Plans, 10/1/2002       for military installations and      pending the resolution of an
                            coordinate the plans with the       internal disagreement within
                            other Federal and State agen-       the U.S. Fish and Wildlife
                            cies involved in the process.       Service. Current delays are
                                                                due to contracting and coor-
                                                                dination issues.




132
                                                                                               Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action            Reason Action Not           Principle Action Office
         Title/Date                                                       Completed
 D-2003-018, Validity of         Establish procedures to with-     Implementation has been de- DFAS
 Registration in the Central     hold payments to contractors      layed by higher management
 Contractor Registration Da-     and vendors until they are        priorities.
 tabase, 10/30/2002              properly registered with a
                                 valid Tax Identification Num-
                                 ber in the CCR database.
 D-2003-056, Public/Private      AT&L is working with OMB          Long-term corrective actions   USD(AT&L)
 Competition for the Defense     to address any overhead           are on schedule.
 Finance and Accounting          ambiguities in OMB Circular
 Service Military Retired and    A-76, proposing additional
 Annuitant Pay Functions,        guidance to clarify costing
 3/21/2003                       policies, and providing defini-
                                 tions for direct and indirect
                                 costs as well as a revised
                                 definition for overhead.
 D-2003-073, Reliability of      Report is classified.             Extensive time needed for      NGA
 the FY 2002 National Im-                                          system development.
 agery and Mapping Agency
 Financial Statements and Ad-
 equacy of Related Procedures
 and Controls (U), 4/2/2003
 D-2003-074, Reliability of      Report is classified.             Long-term corrective actions   DIA
 the FY 2002 Defense Intel-                                        are in process.
 ligence Agency Financial
 Statements and Adequacy
 of Related Procedures and
 Controls (U), 4/7/2003
 D-2003-106, Administra-         The Director, Defense             Corrective actions are on      USD(AT&L)
 tion of Performance-Based       Procurement and Acquisi-          schedule. Normal time
 Payments Made to Defense        tion Policy, will conduct an      required to update the FAR
 Contractors, 6/25/2003          assessment of the benefits of     and DFARS.
                                 expanded performance-based
                                 payments implementation.
                                 It will address contracting
                                 officer compliance with FAR
                                 Part 32.10, and whether any
                                 changes are needed to those
                                 policies, the Performance-
                                 Based Payments User's
                                 Guide, or training resources.
 D-2003-110, Information         The Civilian Personnel Man-       Extended time needed to        USD(P&R)
 Technology Management:          agement Service is working        develop system enhance-
 Defense Civilian Personnel      on initiatives to achieve goals   ments and address funding
 Data System Functional-         for system standardization of     shortfalls.
 ity and User Satisfaction,      basic civilian personnel opera-
 7/27/2003                       tions.


                                                                                                                         133
April 1, 2009 to September 30, 2009
                                                                                                          Appendices



      Report Number                Description of Action          Reason Action Not               Principle Action Office
        Title/Date                                                   Completed
D-2003-128, The Chemical    Issue policy to specify Army      Extended time required to         USD(AT&L)
Demilitarization Program:   authorities and responsibili-     resolve disagreement with
Increased Costs for Stockpile
                            ties as DoD’s Executive Agent     Army on proposed source of
and Non-Stockpile Chemical  for the Recovered Chemical        program funds.
Disposal Programs, 9/4/2003 Warfare Materiel Program.
D-2003-133, Report on       Emphasize the importance of       Extensive time required for       USD(C), DFAS
Controls Over DoD Closed    controls over the use of closed   changes to financial policies.
Appropriations, 9/15/2003   appropriations and monitor
                            compliance with applicable
                            laws and regulations. DFAS
                            establish specific standard
                            procedures to ensure that
                            accounting personnel approve
                            only legal and proper adjust-
                            ments to closed appropria-
                            tions, validate the canceled
                            balances and report any
                            potential Antideficiency Act
                            violations.
04-INTEL-02, DoD Security Disparities between the con-        Corrective actions were       USD(I)
Clearance Adjudication and tractor and military/civilian      delayed in order to incorpo-
Appeals Process, 12/12/2003 personnel adjudicative process    rate additional policies into
                            will be eliminated with the       DoD Instruction 5200.2 and
                            pending revision to the DoD       DoD Manual 5200.2, which
                            Regulation 5200.2-R.              will replace DoD Regulation
                                                              5200.2-R. Other long-term
                                                              corrective actions related to
                                                              BRAC are on schedule.
D-2004-007, Force Protec-       Report is classified.         USMC is in process of up-     USMC
tion in the Pacific Theater                                   dating their guidance based
(U), 10/14/2003                                               on DoD guidance published
                                                              on 10/30/06 and incorporat-
                                                              ing other related changes.




134
                                                                                               Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action              Reason Action Not            Principle Action Office
         Title/Date                                                         Completed
 D-2004-008, Implementa-         Update Army Regulations             Coordination on issuance of     Army
 tion of Interoperability and    70-1 and 71-9 to require            the related guidance contin-
 Information Assurance Poli-     combat developers to identify       ues.
 cies for Acquisition of Army    interoperability and sup-
 Systems, 10/15/2003             portability requirements in
                                 requirements documents
                                 and update the requirements
                                 throughout the life of the
                                 systems, as necessary, in ac-
                                 cordance with DoD Directive
                                 4630.5 and to require pro-
                                 gram managers to obtain the
                                 Joint Staff J6 certifications for
                                 interoperability in accordance
                                 with Chairman of the Joint
                                 Chiefs of Staff Instruction
                                 6212.01B.
 D-2004-034, Environment:        Clarify requirements for            The USACE's guidance up-        Army
 Defense Hotline Allegations     internal assessments.               date was put on hold pend-
 Regarding the Environmental                                         ing the revision of a higher
 Compliance Assessment Pro-                                          level Army regulation, but is
 cess at U.S. Army Corps of                                          currently on track for publi-
 Engineers, Portland District,                                       cation by October 31, 2009.
 12/4/2003
 D-2004-047, Implementa-     Program managers will be                Extensive time needed to re- Army
 tion of the DoD Manage-     able to store acquisition docu-         view comments and establish
 ment Control Program for    ments in Virtual Insight so             policy.
 Army Category II and III    the Milestone Decision Au-
 Programs, 1/23/2004         thority can review document
                             status from development to
                             document approval. Army
                             regulations will be updated to
                             reflect new reporting proce-
                             dures.
 D-2004-053, Defense Threat Develop detailed guidance on             Extensive time required to      WHS
 Reduction Agency Relocation what should be considered               coordinate and issue guid-
 Costs, 2/19/2004            when determining whether                ance.
                             the relocation cost cap in
                             section 8020 of the FY 2004
                             Appropriation Act has been,
                             or will be, exceeded.




                                                                                                                            135
April 1, 2009 to September 30, 2009
                                                                                                             Appendices



      Report Number                  Description of Action             Reason Action Not             Principle Action Office
        Title/Date                                                        Completed
D-2004-061, Export Con-           Ensure incorporation of ap-      Extensive time required to      USD(AT&L)
trols: Export Controlled          propriate export compliance      coordinate and issue policy
Technology at Contractor,         clauses into solicitations and   guidance.
University and Federally          contracts.
Funded Research and De-
velopment Center Facilities,
3/25/2004
D-2004-063, Financial             Improve the financial ac-      Implementation has been de- Army
Management: Controls Over         countability for buildings and layed by higher management
U.S. Army Corps of Engi-          other structures owned by      priorities.
neers Buildings and Other         USACE.
Structures, 3/26/2004
D-2004-065, DoD Imple-            Revise Voting Assistance         Publication of AF Instruction AF
mentation of the Voting As-       Program guidance to reflect      was delayed to include pend-
sistance Program, 3/31/2004       recent changes to DoD guid-      ing revision of DoD guid-
                                  ance. Improve monitoring of      ance and then other related
                                  voting assistance program and    guidance.
                                  training of service members
                                  and spouses.
D-2004-079, Reliability           Report is classified.            Long-term corrective actions    DIA
of the Defense Intelligence                                        are in process.
Agency FY 2003 Financial
Statements (U), 4/29/2004
D-2004-080, Environmental         Implement guidance to im-        Lack of management atten-       USD(AT&L)
Liabilities Required to be Re-    prove developing, recording,     tion in fully implementing
ported on Annual Financial        and reporting environmental      corrective actions.
Statements, 5/5/2004              liabilities.
D-2004-099, Reliability of        Report is classified.            Long-term corrective actions    NSA
National Security Agency FY                                        are in process.
2003 Financial Statements
(U), 7/15/2004
D-2004-104, Purchase Card         Recommended actions are          Extensive time needed to        Army
Use and Contracting Actions       designed to provide guid-        revise guidance.
at the U.S. Army Corps of         ance and strengthen controls
Engineers, Louisville District,   over use of the Government
7/27/2004                         Purchase Card at the Louis-
                                  ville District and at USACE
                                  Headquarters levels.




136
                                                                                                  Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action          Reason Action Not          Principle Action Office
         Title/Date                                                     Completed
 D-2004-118, Army Gen-        Update the DoD FMR to              Lack of management empha- USD(C), DFAS
 eral Fund Controls Over      require the disclosure of          sis; slow system development
 Abnormal Balances for        unresolved abnormal bal-           process.
 Field Accounting Activities, ances for all proprietary and
 9/28/2004                    budgetary general ledger ac-
                              counts in the footnotes to the
                              financial statements. Identify
                              abnormal conditions im-
                              pacting both budgetary and
                              proprietary account balances;
                              notify accounting activities of
                              abnormal proprietary balanc-
                              es and require explanations of
                              corrective actions; and resolve
                              abnormal balances in the
                              budgetary accounts.
 D-2005-020, Defense          DLA is identifying cost sav-       Normal time needed to         DLA
 Logistics Agency Processing  ings realized as a result of the   determine the full scope of
 of Special Program Require- DLA Customer Collabora-             realized monetary benefits.
 ments, 11/17/2004            tion project.
 D-2005-022, Financial Man- The contract has been logged         Closeout work continues.      DFAS
 agement: Contract Classified and assigned to a contractor
 as Unreconcilable by the De- supporting the Commercial
 fense Finance and Account-   Pay Services Contract Recon-
 ing Service, 12/2/2005       ciliation office for reconcilia-
                              tion. Based on the reconcili-
                              ation, recovery actions will
                              be initiated for any identified
                              overpayments made to the
                              contractor.
 D-2005-028, DoD Work-        Establish minimum training         Delays have been due to         USD(AT&L)
 force Employed to Conduct standards for competition             litigation, additional standard
 Public Private Competitions officials and DoD functional        competitions, and guidance
 Under the DoD Competitive and technical experts assigned        development.
 Sourcing Program, 2/1/2005 to work on public-private
                              competitions, and advise the
                              DoD component competitive
                              sourcing officials concerning
                              defining and documenting
                              minimum education and/or
                              experience requirements.




                                                                                                                      137
April 1, 2009 to September 30, 2009
                                                                                                            Appendices



      Report Number                Description of Action              Reason Action Not             Principle Action Office
        Title/Date                                                       Completed
D-2005-046, Financial           Correct the identified er-        DBO needs to confirm that       Army
Management: Independent         rors and perform a review of      USACE has taken appropri-
Examination of the Rights to    other leased and transferred      ate corrective actions.
U.S. Army Corps of Engi-        structures for similar types of
neers Buildings and Other       rights errors; review and up-
Structures, 3/25/2005           date policies and procedures
                                to prevent future errors; and
                                provide and document train-
                                ing to consistently implement
                                the new policies and proce-
                                dures.
D-2005-051, Independent         USACE will establish an           Long-term corrective actions    Army
Examination of the Land As-     oversight process that pro-       are ongoing.
sets at the U.S. Army Corps     vides periodic reviews by
of Engineers, Civil Works,      Civil Works headquarters of
4/6/2005                        land asset transactions at the
                                activity level.
D-2005-054, Audit of the        Report is FOUO.                   Coordination is ongoing to      ASD(NII)
DoD Information Technol-                                          promulgate the policies.
ogy Security Certification
and Accreditation Process,
4/28/2005
D-2005-074, Support for         Report is classified.             Corrective actions are being    NSA
Reported Obligations for the                                      implemented.
National Security Agency
(U), 6/28/2005
D-2005-093, Information         Report is FOUO.                   Corrective actions are on       DISA, Army
Technology Management:                                            schedule.
Technical Report on the
Standard Finance System,
8/17/2005
D-2005-096, DoD Purchases       DoD is establishing new           Corrective actions are ongo-    USD(AT&L)
Made Through the Gen-           policies to improve intergov-     ing.
eral Services Administration,   ernmental transactions, the
7/29/2005                       use of Military Departmental
                                Purchase Requests, and as-
                                sisted acquisitions.
D-2005-097, Auditability        Report is classified.             Corrective actions are being    DIA
Assessment of the Financial                                       implemented.
Statements for the Defense
Intelligence Agency (U),
8/18/2005




138
                                                                                                 Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action           Reason Action Not           Principle Action Office
         Title/Date                                                      Completed
 D-2005-103, Develop-            Develop new controls and       Long-term corrective actions     Navy
 ment and Management of          fully implement existing       are ongoing.
 the Army Game Project,          controls to ensure that all
 8/24/2005                       resources are safeguarded;
                                 and revise Navy guidance on
                                 accountability over pilferable
                                 property to be consistent with
                                 the DoD guidance.
 D-2006-003, Security Con-       Report is FOUO.                Extended time required for       USD(I), ASD(HA), AF
 trols Over Selected Military                                   revision and coordination of
 Health System Corporate                                        guidance.
 Database, 10/7/2005
 D-2006-009, Independent         The U.S. Army Corps of           Corrective actions are on      Army
 Examination of Valuation        Engineers is updating policy     schedule.
 and Completeness of U.S.        and procedures, assessing sys-
 Army Corps of Engineers,        tem changes to the Corps of
 Buildings and Other Struc-      Engineers Financial Manage-
 tures, 9/28/2005                ment System, and working to
                                 correct data accuracy defi-
                                 ciencies through new regional
                                 assessment teams.
 D-2006-010, Contract Sur-       The Army will develop            Normal time to develop and Army
 veillance for Service Con-      management controls to           implement new guidance and
 tracts, 10/28/2005              ensure contract surveillance     procedures.
                                 is adequately performed and
                                 documented.
 D-2006-026, Air Force Op-       Report is classified.            Major players need to be in-   AF
 erational Mobility Resources                                     volved in addressing remain-
 in the Pacific Theater (U),                                      ing issues. ECD is 10/26/09.
 11/17/2005
 D-2006-028, DoD Report-         DoD is revising its guidance     Normal time to review, revise USD(AT&L)
 ing System for the Com-         to improve accounting of         and implement new guid-
 petitive Sourcing Program,      transition costs, tracking and   ance.
 11/22/2005                      reporting competition costs,
                                 validating and reviewing re-
                                 cords, capturing contractors'
                                 past performance informa-
                                 tion, and tracking and moni-
                                 toring the performance of
                                 Most Efficient Organizations.
 D-2006-030, Report on           Report is FOUO.                  Long-term corrective actions   DISA
 Diagnostic Testing at the                                        are ongoing.
 Defense Information Systems
 Agency, Center for Comput-
 ing Services, 11/30/2005



                                                                                                                        139
April 1, 2009 to September 30, 2009
                                                                                                       Appendices



      Report Number              Description of Action             Reason Action Not           Principle Action Office
        Title/Date                                                    Completed
D-2006-031, Report on         Report is FOUO.                  Corrective actions are on     DISA
Penetration Testing at the                                     schedule.
Defense Information Systems
Agency, Center for Comput-
ing Services, 11/30/2005
D-2006-039, Internal          The USD(C) will update the       Report had been in media-     USD(C), DFAS
Controls Over the Com-        FMR and DFAS will rescind        tion and has been recently
pilation of the Air Force,    a previous instruction, update   resolved.
General Fund, Fund Balance    and formalize other guidance,
With Treasury for FY 2004,    delete invalid accounts and
12/22/2005                    update the General Account-
                              ing and Finance System-Re-
                              host posting logic to improve
                              internal controls over the
                              compilation of the Air Force,
                              General Fund, Fund Balance
                              with Treasury.
D-2006-041, Operational       Report is classified.            Corrective actions were ini-  USFK, USMC
Mobility: Gap-Crossing                                         tially delayed due to changes
Resources for the Korean                                       in force structure in Korea
Theater (U), 12/26/2005                                        and a new commander. Ac-
                                                               tions are now on schedule.
                                                               Increase in USMC Approved
                                                               Acquisition Objective delays
                                                               projected Full Operational
                                                               Capability until FY 2012.
D-2006-043, Financial         Establish procedures to en-      The final report on the ADA Army
Management: Report on         sure the appropriate funding     investigation is in legal
Army Management of the        of the Army Game Project,        review.
Army Game Project Funding,    determine if there have been
1/6/2006                      any Antideficiency Act viola-
                              tions and report any such
                              violations, as required.
D-2006-046, Technical         Report is FOUO.                  Corrective actions are on     USD(AT&L)
Report on the Defense Prop-                                    schedule.
erty Accountability System,
1/27/2006




140
                                                                                            Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action             Reason Action Not            Principle Action Office
         Title/Date                                                        Completed
 D-2006-053, Select Controls     Update the Ground Based            Extensive time needed for     MDA
 for the Information Security    Midcourse Defense Com-             a schedule change made to
 of the Ground-Based Mid-        munications Network                the installation of equipment
 course Defense Communica-       configuration to include: (1)      software and the transition-
 tions Network, 2/24/2006        Automated monitoring of            ing of the authentication
                                 the unencrypted and en-            service to the Defense Infor-
                                 crypted communications and         mation Systems Agency.
                                 monitoring systems; and (2)
                                 Individual user passwords to
                                 access the unencrypted com-
                                 munications system.
 D-2006-054, DoD Process         The USD(C) is developing           Corrective actions are gener-   USD(C), Army, Navy, AF
 for Reporting Contingent        a forum to address develop-        ally on schedule.
 Legal Liabilities, 2/24/2006    ment of solutions for provid-
                                 ing meaningful assessments
                                 of contingent legal liabilities
                                 and to develop and imple-
                                 ment a uniform methodology
                                 for estimating, aggregating,
                                 and reporting them. The
                                 Services are working to ensure
                                 that "Other Liabilities" and
                                 contingent liabilities are fully
                                 supported and appropriately
                                 disclosed.
 D-2006-056, Financial Man- The Air Force will conduct              Lack of management atten-       AF
 agement: Report on Vendor       reviews of potential ADA           tion.
 Pay Disbursement Cycle, Air violations, review and revise
 Force General Fund: Con-        existing policy guidance and
 tract Formation and Fund-       training.
 ing, 3/6/2006
 D-2006-057, Corrective Ac- Report is classified.                   Corrective actions are on       NGA
 tions for Previously Identified                                    schedule.
 Deficiencies Related to the
 National Geospatial-Intelli-
 gence Agency Financial State-
 ments (U), 2/28/2006
 D-2006-060, Systems Engi- Report is FOUO.                          Significant organizational      MDA
 neering Planning for the Bal-                                      changes have delayed issu-
 listic Missile Defense System,                                     ance of policy.
 3/2/2006
 D-2006-061, Source Selec-       The DoD will develop new           Corrective actions are on       USD(AT&L)
 tion Procedures for the Navy guidance.                             schedule.
 Construction Capabilities
 Contract, 3/3/2006




                                                                                                                           141
April 1, 2009 to September 30, 2009
                                                                                                          Appendices



      Report Number              Description of Action              Reason Action Not             Principle Action Office
        Title/Date                                                     Completed
D-2006-062, Internal Con-     Improve internal controls         Corrective actions for this     AF
trols Over Compiling and      over compiling and reporting      material weakness involve a
Reporting Environmental       cost-to-complete estimates for    long-term effort.
Liabilities Data, 3/15/2006   environmental liabilities.
D-2006-071, Capabilities      Finalize and approve mutu-        Delays continue in prepara-     MDA
Definition Process at the     ally supportive directives        tion and coordination of
Missile Defense Agency,       outlining each organizations'     guidance.
4/5/2006                      roles and responsibilities with
                              respect to capability-based
                              requirements.
D-2006-072, Internal Con-     The Department is working         Corrective actions and efforts Army, Navy, AF,
trols Related to Department   to improve internal controls      to verify corrective actions are USD(AT&L), USD(C)
of Defense Real Property,     at the installation level for     ongoing.
4/6/2006                      real property offices. The Air
                              Force is working to: identify
                              which fiscal year they can
                              prove existence, complete-
                              ness, and valuation, and
                              use that fiscal year as their
                              baseline for real property; and
                              maintain an audit trail that
                              supports the real property val-
                              ues reported on the financial
                              statements.
D-2006-073, Human Capi-       Develop and implement writ-       Planned revisions to DoD        USD(AT&L)
tal: Report on the DoD Ac-    ten standard operating proce-     I 5000.55 have been de-
quisition Workforce Count,    dures and guidance for count-     layed based on a decision to
4/17/2006                     ing the acquisition workforce     restructure Defense Acquisi-
                              to include definitions of         tion Workforce Policy and
                              workforce count, methodolo-       Guidance. The restructure
                              gies and procedures used to       includes planned issuance
                              perform periodic counts, and      of one DoD instruction and
                              requirements to maintain and      two DoD manuals. ECD is
                              support related documenta-        June 2010.
                              tion. Revise DoD guid-
                              ance to update information
                              requirements for automated
                              data files.




142
                                                                                               Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action          Reason Action Not           Principle Action Office
         Title/Date                                                     Completed
 D-2006-077, DoD Security Updating policies for the              Corrective actions were       USD(I), ARMY, AF
 Clearance Process at Request- DoD Personnel Security            delayed in order to incorpo-
 ing Activities, 4/19/2006     Clearance Program to include      rate additional policies into
                               various information including     DoD Instruction 5200.2 and
                               program management and            DoD Manual 5200.2, which
                               investigative responsibilities,   will replace DoD Regulation
                               security clearance systems,       5200.2-R. Other Service
                               submission processes, types       issuances are dependent upon
                               and levels of security clear-     those updated DoD publica-
                               ances, and training require-      tions.
                               ments for security personnel.
 D-2006-079, Review of         Update Business Systems           New deployment schedule        DLA
 the Information Security      Modernization Energy (Fuels       developed because of delays
 Operational Controls of the Automated System) plan of           caused by the military ser-
 Defense Logistics Agency's    action and milestones to in-      vices' internal coordination
 Business Systems Moderniza- clude all security weaknesses       processes.
 tion-Energy, 4/24/2006        based on the current system
                               configuration.
 D-2006-080, Use of En-        Identify practices, processes,    Sufficient experience in using USD(AT&L)
 vironmental Insurance by      and strategies for effectively    environmental insurance
 the Military Departments,     using environmental insur-        needed before completing
 4/27/2006                     ance. Establish a process         corrective actions.
                               to evaluate whether DoD
                               is achieving the anticipated
                               benefits of risk reduction,
                               cost savings, timely comple-
                               tion of cleanup projects, and
                               increased use of performance-
                               based contracting for envi-
                               ronmental cleanup services
                               when using environmental
                               insurance.
 D-2006-081, Financial         Report is classified.             Corrective actions are on      NSA
 Management: Recording and                                       schedule.
 Reporting of Transactions by
 Others for the National Secu-
 rity Agency (U), 4/26/2006




                                                                                                                       143
April 1, 2009 to September 30, 2009
                                                                                                   Appendices



      Report Number             Description of Action        Reason Action Not             Principle Action Office
        Title/Date                                              Completed
D-2006-083, Report on In- Report is classified.               Distribution of Information STRATCOM, USD(I)
formation Operations in U.S.                                  Operations across mul-
European Command (U),                                         tiple Joint Capability Areas
5/12/2006                                                     complicates development of
                                                              a comprehensive long-term
                                                              IO investment strategy. ECD
                                                              is FY 2012. STRATCOM
                                                              actions have been delayed
                                                              due to a changed focus in
                                                              the performance of advocacy
                                                              activities from IO to Cyber.
D-2006-085, Vendor Pay       The Air Force will strengthen Lack of management atten-       AF
Disbursement Cycle, Air      internal controls on the coor- tion.
Force General Fund: Funds    dinated efforts of receiving of-
Control, 5/15/2006           ficials, resource managers, and
                             funds holders who oversee the
                             status of funds.
D-2006-086, Information      Report is FOUO.                  Corrective actions are on    DISA
Technology Management:                                        schedule.
Report on General and Ap-
plications Controls at the
Defense Information Systems
Agency, Center for Comput-
ing Services, 5/18/2006
D-2006-087, Acquisition     Report is FOUO.              Change in requirements and      Army
of the Objective Individual                              competing priorities.
Combat Weapon Increments
II and III, 5/15/2006
D-2006-096, Information     Report is FOUO.              Long-term corrective actions    MDA
Technology Management:                                   are on schedule.
Select Controls for the
Information Security of the
Command and the Control
Battle Management Commu-
nications System, 7/14/2006




144
                                                                                        Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action            Reason Action Not           Principle Action Office
         Title/Date                                                       Completed
 D-2006-100, Procurement          The Air Force will develop a     Extensive time required to     AF
 Procedures Used for Next         plan to improve the collec-      coordinate the transition
 Generation Small Loader          tion, analysis, and reporting    from ICS to CLS and issue
 Contracts, 8/1/2006              of maintenance data for the      the basing plan review results
                                  Halvorsen fleet; and transi-     for all loaders.
                                  tion from a base level funded
                                  sustainment construct to
                                  Interim Contractor Support,
                                  and then to a Contractor
                                  Logistics Support contract to
                                  improve readiness. Also, the
                                  Air Force agreed to review the
                                  basing plan for all loaders to
                                  ensure optimum usage, and
                                  ensure that future Federal
                                  Acquisition Regulation Part
                                  12 and Part 15 acquisitions
                                  adequately meet operational
                                  requirements.
 D-2006-101, Acquisition:         Complete a thorough Busi-        Normal time needed for        AF
 Procurement Procedures           ness Case Analysis that evalu-   implementation.
 Used for C-17 Globemaster        ates multiple sustainment
 III Sustainment Partner-         options for the C-17 Globe-
 ship Total System Support,       master III aircraft.
 7/21/2006
 D-2006-106, Allegations          Issue guidance to 1) mitigate    Delays continue due to per- AF
 Concerning Mismanagement         frequency interference risks     sonnel turnover and extended
 of the Aerial Targets Program,   and 2) emphasize Joint Tacti-    time needed for staffing of
 8/4/2006                         cal Radio System reporting       guidance.
                                  requirements.
 D-2006-107, Defense De-          Report is FOUO.                  Corrective actions are on     DCMO, DISA
 partmental Reporting System                                       schedule.
 and Related Financial State-
 ment Compilation Process
 Controls Placed in Opera-
 tion and Tests of Operating
 Effectiveness for the Period
 October 1, 2004, through
 March 31, 2005, 8/18/2006




                                                                                                                         145
April 1, 2009 to September 30, 2009
                                                                                                          Appendices



      Report Number               Description of Action             Reason Action Not             Principle Action Office
        Title/Date                                                     Completed
D-2006-108, Providing         AT&L will establish a             Corrective actions are on   USD(AT&L), USD(C),
Interim Payments to Con-      Defense Federal Acquisition       schedule. Normal time re-   DFAS
tractors in Accordance With   Regulation Supplement case        quired to update the DFARS.
the Prompt Payment Act,       to evaluate the costs and
9/1/2006                      benefits of revising the DoD
                              policy of paying cost reim-
                              bursable service contracts on
                              an accelerated basis (14 days).
                              Also, the USD(C) will revise
                              the DoD Financial Manage-
                              ment Regulation, volume 10,
                              chapter 7, entitled "Prompt
                              Payment Act," to reflect the
                              list of contract financing
                              payments identified in the
                              Federal Acquisition Regula-
                              tions, Part 32.001.
D-2006-111, Expanded          Revise contingency-related        Extensive time required to      AF
Micro-Purchase Authority for purchase card guidance and         coordinate and issue policy.
Purchase Card Transactions    improve efforts to disseminate
Related to Hurricane Katrina, and implement guidance.
9/27/2006                     Also, establish a robust over-
                              sight presence and significant-
                              ly strengthen internal controls
                              to mitigate the risk of fraud,
                              waste, and abuse.
D-2006-114, Budget Execu- Develop and execute SOPs              Long-term corrective actions    DFAS
tion Reporting at Defense     to: record and report obliga-     are ongoing.
Finance and Accounting Ser- tions incurred against cat-
vice Indianapolis, 9/25/2006 egory codes that are consis-
                              tent with the apportionment
                              category codes; adjust the
                              amounts submitted to the
                              Treasury and reported on
                              the Army Report on Budget
                              Execution and Budgetary
                              Resources; perform a quar-
                              terly reconciliation on those
                              amounts; notify the Treasury
                              when amounts on the OMB
                              Report on Budget Execution
                              and Budgetary Resources are
                              not accurate; and disclose the
                              existence of material unrec-
                              onciled differences in budget
                              execution data as part of the
                              footnote disclosures to the
                              Army financial statements.
146
                                                                                               Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action             Reason Action Not           Principle Action Office
         Title/Date                                                        Completed
 D-2006-115, Acquisition:         DoD is in the process of clari-   Extensive time required for    USD(AT&L)
 Commercial Contracting for       fying the term "Commercial        the approval process to up-
 the Acquisition of Defense       Item" in appropriate DoD          date DoD guidance.
 Systems, 9/29/2006               guidance.
 D-2006-117, American Forc-       Issue draft DoD Instruction       Extensive time needed to       ASD(PA)
 es Network Radio Program-        5120.20 and DoD Manual            develop guidance as a result
 ming Decisions, 9/27/2006        5120.20 to provide written        of formal standup of the
                                  policies, controls, and pro-      Defense Media Activity.
                                  cedures for the radio pro-
                                  gramming decision-making
                                  process.
 D-2006-118, Financial            Processing the closeout of        Additional time needed for   USD(C)
 Management: Financial            Hurricane Katrina mission         development of departmental
 Management of Hurricane          assignments and returning         guidance; corrective actions
 Katrina Relief Efforts at        reimbursable funding author-      predicated upon actions by
 Selected DoD Components,         ity to the Federal Emergency      outside agencies.
 9/27/2006                        Management Agency. Devel-
                                  oping departmental guidance
                                  to reflect changes in financial
                                  management responsibilities.
 D-2006-123, Program Man-         Report is FOUO.                   Change in requirements and     Army
 agement of the Objective                                           competing priorities.
 Individual Combat Weapon
 Increment I, 9/29/2006
 D-2007-010, Army Small           Army is following up on the       Lack of management atten-      Army
 Arms Program that Relates to     findings and recommenda-          tion.
 Availability, Maintainability,   tions of the Soldier Weapons
 and Reliability of Small Arms    Assessment Team Report
 Support for the Warfighter,      Number 6-03.
 11/2/2006
 D-2007-024, Management       USD(P&R) will establish       Long-term corrective actions           USD(P&R)
 and Use of the Defense Travela process to collect com-     on schedule.
 System, 11/13/2006           plete, reliable, and timely
                              DoD travel information and
                              establish necessary improve-
                              ments to maximize benefits of
                              Defense Travel System.
 D-2007-025, Acquisition of Report is FOUO.                 Extended time needed to                PACOM
 the Pacific Mobile Emergency                               analyze and resolve contract
 Radio System, 11/22/2006                                   overcharges.




                                                                                                                          147
April 1, 2009 to September 30, 2009
                                                                                                             Appendices



      Report Number                 Description of Action              Reason Action Not             Principle Action Office
        Title/Date                                                        Completed
D-2007-029, Auditability         Report is classified.             Corrective actions are on       DIA
Assessment of the Defense                                          schedule.
Intelligence Agency Busi-
ness Processes for the Iden-
tification, Documentation,
and Reporting of Property,
Plant, and Equipment (U),
11/30/2006
D-2007-039, Information          Report is FOUO.                   Corrective actions are on       MDA
Assurance of Missile Defense                                       schedule.
Agency, 12/21/2006
D-2007-040, General and          Improve the reliability of        Long-term corrective action     Navy
Application Controls Over        financial information by          on schedule.
the Financial Management         strengthening the general and
System at the Military Sealift   application controls over the
Command, 1/2/2007                Military Sealift Command’s
                                 Financial Management
                                 System. Specifically, improve
                                 internal controls over entity-
                                 wide security program plan-
                                 ning and management, access
                                 controls, software develop-
                                 ment and change controls,
                                 system software, segregations
                                 of duties, and service conti-
                                 nuity.
D-2007-041, Navy General         Update the DoD FMR to be          Long-term corrective actions    USD(C), DFAS, Navy
Fund Vendor Payments Pro-        in full compliance with State-    are ongoing.
cessed By Defense Finance        ment of Federal Financial Ac-
and Accounting Service,          counting Standards Number
1/2/2007                         1; improve the recording of
                                 DoN accounts payable trans-
                                 actions; identify the accounts
                                 payable recording as an assess-
                                 able unit and develop proce-
                                 dures to test compliance with
                                 Navy General Fund; strength-
                                 en procedures to ensure that
                                 supporting documentation
                                 for all non-Electronic Data
                                 Interchange vendor payment
                                 transactions is adequately
                                 maintained.




148
                                                                                                  Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                      Completed
 D-2007-043, Controls Over        The Army and Air Force will     Extensive time required to    Army, AF
 the Army, Navy, and Air          revise purchase card guid-      coordinate and issue policy
 Force Purchase Card Pro-         ance and improve efforts to     guidance.
 grams, 1/10/2007                 disseminate and implement
                                  guidance.
 D-2007-044, FY 2005 DoD          Revise the Army's internal      Extensive time required to    Army
 Purchases Made Through the       policy on the proper use of     coordinate and issue policy
 Department of the Interior,      non-DoD contract instru-        guidance.
 1/16/2007                        ments.
 D-2007-048, Navy Sponsor         The Navy is working to          Corrective actions are on     Navy
 Owned Material Stored at         improve controls over the fi-   schedule.
 the Space and Naval Warfare      nancial reporting of sponsor-
 Systems Centers, 1/26/2007       owned material and inventory
                                  controls over sponsor-owned
                                  materials.
 D-2007-049, Equipment            Report is classified.           Awaiting publication of       USD(P&R)
 Status of Deployed Forces                                        pending guidance. ECD is
 Within the U.S. Central                                          12/31/09.
 Command (U), 1/25/2007
 D-2007-054, Quality Assur-       ASD(HA) will revise             Normal time required for      ASD(HA), Army, Navy, AF
 ance in the DoD health care      DoD6025-13-R, "Military         implementing recommenda-
 System, 2/20/2007                Health System Clinical          tions.
                                  Quality Assurance Program
                                  Regulation," dated 6/11/04,
                                  to help Military Health
                                  System managers monitor
                                  and improve the quality of
                                  medical care in the MHS and
                                  mitigate the risk of financial
                                  loss. Upon revision of the
                                  DoD regulation, the Services
                                  will revise Service-level guid-
                                  ance as necessary.




                                                                                                                       149
April 1, 2009 to September 30, 2009
                                                                                                         Appendices



      Report Number               Description of Action              Reason Action Not           Principle Action Office
        Title/Date                                                      Completed
D-2007-055, Contract           The USACE Ordering Dis-         Lack of management respon- Army
Administration of the Water    tricts will monitor timeliness siveness.
Delivery Contract Between      of bottled water deliveries and
the Lipsey Mountain Spring     each contracting office and
Water Company and the          their internal review offices
United States Army Corps of    will review processes to ensure
Engineers, 2/5/2007            enforcement of contract time
                               delivery parameters. The
                               USACE will issue guidance
                               addressing contract require-
                               ments for properly supported
                               invoices and proper record-
                               keeping and process actions
                               to recoup disbursements
                               associated with Government-
                               ordered delay of work and
                               unsupported payments to
                               contractors.
D-2007-057, Use and Con-       Report is FOUO.                 Corrective actions are on  NGA
trols Over Military Interde-                                   schedule.
partmental Purchase Requests
at the National Geospa-
tial-Intelligence Agency,
2/13/2007
D-2007-062, Department of      The DUSD Installations and        Extensive time required to    USD(AT&L)
the Navy Purchases for and     Environment will update           revise policy guidance.
From Governmental Sources,     DoD I 4000.19 to include
2/28/2007                      the requirements of the DoD
                               Financial Management Regu-
                               lation, Volume 11A, chapter
                               3.
D-2007-065, Controls Over      Implement more effective          Management corrective ac-     USD(C), DFAS, DCMO,
the Prevalidation of DoD       internal controls to ensure       tions on schedule.            Army
Commercial Payments,           that DoD matches each com-
3/2/2007                       mercial payment request to
                               the corresponding obligation
                               and that, once prevalidated,
                               the disbursement transaction
                               correctly posts in the official
                               accounting records without
                               manual intervention.




150
                                                                                              Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action          Reason Action Not            Principle Action Office
         Title/Date                                                     Completed
 D-2007-066, Navy Acquisi-     Ensure that suitability de-       Extended time needed to         Navy
 tion Executive's Management   ficiencies identified during      fully resolve multiple major
 Oversight and Procurement     testing of the AN/SPY-1D(V)       deficiencies in acquisition
 Authority for Acquisition     Radar Upgrade System are          program.
 Category I and II Programs,   resolved prior to production
 3/9/2007                      decision.
 D-2007-073, Financial Data    Develop appropriate ac-           Management corrective ac-       USD(C), Army, Navy, AF
 Processed By the Medical      counting, measurement, and        tions on schedule.
 Expense and Performance       recognition methods for the
 Reporting System, 3/21/2007   data used in the MEPRS allo-
                               cation process at the military
                               treatment facilities.
 D-2007-078, Audit Practices The C-17 program officials          Implementation has been         AF
 for the C-17 Globemaster      will ensure that the contractor   delayed by resubmission of
 III Sustainment Partnership   complies with the require-        updated contractor propos-
 Contract, 4/9/2007            ments of FAR 15.403-4 and         als and DCAA scheduled
                               provides Certified Cost or        reviews of material and labor
                               Pricing Data to support the       proposals.
                               price proposal for FY 2009-
                               FY 2011. Additionally, the
                               CCPD will be examined
                               and confirmed to be current,
                               accurate, and complete in
                               accordance with the Truth in
                               Negotiations Act.
 D-2007-079, Performance-      NAVFAC SW will expand             Long-term corrective actions    Navy
 Based Service Contract for    the workload fluctuation          on schedule.
 Environmental Services at the language in future environ-
 Navy Public Works Center,     mental services contracts
 4/3/2007                      to address amount limits
                               exceeded and any changes to
                               pricing, and will gather les-
                               sons learned and best practic-
                               es and incorporate into future
                               contracts.
 D-2007-084, Acquisition       Report is FOUO.                   Long-term corrective actions    Navy, DCMA
 of the Navy Rapid Airborne                                      are in process.
 Mine Clearance System,
 4/11/2007
 D-2007-085, Reporting           The Navy is working to im-      Corrective actions are on       Navy
 of Navy Sponsor Owned           prove financial reporting and   schedule.
 Material Stored at the Naval    controls over sponsor-owned
 Systems Command Activi-         material.
 ties, 4/24/2007




                                                                                                                          151
April 1, 2009 to September 30, 2009
                                                                                                            Appendices



      Report Number                Description of Action              Reason Action Not             Principle Action Office
        Title/Date                                                       Completed
D-2007-086, Audit of In-        Report is classified.             Corrective actions are on       NSA
coming Reimbursable Orders                                        schedule.
for the National Security
Agency (U), 4/24/2007
D-2007-087, Internal Con-       DFAS will implement policy        Corrective actions will be      DFAS
trols Over Army General         to maintain documentation         verified during an upcoming
Fund Transactions Processed     of any off-line filter transac-   audit.
by the Business Enter-          tion corrections; reconcile
prise Information Services,     combinations listed in the
4/25/2007                       Filter Criteria Table with
                                applicable guidance and
                                document the justification for
                                any differences; and docu-
                                ment the BEIS transaction
                                processing to include explana-
                                tions for exceptions to normal
                                processing.
D-2007-094, Consolidation       Report is FOUO.                   A U.S. Court decision is be-    DCMA
of Lockheed Martin Pension                                        ing appealed.
Accounting Records for Se-
lected Business Acquisitions,
5/14/2007
D-2007-095, Consolidation       Report is FOUO.                   Corrective actions are depen- DCAA, DCMA
of Raytheon Pension Ac-                                           dent on legal actions that are
counting Records for Se-                                          in process.
lected Business Acquisitions,
5/14/2007
D-2007-098, The Use and         The DIA will establish            Corrective actions are on       DIA
Control of Intragovernmental    procedures and controls over      schedule.
Purchases at the Defense In-    payments made in advance of
telligence Agency, 5/18/2007    receipt of goods and services
                                and recognize expenses when
                                the goods and services are
                                received.
D-2007-099, DoD Privacy         Modify DoD Directive              Corrective actions are ongo-    DAM
Program and Privacy Impact      5400.11, "DoD Privacy Pro-        ing.
Assessments, 6/13/2007          gram," November 16, 2004;
                                and Assess the DoD Privacy
                                Program.
D-2007-100, Audit of the        Report is FOUO.                   Management corrective ac-       USD(AT&L), USD(C)
Special Operations Forces                                         tions on schedule.
Support Activity Contract,
5/18/2007




152
                                                                                                 Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action          Reason Action Not          Principle Action Office
         Title/Date                                                     Completed
 D-2007-110, Identification       The DoD will continue to       Corrective actions are on     USD(C)
 and Reporting of Improper        work with the Navy to iden-    schedule.
 Payments Through Recovery        tify and disseminate lessons
 Auditing, 7/9/2007               learned from its recovery
                                  audit.
 D-2007-114, DoD Garnish-      Take steps to improve the         Awaiting final decision on    DFAS
 ment Program, 7/19/2007       accuracy and completeness         automated systems imple-
                               of amount garnished from          mentation.
                               current and retired DoD
                               employees to pay debt obliga-
                               tions.
 D-2007-115, Audit of the      Improve small business            Long-term corrective action   Army
 Army Information Technol- participation in indefinite-          on schedule.
 ogy Enterprise Solutions-2    delivery, indefinite-quantity
 Services Contract, 9/9/2007 contracts for information
                               technology services by creat-
                               ing a small business set-aside.
 D-2007-118, Contract          Perform reconciliation of ice/    Extensive time needed to       Army
 Administration of the Ice     water delivery invoices against   perform reconciliation of ice/
 Delivery Contract Between     USACE ticket receipts and         water delivery invoices.
 International American        contractor GPS data to deter-
 Products, Worldwide Services mine accuracy of automated
 and the U.S. Army Corps of tracking system data.
 Engineers During the Hurri-
 cane Katrina Recovery Effort,
 8/24/2007
 D-2007-119, Procurement       The Defense Supply Center,        Corrective actions are on     DLA
 of Propeller Blade Heat-      Richmond, Va., will address       schedule.
 ers for the C-130 Aircraft,   the issue of changing the
 8/27/2007                     contracts deletion of items
                               provision with Hamilton
                               Sundstrand.
 D-2007-121, Emergency         Seek reimbursement from           Extensive time required to    USD(C)
 Supplemental Appropria-       FEMA for funds expended on        coordinate and closeout
 tions for DoD Needs Arising the FEMA mission assign-            FEMA mission assignments.
 From Hurricane Katrina at     ments related to Hurricane
 Selected DoD Components, Katrina.
 9/12/2007




                                                                                                                      153
April 1, 2009 to September 30, 2009
                                                                                                         Appendices



      Report Number               Description of Action             Reason Action Not            Principle Action Office
        Title/Date                                                     Completed
D-2007-128, Hotline Al-        The DTRA will develop its        Corrective action is on        DTRA
legations Concerning the       acquisition strategy for future schedule.
Defense Threat Reduction       A&AS contracts with the goal
Agency Advisory and As-        of maximizing competition,
sistance Services Contract,    and will determine whether
9/26/2007                      a multiple award Indefinite-
                               Delivery, Indefinite-Quantity
                               contract is in the best interest
                               of the Government.

D-2007-131, Report on          Establish follow-up proce-      Extensive time required to      USD(AT&L)
Follow-up Audit on Recom-      dures to ensure that timely     coordinate and issue policy
mendations for Controls        and responsive actions are      guidance.
Over Exporting Sensitive       taken to implement all audit
Technologies to Countries of   recommendations.
Concern, 9/28/2007
D-2007-132, Army Use of      Revise Army Regulation            Long-term corrective actions    Army
and Controls Over the DoD    710-2 to update requirements      are on schedule.
Aviation Into-Plane Reim-    and appropriate use of the
bursement Card, 9/28/2007    Aviation Into-Plane Reim-
                             bursement Card.
D-2007-6-004, Defense        DCMA is working to assess         Corrective actions and efforts DCMA
Contract Management          and collect penalties as appro-   to verify corrective actions are
Agency Virginia's Actions on priate, improve internal con-     ongoing.
Incurred Cost Audit Reports, trols over unresolved costs,
4/20/2007                    and improve processes for
                             taking timely and proper ac-
                             tions on audit report findings,
                             including holding contracting
                             officers accountable for their
                             actions.
D-2008-002, DoD Salary       Develop replacement systems       Extensive time required to      DFAS
Offset Program, 10/9/2007    or make modifications to          develop replacement systems
                             existing systems to properly      or make modifications to
                             compute salary offsets for        existing systems.
                             military members, retirees,
                             and annuitants.




154
                                                                                              Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action            Reason Action Not          Principle Action Office
         Title/Date                                                       Completed
 D-2008-003, Auditability        DIA is working to: improve        DIA has not responded to      DIA, DFAS
 Assessment of the Defense       its ability to identify the DIA   requests for the status of
 Intelligence Agency Fund        share of DoD undistributed        corrective actions taken in
 Balance with Treasury and       disbursements and collec-         response to the report.
 Appropriations Received,        tions; decrease the materiality
 10/16/2008                      of the undistributed balance
                                 for DIA at the suballotment
                                 level; and establish processes
                                 to ensure all DIA limits are
                                 captured in DFAS monthly
                                 reports and the Cash Man-
                                 agement Report process. In
                                 addition, DIA is working to
                                 ensure that: it reports funding
                                 authorization documents in
                                 the proper accounting period;
                                 the DFAS accounting and
                                 reporting system contains
                                 complete voucher data for
                                 reconciliation purposes; and
                                 the DFAS plan of actions and
                                 milestones and the service
                                 level agreement with DIA are
                                 specific enough to meet DIA
                                 needs.
 D-2008-005, National Secu-      Report is classified.             Corrective actions are on     NSA
 rity Agency Accounts Payable                                      schedule.
 (U), 10/23/2007


 D-2008-007, Task Orders         The Air Force will investigate    Corrective actions are on     AF
 on the Air Force Network-       the circumstances behind          schedule.
 Centric Solution Contract,      Air Force generated General
 10/25/2007                      Services Agency task orders
                                 and corrective actions will be
                                 based on the findings.
 D-2008-032, Acquisition of      Report is FOUO.                   Required revision of program Army
 the Surface-Launched Ad-                                          acquisition document has
 vanced Medium Range Air-                                          been delayed by program
 To-Air Missile, 12/6/2007                                         restructure.

 D-2008-034, Financial           Improve financial manage-         Lack of management atten-     USD(I)
 Management at the Defense       ment oversight.                   tion in fully implementing
 Security Service, 1/3/2008                                        corrective actions.




                                                                                                                        155
April 1, 2009 to September 30, 2009
                                                                                                        Appendices



      Report Number              Description of Action            Reason Action Not             Principle Action Office
        Title/Date                                                   Completed
D-2008-036, Follow-Up on    USD(AT&L) establish a             Additional time needed for     USD(AT&L), USD(C)
FY 2006 DoD Purchases       Memorandum of Agreement           coordination of memoran-
Made Through the Depart-    with the U.S. Department of       dum of agreement, validation
ment of Veterans Affairs,   Veterans Affairs that addresses   of expired funds that were re-
4/15/2008                   the roles and responsibilities    turned, and the recoupment
                            regarding contract admin-         of advance payments.
                            istration and surveillance
                            procedures. Also, USD(C)
                            recover unexpended advance
                            payments made to the VA
                            Austin Automation Center.
D-2008-041, Management of Improve justification, plan-        Corrective actions will be      USD(C), DCMO,
the General Fund Enterprise ning, and acquisition of the      verified during an upcoming     ASD(NII), Army, DFAS
Business System, 1/14/2008 General Fund Enterprise            audit.
                            Business System.

D-2008-042, Reporting of      Include consistent policy for Extensive time required to        USD(C)
Contract Financing Interim    capitalizing Research, Devel- revise and coordinate the
Payments on the DoD Finan-    opment, Test, and Evaluation regulation.
cial Statements, 1/31/2008    expenses in the DoD Finan-
                              cial Management Regulation.




D-2008-043, Identification Improve processes to more ac- Extensive coordination               USD(C)
and Reporting of Improper  curately identify, report, and needed between DoD Com-
Payments - Refunds From    reduce improper payments.      ponents.
DoD Contractors, 1/31/2008

D-2008-044, Adequacy of       Improve reconciliation of       Long-term corrective actions    DFAS
Procedures for Reconciling    transactions posted to the      are ongoing.
Fund Balance with Treasury    Fund Balance with Treasury
at the National Geospa-       general ledger account. De-
tial-Intelligence Agency,     velop effective and efficient
1/31/2008                     processes for identifying
                              disbursement and collec-
                              tion transactions through all
                              phases of processing.




156
                                                                                             Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action          Reason Action Not           Principle Action Office
         Title/Date                                                     Completed
 D-2008-045, Controls          ASD (HA) will implement           Normal time required for       ASD(HA)
 Over the TRICARE Over-        recommendations to further        implementation of recom-
 seas Healthcare Program,      control health care costs         mendations.
 2/7/2008                      provided to overseas DoD-
                               beneficiaries.
 D-2008-047, Contingency       DoD Component CIOs                Corrective actions are on      11 Component CIOs
 Planning for DoD Mission- implement controls to verify          schedule.
 Critical Information Systems, that system owners developed
 2/5/2008                      and tested system contin-
                               gency plans as required or
                               support the assertions in their
                               CIO Certification Memoran-
                               dums about the completeness
                               and accuracy of their infor-
                               mation in the DoD Informa-
                               tion Technology Portfolio
                               Repository.
 D-2008-048, Procuring         Report is FOUO.                   Corrective actions are on      DLA
 Noncompetitive Spare Parts                                      schedule.
 Through an Exclusive Dis-
 tributor, 2/6/2008




 D-2008-050, Report on FY      Review and deobligate             Corrective actions are ongo-   USD(C)
 2006 DoD Purchases Made       expired funds. Identify and       ing.
 Through the Department of     facilitate return of expired
 the Treasury, 2/11/2008       or excess funding from the
                               Department of Treasury.
 D-2008-052, Disbursing        DFAS is working to improve        Corrective actions are on      DFAS
 Operations Directorate at     internal controls over: the       schedule.
 Defense Finance and Ac-       processing of Intra-Govern-
 counting Service Indianapolis mental Payment and Collec-
 Operations, 2/19/2008         tion System transactions, ad-
                               justments to IPAC suspense
                               accounts, and the recon-
                               ciliation of the "Statement of
                               Differences-Deposits" report.




                                                                                                                       157
April 1, 2009 to September 30, 2009
                                                                                                            Appendices



      Report Number                Description of Action              Reason Action Not             Principle Action Office
        Title/Date                                                       Completed
D-2008-053, Defense Fi-         Review financial management       Long-term corrective actions    DFAS
nance & Accounting Service      processes and systems to iden-    are on schedule.
Kansas City Federal Manag-      tify material weaknesses and
ers' Financial Integrity Act,   develop necessary remedia-
Federal Financial Manage-       tion plans. Issue annual guid-
ment Improvement Act, &         ance on Federal Information
Federal Information Security    Security Management Act
Management Act Reporting        and update procedure on
for FY 2005, 2/19/2008          record retention.
D-2008-057, Contractor Past     Reconcile active contracts        Corrective actions are ongo-    USD(AT&L)
Performance Information,        with contracts registered in      ing.
2/29/2008                       the Contractor Performance
                                Assessment Reporting Sys-
                                tem, then register and begin
                                reporting on unregistered
                                active contracts and newly
                                awarded contracts.
D-2008-061, Controls Over       Include requirements for          Management corrective ac-       NGB
Funds Used by the Air Force     gathering and including           tions on schedule.
and National Guard Bureau       transaction-level data in
for the National Drug Con-      guidance, and correct the
trol Program, 3/7/2008          causes for the inaccurate leave
                                balances and ensure that the
                                same deficiencies will not oc-
                                cur in the scheduled replace-
                                ment system.
D-2008-063, Vendor              Establish and maintain ad-        Management corrective ac-       AF
Pay Disbursement Cycle,         equate and effective internal     tions on schedule.
Air Force General Fund,         control over the Air Force
3/12/2008                       vendor pay disbursement
                                cycle. Determine whether the
                                government should be record-
                                ing the third-party liability
                                for subcontractors work on
                                certain kinds of contracts.
D-2008-066, FY 2006 and         Improve the acquisition pro-      Corrective actions are ongo-    Army, Navy
FY 2007 DoD Purchases           cess for DoD procurements         ing.
Made Through the De-            made through interagency
partment of the Interior,       agreements.
3/19/2008
D-2008-067, DoD Procure-        Revise the Army's internal        Extensive time required to      Army
ment Policy for Body Armor,     policy on the proper use of       coordinate and issue policy
3/31/2008                       non-DoD contract instru-          guidance.
                                ments.




158
                                                                                                 Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action          Reason Action Not        Principle Action Office
         Title/Date                                                     Completed
D-2008-069, Controls Over        The Army is working to im-      Corrective actions are on   Army
Army Working Capital Fund        prove controls in the timeli-   schedule.
Inventory Stored by Organi-      ness of physical inventories,
zations Other than Defense       separation of duties, imple-
Logistics Agency, 3/28/2008      mentation of location audit
                                 programs, and inventory
                                 adjustment research at the
                                 audited storage activities.
D-2008-070, Management           Report is classified.           Corrective actions are on   PACOM, USFK
of Noncombatant Evacua-                                          schedule.
tion Operations Within the
U.S. Pacific Command (U),
3/25/2008
D-2008-071, Management        Report is classified.              Corrective actions are on   PACOM
of Noncombatant Evacua-                                          schedule.
tion Operations in Japan (U),
3/28/2008

D-2008-072, Controls Over The Army is working to                 Corrective actions are on   USD(C), Army, DFAS
Army Real Property Financial ensure compliance with the          schedule.
Reporting, 3/28/2008         new costing methodology
                             for assigning costs to the real
                             property users and to correct
                             misstatements in the Army
                             financial statements. The
                             Army is also working to im-
                             plement a common business
                             process for creating a subsid-
                             iary ledger file to support the
                             property management and
                             financial reporting of AWCF
                             and AGF real property assets.
                             Further, the Army is work-
                             ing to improve the accuracy
                             and efficiency of the transfer
                             of construction-in-progress
                             costs between accounting
                             and property management
                             systems.
D-2008-077, United States    Report is FOUO.                     Corrective actions are on   Army
Army Corps of Engineers Fi-                                      schedule.
nancial Management System,
4/8/2008




                                                                                                                        159
April 1, 2009 to September 30, 2009
                                                                                                           Appendices



      Report Number               Description of Action             Reason Action Not              Principle Action Office
        Title/Date                                                     Completed
D-2008-079, Management        Conduct preliminary Anti-         Management corrective ac-        AF
of Incremental Funds on Air   deficiency Act investigations,    tions on schedule.
Force Research, Develop-      establish procedures to track
ment, Test, and Evaluation    and record deferral charges
Contracts, 4/8/2008           as unfunded liabilities for
                              accounts payable, and clarify
                              the use of Research, Develop-
                              ment, Test, and Evaluation
                              funds.
D-2008-081, Controls Over Complete system modifica-             Long-term corrective actions     DLA
the Reconciliation of Defense tions, perform cost benefit       are ongoing.
Logistics Agency Non-         analysis, and update policy
Energy Inventory Balances,    and training,
4/25/2008
D-2008-082, Summary           Complete formal investiga-        Time needed to complete          USD(C)
Report on Potential Antidefi- tions of potential Antidefi-      formal investigations.
ciency Act Violations Result- ciency Act violations arising
ing From DoD Purchases        from interagency agreements.
Made Through Non DoD
Agencies (FY 2004 Through
FY 2007), 4/25/2008
D-2008-089, Planning          Update the capabilities docu-     Extended time needed to de-      Army
Armor Requirements for the ments for the FMTV to in-            velop the overarching vehicle
Family of Medium Tactical     clude armor kit requirements.     protection strategy upon
Vehicles, 5/9/2008            Once these requirements are       which the armor require-
                              approved, document plans for      ments will be based.
                              the future distribution of the
                              armor kits.
D-2008-090, Controls Over AT&L is working to revise             Corrective actions are on        USD(AT&L), Army
Reconciling Army Work-        the guidance and criteria for     schedule.
ing Capital Fund Inventory    performing the annual and
Records, 5/13/2008            end-of-day inventory recon-
                              ciliations in DoD4000.25-
                              2-M, "Military Standard
                              Transaction Reporting and
                              Accounting Procedures." The
                              Army is also working to up-
                              date its regulations, policies,
                              and procedures.




160
                                                                                                Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action          Reason Action Not           Principle Action Office
         Title/Date                                                     Completed
 D-2008-091, General         Improve the reliability of          Corrective actions and efforts USD(AT&L)
 Controls of the Capital Asset
                             financial information by            to verify corrective actions are
 Management System-Military  strengthening the general           ongoing.
 Equipment, 5/13/2008        controls over the Capital As-
                             set Management System-Mil-
                             itary Equipment. Specifically,
                             improve internal controls over
                             entity-wide security program
                             planning and management,
                             access controls, software
                             development and change con-
                             trols, segregations of duties,
                             and service continuity.
 D-2008-092, Controls Over Ensure proper training of             Corrective actions are ongo-   Navy
 the Department of the Navy warehouse personnel, resolve         ing.
 Working Capital Fund Inven- inaccuracies, implement
 tory Stored at Non-Defense  procedures, and complete
 Logistics Agency Organiza-  location surveys.
 tions, 5/13/2008
 D-2008-093, Processing of   Recover erroneous payments          Corrective actions are ongo-   DFAS
 Deceased Retired Military   and terminate suspended ac-         ing.
 Members' Suspended Ac-      counts after 6 years.
 counts, 5/14/2008

 D-2008-094, Air Force Air       Review of contracts awarded     Corrective actions are ongo-   AF
 Combat Command Con-             under the Small Business Act    ing.
 tracts, 5/20/2008               to Alaska Native Corpora-
                                 tions to ensure that required
                                 Federal Acquisition Regula-
                                 tion requirements and clauses
                                 were included.
 D-2008-097, Hurricane Re-       The Navy will pursue a          Corrective actions are on      Navy
 lief Effort Costs on the Navy   refund from Kellogg, Brown,     schedule.
 Construction Capabilities       and Root for $1.4 million for
 Contract, 5/23/2008             unreasonable lease charges
                                 and fees, and will work with
                                 the Defense Contract Audit
                                 Agency to determine what
                                 amount of markups paid on
                                 purchased material repre-
                                 sent profit and/or improper
                                 charges and pursue a refund
                                 from KBR.




                                                                                                                       161
April 1, 2009 to September 30, 2009
                                                                                                           Appendices



      Report Number               Description of Action              Reason Action Not             Principle Action Office
        Title/Date                                                      Completed
D-2008-098, Internal Con-      Revise the checklist provided     Long-term corrective action     Army
trols Over Payments Made       to deployed finance offices to    on schedule.
in Iraq, Kuwait and Egypt,     address the Prompt Payment
5/22/2008                      Act and employer identifica-
                               tion number requirements.
D-2008-101, General            DFAS is working to clearly        Corrective actions are on       DFAS
Controls Over the Standard assign security responsibilities      schedule.
Accounting, Budgeting, and to the Standard Accounting,
Reporting System, 6/6/2008 Budgeting, and Reporting
                               System Program Management
                               Office. The SABRS Program
                               Management Office is work-
                               ing to coordinate with all par-
                               ties responsible for security
                               over SABRS.
D-2008-105, Defense            Deobligate all unpaid obliga-     Additional time required        USD(C)
Emergency Response Fund,       tions more than two years         to complete withdrawal of
6/20/2008                      old and withdraw all excess       excess DERF funding and to
                               DERF funding that authori-        coordinate and issue policy.
                               ties provided to the Com-
                               ponents. Also, revise DoD
                               FMR, chapter 6 to provide
                               guidance and assign respon-
                               sibilities for the use of DERF
                               for overseas disaster and
                               humanitarian assistance.
D-2008-107, Contracts Is-      The Defense Contract Man-         Corrective actions are on       DCMA, DCAA
sued by TACOM Life Cycle agement Agency will issue               schedule.
Management Command             guidance to reinforce the Fed-
To BAE Systems Land and        eral Acquisition Regulation
Armaments, Ground Systems negotiation memorandum
Division, 7/3/2008             requirements. The Defense
                               Contract Audit Agency will
                               conduct post award audits
                               of applicable pricing actions
                               based on a risk assessment
                               considering the potential for
                               these actions to be overpriced.
D-2008-108, Agreed-Upon        Implement the standards           Management corrective ac-       DFAS
Procedures Related to the      and guidance issued by the        tions on schedule.
10th Edition of the Army       Deputy Assistant Secretary of
Chief Financial Officers Stra- the Army (Financial Opera-
tegic Plan, 7/18/2008          tions).




162
                                                                                                Semiannual Report to the Congress
Appendix F



       Report Number                  Description of Action           Reason Action Not          Principle Action Office
         Title/Date                                                      Completed
 D-2008-109, Controls and        Report is FOUO.                  Management corrective ac-     DSS
 Compliance of the Joint Per-                                     tions on schedule.
 sonnel Adjudication System,
 7/21/2008

 D-2008-114, Accountability      Revise DOD I 5000.64 and         Normal time required for      USD (AT&L), USD (I)
 for Defense Security Ser-       implement planned improve-       implementation of recom-
 vice Assets with Personally     ments to property account-       mendations.
 Identifiable Information,       ability.
 7/24/2008
 D-2008-117, Accuracy of         Revise guidance and imple-       Long-term corrective action   USD(AT&L), DCMA
 Mechanization of Contract       ment changes to systems.         on schedule.
 Administration Services Ac-
 counts Payable Information,
 11/12/2008
 D-2008-118, Host Nation         Conduct joint reviews of         Extensive coordination        USD(C), USFK, AF
 Support of U.S. Forces in       accounting and disbursing        needed between DoD Com-
 Korea, 8/25/2008                procedures for Labor Cost        ponents to conduct joint
                                 Sharing funds. Require that      reviews of accounting and
                                 all LCS funds contributed by     disbursing policy, and update
                                 the Republic of Korea remain     appropriate policy guidance.
                                 in the Restricted Account
                                 until fully disbursed. Also,
                                 USFK will update USFK
                                 Regulation 37-2 and incorpo-
                                 rate the processes and proce-
                                 dures in support of LCS.
 D-2008-121, Internal Con-       The Office of the Deputy         Management corrective ac-     AF
 trols for Air Force General     Assistant Secretary of the Air   tions on schedule.
 Fund Cash and Other Mon-        Force (Financial Operations)
 etary Assets, 8/18/2008         is to issue a memorandum to
                                 base comptrollers regarding
                                 semiannual cash authority
                                 requests.
 D-2008-123, Internal            Establish procedures to          Additional time needed to     Navy
 Controls Over Navy General      ensure the disbursing officer    coordinate and issue policy
 Fund, Cash and Other Mon-       obtains the most beneficial      guidance.
 etary Assets Held Outside       exchange rate when exchang-
 of the Continental United       ing U.S. dollars for Bahraini
 States, 8/26/2008               dinars.
 D-2008-124, Management          Report is FOUO.                  Actions are nearing comple-   USFK, JS, Army, DMDC
 of the Noncombatant Evalu-                                       tion.
 ation Operations Tracking
 System by U.S. Forces Korea,
 8/21/2008



                                                                                                                       163
April 1, 2009 to September 30, 2009
                                                                                                          Appendices



      Report Number               Description of Action             Reason Action Not             Principle Action Office
        Title/Date                                                     Completed
D-2008-128, Reimbursable       The Naval Air Warfare            Utility load study to estimate Navy
Fees at the Major Range        Center's Weapons Division        the appropriate usage rates
and Test Facility Bases,       will alter their methodology     for the Fiscal Year 2010 rate
9/10/2008                      for determining utility and      structure is ongoing.
                               labor charges so that charges
                               to DoD customers do not
                               exceed the direct cost for the
                               use of the facilities.
D-2008-129, Acquisition of Revise the memorandum of             Revised working agreement       Army
the Army Airborne Surveil-     agreement between the acqui-     delayed by program restruc-
lance, Target Acquisition, and sition managers involved with    ture.
Minefield Detection System, ASTAMIDS to clarify the
9/10/2008                      working relationships needed
                               to develop ASTAMIDS as
                               part of the Future Combat
                               Systems.
D-2008-130, Approval Pro- Clarify the term "appro-              Extensive time needed to        JS, USD(C), ASD(HD),
cess, Tracking, and Financial priateness" and reflect the       coordinate and issue policy.    NORTHCOM
Management of DoD Disas- new organizations, roles,
ter Relief Efforts, 9/17/2008 and responsibilities in the
                               DoD3025 guidance series.
D-2008-131, Security of Ra- Report is FOUO.                     Coordination of additional      USD(AT&L)
dio Frequency Identification                                    guidance is ongoing.
Information, 9/19/2008


D-2008-132, Ocean Freight Report is FOUO.                       Management corrective ac-       Army
Transportation Payments Us-                                     tions on schedule.
ing Power Track, 9/26/2008


D-2008-134, Acquisition of Ensure that Common Link              Following software devel-       AF
the B-1 Fully Integrated Data Integration Processing            opment slippage, testing
Link, 9/22/2008               software, a critical B-1 FIDL     strategy revised to reduce
                              technology, is mature prior to    program risk.
                              program production decision.
D-2008-135, Requiring Ra- The Navy will report compli-          Corrective actions are on       Navy
dio Frequency Identification ance on a semi-annual basis        schedule.
in Contracts for Supplies,    for contracts awarded in the
9/29/2008                     previous quarter.




164
                                                                                               Semiannual Report to the Congress
Appendix F/G



       Report Number                  Description of Action             Reason Action Not              Principle Action Office
         Title/Date                                                        Completed
 D-2008-136, Payments for        Transfer responsibility to a      Normal time required for          ASD(HA)
 Patients Referred To Overseas   qualified health care claims      implementation of recom-
 Providers Under the Supple-     processor for processing and      mendations.
 mental Health Care Plan,        paying claims for overseas
 9/30/2008                       health care referred by mili-
                                 tary treatment facilities. Re-
                                 coup funds expended through
                                 duplicate payments identified
                                 during the audit.
 08-INTEL-03, Review of          Report is classified.             Corrective actions are ongo-      ATSD(NCB)
 Threat Assessment Guidance                                        ing.
 Regarding Nuclear Weapons
 Located Outside the Con-
 tinental United States (U),
 3/29/2008
 08-INTEL-08, Report on          Report is FOUO.                   Corrective actions are on         JFCOM
 Joint Forces Command                                              schedule.
 Military Interdepartmental
 Purchase Requests for the
 Lower Tier Project Office,
 6/20/2008



                                                    Appendix G

                     Significant Open Recommendations
Managers accepted or proposed accept-       Significant open recommendations that          able the Department to provide accurate,
able alternatives for 98 percent of the     have yet to be implemented follow:             timely, and reliable financial statements.
215 DoD IG audit recommendations                                                           In 2004, the DoD IG reported on sig-
rendered in the last six months of FY       • Recommendations from multiple re-            nificant unresolved abnormal balances
2009. Many recommendations require          ports on financial management and ac-          in both the proprietary and budgetary
complex and time consuming actions,         counting issues, which involve making          accounts used in compiling the Army
but managers are expected to make rea-      numerous revisions to the DoD Finan-           General Fund financial statements. The
sonable efforts to comply with agreed       cial Management Regulations to clarify         auditors recommended that DFAS iden-
upon implementation schedules.              accounting policy and guidance, have re-       tify the abnormal balances and research
	        Although most of the 1005          sulted in initiatives that are underway to     the causes for the differences. DFAS
open actions on DoD IG audit reports        publish and implement improved guid-           agreed pending the implementation of
being monitored in the follow-up system     ance. In addition, recommendations to          the Business Enterprise Information Ser-
are on track for timely implementation,     improve accounting processes and inter-        vices. Based on the most recent audit of
there were 193 reports more than 12         nal controls over financial reporting and      the Army General Fund financial state-
months old for which management has         related financial systems have resulted in     ments, the auditors concluded that the
not completed actions to implement the      initiatives that are underway to correct fi-   issue of abnormal balances in accounting
recommended improvements.                   nancial systems deficiencies. Implemen-        records continues to be an issue. In ad-
                                            tation of these corrective actions will en-    dition to the financial data compilation


                                                                                                                                 165
April 1, 2009 to September 30, 2009
                                                                                                                Appendices


and abnormal balance issues impacting          • Recommendations made in three re-          • Recommendations from several reports
the Department’s financial statements,         ports in 2008 to improve management          involve clarifying and improving DoD
other ongoing issues include those relat-      of Noncombatant Evacuation Opera-            policy guidance and procedures covering
ing to budget execution, cash manage-          tions within the U.S. Pacific Command        the roles and responsibilities of contract-
ment, and financial system development         to protect U.S. citizens in the event they   ing personnel. These recommendations
and deployment.                                must be removed from harm’s way. The         address requirements for obtaining cost
                                               reports focused on NEO operations in         or pricing data, conducting price analy-
• Recommendation made in 2005 to fol-          Japan and Korea because of the pres-         sis, determining price reasonableness,
low the guidance established by National       ence of U.S. military and U.S. citizens in   fulfilling competition requirements, use
Institute of Standards and Technology          those countries, and because of the mag-     of multiple-award contracts, monitoring
or issue interim guidance that requires        nitude of DoD involvement in an NEO,         contractor performance, and maintain-
all DoD agencies to follow NIST crite-         if ordered. Actions are underway to im-      ing past performance data on contrac-
ria for the issue-areas identified until the   prove management and coordination of         tors. Corrective actions are underway
DoD develops criteria for an informa-          NEO plans.                                   to improve DoD contracting procedures
tion technology security certification and                                                  related to source selection, interagency
accreditation process that are more strin-     • Recommendations from multiple re-          acquisitions, and contract surveillance
gent than those for NIST Publications.         ports in the high-risk area of personnel     and reporting.
DoD is working with NIST, the Office           security. Some of the most significant
of the Director of National Intelligence,      of these include: establishment of mini-     • Recommendations from several reports
the Intelligence Community, the Com-           mum training and experience require-         address issues regarding improvements
mittee on National Security Systems            ments and a certification program for        in oversight responsibilities and manage-
and other Federal agencies to develop          personnel granting security clearances;      ment controls relating to the purchase
a common set of information security           issuance of policy on the access by all      card program. These recommendations
controls, a risk management framework,         contractors, including foreign nation-       include: ensuring all cardholders and ap-
and a high-level security certification and    als, to unclassified but sensitive DoD IT    proving officials receive the required ini-
accreditation process that can meet the        systems; establishment of policy on ac-      tial and refresher purchase card training;
needs of all federal agencies for manag-       cess reciprocity and a single, integrated    effectively managing the span of control
ing and operating both national security       database for Special Access Programs;        over purchase card accounts; conducting
and non-national security systems.             development of DoD-wide backlog defi-        oversight reviews of approving official ac-
                                               nitions and measures; and improvement        counts to verify compliance with DoD
• Recommendations made in 2004 to              of the projections of clearance require-     purchase card guidance; ensuring proper
clarify guidance on the differences be-        ments for industrial personnel. Progress     retention of documents for all accounts;
tween force protection and antiterror-         on the unprecedented transformation of       and adequately enforcing existing con-
ism in DoD policies and procedures and         the personnel security program is slow.      trols throughout the purchase card pro-
revise existing antiterrorism plans in ac-     Implementation of multiple report rec-       cess. The Army and Air Force are still in
cordance with DoD policy. DoD revised          ommendations is pending the issuance         the process of updating their guidance to
its applicable guidance in October 2006.       of revised DoD Instruction 5200.2 and        conform to corresponding DoD policy.
The Marine Corps is now in the process         DoD Manual 5200.2, which will replace
of updating its corresponding guidance.        DoD Regulation 5200.2-R.




166
                                                                                                    Semiannual Report to the Congress
Appendix H

                                            Appendix H

                                                Acronyms

(AAAB) Al Asad Air Base                                (DFAS) Defense Finance and Accounting Service
(AAO) Army Acquisition Objective                       (DIB) Defense Industrial Base
(ACC) Army Contracting Command                         (DIIS) Directorate of Intelligence and Information Sharing
(ACIP) Aviation Career Incentive Pay                   (DoD) Department of Defense
(ACSIM) Army Chief of Staff Information Management     (DoJ) Department of Justice
(AED) Afghanistan Engineering District                 (DoN) Department of Navy
(AFAA) Air Force Audit Agency                          (DoS) Department of State
(AFB) Air Force Base                                   (DTS) Defense Travel System
(AFCENT) Air Forces Central Command or Allied Forces   (EOD) Explosive Ordinance Disposal
Central Europe                                         (FAR) Federal Acquisition Regulation
(AFOSI) Air Force Office of Special Investigations     (FBI) Federal Bureau of Investigation
(AFRL) Air Force Research Laboratory                   (FDA) Food and Drug Administration
(ANA) Afghan National Army                             (FED) Far East District
(ANG) Air National Guard                               (FFMIA) Federal Financial Management Improvement Act
(ANP) Afghan National Police                           (FISA) Foreign Intelligence Surveillance Act
(ANSF) Afghan National Security Forces                 (FISC) Fleet Industrial and Supply Center
(AFSO) Air Force Smart Operations                      (FOIA) Freedom of Information Act
(ASC) Army Sustainment Command                         (FOUO) For Official Use Only
(ASF) Afghan Security Forces                           (FMWRC) Family and Morale, Welfare, and Recreation
(BRAC) Base Realignment and Closure                    Command
(CbT) Combating Terrorism Directorate                  (FY) Fiscal Year
(CCIU) Computer Crime Investigative Unit               (GAO) Government Accountability Office
(CECOM) Communications Electronics Command             (GRD) Gulf Region Division
(CEO) Chief Executive Officer                          (GoJ) Government of Japan
(CERP) Commanders Emergency Response Fund              (GWA) Guam Waterworks Authority
(CID) Criminal Investigation Command                   (GWOT) Global War on Terror
(CIO) Chief Information Officer                        (HBT) Heterojunction Bipolar Transistors
(CITF) Criminal Investigation Task Force               (HMMWV) High Mobility Multipurpose Wheeled Vehicle
(CITFHQ) Commander, Joint Task Force                   (HOA) Horn of Africa
(CJTF) Combined Joint Task Force                       (HQ USAFE) Headquarters United States Air Force Europe
(CONUS) Continental United States                      (HRP) High risk personnel
(COR) Contracting Office Representative                (IA) Information Assurance
(CRI) Civilian Reprisal Investigation                  (IACP) International Association of Chiefs of Police
(CSTC-A) Combined Security Transition Command-         (ICE) Immigration and Customs Enforcement
Afghanistan                                            (IED) Improvised Explosive Device
(CTO) Counter Threat Operations                        (I-FIRE) Iraqi Firearms Interdiction and Recovery Effort
(CTR) Currency Transaction Report                      (IG) Inspector General
(DA) Department of the Army                            (ISAF) International Security Assistance Force
(DAU) Direct Action Units                              (ISO) Investigations of Senior Officials
(DCAA) Defense Contract Audit Agency                   (IT) Information Technology
(DCIS) Defense Criminal Investigative Service          (JCC-I/A) Joint Command control-Iraq/Afghanistan
(DCMA) Defense Contract Management Agency              (JCIU-A) Joint Counterintelligence Unit- Afghanistan
(DCPS) Defense Civilian Personnel Command              (JEFF) Joint Expeditionary Forensic Facilities
(DERF) Defense Emergency Response Fund                 (JGPO) Joint Guam Program Office
(DFARS) Defense Acquisition Regulation System          (JMRC) Joint Multinational Readiness Center



                                                                                                               167
April 1, 2009 to September 30, 2009
                                                                                             Appendices


(JPEC) Joint Prosecution and Exploitation Center        (OMB) Office of Management and Budget
(JTTF) Joint Terrorism Task Force                       (OPFOR) Opposing Force or Opposition Force
(KBR) Kellog, Brown and Root Inc.                       (OSD) Office of Secretary of Defense
(KCIC) Criminal Investigations Command Ministry of      (OUSD(I)) Office of the Undersecretary of Defense for
National Defense, South Korea                           Intelligence
(KMCC) Kaiserslautern Military Community                (PEG) Program Evaluation Group
(LBB) Landesbetrieb Liegenschafts and Baubetreuung      (PII) Personally Identifiable Information
(LBE) Left-Behind Equipment                             (POM) Program Objective Memorandum
(LEP) Law Enforcement Program                           (PRC) People’s Republic of China
(LMP) Logistics Modernization Program                   (PSB) Protective Service Battalion
(LOGCAP) Logistics Civil Augmentation Program           (PSVA) Personal Security Vulnerability Assessment
(MCIO) Military Criminal Investigative Organization     (SAPCO) Special Access Program Central Office
(MFLC) Military Family and Life Counseling              (SECAF) Secretary of the Air Force
(MILCON) Military Construction                          (SMDC) Space and Missile Defense Command
(MNF-I) Multi-National Force-Iraq                       (SOF) Special Operations Forces
(MNSTC-I) Multi-National Security Transition Command-   (SOFSA) Special Operations Forces Support Activity
Iraq                                                    (STAAT) Security, Training, Assistance, and Assessment
(MoD) Ministry of Defense                               Teams
(MoI) Ministry of Interior                              (ST/STE) Special Tools and Special Test Equipment
(MPFU) Major Procurement Fraud Unit                     (SWAT) Special Weapons and Tactics
(MRAP) Mine Resistant Ambush Protected Vehicles         (TSE) Tactical Site Exploitation
(MRI) Military Reprisal Investigation                   (TRW) Thompson Romo Wooldridge
(MWR) Morale, Welfare, and Recreation                   (ULO) Unliquidated Obligation
(NAVAIR) Naval Air Systems Command                      (USAAA) United States Army Audit Agency
(NAVAUDSVC) Naval Audit Service                         (USACE) U.S. Army Corps of Engineer
(NAVFAC) Naval Facilities Engineering Command           (USACIL) United States Army Criminal Investigation
(NAVPERSCOM) Navy Personnel Command                     Laboratory
(NAWCTSD) Naval Air Warfare Center Training Systems     (UAH) Up-Armored Humvee [HMMWV]
Division                                                (USCENTCOM) U.S. Central Command
(NCIS) Naval Criminal Investigative Service             (USD) U.S. Dollar)
(NCO) Noncommissioned Officer                           (USD(C)/CFO) Under Secretary of Defense (Comptroller/
(NIH) National Institute of Health                      Chief Financial Officer)
(NIIA) National Information and Investigation Agency    (USD(I)) Under Secretary of Defense for Intelligence
(NJTTF) National Joint Terrorism Task Forces            (USMC) United States Marine Corps
(NTV) Nontactical Vehicles                              (USN) United States Navy
(OCO) Overseas Contingency Operation                    (USSOCOM) United States Special Operations Command
(OCONUS) Outside Continental United States              (USTRANSCOM) U.S. Transportation Command
(ODCS) Office of the Deputy Chief of Staff              (UTC) Unit Type Code
(OIC) Officer in Charge                                 (VA) Veterans Administration
(OIF) Operation Iraqi Freedom                           (VDP) Voluntary Disclosure Program
(OEF) Operation Enduring Freedom                        (WAWF) Wide Area Workflow
(OGE) Office of Government Ethics                       (WIC) Weapons Investigation Cell




168
                                                                                  Semiannual Report to the Congress
Key IG Accomplishments During this Reporting Period

RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued..........................................................................................................53
Monetary Benefits
	      Recommendations Made on Funds Put to Better Use.......................$695 million
	      Achieved Monetary Benefits (Funds Put to Better Use)....................$875 million

SUMMARY OF INVESTIGATIVE ACTIVITIES1
Total Returned to the U.S. Government.......................................................$993 million
	       Civil Settlements..............................................................................$883 million
	       Civil Judgments.................................................................................$53 million
	       Administrative Recoveries2................................................................$54 million
	       Recovered Government Property.........................................................$3 million
Investigative Cases
	       Indictments..................................................................................................197	
	       Convictions..................................................................................................175	
	       Suspensions..................................................................................................55
	       Debarments...................................................................................................81

Administrative Investigations
Cases Received.......................................................................................................504
Cases Closed...........................................................................................................485       Department of Defense
	     Senior Official Investigations........................................................................239                     Inspector General
	     Reprisal Cases.............................................................................................246
                                                                                                                                   400 Army Navy Drive
SUMMARY OF POLICY AND OVERSIGHT ACTIVITIES                                                                                       Arlington, VA 22202-4704
Existing and Proposed Regulations Reviewed..........................................................159
Evaluation Reports Issued.........................................................................................10                  www.dodig.mil
Inspector General Subpoenas Issued......................................................................224
Voluntary Disclosure Program Recoveries.......................................................$4 million
                                                                                                                               Defense Hotline 1.800.424.9098
SUMMARY OF INTELLIGENCE ACTIVITIES
Intelligence Reports Issued.......................................................................................10

SUMMARY OF SPECIAL PLANS AND OPERATIONS ACTIVITIES
Assessment Reports Issued.........................................................................................5

SUMMARY OF DEFENSE HOTLINE ACTIVITIES
Contacts...............................................................................................................7,421
	     Cases Opened...........................................................................................1,153	
	     Cases Closed...............................................................................................909




1 Includes investigations conducted jointly with other law enforcement organizations.
2 Includes contract cost adjustments, military non-judicial punishments, and voluntary contractor disclosures.
     "pon,,,:;wl:l:,
'Th;, Additio nal      ~I==~on 'heIn'i~~~
                                by
                                 o btained

                                  General
                                             .~_



                                         Liaison
